<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2014 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 113-108, Part 6]
[From the U.S. Government Publishing Office]



                                                 S. Hrg. 113-108, Pt. 6

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1197

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2014 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 6

                               PERSONNEL

                               ----------                              

                         APRIL 17 AND 24, 2013


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
      2014 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 6  PERSONNEL




                                                  S. Hrg. 113-108 Pt. 6

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1197

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2014 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                         APRIL 17 AND 24, 2013

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/


                  U.S. GOVERNMENT PRINTING OFFICE
85-631                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>  


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                 ______

                       Subcommittee on Personnel

               KIRSTEN E. GILLIBRAND, New York, Chairman

KAY R. HAGAN, North Carolina         LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      SAXBY CHAMBLISS, Georgia
MAZIE K. HIRONO, Hawaii              KELLY AYOTTE, New Hampshire
TIM KAINE, Virginia                  ROY BLUNT, Missouri
ANGUS KING, Maine                    MIKE LEE, Utah

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
        Active, Guard, Reserve, and Civilian Personnel Programs
                             april 17, 2013

                                                                   Page

Wright, Hon. Jessica L., Acting Under Secretary of Defense, 
  Personnel and Readiness........................................     4
Woodson, Hon. Jonathan, M.D., Assistant Secretary of Defense, 
  Health Affairs, and Director of TRICARE Management Activity....     6
Vollrath, Hon. Frederick E., Acting Assistant Secretary of 
  Defense, Readiness and Force Management........................     7
Wightman, Hon. Richard O., Acting Assistant Secretary of Defense, 
  Reserve Affairs................................................     8
Strobridge, Col. Steven P., USAF, Retired, Director of Government 
  Relations, Military Officers Association of America............    39
Moakler, Ms. Kathleen B., Government Relations Director, National 
  Military Family Association....................................    71
Barnes, Master Chief Joseph L., USN, Retired, National Executive 
  Director, Fleet Reserve Association............................    73
Hanson, CAPT Marshall, USN, Retired, Director, Legislative and 
  Military Policy, Reserve Officers Association..................    82

 Continuation of Testimony on the Active, Guard, Reserve, and Civilian 
                           Personnel Programs
                             april 24, 2013

Lamont, Hon. Thomas R., Assistant Secretary of the Army for 
  Manpower and Reserve Affairs...................................   120
Garcia, Hon. Juan M., III, Assistant Secretary of the Navy for 
  Manpower and Reserve Affairs...................................   129
Ginsberg, Hon. Daniel B., Assistant Secretary of the Air Force 
  for Manpower and Reserve Affairs...............................   153

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

        ACTIVE, GUARD, RESERVE, AND CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Kirsten 
Gillibrand (chairman of the subcommittee) presiding.
    Committee members present: Senators Gillibrand, Donnelly, 
Kaine, King, Ayotte, and Graham.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; and Gerald J. Leeling, general 
counsel.
    Minority staff members present: Steven M. Barney, minority 
counsel; and Allen M. Edwards, professional staff member.
    Staff assistant present: Jennifer R. Knowles.
    Committee members' assistants present: Elana Broitman and 
Kathryn Parker, assistants to Senator Gillibrand; Marta 
McLellan Ross, assistant to Senator Donnelly; Karen Courington, 
assistant to Senator Kaine; Steve Smith, assistant to Senator 
King; Brad Bowman, assistant to Senator Ayotte; and Craig 
Abele, assistant to Senator Graham.

  OPENING STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND, CHAIRMAN

    Senator Gillibrand. Good afternoon, everyone. The 
subcommittee meets today to receive testimony from the 
Department of Defense (DOD) on the Active, Guard, Reserve, and 
civilian personnel programs contained in the administration's 
National Defense Authorization Request for Fiscal Year 2014, 
and the Future Years Defense Program.
    Today we will have two panels. The first panel consists of 
senior DOD leaders with whom we will discuss not only DOD 
personnel policy issues, but also specific budget items 
pertinent to our subcommittee's oversight responsibilities. Our 
witnesses are the Honorable Jessica Wright, Acting Under 
Secretary of Defense for Personnel and Readiness, the Honorable 
Jonathan Woodson, Assistant Secretary of Defense for Health 
Affairs and Director of the TRICARE Management Activity, Mr. 
Frederick Vollrath, the Acting Assistant Secretary of Defense 
for Readiness and Force Management, and Mr. Richard Wightman, 
Acting Assistant Secretary of Defense for Reserve Affairs.
    The second panel will consist of representatives from 
groups of Active and Reserve component servicemembers, 
retirees, and their families. I will introduce them after the 
first panel concludes.
    As this is my first budget related hearing as chairman of 
this subcommittee, I want to begin by recognizing the hard work 
the subcommittee has done over the past decade. While we have 
more work to do, the committee has significantly improved the 
pay and benefits of servicemembers, enabling the Services to 
recruit and retain the very best, and maintain the highest 
caliber force, even during a decade of persistent armed 
conflict.
    This subcommittee has supported numerous enhancements to 
the TRICARE benefit over the last decade as it has supported 
enhancements to pay, critical family programs, transition 
assistance programs, education benefits, morale and welfare 
programs, mental health counseling programs, and survivor 
benefits, all to ensure continued viability of the All-
Volunteer Force during a decade of war.
    The military health system delivers world class care to 
over 9.5 million beneficiaries, Active Duty members, Reserve 
members, retirees, and dependents, and has achieved 
unprecedented rates of survival from combat wounds. While we 
must continue to look at ways to expand TRICARE to cover autism 
treatment, on the whole TRICARE is an extraordinary program.
    It is clear DOD faces significant budgetary and 
programmatic pressures. For the remainder of the fiscal year, 
DOD will operate under the sequestration imposed by the Budget 
Control Act (BCA), and, as a result, DOD will have to take 
extraordinary measures to deal with the across-the-board 
programmatic cuts of nearly 8 percent. The budget submitted by 
DOD for fiscal year 2014 does not account for any sequestration 
of funding in the fiscal year, which, if it remains in effect, 
would reduce DOD's budget by yet another $52 billion.
    Because of the current budget environment, the President's 
budget request reflects some difficult choices that this 
subcommittee will have to carefully examine as we begin 
consideration of the annual defense bill. The budget requests a 
1 percent across-the-board pay raise for military and civilian 
personnel. This is regrettably below the annual rise of the 
employment cost index (ECI) of 1.8 percent. This hearing is our 
opportunity to hear from both our military and advocacy group 
panels about the impact of this pay raise level, as well as the 
housing and subsistence allowance increase of about 4 percent. 
The Department's budget request assumes savings of $540 million 
based on holding pay raises to just the 1 percent.
    The Department also proposes to establish or raise certain 
fees related to health care coverage for military dependents 
and retirees. Congress has not supported these proposals in the 
past years, and I personally remain very skeptical about 
increasing costs for military members and veterans. The 
Department's budget request has assumed nearly $1 billion in 
savings in fiscal year 2014 as a result of these health care 
proposals.
    There is no greater responsibility for Congress and 
military leaders than to support our brave servicemembers, 
their families, and the civilian employees who are vital 
components of our military team. While the President has 
protected the military personnel pay accounts from 
sequestration, he could not do the same for DOD civilian 
workers, which gives me great concern. The furloughs that are 
planned for the rest of the fiscal year, while perhaps 
necessary, breaks our commitment to our civilian workforce.
    Our defense civilians include an important support network 
as well as many of the experts in critical fields, such as 
cyber security. Even as DOD works to comply with the 
congressional mandate to reduce the size of the civilian 
workforce, civilians are in the midst of yet another year of 
pay freeze. DOD and Service leaders have expressed their 
concern not just about the short-term negative effects these 
furloughs will have on critical services for servicemembers and 
their families, but of the long-term effects, including damage 
to morale and the prospect of our most talented young people 
may no longer view national service as a viable career option. 
I share their concern.
    A highlight in the last year of personnel issues, however, 
is the expansion of personal benefits to same sex partners: the 
opportunity to shop at commissaries, take emergency leave, and 
participate in family-centered programs. I know that the 
Department is waiting to implement additional benefits, such as 
health care and housing, until the Supreme Court decides the 
constitutionality of the Defense of Marriage Act.
    I urge you all to be as forward leaning as possible in 
ensuring that all of our military benefits are as inclusive as 
possible.
    Lastly, I want to say something about sexual violence in 
the military, an issue which I remain deeply committed to 
solving. I held my first hearing as chairman of the 
subcommittee last month on this topic. As I said then, a system 
where less than 1 out of 10 reported perpetrators are held 
accountable for their alleged crimes is not a system that is 
working. That is of just the reported crimes. The Defense 
Department itself puts the real number closer to 19,000. A 
system where in reality fewer than two out of 100 alleged 
perpetrators are faced with any trial at all is clearly 
inadequate and unacceptable.
    This committee and DOD took some first steps on this issue 
as part of last year's National Defense Authorization Act 
(NDAA) that President Obama signed into law, including ensuring 
that all convicted sex offenders in the military are processed 
for discharge or dismissal from the Armed Forces, regardless of 
which branch they serve in, and reserving case disposition 
authority for only high ranking officers in sexual assault 
cases.
    Secretary Hagel has made an important announcement by 
proposing changes to Article 60 of the Uniform Code of Military 
Justice so that courts martial cannot be overturned by the 
commanding officer. This is a good step forward, and I commend 
the Secretary for honoring the commitment he made to me by 
taking this issue head on. But it is not enough, and Congress 
must act to address this issue. I look forward to continuing to 
work with my colleagues on the legislation to hold those who 
commit these violent crimes accountable.
    I look forward to hearing your testimony about other 
important personnel programs and the overall morale and health 
of our military. As always, I encourage you to express your 
views candidly and tell us what is working well and to raise 
any concerns and issues you may want to bring to the 
subcommittee's attention. Let us know how we can best assist 
our servicemembers and their families to ensure our military 
remains steadfast and strong.
    It is now my privilege and honor to give the mic to Senator 
Graham. Thank you.

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Madam Chairman. I appreciate it.
    I am very interested in TRICARE. We have had discussions in 
my office and this room, all over the building for years about 
what we can do in a rational, logical way to deal with the 
growth in TRICARE costs to the government. In 2001, it was $19 
billion. I am told in fiscal year 2014, it is $49.4 billion.
    To the beneficiary community, we certainly want to listen 
to your concerns about how to make the program more efficient. 
But I am looking for sustainability. I am looking for a 
generous benefit that is sustainable, because if it is not 
sustainable, it is a false promise. We cannot get ourselves in 
a situation where we are dealing with retiree health care and a 
shrinking military budget, and pit it against modernization, 
weapons, and Active Duty needs. There has to be some way to 
make this program more sustainable, and ask of some of us, like 
myself who will be retired in a couple of years, to have a 
gradual premium increase. I am certainly willing to do that. I 
just want to make sure that what we are asking of the retired 
community is rationale, is logical, affordable. So that is a 
big deal for me.
    As to the pay increases, I wish it was more. I wish it was 
the 1.8 percent. But once we get sequestration behind us, 
replacing this $1.2 trillion cut where half of it falls on the 
military over the next decade with a bigger deal, which I think 
we can do--at least I hope we can do--that will free up some 
money for discretionary spending.
    To all the witnesses, thank you. To the organizations who 
support men and women in uniform, the retired force, I look 
forward to hearing from you.
    I have to go to the floor at 2:20 p.m., but I shall return.
    Thank you, Madam Chairman.
    Senator Gillibrand. Thank you, Senator Graham.
    You are each now invited to give your opening statement.
    Secretary Wright.

STATEMENT OF HON. JESSICA L. WRIGHT, ACTING UNDER SECRETARY OF 
                DEFENSE, PERSONNEL AND READINESS

    Ms. Wright. Chairman Gillibrand, Senator Graham, 
distinguished members of the subcommittee, I appreciate the 
opportunity to appear before you to discuss personnel and 
readiness programs in support of the President's fiscal year 
2014 budget request.
    You have heard from Secretary Hagel that the fiscal year 
2014 budget is based on the defense strategic guidance, a 
comprehensive review of military missions, capabilities, 
security rules around the world. It is also a proposal made in 
face of extraordinary fiscal budget uncertainty caused by 
sequestration and the BCA of 2011.
    In fiscal year 2014, the DOD budget, $526.6 billion, 
includes $137.1 billion for our military personnel, as well as 
$49.4 billion for military healthcare, adding up to 
approximately a third of the base budget's request. As 
Secretary Hagel stated, our people are doing extraordinary work 
and making great sacrifices. Their dedication and 
professionalism are the foundation of our military strength. 
Therefore, it is our job to make sure that we take care of 
them.
    We are here today to discuss how the fiscal year 2014 
budget and plan will affect the Total Force, the Department's 
greatest asset. The Department's Total Force, Active, Reserve, 
National Guard members, government civilians, and contract 
service representatives, a carefully coordinated approach 
balances operational needs, and satisfies mission requirements, 
and recognizes fiscal constraints. After 11 years of intensive 
operations, our warriors and civilians are experienced and more 
proficient than ever to execute current operational missions 
and respond to emergent needs throughout the globe. We must 
build on the most appropriate total force by actively 
recruiting and retaining the right people for the mission with 
the appropriate level of compensation and benefits. Building 
and sustaining the right balance also requires constant 
vigilance of readiness.
    Therefore, we want to thank Congress for the legislative 
authorities in the NDAA for Fiscal Year 2013, which provides 
flexibility to affect required drawdowns. These authorities 
allow the Department to avoid the loss of critical expertise 
and provide military Services the tools necessary to manage 
their force with the least impact on readiness.
    Next, our mission to support servicemembers and their 
families by providing a network of services and programs which 
promote readiness and quality of life. This means the 
Department must keep pace with our servicemembers by doing all 
it can to protect the men and women from harm. This includes 
preventing and responding to sexual assault, working to lower 
the risk of suicides, and providing a reliable network of legal 
and health services in the time of need.
    Finally, our responsibility continues as our men and women 
prepare to transition into civilian life and become a veteran. 
A new generation of servicemembers are coming home, and we must 
live up to our commitment to them because of their service and 
sacrifice. Whether it is on the battlefield, at home, or with 
their families, or after they have faithfully concluded their 
military service, we are committed to preparing servicemembers 
for whatever challenges they may face from warrior to veteran. 
They really deserve no less.
    I will turn to Dr. Woodson, Mr. Vollrath, Mr. Wightman, to 
discuss their particular policy priorities under their purview.
    Dr. Woodson.

 STATEMENT OF HON. JONATHAN WOODSON, M.D., ASSISTANT SECRETARY 
OF DEFENSE, HEALTH AFFAIRS, AND DIRECTOR OF TRICARE MANAGEMENT 
                            ACTIVITY

    Dr. Woodson. Chairman Gillibrand, Senator Graham, and 
members of the subcommittee, thank you for the opportunity to 
present the President's budget request for military medical 
programs for fiscal year 2014, and for the distinct honor of 
representing the men and women of the finest military health 
care system in the world.
    Over the last 11 years, men and women serving in the 
military health system have performed with great skill and 
courage. They continue to help advance military and American 
medicine as witnessed by many comments in the tragic aftermath 
of the Boston bombings. They continue to serve courageously and 
to simultaneously provide a service that engages in combat and 
medical operations, supports a comprehensive peace time health 
care system, and respond to humanitarian crises around the 
world. It is unique among all militaries on the globe.
    The medical readiness of men and women in our Armed Forces 
remain at the center of our mission and strategy. We are using 
every tool at our disposal to assess our servicemembers' health 
before, during, and following deployment from combat theaters, 
and we are committed to improving the health and wellness of 
all who receive care in our system.
    Concurrent with our mission of maintaining a medically 
ready force is our mission of maintaining a ready medical 
force, a force of medical professionals who are well trained, 
engaged in ongoing active clinical practice, and supported by 
military hospitals and clinics that are operating at optimal 
capacity. To sustain this active practice also requires 
beneficiaries to choose the military medicine system as their 
primary and preferred source of care.
    As we maintain our readiness, we must also responsibly 
manage the budget we are given. In 2013, the Department and the 
Federal Government have encountered headwinds. Budget 
sequestration continues to present significant challenges to 
our system and would create potentially catastrophic effects if 
this approach to budgeting were sustained through 2014.
    Still, we must be careful stewards of the taxpayers' 
dollars, and in this effort, the Department has proposed both 
internal and external reforms of military medicine.
    Internally, we are undergoing a comprehensive set of 
reforms of how we are organized as a military health system. 
The overarching goal of this effort is to create an even more 
integrated system of care, better coordinating delivery of 
services in Army, Navy, and Air Force medical facilities, along 
with care provided by the Veterans Administration (VA) and the 
private sector medical community. Improved integration combined 
with more streamlined decision making will result in better 
health care, better care overall, and cost deficiencies.
    We are in a collaborative and effective pathway forward to 
eliminate redundancies within the military health system, 
improved business practices, and clinical outcomes, and 
effectively managed care for servicemembers and their families. 
We have a strong, committed leadership team that includes 
senior civilian and military leadership of all Services and the 
Joint Chiefs of Staff to ensure that we achieve these goals.
    Externally, the administration is once again asking 
military retirees to pay more than they do today for health 
benefits that they have rightly earned and that they now 
receive, but proportionately less than when the health benefit 
was initiated. In an era characterized by more limited 
resources, we must make decisions and determine tradeoffs among 
a series of important mission requirements--military 
operations, training, research, and benefits--particularly the 
enormous and profound responsibility for lifelong care for our 
veterans who seek services and benefits for conditions related 
to their military service.
    Our proposals will slow the growth in retiree health 
benefit costs to the Department over time, while keeping in 
place the comprehensive medical benefits that retirees receive, 
and ensuring that this program is there for future generations.
    The proposals will not affect most Active Duty family 
members. Additionally, our proposals exempt the most vulnerable 
within our retired population from fee increases to include 
families of servicemembers who died on Active Duty and families 
of servicemembers who are medically retired.
    Many other challenges remain ahead for the military and 
medical system. We are working to mitigate the harmful effects 
of sequestration involving civilian personnel and limit cuts in 
our vital military medical research programs. We will continue 
to identify approaches that curb unnecessary utilization of 
health care services, and we are increasing our emphasis on 
wellness, and we are deepening our collaboration with the VA.
    I want to close by thanking Congress, and particularly this 
subcommittee, for its long support of our programs and its 
endorsement of our establishment of the Defense Health Agency 
to improve administration of the military health system.
    Thank you for your time today, and I look forward to your 
questions.

   STATEMENT OF HON. FREDERICK E. VOLLRATH, ACTING ASSISTANT 
      SECRETARY OF DEFENSE, READINESS AND FORCE MANAGEMENT

    Mr. Vollrath. Chairman Gillibrand, members of the 
subcommittee, thank you for the opportunity to join you today.
    As we transition from a decade of war, the Department is 
challenged with managing a total force and maintaining our 
readiness and capability under significantly reduced funding. 
Sequester will have a great impact on the Department and will 
add new challenges in meeting national security needs. But it 
will also reinforce the need to take a hard look at our 
programs and our priorities in order to effectively and 
efficiently implement necessary reforms in order to maintain a 
ready force.
    A tangible aspect of readiness remains our ability to 
recruit, train, and retain an All-Volunteer Force. We need to 
carefully manage scarce resources while supporting military 
compensation and benefits reform without breaking faith and 
while sustaining the All-Volunteer Force. As our combat 
operations are lessened, there remains a need for sustainment 
of family programs and wellness, because the military 
experience remains one of selfless service and sacrifice, of 
long training exercises and family separations.
    There will always be stress on the force and our families. 
Therefore, we must continue to monitor these programs carefully 
and strive to sustain those that remain critically important as 
we experience funding reductions in the years to come. For 
example, the Department's suicide prevention efforts will 
continue to be a top priority as we implement the provisions of 
the NDAA for Fiscal Years 2012 and 2013, as well as the 
President's executive order on this matter. Additionally, as we 
draw down our forces, we will continue to improve and enhance 
our transition assistance and licensing and credentialing 
efforts to better prepare servicemembers for transition to 
their civilian lives and the civilian labor force.
    Given reduced resources and a smaller total force, we 
remain committed to recruit and train the most qualified 
candidates. Therefore, the Department remains focused on fully 
implementing the February 2013 Secretary of Defense decision to 
eliminate the 1994 policy that restricted women from being 
assigned to direct combat units, as well as open more military 
occupations to women.
    Madam Chairman, this concludes my statement. I thank you 
and the members of the subcommittee for your steadfast support 
and leadership. I am happy to answer your questions.
    Mr. Wightman.

    STATEMENT OF HON. RICHARD O. WIGHTMAN, ACTING ASSISTANT 
             SECRETARY OF DEFENSE, RESERVE AFFAIRS

    Mr. Wightman. Thank you. Chairman Gillibrand, members of 
the subcommittee, I thank you for your invitation to 
participate in this hearing. I welcome the opportunity to give 
an overview of some issues we are addressing in the Reserve 
components.
    I would also like to thank the committee and your staff for 
all that you have done for the men and women in uniform, 
especially for those who it is my responsibility to serve, the 
1.1 million members of the Reserve and National Guard and their 
families. Today I can report to you that we have over 55,000 
mobilized members of the National Guard and Reserve supporting 
operations globally.
    Current utilization and a combination of factors change the 
way we view future utilization of our Reserve component and 
constitute a new normal. Although major force commitments to 
Afghanistan are being reduced, there is a pivot of our national 
defense strategy towards the Asia-Pacific region. A volatile 
international security environment still persists, and a 
constrained defense budget for the foreseeable future will 
place additional burdens on manning, training, equipping, 
recruiting, and retention of the total force in fiscal year 
2014 and beyond.
    Therefore, continued use of the Reserve components as a 
part of the operational total force makes sound business sense. 
The Reserve component as part of DOD's total force provides the 
ability to preserve capability and capacity and reduce costs to 
manageable risk.
    Our National Guard and Reserve is undoubtedly the most 
combat seasoned Reserve component force ever, and the 
Department is seeking ways to leverage the Reserve component to 
provide needed military capacity during current austere 
economic times. These factors necessitate use of the Reserve 
component across a broad spectrum in the future to include: 
continued routine use as a part of the operational force as we 
have over the past decade, fulfilling day-to-day operational 
missions at home and abroad, albeit on a smaller scale, and the 
use of a portion of the Reserve component in its traditional 
role as a strategic reserve.
    The new normal use of the Reserve component as part of the 
operational force is enabled by a key principle of the 2012 
Defense Strategy: emphasizing rotational presence versus 
forward station presence. This concept, combined with 
legislative changes under section 12304 Alpha and Bravo, 
enacted by Congress in the NDAA for Fiscal Year 2012, 
authorizes further use of the Reserve components.
    The first permits the use of Reserve components in response 
to disasters in the United States as we recently witnessed 
during Hurricane Sandy. The second permits access to the 
Reserve components and opens the opportunity to participate in 
peace time overseas rotational posture and deterrence missions. 
However, the Department must also continue to preserve equality 
of the All-Volunteer Force and not break faith with our men and 
women in uniform, their families, and our civilians.
    Despite these difficult economic circumstances 
necessitating budget reductions across all levels of 
government, the Department is committed to providing 
servicemembers and military families with support programs and 
resources and empower them to address the unique challenges of 
military life. With close to 1,700 events projected for this 
fiscal year, programs, such as the Yellow Ribbon Reintegration 
Program, continue to provide relevant, reliable information and 
resources to military members, their families, and designated 
representatives throughout the deployment cycle, and 
complements programs such as the Transition Assistance Program 
(TAP), by assisting servicemembers as they transition between 
their military and civilian roles.
    Programs, such as the Hero to Hire, or H2H, provides a 
comprehensive approach aimed at enhancing career readiness and 
reducing unemployment of our Reserve component members. This 
program has helped facilitate over 1,000 placements per month 
since October 2012.
    Today's citizen warriors have made a conscious decision to 
serve since September 11 with full expectation that their 
decisions might mean periodic recalls to Active Duty under 
arduous and hazardous conditions. They will continue to play a 
vital role as we move beyond the past decade of war, and the 
Department shapes the force to implement defense strategy and 
respond to the challenge of a new era.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The joint prepared statement of Ms. Wright, Dr. Woodson, 
Mr. Vollrath, and Mr. Wightman follows:]

   Joint Prepared Statement by Hon. Jessica L. Wright, Hon. Jonathan 
  Woodson, Mr. Frederick E. Vollrath, and Mr. Richard O. Wightman, Jr.

                              INTRODUCTION

    Chairman Gillibrand, Senator Graham, and distinguished members of 
the subcommittee, I appreciate the opportunity to appear before you to 
discuss Personnel and Readiness (P&R) programs in support of the 
President's fiscal year 2014 budget request. The President's plan 
implements and deepens the commitment to the new strategy, which meets 
the Department of Defense (DOD) needs in a complex security 
environment. The fiscal year 2014 DOD budget request of $526.6 billion 
includes $137.1 billion for our military personnel as well as $49.4 
billion for military medical care, which add up to approximately a 
third of the base budget request.
    As you have heard from Secretary Hale today, the fiscal year 2014 
budget is based on the Defense Strategic Guidance announced on January 
5, 2012, ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense,'' a comprehensive review of American military 
missions, capabilities, and security roles around the world. It is also 
a proposal made in the face of extraordinary fiscal and budget 
uncertainty. The March 1 sequestration order called for a nearly $41 
billion reduction in DOD's fiscal year 2013 budget in the middle of the 
fiscal year, and we face substantial additional cuts (roughly $52 
billion per year in fiscal year 2014 and beyond) that could force major 
changes to the fiscal year 2014 President's budget. Sequestration in 
fiscal year 2013 would also have major effects in fiscal year 2014.
    Given these challenges, we are here today to describe how we can 
sustain the All-Volunteer Force (AVF) for generations to come--a force 
that has a proven record of unprecedented success in operations around 
the world. Thank you for your continued support of our Active, Reserve 
component military members, their families, and our government 
civilians who serve with distinction every day.

             BUILD, SUPPORT, AND TRANSITION THE TOTAL FORCE

    The Department's Total Force of Active and Reserve military, 
government civilians, and contracted services represents a carefully 
coordinated approach that balances operational needs, satisfies mission 
requirements, and recognizes fiscal constraints. After over 10 years of 
intensive operations, our servicemembers and civilians are more 
experienced and proficient than ever to execute current operational 
missions and respond to emergent needs throughout the globe. Our people 
are the Department's greatest assets and we will continue to be the 
most powerful military force in the world by building and sustaining 
this extraordinary Total Force.
    We must build the most appropriate Total Force by actively 
recruiting and retaining the best people for the mission with the 
appropriate level of compensation and benefits. Building and sustaining 
the right balance also requires constant vigilance of readiness--to 
ensure that our servicemembers are adequately trained and equipped to 
face whatever battle they face. Therefore, we want to thank Congress 
for the legislative authorities in the National Defense Authorization 
Act (NDAA) for Fiscal Year 2013 which provides flexibilities to affect 
required drawdowns. These authorities allow the Department to avoid the 
loss of critical expertise and provide the Military Services with the 
necessary tools to manage their force structure with the least impact 
to our readiness.
    Next, it is our mission to support the servicemembers and their 
families by providing a network of services and programs which promote 
readiness and quality of life. This system of support extends from 
military medical care to family readiness services and includes support 
for National Guard and Reserve members and their families. Support also 
means that the Department keeps faith with our servicemembers by doing 
all it can to prevent and protect men and women from harm. This 
includes preventing and responding to sexual assault, working to lower 
the risks of suicides, and providing a reliable network of legal and 
health care services in a time of need.
    Finally, our responsibility continues as our men and women prepare 
to transition to civilian life or veteran status. A new generation of 
servicemembers is coming home, and we made a lifetime commitment to 
them for their service and sacrifice. Thus, with Congressional support 
and strong commitment by the President, we have implemented the 
Veterans Opportunity to Work (VOW) to Hire Heroes Act of 2011, which 
provides the necessarily tools for servicemembers to make a successful 
transition out of the military to the next phase of their careers and 
lives.
    The P&R portfolio of policies and programs is extensive and we will 
attempt to highlight our recent accomplishments and future challenges 
in this statement. The first section provides updates to issues of 
significant congressional concern. It will be followed by overviews of 
the three major policy offices under P&R. Although this lengthy 
statement does not cover all our programs, it is a reflection of our 
efforts to better build, support and transition our servicemembers.

Recent Military Personnel Policy Changes
    Women in Service
    Over the last decade of war, our military women servicemembers have 
put their lives on the line to defend the country with courage, 
patriotism and skill. It is in the interest of our national security to 
have the best and brightest person serving in any position based upon 
their abilities, qualifications and performance. This is consistent 
with our values and relevant to military readiness. Service should be 
based on ability not gender.
    The 1994 DOD policy prohibited women from being assigned to 
``direct ground combat'' units below the brigade level and permitted 
the military departments to restrict assignment of women based on 
privacy and berthing, physical requirements, special operations and 
long-range reconnaissance, and colocation with a direct combat unit 
(e.g. a medical unit with a direct combat unit). In February 2013, 
former Secretary Panetta completely eliminated the 1994 policy at the 
unanimous recommendation of the Joint Chiefs of Staff. Service 
implementation plans are due to the Secretary of Defense by May 15, 
2013. The policy will be fully implemented by January 1, 2016.
    Same Sex Partner Benefits
    Following the repeal of Don't Ask, Don't Tell (DADT), DOD engaged 
in a review of the possibility of extending eligibility for benefits, 
when legally permitted, to same-sex domestic partners of military 
members. The benefits review group examined benefits available to 
servicemembers and their families and divided these benefits into three 
categories: (1) currently available member-designated benefits; (2) 
benefits not available based on current law; and (3) benefits that 
could be extended, under current law, to same-sex domestic partners and 
their children. The initial review extended 18 ``member-designated'' 
benefits. The Department later identified 24 additional benefits to 
extend to same-sex domestic partners by August 31, 2013 but no later 
than October 1, 2013.
    The cost of extending benefits to same-sex domestic partners of 
military members is negligible. Many of the benefits selected for 
extension are programs designed to accommodate fluctuations in need and 
population, such as commissary and exchange privileges and MWR 
programs. Other benefits, such as dual military couple assignment 
opportunities and Emergency Leave, are provided to the servicemember 
regardless of relationship status therefore there is no additional cost 
anticipated.
    Distinguished Warfare Medal
    Secretary Panetta established the Distinguished Warfare Medal (DWM) 
on February 13, 2013, including its order of precedence directly below 
the Distinguished Flying Cross, to recognize the achievements of a 
small number of service men and women who have an especially direct and 
immediate impact on combat operations through the use of remotely 
piloted aircraft and cyber operations. Congress, veterans' 
organizations, and the public have expressed strong opposition to the 
DWM's precedence-level being above the Bronze Star and Purple Heart. 
After consulting with the Service Secretaries, the Chairman, and the 
other members of the Joint Chiefs of Staff, Secretary Hagel directed a 
review of the DWM. While the review confirmed the need to ensure such 
recognition, it found that misconceptions regarding the precedence of 
the award were distracting from its original purpose.
    On April 15, the Secretary announced that the Joint Chiefs of 
Staff, with the concurrence of the Service Secretaries, recommended the 
creation of a new distinguishing device that can be affixed to existing 
medals to recognize such extraordinary actions of this small number of 
men and women. The Joint Chiefs also recommend further consultation 
with the Service Secretaries, the service senior enlisted leaders, and 
veterans' organizations regarding the nature of the device as well as 
clear definition of the eligibility criteria for the award. The 
Secretary directed that within 90 days final award criteria and the 
other specifics of the distinguishing device be developed and presented 
for final approval.

Sexual Assault Prevention and Response
    Sexual assault is a crime and has no place in the U.S. military. It 
is a violation of everything that we stand for and it is an affront to 
the values we defend. Our DOD-wide mission is to prevent and respond to 
this crime in order to enable military readiness and to reduce--with a 
goal to eliminate--sexual assault from the military. The Secretary of 
Defense is committed to this mission and to eradicating this crime from 
our Armed Forces. Combating a crime that stays mostly hidden from view 
despite the terrible toll it takes on the victims requires a 
coordinated, Department-wide approach. Our strategy is to apply 
simultaneous effort in five areas that we call lines of effort: 
Prevention, Investigation, Accountability, Advocacy, and Assessment.
    As you are aware, on April 8, 2013, the Secretary of Defense 
announced that after reviewing the assessment of Article 60 of the 
Uniform Code of Military Justice by military justice experts, the judge 
advocates generals, the Service Secretaries and Chiefs, as well as the 
recommendation from the Joint Chiefs of Staff, he is directing a 
legislative proposal to amend Article 60 to be submitted to Congress. 
First, the proposal would eliminate the discretion of the convening 
authority to change the findings of a court-martial except for certain 
minor offenses that would not, in and of themselves, ordinarily warrant 
trial by court martial. While convening authorities would no longer 
have the ability to dismiss charges for serious offenses like sexual 
assault, defendants would continue to have access to a robust system of 
appeals rights. Second, the proposal would require the convening 
authority to explain in writing any modification made to court-martial 
sentences, as well as any changes to findings involving minor offenses. 
These changes will apply to all court-martials, not solely to court-
martials for sexual assault offenses. The convening authority's post-
trial discretion with regard to sentencing will be preserved. The 
Service Secretaries, the Joint Chief of Staff, and the Service Judge 
Advocates General all support these changes.
    The Department has also initiated and/or implemented a variety of 
initiatives to fundamentally change the way the Department confronts 
sexual assault. For example, we have issued policy, consistent with the 
NDAA for Fiscal Year 2012 and Fiscal Year 2013, establishing an 
increased document retention time of 50 years for sexual assault 
reports, which includes the sexual assault forensic exam form, and the 
victim's Reporting Preference Statement. The Department also issued new 
policy that provides victims of sexual assault who file an Unrestricted 
Report the option to request a transfer from their current assignment 
or to a different location within their assigned installation. This 
expedited transfer policy requires that victims receive a response from 
their commander within 72 hours of the request. If denied, the victim 
may appeal to the first general or flag officer in their chain, who 
also has 72 hours to provide a response. From policy implementation 
through December 2012, the Services approved 334 of 336 requests for 
expedited transfer.
    The Department has aggressively pursued several avenues of change. 
In April 2012, the Secretary of Defense asked for the support of 
Congress in enacting the Leadership, Education, Accountability and 
Discipline (LEAD) Act to further codify into law specific reforms to 
advance sexual assault prevention and response. These six provisions 
were included in the NDAA for Fiscal Year 2013. The new law includes 
the following provisions:

        <bullet> Establish a Special Victims Capability within each of 
        the Services;
        <bullet> Require all servicemembers to receive an explanation 
        of all Sexual Assault Prevention and Response (SAPR) policies 
        within 14 days of entrance into Active service;
        <bullet> Require records of outcome of disciplinary and 
        administrative proceedings related to sexual assault be 
        centrally located and retained for a period of not less than 20 
        years;
        <bullet> Require commanders to conduct an Organizational 
        Climate assessment within 120 days of assuming command and an 
        annual assessment thereafter;
        <bullet> Allow Reserve and National Guard personnel who have 
        alleged to have been sexually assaulted while on Active Duty to 
        request to remain on Active Duty or return to Active Duty until 
        a Line of Duty determination is made; and
        <bullet> Mandate wider dissemination of SAPR resources.

    Other initiatives the Department has carried out include:

        <bullet> Elevated the initial disposition decision for the most 
        serious sexual assault offenses to ensure that these cases are 
        addressed by a ``Special Court-Martial Convening Authority'' 
        who is in the grade of O-6 grade (an officer at the Colonel or 
        Navy Captain level) or above;
        <bullet> Expanded the DOD Safe Helpline, an anonymous and 
        confidential crisis support service to help transitioning 
        servicemembers who have experienced sexual assault;
        <bullet> Implemented a DOD-wide review and assessment of all 
        initial military training of enlisted personnel and 
        commissioned officers following the incidents Joint Base San 
        Antonio-Lackland;
        <bullet> Achieved full deployment of the congressionally-
        mandated Defense Sexual Assault Incident Database (DSAID), 
        enhancing our ability to collect data on sexual assault reports 
        uniformly across the Department;
        <bullet> Published the revised DOD-wide policy on the Sexual 
        Assault Program that establishes and standardizes our 
        prevention, health care, victim safety, training and response 
        efforts, and clearly conveys the role of servicemembers and 
        employees in sexual assault prevention and recovery.

    Underpinning our effort is the need for enduring culture change--
requiring leaders at all levels to foster a command climate where 
sexist behaviors, sexual harassment, and sexual assault are not 
tolerated, condoned, or ignored; a climate where dignity and respect 
are core values we live by and define how we treat one another; where 
victims' reports are taken seriously, their privacy is protected, and 
they are treated with sensitivity; where bystanders are motivated to 
intervene to prevent unsafe behaviors; and a climate where offenders 
know they will be held appropriately accountable.
    We fully recognize we have a problem with sexual assault and will 
continue to confront the brutal realities until this problem is solved. 
The Department is firmly committed to this goal and that we remain 
persistent in confronting this crime through prevention, investigation, 
accountability, advocacy, and assessment so that we can reduce, with a 
goal of eliminating sexual assault from the military and the Service 
Academies.

Suicide Prevention
    Suicides among servicemembers have risen from 160 in 2001 to 350 in 
2012. While suicides leveled in 2010 at 299 and 2011 at 302, there were 
a record number in 2012 (350). Unfortunately, this trend mirrors the 
rise in national suicide rates. While the stressors associated with 10 
years of war play a role, more than half of those who died by suicide 
had no history of deployment and few were involved in direct combat. In 
2011, the Department of Defense (DOD) created the Defense Suicide 
Prevention Office (DSPO), which leads efforts to issue policies, 
evaluate programs, enhance training and access to care, reduce stigma, 
address lethal means, standardize death investigations and increase 
data fidelity.
    DOD is also working with the Department of Veterans Affairs (VA) on 
a 12-month national suicide prevention campaign that encourages 
servicemembers, veterans, and their families to seek help for their 
behavioral health issues through the Veteran/Military Crisis Line. This 
campaign, which began September 1, 2012, is part of the implementation 
of the President's August 2012 Executive order aimed at improving 
access to mental health services for veterans, servicemembers, and 
their families.
    The Department is responding to section 533 of the NDAA for Fiscal 
Year 2012, which calls for enhanced suicide prevention efforts with DOD 
partners; and implementing several policy and program requirements 
mandated by the NDAA for Fiscal Year 2013. These requirements will be 
met upon implementation of the first DOD-wide comprehensive suicide 
prevention policy, currently projected to be completed by October 2013. 
The policy will include: continuity to quality behavioral healthcare 
during times of transition; sustainable Service-wide suicide prevention 
education and training program; methods for standardized mortality data 
collection; and requirement for each Service to staff, fund and 
maintain a Department level Suicide Prevention Program Manager.

Tuition Assistance
    The DOD off-duty, voluntary education program, Tuition Assistance 
(TA), helped approximately 286,000 servicemembers take over 870,000 
courses last fiscal year which resulted in over 48,000 college degrees. 
This program enables the professional and personal development of our 
servicemembers and also facilitates their transition to the civilian 
workforce.
    As you are aware, last month, several of the Services suspended new 
TA agreements as a cost-saving measure due to sequestration. Given the 
enactment of the Department of Defense Appropriations Act, 2013 (P.L. 
113-6), we are fully funding TA for the remainder of fiscal year 2013, 
without any sequestrations-related reduction.

Transition Assistance Program
    In compliance with the VOW to Hire Heroes Act of 2011, and at the 
direction of the President, the Departments of Defense, Labor and 
Veterans Affairs redesigned the Transition Assistance Program (TAP) to 
better prepare servicemembers to successfully transition to the 
civilian workforce.
    The redesigned TAP curriculum, known as the Transition Goals Plans 
Success (GPS), complies with the VOW to Hire Heroes Act that mandates 
all eligible servicemembers being discharged or released from active 
duty after serving their first 180 continuous days or more under title 
10, U.S.C., (including reservists and guardsmen) participate in Pre-
separation Counseling, VA Benefits Briefings and the Department of 
Labor Employment Workshop. While some servicemembers may be exempted 
from attending the DOL Employment Workshop, as allowed by Congress, 
every servicemember will attend Pre-separation counseling and the 
revised VA Benefits Briefings--no exceptions.
    These first components of the redesigned TAP are implemented at all 
206 Active component installations. Additional components, including 
specialized tracks for servicemembers interested in Higher Education, 
Career Technical Training, or Entrepreneurship, will be phased in by 
October 2013. The bedrock of the redesigned TAP is that all 
servicemembers will meet Career Readiness Standards prior to 
separation.

Military Overseas Voting
    The Department provided extensive voting assistance for the 2012 
General Election. An active, comprehensive outreach program that 
included print and online ads and email ``blasts'' to all 
servicemembers (more than 18 million emails sent during 2012 for 
primary and general elections) informed voters of their right to vote 
and the tools and resources available to them. The automated 
``wizards'' at FVAP.gov, the Federal Voting Assistance Program's 
information-rich website, provided an intuitive, step-by-step process 
to help servicemembers, their families, and overseas citizens register 
to vote, obtain an absentee ballot, and if necessary, complete the 
Federal back-up ballot.
    FVAP proactively continues to engage with the Services to ensure 
that the Installation Voter Assistance (IVA) Offices are operational 
and available to assist servicemembers. Current IVA Office contact 
information is maintained and available at the FVAP.gov website. Over 
200 IVA offices have been established and are just one of the many 
resources that the Department and Services use to reach military voters 
and their voting age family members.
    In advance of the 2012 elections, the Department awarded grants on 
a competitive basis to States and localities to research the 
effectiveness of new electronic tools for voter registration, blank 
ballot delivery, and ballot marking. It is important to note that no 
grant award funds were used for the electronic return of a voted ballot 
in a live election. Awardees are to submit detailed, quantitative 
reports on the effectiveness of their systems over the next 5 years. 
The Department is continuing the grant program this year in preparation 
for the 2014 elections.

                     READINESS AND FORCE MANAGEMENT

    As we transition from a decade of war, the Department is challenged 
with managing a Total Force under significantly reduced funding, while 
maintaining overall operational readiness and capability. Potential 
furloughs, a current hiring freeze and reduced end strength will create 
additional challenges and reinforce the need to take a hard look at our 
programs and priorities and implement reforms and initiatives that 
achieve the ultimate goal of maintaining operational readiness during 
this period of fiscal uncertainty.
    Military compensation and our military family programs, many of 
which were created to support a war-time operational tempo (OPTEMPO), 
will be closely examined for potential reforms. Likewise, we will 
continue to ramp up our transition assistance and licensing and 
credentialing efforts to prepare servicemembers for the civilian labor 
market as we reduce military end strength.
    Although we are coming out of a decade of war and our OPTEMPO is 
lessened, there remains a need and a sustainment of family programs and 
wellness because the military experience remains one of selfless 
service and sacrifice, of long training exercises and family 
separations. There will always be stress on the force and on our 
families, therefore we must continue to monitor these programs 
carefully as we experience the funding reductions in the years to come.

Readiness
    Our forces are postured globally conducting counterterrorism, 
stability, and deterrence operations; maintaining a stabilizing 
presence; conducting bilateral and multilateral training to enhance our 
security relationships; and providing the crisis response capabilities 
required to protect U.S. interests. The investments made in 
technologies, force protection, command and control, and Intelligence, 
Surveillance, and Reconnaissance (ISR) have helped maintain our 
military's standing as the most formidable force in the world.
    Regrettably, the impact of sequestration will likely reduce 
readiness through reductions in maintenance, operations and training, 
and indirectly through effects on the accessions and training for 
personnel and the production pipeline for equipment. This is especially 
worrisome as it may take years to recognize the shortfall, and even 
longer to mitigate or correct. Specific concerns include:

        <bullet> Managing stress on the force: Over 10 years of high 
        operations tempo have stressed our equipment and our people 
        across the board.
        <bullet> Return to full-spectrum training: While our ground 
        forces are now experts in counterinsurgency, other skills have 
        lagged. For example, the Army and Marine Corps are only just 
        beginning to train units for unified land and amphibious 
        operations. Most mid- and junior-grade members have never 
        conducted these missions. We must relearn these skills without 
        forgetting how to conduct counterinsurgency operations.
        <bullet> Preparing for ongoing operations: While the demand for 
        our ground forces will likely decline after operations in 
        Afghanistan conclude, the tempo for Navy and Air Force is less 
        certain. Navy deployments, for example, are likely to remain 
        longer and more frequent than pre-September 11. Likewise, the 
        Air Force has maintained a continuous forward presence in the 
        Middle East for over 20 years and may do so for years to come.
        <bullet> Resetting our equipment: DOD will need OCO funding for 
        at least 2 years post Afghanistan in order to reset our 
        equipment. This is a particularly serious concern for our 
        ground forces.
        <bullet> Budget austerity and uncertainty: The budget austerity 
        and uncertainty under sequestration is complicating our efforts 
        to mitigate readiness deficiencies.

    A high operational tempo over the past decade, coupled with the 
recent budget cuts magnified the risk of an imposed mismatch between 
the size of our military force and the funding required to maintain 
readiness. Over the next year, the Department will identify the 
critical readiness deficiencies and articulate risks, identify and 
implement associated mitigation options, and identify the significance 
of any unmitigated risk
    Language and Culture Training
    The President directed the Department to sustain U.S. global 
leadership as we transition from a long-term engagement in two wars 
toward a more global presence focused on the Asia-Pacific and the 
Middle East. Currently, about 10 percent of military personnel have 
tested or self-professed foreign language skills. However, Spanish 
accounts for 45 percent of the Department's foreign language capability 
which does not meet current strategic language requirements. Thus, new 
and enhanced training, as well as program and policy developments will 
expand the language, regional and cultural breadth and depth of the 
Total Force.
    The National Language Service Corps, a civilian corps of U.S. 
citizen volunteers with certified proficiency in languages important to 
U.S. security and welfare, grew from 2,407 in 2011 to over 4,000 
members in 2012 speaking more than 260 languages and provided over 
15,000 hours of support to Federal agencies. The NDAA for Fiscal Year 
2013 authorized the Secretary of Defense to transform the National 
Language Service Corps from a pilot to a permanent program and also 
enhanced the ability of Federal agencies to hire National Security 
Education Program awardees that possess strategic foreign language and 
cultural skills.

Active Duty Personnel
    Active Duty Recruiting
    Recruiting is critical to ensuring each Service and component is 
manned with a sufficient number of qualified people able to be trained 
and carry-out the missions that are asked of them. Over the last 
several years, the Services have recruited the highest quality recruits 
in the history of the AVF.
    Generally, a slow economy makes recruiting less challenging, and 
operates to the advantage of those who are hiring, including the U.S. 
military. As we see signs of economic improvement, we must remain 
vigilant and continue to monitor impacts on our recruiting efforts. 
Despite the positive effect of the economy on recruiting, there remain 
other factors counterbalancing our ability to attract bright, young 
Americans into the Armed Forces--57 percent of influencers (e.g. 
parents and teachers) are not likely to recommend military service; a 
large and growing proportion of youth are ineligible to serve in the 
military; a higher number of youth going to college directly from high 
school; and continuing concerns about the multiple deployments and the 
high operations tempo.
    In order to continue to sustain the AVF, the Department must rely 
on a significant and consistent recruiting effort across the 
Department. The consequences of sequestration increase risk for fiscal 
year 2013 recruiting and may result in fiscal year 2014 recruiting 
falling below levels needed. There is a possibility of a significant 
reduction in our ability to screen youth for military service during 
the potential civilian personnel furlough since the Military Entrance 
Processing Stations are manned to a large extent (approximately 80 
percent) by civilian staff. The reductions to advertising and 
recruiting support will also likely be significant.
    Active Duty Retention
    During fiscal year 2012, the Active Force consistently exhibited 
strong retention numbers with Army, Navy, Air Force, and Marines 
meeting their 2012 retention goals. Since the start of fiscal year 
2013, through the fifth month of the fiscal year, the Army, Air Force, 
and Marine Corps have continued to exhibited strong retention numbers. 
The Navy has also exhibited strong retention numbers in the Mid-Career 
and Career categories, however, the Navy's achievement of 86-88 percent 
(during the first 5 months of fiscal year 2013) in the Initial category 
results from reduced accessions 4-6 years ago. The Navy's Initial 
category will continue to be monitored.
    Reserve Officers' Training Corps (ROTC)
    The Department's largest single source of commissioned officers is 
the Reserve Officers' Training Corps (ROTC). In 2012, ROTC had 21,323 
cadets and midshipmen on scholarship and commissioned 6,200 officers. 
This was accomplished while each Service also simultaneously reduced 
scholarship funding. The Services are currently working to further 
streamline their ROTC programs.
    In order to continue these successes and sustain the officer corps, 
the Department must rely on consistent recruiting and scholarship 
programs. Almost 80 percent of the Services' ROTC budget is O&M. The 
consequence of sequestration is increased risk for fiscal year 2013 
officer recruiting and scholarships programs. The reductions to 
civilian personnel, scholarships, advertising, and recruiting support 
may be significant.

Military Compensation
    Military Compensation and Retirement Modernization Commission
    The NDAA for Fiscal Year 2013 established a Military Compensation 
and Retirement Modernization Commission, which is required to undertake 
a comprehensive review of all forms of military pay and benefits. The 
Secretary of Defense will transmit his recommendations to the 
Commission and to Congress by November 2013. Then the Commission will 
make its appropriate recommendations to the President by May 2014. We 
remain committed to ensuring any proposed changes to the mix of pay and 
benefits keep faith with those who are serving today and with those who 
have served in the past, our retirees. Changes to the military 
compensation and retirement system should be considered along with 
military operational requirements and supporting our servicemembers and 
their families.
    Military Pay Increase
    In the fiscal year 2014 budget, DOD proposed increasing military 
basic pay by 1.0 percent, 0.8 percent less than the authorized increase 
in law. The pay raise proposal was a difficult decision reached by the 
senior leaders of the Department. The adjustment will save $540 million 
in fiscal year 2014 and $3.5 billion through fiscal year 2018. Military 
compensation compares favorably with compensation for American workers. 
Therefore, a 1.0 percent military basic pay increase should not 
significantly affect recruiting and retention. The foregone portion of 
the 0.8 percent increase to the member would be as follows:

        <bullet> Corporal with 4 years of service, $23.05 per month 
        ($277 ann.) before taxes.
        <bullet> Captain (O-3) with 6 years of service, $53.60 per 
        month ($643 ann.) before taxes.

    We ask for Congress to support the administration's request of a 
1.0 percent increase to military basic pay.
    Basic Housing Allowance
    The purpose of the Basic Allowance for Housing (BAH) program is to 
provide fair and equitable housing allowances to servicemembers. The 
$20 billion annual program impacts more than 1 million servicemembers 
and their families. The 2013 BAH rates were set for every U.S. location 
based on measured housing costs in 363 military concentration areas. 
The Department conducted a comprehensive review of the size and number 
of areas surveyed to assess housing costs and set BAH rates. Area 
boundaries have been modified to reflect current housing 
concentrations. Areas which no longer have a sizeable uniformed 
presence have been removed, and areas with overlapping populations have 
been combined, improving efficiency of the data collection process. 
Data collected in 2013 in these revised housing areas will be used to 
set 2014 BAH rates.
    The Department is currently conducting a study to answer a 
congressionally-directed reporting requirement on the feasibility and 
appropriateness of paying BAH, rather than an Overseas Housing 
Allowance, in the U.S. territories. The Department is on track to 
submit its report by July 1, 2013.

Military Family Support
    Family Advocacy Program
    Managing relationship stress within married couples, domestic 
partners and between parents and children is challenging. Military 
service, with deployment, redeployment, and separation often 
exacerbates this stress which sometimes manifests as physical 
maltreatment and neglectful behavior. To meet the needs of our 
servicemembers and their families, the Family Advocacy Program (FAP) 
supports a coordinated community response strategy, which includes 
adequate funding, trained personnel, and an oversight framework.
    Family Advocacy experts teamed with SAPRO and other DOD 
professionals in the development of a Special Victim Response 
capability to address the most serious domestic abuse and maltreatment 
incidents. Taking advantage of the expertise and research across 
government, the FAP convened a special working group in February 2013 
with the Military Services and Federal partners to develop a 5-year 
Prevention Strategic Plan that identifies risk factors and strategies 
that will help stop domestic violence and child abuse and neglect 
before it starts.
    In fiscal year 2012, we established a Multi-Functional Domestic 
Violence Data Working Group to develop a comprehensive management plan 
to track domestic violence incidents and address deficiencies in the 
Defense Incident-Based Reporting System, and other current systems, in 
response to the NDAA for Fiscal Year 2011 requirements.
    Child Care
    On December 20, 2012, then Defense Secretary Panetta ordered a 
thorough review of criminal background check and adjudication 
documentation for all DOD Child and Youth Services personnel in 
response to concerns raised at the Joint Base Myer-Henderson Hall Child 
Development Center. The audit indicated the background check and 
adjudication process would benefit from standardizing the criminal 
background check adjudication process and adding a review of the 
installation's adjudication processes as a permanent part of the 
inspections of Child and Youth Service programs conducted annually per 
current policy. The Department is currently updating our policy 
instruction, DODI 1402.5 Criminal History Background Checks on 
Individuals In Child Care Services, which is currently under review. In 
order to expedite the process, we are working closely with law 
enforcement experts and with the Defense Civilian Personnel Advisory 
Service. The update will provide consistent guidance in regards to 
standardizing the procedures and adjudication of background checks for 
child care workers.
    The Department has focused efforts on improving the quality and 
oversight of its child development and school age care programs. In 
cooperation with the military Services, a standardized framework of 
common standards is under development and planned for implementation in 
fiscal year 2014. The delivery of research-based training for child 
care staff and school-age program staff through web-based systems is in 
early implementation with piloting scheduled for the summer of 2013 and 
roll out in the fall of 2013.
    Spouse Education and Career Opportunities
    The DOD Spouse Education and Career Opportunities (SECO) program is 
a comprehensive suite of services, resources and connections for 
military spouses that provides assistance for their career lifecycle to 
include career exploration, education and training, and employment 
readiness, and career connections. Military spouses can receive 
information and counseling about careers, education, license and 
credentials, resume assistance and interview preparation from career 
counselors through the SECO Career Center. During fiscal year 2012, the 
Career Center for SECO supported more than 121,000 requests for SECO 
assistance.
    Additionally, through the Career Center, spouses can create a 
career plan and directly connect with 162 corporate employers now 
participating in the Military Spouse Employment Partnership (MSEP). 
Since the launch of MSEP in June 2011, more than 40,000 military 
spouses have been hired by MSEP Partners.
    Military OneSource
    Military OneSource provides call center and web-based information, 
non-medical counseling, and educational materials. Services are 
available worldwide, 24 hours a day, at no cost to the user. In fiscal 
year 2012, Military OneSource responded to more than 750,000 telephone 
calls, distributed more than 3.7 million educational materials and 
assisted servicemembers and families with well over 200,000 Federal and 
State tax filings. Other services include relocation assistance, 
document translation, education resources, special needs consultation, 
elder care consultation, on-line library resources, and health and 
wellness coaching. Wounded warrior consultation services, accessed via 
Military OneSource, provide immediate assistance to recovering wounded, 
ill, and injured servicemembers, their families, and caregivers. In 
2012, this service processed more than 17,000 calls and resolved more 
than 2,400 cases for wounded warriors.
    Morale, Welfare, and Recreation Program
    Morale, Welfare, and Recreation (MWR) programs throughout the 
Services provide a comprehensive network of quality support and 
recreation services to enhance the readiness and resilience of our 
servicemembers and their families. The following include some 
noteworthy updates to these services:
    MWR Internet Cafe: Military spouses indicate that communication is 
the number one factor in coping with the stress of deployment. The 
Department now funds over 426 free MWR Internet Cafes in Afghanistan 
and the Middle East and 152 portable satellite units (known as 
MoraleSat or Cheetahs) to support remote combat locations. In fiscal 
year 2012, more than 82 million minutes of ``talk time'' were used to 
keep families in touch with deployed loved ones.
    Tutor.com: Tutor.com has been a tremendous success with children 
and youth and their families, allowing students to be in touch with a 
live tutor to answer questions, as well as talk through the process of 
problem solving until students grasp the principle and concepts of 
whatever academic challenge they request assistance with. Tutor.com 
reports more than 600,000 tutoring sessions over the 3 years the 
program has been in existence.
    Servicemember and Spouse Credentialing and Licensing Efforts
    DOD is leading a government-wide effort to help servicemembers earn 
civilian credentials and licenses in order to receive appropriate 
recognition for their military training and experience. Currently, more 
than 3,000 servicemembers in approximately 25 military occupational 
codes are participating in credentialing and licensing initiatives.
    The challenge in credentialing and licensing is that most national, 
State, and local credentialing and licensing agencies do not always 
recognize equivalent military training, education, and experience 
because they are unaccustomed to assessing these areas. They also often 
lack access to information that would allow them to better understand 
and evaluate military education, training and experience. The 
Department is working closely with the White House, and other Federal 
agencies such as: Veterans Affairs, Department of Labor, Department of 
Transportation and Department of Education; State governments; 
professional organizations, and affinity groups to address these 
challenges.
    During the last 12 months we have made significant progress. For 
example, 37 States now grant waivers of the Commercial Drivers Licenses 
driving skills test for veterans and servicemembers. Currently more 
than 24 States are pursuing legislative changes which will further 
reduce barriers to licensing at the State level. The First Lady and Dr. 
Biden, through Joining Forces, have been key proponents of licensure 
and credentialing for both separating servicemembers and military 
spouses. They presented both the military spouses and separating 
servicemember licensure issue at the National Governor's Association 
(NGA) meeting in February 2013. As of March 2013, 29 States have passed 
legislation expediting the professional licensing process for military 
spouses. Another 13 States currently have active legislation in 
expediting licenses. Professional licensing generally covers most 
occupations, with the exception of teachers and attorneys. Health 
related professions (physicians assistants, nurses, radiologist, 
dentists and dental techs), and commercially oriented professions 
(CPAs, architects, engineers) are also included. Seventeen States have 
statutes allowing credit for military education (credit towards 
licensing and academic degrees for substantially equivalent military 
education, training and experience), training and experience towards 
professional licensing for transitioning servicemembers; another 22 
States have active legislation in this area.
    Defense Commissary Agency
    The Defense commissary system enhances the quality of life of 
members of the uniformed services, retired members, and their 
dependents while supporting military readiness, recruitment and 
retention. The commissary continues to be one of the most valued non-
pay compensation benefits enjoyed by our military members and families, 
be they Active, Guard and Reserve, or retirees. Commissary shoppers 
save an average of 30 percent on their purchases compared to commercial 
retailers. This equates to a potential savings of about $4,500 per year 
for a family of four, or more than $1,500 annually for a single 
servicemember.
    Beyond grocery savings, the commissary system provides a paycheck 
to many military families. Military spouses account for more than 4,000 
of DeCA's 15,130 civilian employees in the United States, about 27 
percent of the commissary's U.S. workforce. Military dependents, Guard 
and Reserve members, retirees, and other veterans provide an additional 
37 percent of the U.S. workforce.
    Challenges from sequestration would reduce military families' 
access to commissary savings, because commissaries may need to 
accommodate potential furlough of its civilian employees. While we 
believe most commissary patrons will move their shopping trips to other 
available days, we estimate that military families who migrate their 
shopping to commercial retailers would spend significantly more on 
their food bills during the remainder of fiscal year 2013.
    Dependent Education
    Ensuring excellence in the education of military children is a top 
priority for the Department of Defense. There are approximately 1.2 
million school-aged children with a parent serving in the military. 
More than 84,300 of these children attend one of the schools operated 
by the Department of Defense Education Activity (DODEA). To this end, 
DODEA is leaning forward to provide an educational experience that 
challenges each student to maximize his or her potential and prepares 
them to be successful, productive and contributing citizens in today's 
global economy. Highlighted below are some significant accomplishments 
to transform schools.

        <bullet> Common Core State Educational Standards: DODEA joins 
        46 States and the District of Columbia in adopting the Common 
        Core State Educational Standards. For our military-connected 
        students, these standards will change the education experience 
        from a patchwork of various State standards as they move from 
        State to State to one that will be as close to academically 
        seamless as possible.
        <bullet> Digital Conversion: To prepare classrooms for the 
        infusion of technology into teaching and learning, DODEA 
        upgraded the bandwidth and wireless infrastructure in all 194 
        schools.
        <bullet> College and Career Readiness: DODEA increased the 
        mathematics graduation requirements, expanded course offerings 
        in the areas of Science, Technology, Engineering, and 
        Mathematics (STEM), foreign language and Advanced Placement. 
        The Virtual High School has increased course offerings by an 
        average of 13 courses per year.
        <bullet> Early Reading Success: DODEA adopted a goal to ensure 
        all students are reading on grade level by grade 3. This 
        included the implementation of a new early childhood reading 
        assessment which now is administered in kindergarten versus 
        third grade, past longstanding practice. First year reading 
        results showed promising gains.
        <bullet> School Facility Recapitalization and Repair: In 2009, 
        134 of DODEA's 194 schools were rated below the DOD acceptable 
        facility condition standard. The substandard schools were safe 
        but too costly to maintain with routine improvements. Of the 
        original 134 substandard schools, DODEA has completed 9 
        schools, has an additional 12 schools under construction, and 
        51 schools in design. DODEA is on target to meet the goal of 
        bringing all schools to the DOD acceptable condition standard 
        by the end of fiscal year 2018.
        <bullet> Educational Outreach: Since 2008, DODEA awarded nearly 
        $200 million in grants to over 150 military-connected public 
        school districts reaching more than 280,000 military-connected 
        children in 900 public schools. These grants help non-DOD 
        schools improve educational opportunities for military children 
        in public schools.

    The effects of sequestration could potentially delay the 
educational transformations, resulting in significant implementation 
delays, in some areas by as much as 2 years, e.g., in the area of new 
curriculum adoptions, digital classroom conversions, and employment 
reform (e.g. new processes for recruiting, hiring, evaluating, 
interviewing and on-boarding of new educator hires). However, the 
Department is making every effort to ensure military-connected children 
attending DOD schools are provided full academic years and that schools 
maintain accreditation standards.

Total Force Management
    We are committed to ensuring the Department's mix of Active and 
Reserve military, government civilians, and contracted services provide 
our commanders with the capabilities and readiness they require. The 
Department recently issued guidance that reiterated and re-enforced key 
total force management concepts. Specifically, the Department is 
committed to precluding inappropriate transfer for work to the private 
sector from government performance (especially work that is inherently 
governmental or critical). As the Department executes civilian 
workforce reductions, implements a hiring freeze, releases term/
temporary employees, and faces civilian potential furloughs our 
managers and commanders must ensure that workload is not being 
inappropriately absorbed by the private sector in violation of our 
title 10 obligations.
    The Department's implementation of NDAA for Fiscal Year 2013, 
section 955, requiring reduction in funding for civilians and contract 
support commensurate to reduction in funding associated with end-
strength reductions, will be done in a manner that reduces mission 
impact and mitigates risk to programs and operations, while maintaining 
core capabilities and support to our warfighters and their families. We 
will ensure that our Total Force is sized and shaped to perform the 
functions and activities necessary to enable our capabilities and 
achieve our missions.
    Civilian Hiring Freeze and Furloughs
    One of the highest profile effects of sequestration is the 
potential furlough of the majority of the Department's 800,000 
civilians. Notification of the Department's intent was sent to Congress 
and to the civilian workforce on February 20. The Department will apply 
furlough actions in a consistent and equitable manner, with few 
exceptions based on unique mission requirements.
    The potential furloughs will be disruptive and damaging to our 
ability to carry out the defense mission. We anticipate morale and 
financial effects on our valued civilian employees, a decline in 
productivity, and a potential loss of critical civilian talent in high 
demand fields; e.g., cyber, intelligence, and information technology.
    In order to address the severe across the board cuts, the 
Department has also implemented, with limited exceptions, a civilian 
hiring freeze and has started releasing temporary and term employees. 
These actions put the Department further at risk of competency gaps and 
critical skill shortages in key mission critical areas. In fiscal year 
2012, the Department hired almost 60,000 new employees to meet mission 
requirements. Of these employee hires, approximately 47 percent were 
veterans, a community with unique skills sets valuable to the 
Department. This hiring does not occur just in the Washington, DC, 
area, therefore the ramification of these actions ripples beyond the 
walls of the Pentagon and will be felt well outside the Beltway. In 
fact, the vast majority of the Department's civilian workforce, almost 
86 percent, works outside the Washington, DC, area. The loss of key 
skill sets effect our communities throughout the country.
    Strategic Human Capital Plan and Critical Skills Gaps
    The fiscal year 2010-2014 DOD Strategic Workforce Plan (SWP) was 
submitted to Congress in March 2012. The plan detailed progress made, 
present and future challenges, and strategies in place for shaping the 
demographics of a ready civilian workforce. The fiscal year 2014-2018 
DOD SWP, in development, expands the SWP framework and functional 
community structure to cover all 274 major occupations covering over 90 
percent of the workforce.
    The Strategic Workforce Plan is an integral tool for informing the 
Department's policies and procedures for recruitment, retirement and 
accession planning, professional training and education, and retention 
in order to guard against a skill shortfall or erosion of competencies 
as workforce actions are implemented.
    Contractor Services Accountability and Integration
    Contracted Services represent the efforts of private firm employees 
performing identifiable tasks for the Department rather than producing/
manufacturing end items of supply. In 2010, Secretary Gates issued a 
directive to reduce certain staff augmentation contract services, 
particularly at headquarters staffs, by 10 percent a year over the next 
3 years. The NDAA for Fiscal Year 2012 limited contract spending to 
fiscal year 2010. While the NDAA for Fiscal Year 2012 directed 
reductions in spending on those services performing closely associated 
with inherently governmental work and staff augmentation, section 955 
of the NDAA for Fiscal Year 2013 further requires reductions in total 
funding.
    The Department is currently able to estimate, through its Inventory 
of Contracts for Services, a like unit of measure of contractor effort 
to compare to civilian full-time equivalents and military end strength. 
The inventory for fiscal year 2011, submitted to Congress this past 
summer, was the most comprehensive to date. The most recent inventory 
estimates approximately 710,000 contractor full-time equivalents and 
$144.5 billion. We are now further improving visibility into, and 
accountability of, contract services by collecting direct labor hours 
and associated cost data from contractors, which can then be compared 
to our civilians and military workforce planning factors.

                             HEALTH AFFAIRS

    We are committed to providing the quality healthcare to our 
beneficiaries while ensuring fiscal responsibility. Our highest 
priority is to keep our servicemembers healthy and medically ready for 
deployment anywhere in the world. We must also ensure a ready medical 
force that can provide contemporary healthcare wherever it is required. 
We have a special obligation to our wounded warriors and their care 
will continue uninterrupted regardless of any fiscal challenges.
    Healthcare Costs
    Rising health care costs are a serious challenge for the 
Department. In 1996, when TRICARE was fully implemented, a working age 
retiree's family of three contributed, on average, roughly 27 percent 
of the total cost of health care. Today that percentage has dropped to 
less than 11 percent. Health care costs have grown substantially since 
1996, while retiree's family's out of pocket expenses, including 
enrollment fees, deductibles and cost shares, has only grown by 30 to 
40 percent. The Department seeks to rebalancing the cost-sharing borne 
by military retirees. Even with our current proposals, cost-shares 
borne by retired military families are still less than what they 
experienced in 1996.
    Therefore, the Department is seeking further changes to the TRICARE 
program in the fiscal year 2014 budget as follows:

        <bullet> Increase the TRICARE Prime enrollment fee (using a fee 
        ceiling/floor structure), instituting an enrollment fee for 
        TRICARE Standard/Extra, and increasing Standard/Extra 
        deductibles, and adjusting the catastrophic cap to exclude 
        enrollment fees. These changes will affect only retirees.
        <bullet> Increase co-pays for pharmaceuticals (excludes Active 
        Duty servicemembers).
        <bullet> Implement an enrollment fee for new TRICARE-for-Life 
        (TFL) beneficiaries (grandfathers those already Medicare-
        eligible at enactment).

    These fee changes will be phased-in over several years, and fees/
deductibles/Rx co-pays/catastrophic cap levels will be indexed to 
growth in annual retiree cost-of-living adjustment (COLA). Even after 
the proposed changes in TRICARE fees, the TRICARE benefit will remain 
one of the best medical benefits in the United States, with lower out-
of-pocket costs than most other employers. We ask for congressional 
support for our proposed cost savings initiatives in the fiscal year 
2014 President's budget that require legislation in order to be 
implemented
    The Department is also working on other ways to ensure the 
financial viability of TRICARE for far into the future. In 2008 and 
2009, with the support of Congress, the Department instituted a number 
of changes that have had positive effects in slowing the rise of health 
care costs. We established ``Federal Ceiling Prices'' that required 
pharmaceutical manufacturers to provide the Department discounts for 
drugs provided to TRICARE beneficiaries through retail network 
pharmacies (saving almost $800 million annually) and we changed how we 
reimburse private hospitals for outpatient services provided to TRICARE 
(saving over $900 million annually by 2014 when this is fully 
implemented).
    The Department is in the process of revising its payment rules to 
reimburse inpatient care claims at sole community hospitals by using 
Medicare rates (saving $100 million annually when fully implemented). 
To further reduce costs, the Department is changing how it buys medical 
products, by leveraging the bulk buying power of the military health 
system. A series of strategic price reduction initiatives are being 
implemented, saving the Department on average, $60 million annually. 
The Department is reducing administrative overhead in the military 
health system by streamlining its processes; reducing the number of 
unnecessary reports, studies and Commissions; and initiating other 
actions which will result in over $200 million in reduced personnel and 
contract costs annually.
    The Department has instituted an active and ongoing process 
designed to prevent, detect, and control fraud and abuse. We expect 
these efforts on average will avoid costs and recover overpayments of 
$50 million annually over the next 5 years. In effort to control long-
term costs, the Department is pursuing a multifaceted strategy to 
invest in initiatives that keep beneficiaries well, promote healthy 
lifestyles, and reduce inappropriate emergency room visits and 
unnecessary hospitalizations while improving patient satisfaction. In 
the short term, we expect savings on average of over $25 million over 
the next 5 years.
    Also with Congress' support, we have made small strides in ensuring 
our health benefit, while remaining one of the finest health benefits 
provided by any employer in the country, is managed in a manner that 
ensures the long-term strength of the Military Health System. We now 
require new enrollees to the U.S. Family Health Plan to move to the 
TRICARE for Life (TFL) Program upon becoming eligible for Medicare, 
like all other military retirees (saving $600 million annually); 
Congress has permitted small increases in the TRICARE Prime enrollment 
fees for working age retirees and some adjustments to retail and mail-
order pharmacy co-pays.
    Defense Health Agency
    In 2013, the Department will move forward with significant changes 
in how we govern the Military Health System, consistent with the 
direction provided by the Deputy Secretary of Defense in 2012 and by 
Congress in the NDAA for Fiscal Year 2013. The following three major 
steps are now being formalized within the Department.
    First, we are establishing a Defense Health Agency (DHA) with 
responsibility for administering shared services across the 
Department's military health portfolio. We will achieve Initial 
Operating Capability for the DHA by October 1, 2013.
    Second, we are provided enhanced authorities for military medical 
leaders in our largest, multi-Service medical markets (National Capital 
Region; Portsmouth, VA; Colorado Springs, CO; San Antonio, TX; Puget 
Sound, WA; and Honolulu, HI) to ensure we best utilize our military 
medical resources in the community, improve access to care, and lower 
costs. We will also use these medical readiness platforms to identify 
best practices and institute more standardized approaches to both 
clinical and administrative processes.
    Finally, we are also transitioning the Joint Task Force-National 
Capital Regional Medical to a directorate within the Defense Health 
Agency. This transition will sustain the joint organizational structure 
of the two inpatient medical facilities in the NCR, clarify 
accountability for comprehensive market management, and allow the MHS 
to reduce intermediate headquarters overhead for managing the market.
    Collectively, we believe the actions will have a substantive effect 
on improving readiness, improving the health of our population, 
improving the health care delivered in our medical facilities, and 
reduce the rate of growth in our health care costs.
    Post-Traumatic Stress Disorder and Traumatic Brain Injury
    An estimated 13 to 20 percent of over 2.6 million servicemembers 
who deployed have or may develop Post-Traumatic Stress Disorder (PTSD) 
symptoms. From 2000 to 2012, 125,592 servicemembers were formally 
diagnosed with PTSD in military treatment facilities. PTSD is 
treatable, and servicemembers can expect to recover with appropriate 
medication and/or psychotherapy. Current surveillance approach to 
identify servicemembers with PTSD includes annual periodic health 
assessments, pre-deployment health assessments, and post-deployment 
health assessments and reassessments. Treatment of PTSD is most 
effective with early and accurate diagnosis. The DOD has increased 
mental health staffing by 35 percent over the last 3 years, and has 
moved to embed mental health providers within primary care clinics and 
line units to increase access. New PTSD virtual reality tools, web-
based and mobile applications, have expanded tele-health services to 
increase access to care.
    Not all those with PTSD symptoms are diagnosed. Estimates suggest 
that 23-40 percent of those who need services do not receive care. 
While symptoms of PTSD usually present shortly following a traumatic 
event, for some individuals, PTSD symptoms will present months or years 
later. To address this, DOD is integrating behavioral health at the 
primary care level through system-wide expansion of screening through 
the Re-Engineering Systems of Primary Care Treatment in the Military 
(RESPECT-Mil) program and care provision through the Behavioral Health 
Optimization Program (BHOP).
    The DOD is actively engaged with the VA and HHS in support of the 
implementation of Executive order, ``Improving Access to Mental Health 
Services for Veterans, Servicemembers, and Military Families'' (August 
2012). The DOD/VA Integrated Mental Health Strategies (IMHS) continues 
to serve as a mechanism to identify joint actions to address common 
mental health needs.
    Traumatic Brain Injury (TBI) is a signature injury of the Operation 
Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) conflicts. TBI 
occurs on a continuum from mild TBI, or concussion, to severe and 
penetrating; severe TBIs are relatively easy to detect, whereas mild 
TBIs are usually less obvious. DOD mandated the new in-theater DOD 
Instruction 6490.11 (DODI), ``DOD Policy Guidance for Management of 
Mild Traumatic Brain Injury/Concussion in the Deployed Setting,'' in 
September 2012. This new policy emphasizes the importance of the early 
detection of servicemembers with concussion, while providing clear and 
specific guidelines for the management of acute concussions.
    Since implementation of theater-wide policies, approximately 14,226 
servicemembers were screened for concussion following potentially 
concussive events in theater (August 2010 to July 2012). Of those 
screened, approximately 15.2 percent (2,162) were diagnosed with 
concussion/mild TBI, which has been a consistent percentage over last 5 
years. The Department emphasizes access to and quality of TBI care and 
TBI research ($674 million invested since 2007), with focus on 
development of tools, treatments, and studies that follow TBI patients 
over time to understand the course of the condition.
Wounded Warrior Care
    The care of our wounded warriors and the support they and their 
families receive as they recover and transition back to military or 
civilian life is our highest priority. Despite any fiscal constraints, 
the Department faces due to sequestration, our continued focus on their 
world class medical treatment, mental health, rehabilitation, and when 
feasible entry to military service, will continue unabated. We will 
work together with Services, advocates, and non-medical care managers 
to ensure we better identify and address non-medical needs of 
recovering servicemembers, their families, and caregivers. Our wounded 
warriors and their families who care for them deserve the very best, no 
matter what, for their sacrifice.
    The Integrated Disability Evaluation System
    The Integrated Disability Evaluation System (IDES) integrated two 
large, separate, and sequential systems, which had existed since the 
1940s and required more than 540 days for a servicemember to navigate. 
The DOD and VA completed fielding IDES at 139 Military Treatment 
Facilities in September 2011. The Departments met all IDES objectives: 
the new process is fairer, faster, and provides VA benefits more 
quickly than before. We took several steps in 2012 to improve 
performance, including increasing IDES staff by 127 percent (676 
personnel), testing information technology capabilities that eliminate 
mailing paper records, increasing policy flexibility and pilot testing 
the use of cohort groups to accelerate simpler cases.
    The Department recently concluded a preliminary study of the 
feasibility of consolidating the disability evaluation system across 
all Services to further ensure consistency of ratings and 
determinations. Additional analysis is required to fully understand 
implications to servicemembers, Service missions and resource impacts. 
In addition, we recently concluded a study of Physical Evaluation Board 
Liaison Officers (PEBLOs) addressing responsibilities, standard 
training objectives, and workload. Further analysis will provide 
insight into the necessary ratio of PEBLO to servicemember to improve 
communication and servicemember satisfaction with the disability 
evaluation system.
    DOD is working closely with VA to better integrate processes, 
tools, and share lessons learned. As an example, DOD and VA are 
piloting an electronic case file transfer capability to eliminate 
mailing hardcopy records between departments. With the implementation 
of Health Artifact Image Management System, DOD and VA will 
electronically share Service treatment records. The Army, which 
represents 76 percent of the disability caseload, has committed to 
issuing electronic DD 214 for all their cases by December 31, 2013.

                            RESERVE AFFAIRS

    Today, a combination of factors change the way we view the 
utilization of our Reserve component (RC) in the future and constitute 
a ``new normal.'' A volatile international security environment still 
persists, and a constrained Defense budget for the foreseeable future 
will place additional burdens on the training, equipping, recruiting 
and retention to the Total Force in fiscal year 2014 and out. 
Therefore, use of the Reserve component as part of the operational 
total force makes business sense.
    The Reserve component, as part of the Department's Total Force, 
provides the ability to preserve many capabilities and capacity at 
reduced long-term cost within manageable risk. Over the last decade the 
Reserve and National Guard units have clearly proven the ability to 
accomplish any assigned mission overseas or at home. During that time 
the Reserve component has become an integral part of the Nation's 
military force participating in nearly every mission worldwide. Today's 
Reserve component is a force multiplier which provides access and 
flexibility at an incredible value allowing the Services to utilize 
full capabilities in an operational capacity while retaining strategic 
depth. Today's Citizen Warriors have made a conscious decision to serve 
since September 11, with full knowledge that their decisions mean 
periodic recalls to active duty under arduous and hazardous conditions. 
They will continue to play a vital role as we move beyond the past 
decade of war in Iraq and Afghanistan and the Department shapes the 
force to implement defense strategy and to respond to the challenges of 
a new era.
    The Department's National Guard and Reserve servicemembers totaling 
about 1.1 million contribute 43 percent of our total military end 
strength at a cost of 9 percent of the total base budget and continue 
to fulfill their vital national security role. The National Guard and 
Reserve provide trained, ready, and cost-effective forces that can be 
employed on a regular operational basis, while also ensuring strategic 
depth for large-scale contingencies or other unanticipated national 
crises. As of mid-March 2013, there are 53,658 servicemembers 
activated. Over the past decade, over 869,877 Reserve and National 
Guard servicemembers have deployed.
    Recruiting
    Success in recruiting is essential to maintain the strength 
necessary for the Reserve components to achieve their assigned 
missions. Like the Active component, the Reserve component also 
continues to access high quality recruits. Each of the six Reserve 
components has exceeded departmental benchmarks for recruit quality. 
For the remainder of the fiscal year, these trends are expected to 
continue. Five of the six Reserve components have met their fiscal 
year-to-date accession missions through February 2013. However, as the 
economy improves, competition for high quality Reserve recruits will 
increase and recruiting missions will become more difficult to achieve. 
Although as the Active component continues to reduce end strength, some 
Active component members may choose to continue service in the Reserve 
component.
    Attrition
    Retention of high quality Reserve component servicemembers 
continues to remain a high priority. While the Reserve components have 
seen a slight increase in attrition over fiscal year 2012, all Reserve 
components are currently within the departmental targets. The aggregate 
fiscal year-to-date departmental attrition rate was 5.12 percent in 
fiscal year 2012 and is currently at 5.97 percent. Improved 
opportunities in the civilian world affect our ability to retain some 
of our best and brightest. We will continue to monitor our Reserve 
component attrition posture closely.

Family and Transition Support
    Yellow Ribbon Reintegration Program
    In the past 12 months, the Services conducted 1,855 Yellow Ribbon 
Reintegration Program (YRRP) events that provided vital family 
deployment, non-medical mental health, and family readiness support 
resources to 233,820 servicemembers, family members or designated 
representatives. The Services are projecting 1,691 events for fiscal 
year 2013 in support of continued operations in Afghanistan and other 
theater security and humanitarian missions around the globe.
    YRRP continues to develop policies, tools, and resources necessary 
for the Services to address challenges faced by Guard and Reserve 
families, as well as those stemming from the evolving nature of 
military operations. YRRP is developing online curriculum to assist 
event planners with the unique challenges of multiple deployments, 
geographically dispersed families and reintegration/unemployment 
issues; refining metrics collection and analysis to continually measure 
and improve the long-term effectiveness and efficiency of the program. 
We are also working with partners like the Defense Suicide Prevention 
Office, to include the VA and the NIH's Substance Abuse and Mental 
Health Services Administration to expand suicide prevention resources 
and community healing opportunities; and working with the Services to 
develop flexible, long-term policies for the future of deployment cycle 
support.
    The YRRP compliments Transition Assistance Program (TAP) by 
assisting National Guard and Reserve members as they transition between 
their military and civilian roles. YRRP events provide National Guard 
and Reserve members with access to local information on health care, 
education/training opportunities, and financial/legal benefits. In 
addition, up to 30 resource providers also participate at YRRP-
sponsored events, including the Departments of Veterans Affairs and 
Labor, the Small Business Administration, Military Family Life 
Consultants, Chaplains, certified financial planners, Military 
OneSource consultants, Red Cross representatives, and employment 
transition coordinators.
    Hero2Hired (H2H.jobs)
    Hero2Hired (H2H) is a comprehensive YRRP career readiness program 
with both a high touch and a high tech approach designed to connect 
Reserve component members with potential employers. A robust IT 
platform supports Guard and Reserve members with significant features 
including a Military Occupational Specialty skills translator, a case 
management feature, job search capabilities (by profession, geographic 
location, company), resume builder, mobile application and a career 
skills assessment. Since its launch in December 2011, H2H.jobs has 
signed up more than 113,383 job seekers and more than 15,517 employers. 
The program engages the Employer Support of the Guard and Reserve 
network of 4900 volunteers along with 56 contracted Employment 
Transition Coordinators (ETC) within all 50 States, Territories, and 
the District of Columbia to provide servicemembers with employment 
assistance in their local communities.

Partnership and Outreach
    Employer Support of the Guard and Reserve
    Employer Support of the Guard and Reserve (ESGR) is a DOD 
organization created in 1972 to foster a culture in which all employers 
support and value the employment and military service of members of the 
National Guard and Reserve in the United States. ESGR's mission is 
particularly relevant in an era of increased reliance on the Reserve 
Component to conduct worldwide combat operations and provide 
humanitarian response. The ESGR Customer Service Center (CSC) provides 
Uniformed Services Employment and Reemployment Rights Act (USERRA) 
information and mediation support to servicemembers and their civilian 
employers. In fiscal year 2012, ESGR answered more than 21,000 USERRA 
inquiries and mediated almost 2,800 USERRA cases resolving over 77 
percent of the cases in less than 9 calendar days. As a result of 
sequestration, there may be a reduction in awareness of ESGR programs 
and USERRA rights and responsibilities due to a reduction in outreach 
efforts.
    National Guard Youth Challenge Program
    The Department includes funding for the National Guard Youth 
Challenge Program in fiscal year 2014. The budget request will support 
35 programs located in 27 States, the District of Columbia, and Puerto 
Rico. The 17-month program consists of two phases (residential and 
post-residential) and serves 16-18-year olds who are not attending high 
school and unemployed. The residential program is 22 weeks long and it 
stresses academic excellence, leadership and followership, citizenship, 
community service, life coping skills, job skills, physical fitness, 
and health and hygiene. The post-residential mentoring period is 12 
months long. It is designed to assist/support the residential graduates 
as they return to secondary school, continue on to college or 
vocational learning institutions, or enter the job market. Since the 
program's inception in 1993, over 120,000 participants have graduated, 
contributed over 8 million hours of service to communities that is 
valued at over $155 million and approximately 70 percent of the program 
graduates have earned academic credentials such as a GED, High School 
diploma, or high school credit recovery certification. The budget 
request plans to support DOD's cost share of 75 percent of the 
program's operating costs in order to graduate approximately 9,000 
program participants annually.

                          DOD-VA COLLABORATION

    To fulfill the sacred responsibility of caring for those who have 
fought for our country, close and effective collaboration between DOD 
and the Department of Veterans Affairs (VA) is essential. While there 
is no doubt that DOD and VA are working more closely together than ever 
before, it is also clear that we need to reach an even deeper level of 
cooperation to better meet the needs of those who have served our 
Nation in uniform, especially our wounded warriors. It is a great 
priority for P&R to continue to strive to achieve our joint vision of a 
seamless ``single system experience of lifetime services.''
    Working together, our Departments have already made many important 
changes to our system of care for wounded warriors, servicemembers, 
veterans, and their families. But clearly, there is considerably more 
work to be done, particularly to meet the needs of the post-September 
11 generation of warriors. It is critically important that we overcome 
the bureaucratic processes of the past--and therefore we are working to 
implement major changes in several areas that together will 
dramatically improve the quality of the services DOD and VA are able to 
provide.
    Integrated Electronic Health Records (iEHR)
    The DOD and VA remain committed to implement full health data 
interoperability. The DOD and VA together support more than 17 million 
beneficiaries. Transitioning health care for servicemembers from one 
large health care system to the other involves the precise exchange of 
data. Therefore, in order to accelerate availability of seamless health 
care information, DOD and VA will modify the strategy for developing 
the iEHR. To reduce the cost and technical risk that an entirely new 
system would present, DOD and VA agreed to use a ``core'' set of 
applications from existing EHR technology, which could be added to 
additional modules or applications as necessary. The Department is 
committed to the implementation of iEHR and will work with VA fast-
track standardized technical and clinical capabilities.
    We believe our current strategy will achieve our goals for the 
electronic health record system: reduce costs, shorten the timeline, 
reduce risk, and increase capability. We remain focused on healthcare 
data interoperability between the DOD and VA to ensure that we improve 
the quality of care per dollar spent for our servicemembers, veterans, 
and beneficiaries as they move within the DOD, VA, and private sector 
health care systems.
    VA Claims Backlog
    Veterans' benefits are a vital extension of a holistic benefits 
package to sustain an AVF. Therefore, we are fully engaged in the issue 
of Veterans Disability Benefits Claims backlog. We will provide VA with 
any information we have which will assist them with processing claims 
and help eliminate the backlog. We currently provide approximately 98 
percent of the required personnel data for claims adjudication with VA 
electronically, and we continue to seek how to close the gap on the 
remainder. We have provided VA access to all personnel (including 
available DD Form 214) records through a DOD web portal, and we have 
agreed to provide Veterans Benefits Administration employees with 
direct access to our electronic medical record system. We will continue 
to look for ways to assist VA in lowering the backlog.
    We have taken several steps to reduce backlog such as having a team 
of DOD subject matter experts at the Veterans Benefits Administration 
to analyze problematic cases in the VA backlog and conducting a uniform 
Separation Health Assessment for all servicemembers at the time of 
separation from the military. VA will conduct the assessment for those 
who request disability benefits at the time of separation; DOD will 
conduct the assessment for all others. We have already begun to 
implement this at some locations, and we will complete implementation 
by the end of fiscal year 2014. This will assist VA down the road as it 
will establish a baseline medical condition at the time of separation 
which the VA can use to determine service connection of future 
disability claims.

                               CONCLUSION

    During the past decade, the men and women who comprise the All-
Volunteer Force have shown versatility, adaptability, and commitment, 
enduring the constant stress and strain of fighting two overlapping 
conflicts. Throughout it all, we were able to build, support and 
transition the finest military ever known. We understand that in order 
for us to continue on this path, we must be vigilant in our efforts and 
resources to ensure that we provide all the necessary recruiting, 
training, support and transition tools for success. The Department is 
committed to our servicemembers' success. Whether it is on the 
battlefield, at home with their families, or after they have faithfully 
concluded their military service, we are committed to preparing 
servicemembers for whatever challenges they may face from warrior to 
veteran. They deserve no less.

    Senator Gillibrand. Thank you to each of you for your 
testimony and for your service. I am extremely grateful to all 
of you.
    I would like to start with Dr. Woodson first. Last year, 
several of us fought very hard to have TRICARE cover the 
applied behavioral analysis (ABA) therapy. It is a behavioral 
therapy for autistic children and children with development 
disabilities. I am disappointed that the pilot program we 
funded is delayed by 3 months by sequestration, but in any 
case, I have not seen details on how it will be rolled out.
    A number of the children covered in the Extended Care 
Health Option (ECHO) Program for Active Duty do not receive 
adequate services due to caps on funding. Will the pilot 
program have caps on services?
    Dr. Woodson. Thanks very much for the question and your 
support of the men and women in the service and retirees and 
beneficiaries.
    As it relates to the ABA pilot, a couple of things need to 
be brought forward. First of all, we could not start the pilot 
until we have an appropriations bill, and that did not happen 
until March 26. But almost virtually on that day we pushed out 
information to providers so that they could start answering 
questions from potential beneficiaries relative to this 
service.
    We have mapped out the program. We have started writing the 
contracts for the program, and just the contracting issues 
require time, and because we could not start the program before 
March 26, 2013, there is that obvious delay.
    But let me just say that since last summer, non-active duty 
beneficiaries have been able to receive ABA therapy through the 
TRICARE basic medical program. That is not capped, so that has 
been available since last summer. Of course now we are setting 
up the pilot.
    So the bottom line is we have multiple ways of paying for 
ABA, and, in fact, historically, we have been in front of the 
pack. We have been providing this for Active Duty family 
members for over 10 years. So we are moving with all due haste 
to set up the program, but we did have some limitations 
relative to the appropriation.
    Senator Gillibrand. ECHO currently only covers certified 
consultants, leaving many locations without adequate coverage. 
Will the pilot program cover ABA technicians and assistant 
behavioral analysts?
    Dr. Woodson. The pilot certainly will cover the 
technicians. These are the non-certified tutors, which is the 
other name that is used, the pilot will cover those 
individuals.
    Senator Gillibrand. The last piece, in July 2012, we 
provided a lot of the data that the military was asking for, 
medical data, demonstrating the benefits of ABA coverage. When 
this review of data is complete, can we then ensure that there 
will be permanent ABA coverage under TRICARE?
    Dr. Woodson. Well, right now it is covered under TRICARE 
basic medical program. Since we always follow the law, if the 
law says we have to provide it, we will provide it irrespective 
of what the data says. So that is not an issue.
    Senator Gillibrand. That is contrary to what we heard in 
the last hearing on this topic. They said it was not a medical 
treatment. They said it was an educational treatment, and so, 
therefore, they were able to cap the access to the number of 
therapies that could be received because it was not considered 
medical.
    Dr. Woodson. Good question, and we should draw the point of 
clarification that if it was left to our discretion, we would 
probably define it still as an educational benefit. But the law 
says that we have to provide it, so we will provide it.
    Senator Gillibrand. But if it is defined as educational, it 
only requires a certain number of therapy sessions. So what the 
families have told us is that they were literally doing second 
mortgages on their homes or going through bankruptcy because to 
be able to afford all the therapies their doctor prescribed for 
their children. It was a financial burden that they could not 
cover.
    Dr. Woodson. Once again, since this summer, under the basic 
program, families can receive ABA therapy. That is not capped 
if a certified provider delivers it. So it is there for them 
right now.
    Senator Gillibrand. Okay. Turning to Secretary Wright, we 
held our last hearing on sexual assault in the military. There 
has been a lot of attention drawn to the issue, largely because 
of the Invisible War documentary. One of the things that we 
discussed in the hearing was that when reporting is made, it is 
made throughout the chain of command, and the disposition 
authority sits within the chain of command, and that that may, 
in fact, undermine reporting, because if we have 19,000 sexual 
assault cases and only 2,500 roughly are reported, and of that 
2,500, only 240 going to trial, and only 190 convictions, you 
are really seeing only one out of 100 convictions happening for 
every 100 alleged cases.
    So my question to you is, if we shift the disposition 
authority away from the chain of command and actually make that 
decisionmaking process be a responsibility of, let us say, the 
JAG corps, the specific prosecutors who are trained on sexual 
assault, what do you think the impact of that will be? Do you 
think it would affect good order and discipline?
    Ms. Wright. Well, ma'am, you are right. The 19,000 is an 
extrapolation from the survey that we did in 2010, I believe. 
We are soon to send to Congress the new sexual assault report 
which will be the end of the month, which will clarify more 
recent numbers. So the 19,000 and the chain of command, I would 
say that the chain of command is really for good order and 
discipline, and I speak from experience because I am a retired 
general officer.
    I do understand the issues with sexual assault, and I think 
the reporting could have something to do with the chain of 
command, but I also think it has something to do with the 
stigma or the risk of reporting, so I think it is not just an 
area related to the chain of command. I would hazard to say to 
take it out of the chain of command, though I will tell you 
that Secretary Hagel is taking this extremely seriously. I have 
a meeting with his office tomorrow morning to talk about more 
measures that we can take--remember he just did the Article 
60--more measures that he could take to put more teeth into 
what the Department is doing.
    So I will tell you, ma'am, that everything is on the table 
because I think his aperture is wide to solve this problem.
    Senator Gillibrand. I have a concern that you just said 
having 19,000 sexual assaults a year represents good order and 
discipline.
    Ms. Wright. No, ma'am. I think the chain of command is what 
represents the good order and discipline.
    Senator Gillibrand. But we have the chain of command, and 
it is the disposition authority, and you still have 19,000 
sexual assaults.
    Ms. Wright. That is an extrapolation from the survey--
    Senator Gillibrand. Okay. So maybe you have 15,000. Maybe 
you have 12,000. Maybe you have 10,000. Maybe you have 5,000. 
Maybe you have the 2,400 that are reported. I do not believe 
2,400 sexual assaults and rapes every year is good order and 
discipline.
    Honestly, I think if you are going to stick to that line, 
you will undermine your credibility enormously because you are 
not getting it done. You are not assuring the safety of men and 
women who are serving and giving their lives for this country 
from rape from their colleagues. So you cannot say the chain of 
command is assuring good order and discipline because you are 
failing.
    Ms. Wright. Yes, ma'am, I agree with you that 19,000, to 1, 
is way too many, and that we have a problem, and that we need 
to do better. I agree with you 100 percent, and that I am doing 
everything in my power, and the Joint Chiefs are also working 
very diligently to correct this problem.
    Men and women join our ranks to serve our country, and they 
join our ranks because they want to protect this country. This 
is a place where they should feel safe. This is a place where 
they should never, ever, ever have a problem of feeling unsafe. 
They should never have a problem of wondering whether they 
would be sexually assaulted, whether they were a man or a 
woman. I agree with you 100 percent. Whether the number is 
19,000 or one, that is way too many for any period of time in 
our military.
    I do believe that the chain of command is a worthwhile 
organization.
    Senator Gillibrand. We are not talking about the chain of 
command. I am talking about them having a specific 
responsibility called disposition authority. Already Secretary 
Hagel feels very comfortable taking away the responsibility of 
the disposition authority to be able to overturn a verdict. 
That is a big change. He feels no problem making that change.
    What I am asking you to consider is if we make the change 
to say, you also are no longer going to have the ability to 
decide whether the facts that are put before you are worthy of 
going to trial because, number one, you are not trained as a 
prosecutor. Number two, you may not have any background in 
sexual assault and rape. Number three, you may have a 
relationship with a perpetrator or the victim. Number four, you 
are not in the position to be objective.
    Ms. Wright. Ma'am, all of those are very good points. To my 
initial comment, Secretary Hagel has everything now on the 
table since he decided on Article 60, which was a very big 
step, and a very important step, and a very needed step. Since 
he decided on that, I have a meeting with him tomorrow morning 
to give him more ideas, and that is on the table to take it 
away from the chain of command.
    So we are--yes, ma'am.
    Senator Gillibrand. My time has expired, but I will leave 
you with this. Senator Graham made very good points in our last 
hearing on sexual assault. He went through the number of cases 
when, in fact, Article 60 was used to overturn a case. It was 
extremely rare. It was one out of many, many, many cases. It 
was so uncommon.
    If Secretary Hagel believes that that made a difference, I 
think that is a very good first step. But if it is so rare, I 
do not think that alone will change people's interest in 
reporting. I do not think it will change people's assessment of 
whether they will receive justice. I do not think it will 
change people's assessment of whether they think it is safe to 
report to their commanding officer.
    I would like you to make sure when you say everything is on 
the table that you really mean it.
    Ms. Wright. Yes, ma'am.
    Senator Gillibrand. Because so far every person in the 
military that I have spoken to defends this one little 
responsibility that has not--that has only recently been 
elevated to someone higher up the chain of command, so it is 
not as if this person has had this authority for very long. It 
is really since the last NDAA we passed. So it is not something 
that has been set in stone forever and a day.
    I think if you say everything is on the table, you should 
look at the whole structure because that is really what needs 
to be looked at.
    Ms. Wright. Yes, ma'am.
    Senator Gillibrand. There is a reason why people are not 
reporting.
    Ms. Wright. Yes, ma'am. I will guarantee you that we are 
looking at the whole structure.
    Senator Gillibrand. Thank you.
    Senator Ayotte?
    Senator Ayotte. Thank you. I appreciate your passion on 
this really important issue, Madam Chairman. This is an issue 
that is a bipartisan issue that we are concerned about making 
sure that when our men and women in uniform are victims of 
sexual assault, that they understand that when they come 
forward, they will receive justice. They will receive support. 
It seems that they should--to make sure--my background is as a 
prosecutor before this, so I appreciate your passion for this 
and really the pursuit of this in open hearings and having a 
very important dialogue on how we can address this problem.
    I wanted to ask you, Secretary Wright, about the National 
Guard Youth Challenge Program. I think the National Guard Youth 
Challenge Program is very important. We--Senator Landrieu, 
myself, and three other Senators--sent you a letter that cited 
concerns we have about the Office of Secretary of Defense's 
(OSD) role in managing the National Guard Youth Challenge 
Program.
    One of the concerns that we have is that I do not 
understand why, when we had a good program run by the National 
Guard Bureau (NGB) that OSD felt the need to enter into a 
technical assistance contract from OSD rather than letting that 
control remain in the NGB. So can you help me explain why you 
did that?
    Second, I also want to understand why we are not really 
looking at sufficiently funding to maintain national training 
standards as required by the cooperative agreement.
    Ms. Wright. I can tell you that the Youth Challenge Program 
is a phenomenal program. I agree with you totally. It takes 
youth at risk and it turns them into clearly prosperous 
citizens, and have been doing it for years.
    The NGB was in that decision to have that technical 
contract at OSD. It was a gentleman that was part of the 
program named Lou Cabrera who works with the Chief of the NGB. 
He was working with the OSD staff for that technical contract, 
and we kept it in OSD Reserve Affairs.
    We have an oversight role in OSD Reserve Affairs for the 
Youth Challenge Program, and so that is why we kept it there. 
But we did not do it independently at all. We did it in concert 
with the NGB.
    Senator Ayotte. So the NGB actually supported basically 
reducing--I mean, one of the responsibilities we have is to 
provide staff training. If you look at the fiscal climate that 
we are in, to have OSD now have control over this instead of 
having the NGB have control, that, when we look at some of the 
training gaps, I see that as almost the same amount of money 
that you entered into on the spectrum contract for what the 
needs are on the training of the NGB level.
    Can you help me understand the thinking there, because I am 
actually shocked to hear that our NGB would want to give, with 
all due respect to all of you, more control in Washington than 
at the State level. That is not usually what I hear from them. 
Can you help me understand that?
    Ms. Wright. Well, ma'am, I would have to go back and 
research it. May I take it for the record----
    Senator Ayotte. Yes, please.
    Ms. Wright.--because I will certainly talk to Mr. Cabrera, 
who is our point of contact in the Guard Bureau for the Youth 
Challenge Program, and I will get back to you.
    [The information referred to follows:]

    The amount of money ($1 million) entered into on the Spectrum 
contract was provided to help us understand why a number of Youth 
Challenge sites were reporting sub-optimal results. While training is 
very important, we have found that sites fail to achieve their best 
results due to a plethora of reasons beyond just training, e.g., such 
as travel restrictions, staff turnovers, state personnel requirements, 
and various other issues. Additionally, there are no certified training 
standards adapted nationwide. We are continuing to work on developing 
these types of standards with the National Guard Bureau to ensure 
success.
    We intend to continue our strong partnership of the National Guard 
Youth Challenge Program and further assist the National Guard Bureau in 
optimizing this very important program.

    Senator Ayotte. I really appreciate that, because this is a 
very important program. Obviously the study that was done 
assessing this program said for--the program earned $2.66 in 
benefits from every dollar spent for the students. We are 
empowering the future leaders of this country with that 
program, so I really appreciate it very much.
    I also wanted to ask about military voting. I am very 
concerned about what I have heard about concerns of our 
military getting the right and access to voting, and given the 
sacrifices they are making, I think we can do a lot better 
within DOD.
    In fact, in August 2012, the DOD Inspector General 
basically attempted to contact the voting assistance offices, 
and 50 percent of the time when they tried to contact the 
voting assistance office, they got no answer. I cannot even 
imagine what sometimes our men and women in uniform go through 
in trying to exercise their right to vote.
    I would ask you, there are other examples like the way that 
DOD treats a servicemember group life insurance. When someone 
moves from base to base or duty station to duty station, and 
in-processes and out-processes, you actually reconfirm their 
status in that system. Is there any system in place to 
reconfirm with the servicemember when they are being in-
processed or out-processed. You are moving? This is how you 
register to vote. This is your right to exercise your right to 
vote. What are we doing to make sure that our men and women in 
uniform, whatever--whoever they decide to vote, have that 
right?
    Ms. Wright. Ma'am, we know that, and I think it was August 
that you said that there was a problem. We really upped the 
game. We put a full court press in on the voting assistance 
office because we recognized that that was an issue throughout 
the military system.
    We are in full compliance with the MOVE Act. We enhanced 
the Federal Government with voting with automated tools. I am 
reading here because I want to get this right. We provide 
guidance and support to the Military Services and the 
designated installation voting assistance officers. We provide 
guidance and training to the State and local election officials 
to ensure that they are aware of the laws and requirements, and 
we execute the enhanced voter education and outreach campaign. 
Yes, ma'am?
    Senator Ayotte. I do not want to interrupt because I know 
my time is almost up--but one thing I am trying to understand 
is when someone either out-processes or in-processes, is that 
part of their in-processing? Are they told along with an array 
of everything whether this is what you need to do for your life 
insurance, this is what you need for that, if you would like to 
exercise your right to vote, here is information on that. Do we 
do that?
    Ms. Wright. I would have to go back and check, but I will 
also tell you, ma'am, that oftentimes in the Active component 
military, an individual has a home of record. So the home of 
record could be Oregon because they entered and they live--they 
do not live, but they have their voting rights in Oregon. They 
may move all over the country, but they vote in Oregon. So that 
would not change based upon their Permanent Change of Station 
to another duty camp or station.
    I can go and look to see if when we transition we ask them, 
but most times the Active component member continues to vote in 
the State of his or her home of record.
    Senator Ayotte. I understand that, and I am not asking you 
to inquire into whether they vote or not. Just making sure that 
they have the tools at their hands to understand how to 
exercise their right to vote.
    For example, one of the big issues I heard a lot of 
concerns about when they were stationed overseas, whether in 
Afghanistan or other places overseas, a real difficulty of 
getting the ballots in time, all of those issues. That is 
another whole separate conversation we can have.
    If you can at least get back to me on an answer of what--if 
I am now in the military and I move, or if I am stationed 
overseas, I am in Korea, wherever I am, what am I told, and 
what information am I given?
    Ms. Wright. How do you go about getting that?
    Senator Ayotte. I just want to make sure it is standardized 
in an appropriate way----
    Ms. Wright. Yes, ma'am.
    Senator Ayotte.--not to infringe, but to give people 
information.
    Ms. Wright. Yes, ma'am.
    Senator Ayotte. I appreciate it. Thank you.
    [The information referred to follows:]

    In compliance with Federal law, and as guided by the Department of 
Defense Instruction 1000.04 (issued September 13, 2012), the Military 
Services provide information and direct assistance on voter 
registration and absentee ballot procedures to uniformed servicemembers 
and their family members when a servicemember undergoes a permanent 
change of duty station; deploys overseas for at least 6 months, returns 
from such a deployment; and/or requests such assistance.
    The Department ensures that every servicemember, especially those 
stationed overseas, has the information needed to exercise their right 
to vote. As part of the 2012 election cycle, the Federal Voting 
Assistance Program (FVAP) supported the voting process by:

        <bullet> Providing online tools that produced a completed 
        Federal Post Card Application or Federal Write-in Absentee 
        Ballot to be signed and submitted by the voter.
        <bullet> Providing training to the Services and completed 
        assistance visits to 25 percent of the established IVA Offices 
        (43 offices).
        <bullet> Conducting in-person and ``train-the-trainer'' 
        workshops at 83 locations worldwide.
        <bullet> Sending emails to every member of the military with a 
        .mil email address. (More than 18 million sent.)
        <bullet> Enhanced FVAP.gov to provide more direct-to-the-voter 
        assistance, including links to local election official 
        information and State-specific information and forms.
        <bullet> Conducted comprehensive communications and outreach 
        campaigns.
        <bullet> Developing new online training modules for local 
        election officials and Voting Assistance Officers.
        <bullet> Working with State legislatures to enact reforms 
        benefiting military and overseas voters, including the Uniform 
        Military and Overseas Voters Act.

    FVAP is working closely with the Services, State and election 
officials and advocacy groups to ensure voting assistance in support of 
the 2014 elections is even better. Although voting is an individual's 
choice and personal responsibility, the Department works to ensure that 
all members of the Uniformed Services, their families and overseas 
citizens are aware of their most fundamental right--and have the tools 
and resources to vote, if they so choose.

    Senator Gillibrand. Senator Kaine.
    Senator Kaine. Thank you, Madam Chairman. Good afternoon to 
all of you. One of the measures of whether, I guess, a budget 
or a policy is working with respect to personnel is just kind 
of the big picture. How is it going with respect to recruiting, 
and how is it going with respect to retention? What are 
strengths and successes, and what are challenges that you face 
right now on the recruiting and the retention side? Please, Mr. 
Vollrath.
    Mr. Vollrath. Thank you. Let me take that one. First, I 
would make the point that currently recruiting is on track and 
in good shape.
    Senator Kaine. Quickly, you are not having to do anything 
unusual or extra in order to----
    Mr. Vollrath. That is correct.
    Senator Kaine. Okay.
    Mr. Vollrath. That is correct. But having said that, let me 
project out because that is really what I believe we are all 
about here, to manage the future and make sure we are prepared. 
We are very cognizant of the fact that by all means we hope 
that the economy in the United States continues to improve and 
that the unemployment rate continues to go down. That is our 
fondest wish along with every other citizen. But as that 
occurs, and we believe that will occur, then we know by 
experience that we have to be attuned to the fact that 
recruiting is probably going to get a little more difficult as 
we move.
    The second point I would make, as we look to the future, 
because we should learn from the past from the last drawdown in 
the mid-1990s, it is sometimes hard to explain to America that 
you are letting people go, but we still would like to hire 
somebody. So it is counterintuitive.
    Those are two things that we, as we look to the future, we 
want to make sure that we do not become complacent and say, 
well, we can take more money out of recruiting, take more money 
out of recruiting and advertising because it might be just the 
wrong thing to do at the wrong time. So we are watching it like 
a hawk.
    Retention is equally as good, and we do not see any clouds 
out there right now.
    Senator Kaine. Have you noticed any change in the morale 
around recruiting and retention because of budgetary 
challenges, things like sequester, or just the steady drumbeat 
of we have to be about cutting, cutting, cutting?
    Mr. Vollrath. Not on the military side. We have seen some 
concerns on the civilian recruiting side because of a 20 
percent cut in pay. We have a hiring freeze. We are cognizant 
of that one, and it is not a major issue yet, but we are 
watching that, because that is probably going to occur earlier 
than the military issue.
    Senator Kaine. Yes. On the pay side, there is an 
authorization to allow for an increase in salary of 1.8 
percent, and the salary increase proposed in this authorization 
budget is 1 percent. I gather the difference there is about 
$540 million first year and some escalator as it goes by. Was 
that decision made purely as a result of trying to deal with 
challenging budget realities that we would be at the 1 percent 
rather than at the 1.8?
    Ms. Wright. Yes, sir, it was. That was an extremely hard 
decision because our men and women really do yeomen's work for 
us. But with the budget the way it is, we had to strike an even 
balance. So it will be a savings of about $540 million this 
year, and so we wanted to make sure that we certainly got them 
a pay raise, and so it was a collective decision within the 
Department that 1 percent was a good balance.
    Senator Kaine. Just to make sure I understand because this 
is my first personnel hearing dealing with salary and benefit 
issues, the 1.8 percent figure that was authorized was a 
measure of sort of what comparability of what people were 
getting outside the military? Is that sort of a best judgment 
or best--it is like a CPI index of what salary increases are in 
the broader----
    Ms. Wright. Employment Cost Index, sir.
    Senator Kaine. Okay.
    Ms. Wright. Yes, sir.
    Senator Kaine. Okay. I very much applaud in the submission 
the focus on credentialing and training, and this is an area 
with my first piece of legislation I am trying to deal with 
this. I want to do it in a way that is coordinated with you.
    My experience talking to Virginians as Governor and then as 
a candidate was so many folks having a challenge getting 
traction back in a civilian workforce, and there are a variety 
of reasons for that. But one of the reasons seems to be this 
lack of understanding among the civilian hiring officials about 
what it is that somebody brings to the table if they are from 
the military, especially enlisted.
    We appreciate that you serve, but in a day of an all-
volunteer military, where only 1 percent of adults serve, they 
do not understand what a gunnery sergeant does or what an E-5 
does, and so we like you. We are glad you served. You are a 
patriot. But we do not know what you bring and the work that 
you are doing. I very much look forward to working with you on 
credentialing along the way so that people are getting credit 
for the skills they obtain at the moment they obtain them 
rather than trying to recreate it in the last 30 days of an 
active service. I applaud the work you are doing in that area.
    The better it is, the better recruiting technique as well. 
I look forward to working with you on that.
    As we are wrestling with potential force drawdowns, what is 
the current strategy about this scope of officer training, 
especially Reserve Officer Training Corps (ROTC) programs, and 
how have you factored that in going forward in terms of the 
numbers of people you are taking into those officer training 
programs? Because I hear a little bit about people getting out 
and getting commissioned, but then kind of being backed up 
going in, or being put into Reserve status for a long time, or 
potentially even being told, well, now we may not need you. So 
how are you factoring that into your planning?
    Mr. Vollrath. Senator, right now it is, we would say, 
steady as she goes, okay. Navy term. I am not Navy.
    Senator Kaine. Yes. Is that wise? Is it wise to be steady 
as you go if it looks like the overall----
    Mr. Vollrath. We do. We know the force is drawing down, so 
we have turned off slightly, the ROTC program. We commission 
about 6,000 a year, heavily for the Active component. We have 
21,000 or so in the program, most of them on scholarship or 
some type of help. We believe that we have the math about right 
based on the propensity to not overproduce, particularly given 
the fact that we are going to reduce the size.
    We have worked with the various Services. Army, for 
example, they have already reduced the input, and they have 
planned on it for well over a year. They believe, Army in this 
case and all the Services because we have regular meetings 
about it, that they are not going to wind up with a surplus.
    Your point is well taken. Again, back in the good old days 
where we have the tee shirt, we had too many coming through the 
pipe. That has already been factored in, and we think we have 
it about right. We have not had to turn anybody down yet.
    Senator Kaine. Great.
    Mr. Vollrath. We think we have it.
    Senator Kaine. Okay, thank you Madam Chairman.
    Senator Gillibrand. Senator Donnelly.
    Senator Donnelly. Thank you, Madam Chairman. This would be 
for any of you. I wanted to talk to you about a specific 
situation that has arisen recently, and that is over 1,000 
National Guard members from Indiana--my home State--570 of them 
were preparing to deploy to the Horn of Africa this month, 446 
preparing to deploy to Egypt in June, others preparing to 
deploy as well, were just off-ramped and notified that they 
were being replaced by Active component forces.
    This is the only State that this happened to. Two of these 
units it has happened to less than 6 weeks from deployment 
date. Now these are people who cancelled leases, quit jobs, 
took extraordinary steps in their lives to prepare to get 
things squared away. This off-ramp has been extraordinary 
painful to them, to their families. I know that there was a 
policy put in place that was, okay, we will not do this unless 
somebody is at least over 120 days out. That was after this 
occurred because these folks were 6 weeks away.
    Over 1,000 soldiers and their families will lose TRICARE in 
4 days, 4 days from today. A hundred and forty-two of the 
soldiers that re-enlisted, re-enlisted and/or offered bonuses 
because they were going on a deployment. So they are being 
terminated. Then they are going to be asked to re-enlist, but 
there will be no bonus included with them as they do.
    Sixty of the soldiers left their employment. Others were 
denied a job due to the short time between and the mobilization 
date where they could not get a job. Some went back and their 
employer had already hired and were training a replacement for 
them. A number had terminated housing leases.
    We have no objection in Indiana to doing our share, to 
taking our share of the hit, but this is over and above what 
took place. What we are asking for is just a--it is not much. 
In terms of the pain and the suffering that these families are 
going through, it is next to nothing. But this is the Hoosier 
way. They said, look, we are willing to take a shot. We are 
willing to stand up for our country and help out and reduce 
costs. Can you help us with a couple of things? Number one, 
continue the bonus that they were promised. That is not much. 
It is a $500 a month bonus. It is the total of less than $1 
million at the end of the day. Enable these soldiers to have 
180 days of additional TRICARE because in 4 days, they are off 
of TRICARE. These are minimal things that are really, in my 
mind, keeping our promise.
    I spoke to Secretary Hagel and one of the things he has 
always said, people are central to everything we do. Well, it 
is time for us to show that in this case. I would like a 
comment from any of you.
    Ms. Wright. Sir, I understand completely. My last job was 
adjutant general of Pennsylvania, so I know General Umbarger 
very well, and know----
    Senator Donnelly. He is not in a good mood.
    Ms. Wright. No. I can only imagine. I have spoken to him. I 
know Marty, and rightly he should not be in a good mood. This 
was done for financial reasons, but we need to take care of the 
soldiers that it was done to.
    I know that the Army is working through the Guard Bureau 
with General Umbarger. There is a group of those soldiers that 
were catastrophically harmed because of this. There are some of 
those soldiers that may think this is okay. There are people in 
all categories. But our job is to take a look at all of the 
requests that you gave Secretary Hagel and to get back to you 
about where we go from here and how we can affect these 
soldiers' lives for the betterment.
    Senator Donnelly. I am here to try to make sure that this 
is made right because what was done is not.
    Ms. Wright. Yes, sir, and I know how terribly difficult it 
was not only on the soldier because it was very hard on the 
soldier, but on the family members of these soldiers.
    Senator Donnelly. Okay. We will stay in very close contact 
with you on that.
    Ms. Wright. Yes, sir. Thank you.
    Senator Donnelly. Thank you. Thank you, Madam Chairman.
    Senator Gillibrand. Thank you very much, each of you, for 
your service and your testimony. If any of the senators have a 
second round, we will permit it now. Otherwise, we will go to 
the next panel.
    Senator Kaine?
    Senator Kaine. Just one question, Mr. Wightman, on Guard 
and Reserve issues, really a comment more than a question. I 
imagine the manpower, as you are dealing with a time of tough 
resources, some of the manpower issues you are having to 
decide, the Guards, and we all relied on them so heavily as 
governors, they were primarily a Reserve Force. Then we built 
them up into essentially an operational tempo (OPTEMPO) force. 
As Iraq and Afghanistan are drawing down, some of the occasion 
for the OPTEMPO will drop.
    Nevertheless, that training is such good training to have 
in the system right now. So as you are wrestling with manpower 
questions, what do you do with your Active Duty component? That 
has a cost. Might it be better to maintain a big chunk of your 
guard at an OPTEMPO type training? That may be a more cost 
effective way to do it.
    I am curious as to how you wrestle with those kinds of 
manpower challenges. In particular, with respect to the Guard, 
is there an intention to go back to the old days, to have the 
Guard be a Reserve, primarily a Reserve Force, or is there, as 
part of the DOD strategy going forward, is the sense that we 
ought to keep the Guard, continue to harvest the value of that 
training and keep it in a component where there is an OPTEMPO 
capacity there that may obviate the need for some of the 
manpower or training over on the active side?
    Mr. Wightman. Thank you for that question. It is a very 
difficult situation, as you said, when you have men and women 
who have been out there over the last 10 to 11 years and have 
acquired the skills and got to the level that they have, to be 
told that they are going to be on a shelf.
    As you heard from our opening comments, our position is 
that the intention is not to use them simply as a strategic 
reserve, that we still want to keep them as a part of the 
operational force, and we still strive to push that as much as 
we can.
    Now, along those lines, there are three or four studies 
going on within the building, and you heard Secretary Hagel the 
other day talk about when somebody asked him about the Active 
component, Reserve component mix, he said, hang on, that was 
just one of many factors. Then he went through general purpose, 
Special Operations Forces. We have to look at that mix. We have 
to look at the mix of conventional and unconventional, and then 
we also have to look at the capability of our allies. So all of 
this weaves in, in addition to whether or not they are forward 
stationed, or rotationally deployed, or home site. So all of 
this is sort of underway in the building at this time.
    As you probably are also aware, there are several costing 
studies going on, and Chairman Arnold Punaro of the Reserve 
Forces Policy Board has a cost methodology study. In fact, he 
is briefing it to Representative Walls right now. So there is 
that one.
    There is one that we are doing as well. Arnold is looking 
at the individual cost of Reserve versus Active. The Cost 
Assessment and Program Evaluation folks over there are looking 
at more of a unit in the course of a year, how much it costs to 
maintain a unit. Then ours is sort of a mixture, and we are 
looking at different alternatives to come out of that in terms 
of costing.
    So I guess my answer to your question is, there is a lot 
going on. I think the sentiment from my superiors in the 
building is that, yes, we need to maintain the Reserve 
component, maybe at a lesser OPTEMPO, but certainly keep them a 
part of that operational force.
    Senator Kaine. Thank you.
    Senator Gillibrand. Thank you, members of the panel. We 
appreciate your testimony very much.
    We will now turn to the second panel. The second panel, we 
have members of The Military Coalition (TMC), a consortium of 
nationally prominent uniformed service and veteran 
organizations.
    Master Chief, Retired, Joseph L. Barnes, is the National 
Executive Director, Fleet Reserve Association (FRA). Ms. 
Kathleen Moakler is the Government Relations Director, National 
Military Family Association. Colonel, Retired, Steven P. 
Strobridge is the Director of Government Relations, Military 
Officers Association of America (MOAA). Captain, Retired, 
Marshall Hanson is the Director, Legislative and Military 
Policy, Reserve Officer's Association (ROA).
    Before you give your opening statements, I do want to 
recognize Mr. Barnes and Mr. Strobridge, both of whom will be 
retiring soon. You have both appeared before this subcommittee 
numerous times, and the staff informs me that this is quite 
likely the last time that you will come before us. I want to 
publicly thank you for your service in uniform and your service 
in support of those in uniform in your second careers.
    Mr. Barnes spent over 20 years in the Navy before retiring 
as master chief, and then served another 20 years with the FRA. 
Mr. Strobridge served 24 years in the Air Force, retiring as 
colonel, and then spent another 19 years at the MOAA.
    You have served the men and women of the armed services 
well in your time at FRA and MOAA. I thank you for your service 
and wish you well in retirement.
    I now invite you to present your opening statements, but 
ask that you keep your oral statement to 3 to 5 minutes. Yes, 
Mr. Strobridge, please.

STATEMENT OF COL. STEVEN P. STROBRIDGE, USAF, RETIRED, DIRECTOR 
   OF GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF 
                            AMERICA

    Colonel Strobridge. Madam Chairman, distinguished members 
of the subcommittee, we are grateful for the subcommittee's 
longstanding efforts to ensure fair treatment for the entire 
uniformed services community. We deeply appreciate this 
opportunity to present our views on the personnel related 
issues. My portion of the statement will cover health care.
    The coalition disagrees strongly with the budget proposal 
to shift billions more cost to beneficiaries. Claims of 
exploding military health care costs cite growth since 2001 as 
if that were a reasonable starting point, but it is not. 
Congress enacted TRICARE For Life in 2001 to correct the 
ejection of older retirees from military health care in the 6 
years before that. There was a spike as they returned to 
coverage in 2002 and 2003, but the cost growth has actually 
been declining ever since. It was less than 1 percent growth in 
2012, and will likely decline in 2013 because of recently 
approved fee increases and benefit changes directed by this 
subcommittee and also implemented by DOD.
    So the exploding cost claim is actually based on a 10-year 
old data point. The truth is combined personnel and health 
costs are the same share of the defense budget, a little less 
than one-third, that they have been for the last 30 plus years. 
In fact, DOD has used the health accounts as a cash cow to fund 
other needs: diverting $700 million in surplus funds last year 
and $2.5 billion over the last 3 years.
    I want to make it clear that the TRICARE benefit is by and 
large an excellent one. We certainly recognize that. But it has 
to be to help induce large numbers of top quality people to 
accept the extraordinary demands and sacrifices inherent in 
multi-decade military careers. That is why assertions that 
military retirees pay far less for health care than civilians 
do are so aggravating to the military community.
    When someone gives me that argument, I ask if the military 
deal is so great, are you willing to pay what they did to earn 
it? Would you sign up to spend the next 20 years being deployed 
to Iraq, Afghanistan, or wherever the next fight is? That is 
when people realize military people already pay far steeper 
premiums for health care than any civilian, and most of it is 
paid in kind, not in cash.
    That is why when Congress enacted TRICARE For Life in 2001, 
it required no cash enrollment fee. Defense leaders say they 
will keep faith with the currently serving on retirement 
reform, and would apply any retirement changes only to new 
entrants. But if it is breaking faith to change the rules for 
someone with 10 years or even 1 year of service, it is doubly 
so to impose a four-figure TRICARE fee hike on those who 
already completed 20 or 30 years, whether they will retire next 
year, or whether they are already retired.
    After retirees kept their part of the bargain, defense 
leaders, in effect, are saying their service is no longer worth 
so much as they were told it would be. They should pony up 
another $1,000 or $2,000 each year for the rest of their lives. 
They blame the budget crunch, but balk at changes to make the 
system more efficient.
    Many studies document the inefficiencies of DOD's 
fragmented health systems, but DOD's recent review made minimal 
changes, in part because one of the key decision criteria was 
how hard change would be. So the first choice was to make 
retirees pay more because it was easier.
    There is still no single point of responsibility for 
budgeting or delivery of DOD health care. As for the plan to 
means test retiree health fees, that is patent discrimination 
against the military. No other Federal retiree has their health 
benefits means tested, and it is rare in the civilian world. 
Under that perverse system, the longer and more successful you 
serve, the worse your benefits are. The coalition believes that 
proposed rates are significantly too high for all grades.
    We have worked with this subcommittee and its House 
counterpart for years to put what we think are reasonable 
standards in law for health fees and other benefits. We now 
have statutory rules and guidelines, not only for the fee 
levels, but for future adjustments that were put into law only 
5 months ago. Now DOD wants to go change those again.
    We have accepted mail-order refill requirements into high 
pharmacy co-pays. We accept higher rates for TRICARE prime, 
higher co-pays for pharmacy co-pays, and statutory adjustments 
to future increases. This year, DOD will drop nearly 170,000 
beneficiaries from TRICARE prime. All those changes will save 
DOD billions of dollars. Now, we think it is time to hold DOD 
leaders accountable for developing management efficiencies that 
do not impact beneficiary fees or delivery of quality care.
    That concludes my statement. Thank you very much for your 
consideration.
    [The prepared statement of The Military Coalition follows:]

              Prepared Statement by the Military Coalition

    Madam chair and distinguished members of the subcommittee, on 
behalf of The Military Coalition (TMC), a consortium of nationally 
prominent uniformed services and veterans' organizations, we are 
grateful to the committee for this opportunity to express our views 
concerning issues affecting the uniformed services community. This 
statement for the record provides the collective views of the following 
military and veterans' organizations, which represent approximately 5.5 
million current and former members of the 7 uniformed services, plus 
their families and survivors.

         Air Force Association
         Air Force Sergeants Association
         Air Force Women Officers Associated
         AMVETS (American Veterans)
         Army Aviation Association of America
         Association of Military Surgeons of the United States
         Association of the U.S. Army
         Association of the U.S. Navy
         Chief Warrant Officer and Warrant Officer Association, U.S. 
        Coast Guard
         Commissioned Officers Association of the U.S. Public Health 
        Service, Inc.
         Fleet Reserve Association
         Gold Star Wives of America, Inc.
         Iraq and Afghanistan Veterans of America
         Jewish War Veterans of the United States of America
         Marine Corps League
         Marine Corps Reserve Association
         Military Chaplains Association of the United States of America
         Military Officers Association of America
         Military Order of the Purple Heart
         National Association for Uniformed Services
         National Guard Association of the United States
         National Military Family Association
         Naval Enlisted Reserve Association
         Noncommissioned Officers Association
         Reserve Officers Association
         Society of Medical Consultants to the Armed Forces
         The Retired Enlisted Association
         U.S. Army Warrant Officers Association
         U.S. Coast Guard Chief Petty Officers Association
         Veterans of Foreign Wars
         Vietnam Veterans of America
         Wounded Warrior Project

    The Military Coalition, Inc. does not receive any grants or 
contracts from the Federal Government.

                           Executive Summary

         MILITARY PERSONNEL AND HEALTHCARE COSTS IN PERSPECTIVE

    For decades, critics have claimed military personnel costs are 
``rising out of control'' and, if left unchecked, would consume future 
defense budgets. But those charges have proved unfounded.

        <bullet> Defense spending as a percentage of GDP during wartime 
        is much lower than during past conflicts
        <bullet> Personnel and healthcare costs today are the same 
        share of the defense budget today (less than one-third) that 
        they've been for more than 30 years
        <bullet> Personnel/health costs are a lower share of the budget 
        for DOD than for many most-similar corporations (61 percent for 
        UPS, 43 percent for FedEx, and 31+ percent for Southwest 
        Airlines)
        <bullet> At 10 percent of the defense budget, DOD healthcare 
        costs are a bargain compared to the health cost share of the 
        Federal budget (23 percent), the average State budget (22 
        percent), household discretionary spending (16 percent) and GDP 
        (16 percent)
        <bullet> Far from ``exploding out of control,'' Pentagon 
        documents show military healthcare account surpluses have been 
        raided to fund other programs ($708 million diverted in fiscal 
        year 2012 and total of nearly $2.5 billion over last 3 years)
        <bullet> Reprogramming document acknowledged retiree health 
        costs went down 2.5 percent for fiscal year 2012
        <bullet> DOD projections of future defense health care costs 
        have declined steadily for the last 3 years, and will decline 
        further based on recent law/policy changes
        <bullet> Claims of ``cost growth since 2001'' overemphasize 10-
        year-old data. Growth peaked in 2002-2003 with the enactment of 
        TRICARE For Life, and has been declining fairly steadily ever 
        since. It was less than 1 percent for fiscal year 2012, and 
        will decline further in the future based on administrative and 
        statutory changes taking effect in fiscal year 2013
        <bullet> Rather than seeking to raise beneficiary costs, 
        defense leaders should be held accountable for improving 
        efficiency and consolidating redundant, counterproductive 
        health systems. Options to reduce costs include:
        <bullet> Establish a single authority over the three separate 
        military systems and multiple contractors that now compete 
        counterproductively for budget share
        <bullet> Stop ignoring multiple studies urging consolidation of 
        healthcare budget and delivery
        <bullet> Revamp an archaic healthcare contracting system that 
        doesn't obtain the best value
        <bullet> Restructure accounting and record systems that cannot 
        be validated
        <bullet> Optimize use of military treatment facilities (25 
        percent cheaper but 27 percent underused)
        <bullet> Eliminate pre-authorization requirement that 
        incentivizes emergency room visits over far-less-costly urgent 
        care clinics
        <bullet> Establish coordinated care programs for all 
        beneficiaries with chronic conditions
        <bullet> Decades of dire predictions about ``unaffordable'' 
        personnel costs have proved consistently wrong
        <bullet> The only times the All-Volunteer Force has been 
        jeopardized have been due to budget-driven benefit cuts failed 
        to offset the extraordinary demands and sacrifices of a service 
        career
        <bullet> Congress has consistently recognized the cost of 
        sustaining the current military career incentive package is far 
        more acceptable and affordable than the alternative
        <bullet> For all of these reasons, TMC does not support the 
        additional array of proposed TRICARE fee increases proposed in 
        the fiscal year 2014 defense budget. In view of fee increases 
        and statutory and policy benefit limitations already imposed in 
        2011 and 2012, TMC believes it is time to hold Defense 
        officials accountable to implement efficiencies that don't 
        affect fees or care.

                        CURRENTLY SERVING ISSUES

Force Levels
        <bullet> Ensure adequate personnel strengths and associated 
        funding in order to meet national security strategy 
        requirements and dwell time needs.

Compensation
        <bullet> Sustain fully-comparable annual military pay raises 
        (1.8 percent for 2014) based on the Employment Cost Index as 
        specified in current law.

Family Readiness and Base Support
        <bullet> Ensure sustainment of Family Readiness and Support 
        programs and base facilities
        <bullet> Continue support for child care needs of the highly 
        deployable, operational total force community
        <bullet> Press the Defense Department to implement flexible 
        spending accounts to enable military families to pay health 
        care and child care expenses with pre-tax dollars
        <bullet> Maintain much-needed supplemental funding authority 
        for schools impacted by large populations of military students
        <bullet> Encourage greater military spouse and surviving spouse 
        educational and career opportunities, and ensure existing 
        programs are accessible, effective, and meet the needs of all 
        military spouses
        <bullet> Direct a DOD report on Family Support and Readiness 
        programs as well as MWR category programs to include a list of 
        all programs, an assessment of their effectiveness, and 
        recommended policy changes

DOD Resale Operations
        <bullet> Oppose attempts to consolidate or curtail DOD resale 
        systems in ways that would reduce their value to patrons
        <bullet> Sustain necessary appropriated funds to support the 
        commissary system and military exchanges

Military Sexual Trauma
        <bullet> Sustain rigorous oversight to ensure the health, 
        safety, readiness, and confidentiality of military personnel 
        who have been victims of sexual assault.

                           HEALTHCARE ISSUES

Service vs. Beneficiary Needs
        <bullet> Hold Defense leaders accountable for their own 
        leadership, oversight, and efficiency failures instead of 
        simply seeking to shift more costs to beneficiaries
        <bullet> DOD to pursue any and all options to improve efficient 
        and cost-effective care delivery in ways that do not 
        disadvantage beneficiaries

Military vs. Civilian Cash Fees Is ``Apple to Orange'' Comparison
        <bullet> Reject simple comparisons of military-to-civilian cash 
        healthcare fees as grossly devaluing career servicemembers' and 
        families' extraordinarily steep nonmonetary contributions 
        through decades of service and sacrifice.

DOD-VA Oversight, Accountability and Integration
        <bullet> Appoint the Deputy Secretaries of DOD and VA as co-
        chairs of the Joint Executive Council (JEC)
        <bullet> Hold joint hearings with the Veterans Affairs 
        Committee addressing the Joint Executive Council's (JEC) 
        effectiveness in daily oversight, management, collaboration, 
        and coordination of the Departments' wounded warrior programs
        <bullet> Continue to press for creation and implementation of a 
        joint, bi-directional electronic medical record
        <bullet> Provide permanent funding, staffing, and 
        accountability for congressionally mandated Defense Centers of 
        Excellence and associated mental-behavioral health, suicide 
        prevention, alcohol and substance abuse, caregiver, respite, 
        and other medical and non-medical programs
        <bullet> Continue aggressive oversight of the Integrated 
        Disability Evaluation and legacy disability evaluations systems 
        to ensure preservation of the 30-percent threshold for medical 
        retirement, consistency and uniformity of policies, ratings, 
        legal assistance, benefits, and transitional services Defense-
        wide
        <bullet> Standardize terminology, definitions, eligibility 
        criteria, roles and responsibilities around policies, programs, 
        services, and administration of medical and non-medical support 
        (e.g., recovering warrior categories, all categories of case 
        managers, caregiver support and benefits, power of attorney, 
        and a comprehensive recovery plan)
        <bullet> Standardize the coordination of DOD-VA care, treatment 
        and benefits of all Departments' case management programs, and 
        medical and non-medical programs and services

Continuity of Health Care
        <bullet> Secure the same level of payments, support and 
        benefits for all uniformed services' wounded, ill, or injured 
        in the line of duty
        <bullet> Create a standardized curriculum and training programs 
        for all DOD-VA mental-behavioral health providers and 
        educational institutions in the diagnosis and treatment of PTS/
        PTSD/TBI
        <bullet> Increase and improve the quality and timeliness of 
        access to initial and follow-on appointments, treatment and 
        services in DOD-VA systems, ensuring seamless transition of 
        mental-behavioral health services are maintained for wounded, 
        ill, and injured, their families and caregivers across the 
        Departments
        <bullet> Ensure Guard and Reserve members have adequate access 
        and treatment in the DOD and VA health systems for Post-
        Traumatic Stress Disorder and Traumatic Brain Injury following 
        separation from active duty service in a theatre of operations

Mental Health Care Engagement and Destigmatization
        <bullet> Continue efforts to promote engagement in and 
        destigmatization of mental health care
        <bullet> Continue to press for research on most effective 
        treatments, coordination of programs, and measures of efficacy.

DOD-VA Integrated Disability Evaluation/Legacy Systems (IDES)
        <bullet> Preserve the statutory 30 percent disability threshold 
        for medical retirement in order to provide lifetime TRICARE 
        coverage for those who are injured while on active duty
        <bullet> Reform the DOD disability retirement system to require 
        inclusion of all unfitting conditions and accepting the VA's 
        ``service-connected'' rating
        <bullet> Ensure any restructure of the DOD and VA disability 
        and compensation systems does not inadvertently reduce 
        compensation levels for disabled servicemembers
        <bullet> Eliminate distinctions between disabilities incurred 
        in combat vs. non-combat when determining benefits eligibility 
        for retirement
        <bullet> Tightening the Integrated Disability Evaluation System 
        (IDES) (as recommended by the Recovering Warrior Task Force 
        (RWTF)) to include:

                <bullet> Create a ``joint'' formal physical evaluation 
                board in order to standardize disability ratings by 
                each of the Services
                <bullet> Mandate in policy that all servicemembers 
                entering into a Medical Evaluation Board (MEB) be 
                contacted by the MEB outreach lawyer to help navigate 
                the board process upon notification that a narrative 
                summary will be completed

        <bullet> Pursue improvements in identifying and properly 
        boarding (medical evaluation and physical evaluation boards) 
        Guard and Reserve members (to include the IRR) who have been 
        wounded or incurred injuries or illnesses while activated but 
        have had their conditions manifest or worsen post deactivation 
        such as establishing policies that allow for the rapid issuance 
        of title 10 orders to affected Reserve component (as 
        recommended by the RWTF)
        <bullet> Seek legislation to eliminate legacy DES so that that 
        servicemembers who are placed on the Temporary Disability 
        Retirement List (TDRL) are afforded the opportunity to have the 
        VA rate their disability by the IDES upon their removal from 
        the TDRL
        <bullet> Revise the VA schedule for rating disabilities (VASRD) 
        to improve the care and treatment of those wounded, ill, and 
        injured, especially those diagnosed with PTSD and TBI
        <bullet> Bar the designation of disabling conditions as 
        ``existing prior to service'' for servicemembers who have been 
        deployed to a combat zone

Caregiver/Family Support Services
        <bullet> Ensure wounded, ill, and injured families and 
        caregivers are an integral part of the rehabilitation and 
        recovery team and be included in and educated about medical 
        care and treatment, disability evaluation system processes, 
        development and implementation of the comprehensive recovery 
        plan, and receive DOD-VA support and guidance throughout the 
        process
        <bullet> Provide enhanced training of DOD and VA medical and 
        support staff on the vital importance of involving and 
        informing designated caregivers in treatment of and 
        communication with severely wounded, ill, and injured personnel
        <bullet> Provide health and respite care for non-dependent 
        caregivers (e.g., parents and siblings) who have had to 
        sacrifice their own employment and health coverage while the 
        injured member remains on active duty, commensurate with what 
        the VA authorizes for eligible caregivers of medically retired 
        or separated members
        <bullet> Ensure consistency of DOD and VA caregiver benefits to 
        ensure seamless transition from DOD to VA programs
        <bullet> Extend eligibility for residence in on-base housing 
        for up to 1 year for medically retired and severely wounded, 
        ill, and injured members and their families, or until the 
        servicemember receives a VA disability rating, whichever is 
        longer

Guard and Reserve Health Care
        <bullet> Authorize TRICARE for early Reserve retirees who are 
        in receipt of retired pay prior to age 60
        <bullet> Authorize premium-based TRICARE coverage for members 
        of the Individual Ready Reserve after being called to active 
        service for a cumulative period of at least 12 months
        <bullet> Permit employers to pay TRS premiums for reservist-
        employees as a bottom-line incentive for hiring and retaining 
        them
        <bullet> Authorize an option for the government to subsidize 
        continuation of a civilian employer's family coverage during 
        periods of activation, similar to FEHBP coverage for activated 
        Guard-Reserve employees of Federal agencies
        <bullet> Extend corrective dental care following return from a 
        call-up to ensure G-R members meet dental readiness standards
        <bullet> Allow eligibility in Continued Health Care Benefits 
        Program for selected reservists who are voluntarily separating 
        and subject to disenrollment from TRS
        <bullet> Allow beneficiaries of the FEHBP who are Selected 
        reservists the option of participating in TRICARE Reserve 
        Select
        <bullet> Improve the pre- and post-deployment health assessment 
        program to address a range of mental/behavioral health issues 
        such as substance abuse and suicide
        <bullet> Allow for access to a full range of evidenced-based 
        care and services for Reserve component members and their 
        families, particularly during periods of reintegration back 
        into the community

Special Needs Families
        <bullet> Authorize ABA coverage as a permanent benefit under 
        the TRICARE basic program;
        <bullet> Include eligibility to other developmental 
        disabilities that may benefit from ABA;
        <bullet> Ensure permanent funding for this critical therapy; 
        and
        <bullet> Ensure any further adjustments to TRICARE eligibility 
        apply equally to all seven uniformed services.

Additional TRICARE Prime Issues
        <bullet> Authorize beneficiaries affected by Prime Service Area 
        changes to be grandfathered in their present arrangement until 
        they either relocate or change their current primary care 
        provider
        <bullet> Require reports from DOD and the managed care support 
        contractors on actions being taken to ensure those affected by 
        the Prime Service Area reductions will be able to maintain 
        continuity of care from their existing provider or receive an 
        adequate selection of new potential providers
        <bullet> Require increased DOD efforts to ensure electronic 
        health record consistency between MTFs and purchased care 
        sectors and provide beneficiaries with information to assist in 
        informed decisionmaking

Additional TRICARE Standard Issues
        <bullet> Bar any further increase in the TRICARE Standard 
        inpatient copay for the foreseeable future
        <bullet> Insist on immediate delivery of an adequacy threshold 
        for provider participation, below which additional action is 
        required to improve such participation to meet the threshold
        <bullet> Require a specific report on provider participation 
        adequacy in the localities where Prime Service Areas will be 
        discontinued under the new TRICARE contracts
        <bullet> Increase locator support to TRICARE Standard 
        beneficiaries seeking providers who will accept new Standard 
        patients, particularly for primary care and mental health 
        specialties

                   NATIONAL GUARD AND RESERVE ISSUES

Operational Reserve Retention and Retirement Reform
        <bullet> Eliminate the fiscal year limitation which effectively 
        denies full early retirement credit for active duty tours that 
        span the start of a fiscal year (October 1)
        <bullet> Modernize the Reserve retirement system to incentivize 
        continued service beyond 20 years and provide fair recognition 
        of increased requirements for active duty service
        <bullet> Authorize early retirement credit for all active duty 
        tours of at least 90 days, retroactive to September 11, 2001

Yellow Ribbon Reintegration Program
        <bullet> Immediately implement the 2-year pilot for providing 
        TAP services `outside the gate' of active duty bases and 
        broader expansion as soon as possible.
        <bullet> Hold oversight hearings and direct additional 
        improvements in coordination, collaboration and consistency of 
        Yellow Ribbon services between States.

Reserve Compensation System
        <bullet> Credit all inactive duty training points earned 
        annually toward Reserve retirement
        <bullet> Authorize parity in special incentive pay for career 
        enlisted/officer special aviation incentive pay, diving special 
        duty pay, and pro-pay for Reserve component medical 
        professionals
        <bullet> Authorize recalculation of retirement points after 1 
        year of activation

                <bullet> The 2010 NDAA authorized certain flag officers 
                to recalculate retirement pay after 1 year of active 
                duty, and we recommend this authority be extended to 
                all ranks

Guard/Reserve GI Bill
        <bullet> Work with the Veterans Affairs Committee to restore 
        basic Reserve Montgomery GI Bill benefits for initially joining 
        the Selected Reserve to the historic benchmark of 47-50 percent 
        of the active duty MGIB
        <bullet> Integrate Reserve MGIB benefits currently in title 10 
        with active duty veteran educational benefit programs under 
        title 38
        <bullet> Enact academic protections for mobilized Guard and 
        Reserve students, including refund guarantees

Guard/Reserve Family Support Programs
        <bullet> Review the adequacy of programs to meet the special 
        information and support needs of families of individual Reserve 
        augmentees or those who are geographically dispersed
        <bullet> Foster programs among military and community leaders 
        to support servicemembers and families during all phases of 
        deployments
        <bullet> Provide preventive counseling services for 
        servicemembers and families
        <bullet> Authorize child care for family readiness group 
        meetings and drill time and respite care during deployments
        <bullet> Improve the joint family readiness program to 
        facilitate understanding and sharing of information between all 
        family members

                             RETIREE ISSUES

Military Retirement Reform
        <bullet> Oppose any initiative that would ``civilianize'' the 
        military retirement system, ignore the lessons of the ill-fated 
        REDUX initiative, and inadequately recognize the unique and 
        extraordinary demands and sacrifices inherent in a military 
        career.

Cost-of-Living Adjustments (COLAs)
        <bullet> Reject the chained CPI as a basis for adjusting 
        military retired pay
        <bullet> Ensure the continued fulfillment of congressional COLA 
        intent, as expressed in House National Security Committee Print 
        of title 37, U.S.C.: ``to provide every military retired member 
        the same purchasing power of the retired pay to which he was 
        entitled at the time of retirement [and ensure it is] not, at 
        any time in the future . . . eroded by subsequent increases in 
        consumer prices''
        <bullet> Ensure equal treatment of all uniformed service 
        personnel, to include NOAA/USPHS/USCG personnel, with respect 
        to any retirement/COLA legislation

Concurrent Receipt
        <bullet> Continue seeking to expand Concurrent Retirement and 
        Disability Payments (CRDP) to disabled retirees not eligible 
        under the current statute, with first priority for vesting of 
        earned retirement credit for Chapter 61 retirees with less than 
        20 years of service.

Fair Treatment for Servicemembers Affected by Force Reductions
        <bullet> Enact temporary legislation that would allow members 
        separated during periods of significant force reductions to 
        deposit part or all of their involuntary separation pay or 
        voluntary separation pay into their TSP account.

                            SURVIVOR ISSUES

SBP-DIC Offset
        <bullet> Continue pursuing ways to repeal the SBP-DIC offset
        <bullet> Authorize SBP annuities to be placed into a Special 
        Needs Trust for permanently disabled survivors who otherwise 
        lose eligibility for State programs because of means testing
        <bullet> Reduce the age for paid-up SBP to age 67 for those who 
        joined the military at age 17, 18, or 19
        <bullet> Reinstate SBP annuities to survivors who transfer 
        benefits to their children when the children reach majority, or 
        when a subsequent remarriage ends in death or divorce

Final Retired Paycheck
        <bullet> Authorize survivors of retired members to retain the 
        final month's retired pay for the month in which the retiree 
        dies.

                              INTRODUCTION

    Mr. Chairman, The Military Coalition thanks you and the entire 
subcommittee for your exceptionally strong support of our Active Duty, 
Guard, Reserve, retired members, and veterans of the uniformed 
services, their families and survivors. Your efforts have had an 
enormously positive impact in the lives of the entire uniformed 
services community.
    We specifically wish to thank the committee for its good actions in 
adopting the 2012 NDAA provisions recognizing that healthcare is an 
earned benefit for service rendered during a lengthy career and in 
securing more reasonable TRICARE pharmacy co-pay adjustments.
    We are truly grateful for your unwavering commitment to men and 
women who defend our fine nation.
    We appreciate that personnel issues have been a top priority for 
Congress in the past few years. There have been difficult choices 
associated with bolstering a weak economy and addressing record-
breaking budget deficits. The past few years have been exceptionally 
arduous, with our military winding down operations in Afghanistan.
    Despite extraordinary demands, men and women in uniform are still 
answering the call--thanks in no small measure to the subcommittee's 
strong and consistent support--but only at the cost of ever-greater 
personal sacrifices. We have seen dramatic increases in suicide rates 
which reflect the continued stress placed on servicemembers and their 
families. In addition, there are reports that the military divorce 
rates are at the highest level since 1999.

            MILITARY PERSONNEL AND HEALTHCARE COST OVERVIEW

    For decades, critics have claimed military personnel costs are 
``rising out of control'' and, if left unchecked, would ``consume 
future defense budgets.'' They've attacked pay, retirement, health 
care, and other military benefits in hopes of diverting funds to 
hardware or non-defense programs.
    But hard experience proved such claims wrong in the past--and 
they're still wrong today.
Check the Record, Not Misleading Projections
    Over the past 50 years, the defense budget has consumed a 
progressively smaller share of Federal outlays.
    In 1962, defense consumed nearly 47 percent of Federal outlays; 
today it's at its smallest share in 50 years and will drop further--
below 12.5 percent--by 2017.
    Today's wartime share of GDP is lower than for any past conflict, 
as shown in the following chart.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Some argue that's all the more reason to worry about the rising 
cost of military people programs.
    Last year, Defense and service leaders decried military personnel 
and health costs as consuming about roughly one-third of the defense 
budget--implying this represents a dramatic increase.
    The truth is the same one-third of the defense budget has gone to 
personnel and health care costs for the last 30 years. These programs 
are no more unaffordable now than in the past.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Who Says One-Third Is Too Much?
    Is it good or bad if these costs are one-third of a big 
organization's annual budget? There's no civilian counterpart to the 
military, but let's consider corporations with big air fleets. 
Personnel costs comprise:

        <bullet> 61 percent of United Parcel Service's budget.
        <bullet> 43 percent of FedEx's budget.
        <bullet> 31 percent of operating revenue (which includes 
        profit, so the percentage of expenditures is higher) for 
        Southwest Airlines--recognized as among the most cost-efficient 
        air carriers.
Military Health Costs Are NOT ``Eating DOD Alive''
    Defense leaders complain these costs approach 10 percent of the 
(non-war) defense budget.
    But health costs comprise:

        <bullet> 23 percent of the Federal budget
        <bullet> 22 percent of the average State budget
        <bullet> 16 percent of household discretionary spending
        <bullet> 16 percent of U.S. Gross Domestic Product

    Put in proper context, DOD's 10 percent is a bargain.
    In fact, Pentagon documents show DOD has used the military 
healthcare account as a ``cash cow'' to fund other programs.

        <bullet> Diverted $708 million surplus in fiscal year 2012
        <bullet> Diverted total of nearly $2.5 billion over fiscal year 
        2010-2012
        <bullet> Fiscal year 2012 reprogramming request acknowledged 
        retiree health costs went down 2.5 percent
        <bullet> Budget projections have reduced outyear cost estimates 
        3 years in a row
        <bullet> Changes included in National Defense Authorization Act 
        for Fiscal Year 2013 will reduce them even further
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
``Cost Growth Since 2000/2001'' Is a Red Herring
    Citing such statistics implies personnel/health costs in 2001 
represented a reasonable standard. Nothing could be farther from the 
truth.
    In fact, cutbacks in pay, healthcare, and retirement throughout the 
1980s and 1990s caused retention problems in the late 1990s that 
Congress has worked hard to fix over the last decade.
    Charting growth from a starting point in 2000 or 2001 
inappropriately inflates apparent trends by including one-time changes 
made early last decade that won't be repeated in the future.
    The chart below illustrates how citing health cost growth since 
2001 is misleading. The reality is that cost trends have moderated 
significantly in more recent years, and that is far more important for 
projecting future trends than what happened more than a decade ago.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The rate of health cost change will only decline further in the 
outyears, due to:

        <bullet> Significant pharmacy copay increases starting this 
        year
        <bullet> Significant savings from requiring mandatory mail-
        order/military pharmacy refills of maintenance medications for 
        Medicare-eligible beneficiaries starting this year
        <bullet> Savings associated with shrinking TRICARE Prime 
        service areas.

    The bottom line: the ``military health cost growth since 2001'' 
argument is based on 10-year old data that's irrelevant to the future.
The Real Health Cost Issue: Inefficiency, Oversight Failures
    Rather than seeking to blame beneficiaries (and raise 
beneficiaries' costs), defense leaders should focus on fulfilling their 
responsibilities to provide efficient oversight of DOD health programs.
    They should be held accountable for correcting real sources of 
excess costs - fixing known problems and consolidating redundant, 
counterproductive health systems.
    Options to reduce excess costs include:

        <bullet> Establish a single authority over the three separate 
        military systems and multiple contractors that now compete 
        counterproductively for budget share
        <bullet> Stop ignoring the plethora of studies since 1947 which 
        have consistently recommended the consolidation of medical 
        budget oversight and execution
        <bullet> Revamp an archaic healthcare contracting system which 
        doesn't obtain the best value
        <bullet> Restructure accounting and record systems that cannot 
        be validated
        <bullet> Optimize the use of military treatment facilities, 
        which are 25 percent less costly but 27 percent underutilized
        <bullet> Eliminate pre-authorization requirement that 
        incentivizes emergency room visits over far-less-costly urgent 
        care clinics
        <bullet> Establish coordinated care programs for all 
        beneficiaries with chronic conditions

    It's important to recognize that the military's healthcare system 
is built for readiness and service convenience, not for the 
beneficiary's needs.
    When the Services deploy or cut medical professionals, 
beneficiaries are forced into costly civilian care. Attempting to shift 
the costs of readiness or inefficiencies onto the beneficiaries is just 
simply wrong.
    For all of these reasons, TMC does not support the additional array 
of proposed TRICARE fee increases proposed in the fiscal year 2014 
defense budget. In view of fee increases and statutory and policy 
benefit limitations already imposed in 2011 and 2012, TMC believes it 
is time to hold Defense officials accountable to implement efficiencies 
that don't affect fees or delivery of quality care.
Military Retirement: Neither Unfair nor Unaffordable
    Whenever military budgets get tight, analysts, task forces and 
commissions come forth proposing military retirement cutbacks. Past 
defense leaders asserted such efforts were detrimental to retention and 
readiness. In contrast, today's senior defense leaders have voiced 
support for significant changes.
    Former Secretary of Defense Gates criticized the 20-year retirement 
system as ``unfair'' to those who leave service before that point, 
citing the vesting options provided to civilian workers. He directed 
the Defense Business Board (DBB) to identify alternative options.
    In his final appearance before the Senate, Gates endorsed an early 
vesting program, noting, ``70 to 80 percent of the force does not stay 
until retirement but leaves with nothing.''
    Yet there is no support for spending more money on military 
retirement during budget-cutting times. So vesting options proposed to 
date, including those of the DBB and the 11th Quadrennial Review of 
Military Compensation (QRMC)--would fund that new benefit by imposing 
dramatic benefit cuts for the 17 percent who complete full careers in 
uniform.
    There are good reasons only 17 percent of service entrants are 
willing to pursue a military career. The vast majority of Americans are 
unwilling to accept those conditions for even one tour of duty, let 
alone 20 or 30 years.
    Both the DBB and QRMC proposals ignore the hard lessons of previous 
experiences with retirement cuts.
    Budget pressures prompted Congress in 1986 to pass changes reducing 
the 20-year retired pay value by 25 percent for post-1986 entrants.
    At the time, Defense Secretary Caspar Weinberger adamantly opposed 
the so-called ``REDUX'' change, warning Congress it inevitably would 
undermine retention and readiness. That prediction proved true a decade 
later, and Congress repealed REDUX in 1999.
    Stunningly, the cuts to career military retirement benefits 
proposed by both the DBB and QRMC are vastly more severe than the 
retention-killing REDUX cuts.
    The powerful pull of the 20-year retirement system is the main 
reason retention hasn't imploded over the past decade-plus of 
unprecedented wartime strains on troops and families.
    If one tried to build a plan to slash career retention, it's hard 
to conceive a better way than the DBB or QRMC proposals.
    Advocates for these draconian initiatives sugarcoat them by saying 
they wouldn't affect anyone currently serving and would apply only to 
new entrants. But that was true of the REDUX system, and we know how 
that turned out.
    The ``Military Compensation and Retirement Modernization 
Commission'' mandated by the National Defense Authorization Act for 
Fiscal Year 2013 includes a ``grandfather'' clause to exempt currently 
serving personnel from recommended reforms.
    But grandfathering the current force only lets leaders evade 
responsibility for their ill-conceived actions by deferring the 
inevitable retention disaster for a decade and dumping the mess on 
their successors.
    Military retirement critics have claimed for decades the current 
unique plan is unaffordable and unsustainable.
    Almost 35 years ago, the 1978 report of the President's Commission 
on Military Compensation included this extract from the minority report 
of Commissioner Lt. Gen. Benjamin O. Davis Jr., USAF (Ret.):

          ``Unfortunately, the commission has embraced the myth that 
        retirement costs will soon rise so high--from $10 billion this 
        year to $30 billion in the year 2000--as to become an 
        unacceptable and unfair burden on the American taxpayer.
          ``Such assertions fail to point out that by using the same 
        assumptions, today's average family income of $10,000 will be 
        $36,000 in the year 2000. The average cost of a home will be 
        $171,000; a compact automobile will cost $17,000; and the 
        overall U.S. budget will have increased from $500 billion to 
        some amount in the trillions.''

    Such numbers seem quaint today, but they make two telling points.
    First, long-term projections that now appear dire often prove far 
less so as years pass.
    Second, after budget-driven retirement cuts in 1986 undermined 
retention, Congress found restoring the current system more affordable 
than continued retention and readiness shortfalls.
    DBB leaders acknowledged they didn't consider the potential 
retention effects of their plan.
    During 2012 testimony before Congress, defense witnesses 
acknowledged the DBB proposal would hurt retention--and went a step 
further.
    Dr. Jo Ann Rooney, principal deputy undersecretary for Personnel 
and Readiness, testified the current military retirement system is 
``neither unaffordable, nor spiraling out of control,'' noting 
retirement costs as a percentage of pay have remained reasonably 
constant.
Why the Military Requires Unique Incentives for Career Service
    A military career entails unique and arduous service conditions few 
other Americans are willing to endure for 20 to 30 years, including:

        <bullet> Hazardous duty
        <bullet> Service in foreign, often hostile environments
        <bullet> Frequent/extended forced family separations
        <bullet> Long duty hours without extra pay
        <bullet> Frequent forced relocations
        <bullet> Disruption of spousal career/earnings
        <bullet> Disruption of children's schooling
        <bullet> Inadequate expense reimbursement
        <bullet> ``Up or out'' promotion system
        <bullet> Forced mid-life career change
        <bullet> Forfeiture of personal freedoms other Americans take 
        for granted

Keeping Faith with the All-Volunteer Force
    No Federal obligation is more important than protecting national 
security. The most important element of national security is 
sustainment of a dedicated, top-quality career military force, but only 
a fraction of 1 percent of our population is willing to endure a single 
term of service, let alone a full career.
    The past decade of unprecedented demands and sacrifices highlight 
how radically different military service conditions are from civilian 
life.
    Yet budget critics persist in asserting military pay, retirement, 
and health care benefits are unsustainable and should be slashed to 
resemble civilian benefit packages.
    Decades of dire predictions about ``unaffordable'' personnel costs 
have proved consistently wrong.
    Existing career incentives have sustained a strong national defense 
through more severe and protracted wartime conditions then even the 
strongest volunteer-force proponents thought it could survive.
    The only times the All-Volunteer Force has been jeopardized have 
been due to budget-driven cutbacks in the military compensation package 
that gave insufficient weight to the extraordinary demands and 
sacrifices inherent in a service career.
    Congress has consistently recognized the cost of sustaining the 
current military career incentive package is far more acceptable and 
affordable than the alternative.
    America will remain the world's greatest power only as long as it 
continues to fulfill its reciprocal obligation to the only weapon 
system that has never let our country down--our extraordinarily 
dedicated, top-quality, all-volunteer career force.
    The coalition offers the following recommendations on what must be 
done to meet this essential obligation.

                        CURRENTLY SERVING ISSUES

Force Levels
    We are thankful Congress revised the permanent active duty end 
strength minimum levels in the 2013 NDAA and placed an annual 
limitation on end strength reductions for both the Army and Marines.
    We certainly understand why DOD is reducing force levels by 110,000 
as operations wind down in Afghanistan and that the ongoing fiscal 
crisis requires significant budget reductions. However, the coalition's 
believes continued care must be taken to ensure force reductions do not 
create additional burdens on our servicemembers and their families.
    For the last decade, servicemembers and their families have endured 
unprecedented sacrifices often having less than a year at home before 
returning for another year in combat. Both Defense and Service leaders 
have acknowledged that minimum dwell time should be at least 2 years at 
home after a year deployment. Stress indicators are alarming as we see 
increases in divorces, suicide rates, and other symptoms. Moreover the 
minimum dwell time goal has yet to be attained for all deploying 
servicemembers.
    Concurrently, we believe that the Nation needs to sustain a surge 
capacity for unexpected contingencies and retaining combat experience 
by encouraging departing veterans to join the Guard and Reserve. On 
September 10, 2001 no one in Washington anticipated the following 
decade would find us engaged in two major and protracted wars.
    Cutting Guard/Reserve Forces as well as Active Forces will make 
achieving these goals even more difficult.
    Additionally, providing a competitive compensation and benefits 
package is essential for recruiting and maintaining a quality All-
Volunteer Force. Funding needed military schools and indexed housing 
allowances and support services are powerful incentives for retaining 
skilled and experienced personnel, a concern we all share in dealing 
with an extended national crisis.
    The coalition urges the subcommittee to ensure adequate personnel 
strengths and associated funding in order to meet national security 
strategy requirements and dwell time needs.

Compensation
    The coalition was pleased that Congress approved an active duty 1.7 
percent pay raise in the 2013 NDAA which reflected the growth in 
private sector pay, as measured by the Bureau of Labor Statistics' 
Employment Cost Index (ECI). Congress has made great strides to restore 
military pay comparability over the past 13 years, including a 
statutory change that explicitly ties military pay raises to ECI 
growth.
    However, the coalition is very concerned that many in the 
administration and some Members of Congress are unaware of the history 
of compensation including changes and associated unforeseen outcomes. 
Moreover we are alarmed that some view these vital compensation 
programs as a source of savings without regard to the impact they may 
have on long term readiness in the All-Volunteer Force.
    The coalition is particularly concerned about the administration's 
proposal to cap the 2014 military pay raise at 1 percent, rather than 
matching the ECI-based average American's 1.8 percent raise, as 
required by current law.
    History provides ample evidence that capping military raises is an 
exceptionally slippery slope which has never ended well.
    In the 1970s, a succession of annual pay raise caps contributed to 
serious retention problems which were fixed approving two large 
``catch-up'' raises in 1981 and 1982. But that lesson was quickly 
forgotten.
    Throughout the 1980s and 1990s, budget problems led to regular 
capping of military pay raises below private sector pay growth, 
eventually accumulating a ``pay comparability gap'' which peaked at 
13.5 percent in 1998-1999, and again contributed significantly to 
serious retention problems.
    Now that erosion of pay and associated retention-related problems 
have abated, there are renewed calls to cut back on military raises, 
create either a new comparability standard, or substitute more bonuses 
for pay raises in the interests of deficit reduction.
    The coalition believes such proposals are exceptionally short-
sighted in light of the extensive negative past experience with 
military pay raise caps.
    History shows that, once military pay raise caps are implemented, 
the tendency has been to continue them until retention problems arise 
which then have to be addressed through significant pay raise plus-ups.
    The purpose of sustaining pay comparability through both good times 
and bad is to prevent retention and readiness problems from occurring. 
This avoids going through endless cycles of causing problems and then 
repairing them.
    Additionally, the Pentagon has been advocating for a new 
comparability standard under which each pay and longevity cell would 
represent the 70th percentile of compensation for similarly-educated 
civilians.
    A 2010 Congressional Budget Office (CBO) report asserted that, 
considering adjustments in housing allowances, many military people 
actually are paid somewhat more than their civilian counterparts in 
terms of Regular Military Compensation (RMC), composed of basic pay, 
food and housing allowances, and the tax advantage that accrues because 
the allowances are tax-free.
    The coalition believes the CBO assertions are fundamentally flawed 
for three distinct reasons.
    First, the RMC concept was developed in the 1960s, when all 
servicemembers received the same allowances, regardless of location, 
and the allowances were arbitrarily established. Congress has since 
transformed the allowances into reimbursements for actual food costs 
and for median locality-based housing costs. Under the RMC 
comparability concept, a year in which taxes increase and average 
housing allowances rise (e.g., based on growth in high-cost areas) 
could perversely require a cut in basic pay to restore comparability.
    The coalition believes it would be difficult for Congress to 
explain to troops why their pay raises should be reduced because their 
taxes are rising.
    Second, the coalition is not convinced that the civilian comparison 
cohort or percentile comparison points as proposed by DOD are 
appropriate since the military:

        <bullet> Recruits from the top half of the civilian aptitude 
        population;
        <bullet> Finds that only about 25 percent of America's youth 
        qualify for entry;
        <bullet> Requires career-long education and training 
        advancement; and
        <bullet> Enforces a competitive ``up-or-out'' promotion system 
        to ensure progressive quality enhancements among those with 
        longer service.

    Third, it is essential to recognize that compensation is not simply 
the amount one is paid. It is pay divided by what's required of the 
recipient to earn that pay. If pay increases 25 percent but 100 percent 
more sacrifice is required to earn it, that's not a pay raise.
    In that context, today's conditions of service are far more arduous 
than anything envisioned 40 years ago when the All-Volunteer Force was 
created. Those creators believed a protracted war would require 
reinstitution of the draft.
    Moreover, a fundamental requirement for any pay comparability 
standard is that it should be transparent and understandable by all. 
The coalition has sought, but has never been provided by DOD, any data 
on what civilian comparison cohort was selected and why, and what 
rationale was used to establish a specific percentile comparison point.
    The coalition agrees with the approach Congress has consistently 
taken--that the best comparability measure is a comparison of the 
military basic pay raise percentage with the percentage growth private 
sector pay, as measured by the Bureau of Labor Statistics' Employment 
Cost Index (ECI). The government uses the ECI for every other measure 
of private pay growth, and it's transparent to government leaders and 
servicemembers alike.
    The coalition urges the subcommittee to sustain fully-comparable 
annual military pay raises (1.8 percent for 2014) based on the ECI as 
specified in current law.

Family Readiness and Base Support
    A fully funded, robust family readiness program continues to be 
crucial to overall readiness of our military, especially with the 
demands of frequent and extended deployments.
    Resource shortfalls continue to plague basic installation support 
programs. At a time when families are dealing with continuing 
deployments, they often are being asked to do without in other 
important areas.
    Yet the Defense Department has acknowledged that sequestration has 
placed family support programs at even greater risk
    The coalition urges the subcommittee to continue to press the 
Defense Department to exercise its authority to establish flexible 
spending accounts (FSAs) for servicemembers so they can participate in 
the same pre-tax program available to all other Federal employees for 
their out-of-pocket health and dependent care expenses.
    The coalition was especially pleased that the subcommittee secured 
a plus-up in Impact Aid in the 2013 NDAA. Providing appropriate and 
timely funding of Impact Aid is critical to ensuring quality education 
for military children regardless of where they live.
    The coalition urges the subcommittee to:

        <bullet> Ensure sustainment of Family Readiness and Support 
        programs and base facilities
        <bullet> Continue support for child care needs of the highly 
        deployable, operational total force community
        <bullet> Continue pressing the Defense Department to implement 
        flexible spending accounts to enable military families to pay 
        health care and child care expenses with pre-tax dollars
        <bullet> Continue much-needed supplemental funding authority to 
        schools impacted by large populations of military students
        <bullet> Encourage greater military spouse and surviving spouse 
        educational and career opportunities, and ensure existing 
        programs are accessible, effective, and meeting the needs of 
        all military spouses
        <bullet> Direct a DOD report on Family Support and Readiness 
        programs as well as MWR category programs to include a list of 
        all programs, an assessment of their effectiveness, and 
        recommended policy changes

DOD Resale Operations
    The Military Coalition strongly believes military commissary, 
exchange and Morale Welfare and Recreation (MWR) programs contribute 
significantly to a strong national defense by sustaining morale and 
quality of life for military beneficiaries both within the United 
States and around the globe.
    The coalition is very concerned about initiatives to curtail 
appropriated fund support for these activities.
    The resale system has proven its efficiency, as the Defense 
Commissary Agency (DeCA) alone has reduced its annual operating costs 
by more than $700 million per year.
    Repeated studies have shown that military commissaries provide $2 
in compensation value to beneficiaries for each $1 of appropriated 
funding. That constitutes a very significant retention ``bang for the 
buck.''
    Initiatives to civilianize commissaries or consolidate commissaries 
and exchanges to achieve budget savings would come only at the expense 
of devaluing their compensation and retention importance value for 
military patrons.
    The coalition urges the subcommittee to:

        <bullet> Oppose attempts to consolidate or curtail DOD resale 
        systems in ways that would reduce their value to patrons
        <bullet> Sustain necessary appropriated funds to support the 
        Commissary and Exchange

Military Sexual Trauma
    With an estimated 19,000 yearly sexual assaults within the 
military, low rates of report and prosecution, and the negative impact 
of delayed treatment seeking for victims of MST, this is a pressing 
issue. The coaltion is grateful for the subcommittee's positive action 
on these issues.
    Preventing sexual assaults demands the most forceful of efforts. 
DOD has attempted to institute prevention strategies and improve 
response mechanisms, and has reported on its progress. However, as 
Congress recognized in imposing wide-ranging new measures through the 
NDAA for Fiscal Year 2013, DOD has not gone far enough. Ultimately, 
resolving this issue requires a culture change and forceful leadership, 
and ongoing congressional oversight to sustain that effort. Instituting 
policies that encourage and support victims through the reporting 
process would be a first step in combating a culture of complacency. 
Revising the military justice system to hold perpetrators accountable 
would be another.
    Additionally, with few victims of MST reporting their assault, 
screening and treatment are needed areas of improvement. A January 2013 
GAO report on DOD health care for servicewomen found health care for 
victims of MST can vary by service, providers often aren't aware of 
health care services available or what they have a responsibility to 
provide, and DOD has no established guidance for treatment of injuries 
stemming from MST. At a recent Senate Armed Services Committee hearing, 
officials from DOD stated they are working on providing that guidance.
    The coalition urges Congress to sustain rigorous oversight to 
ensure the health, safety, readiness and confidentiality of military 
personnel who have been victims of sexual assault.

                           HEALTH CARE ISSUES

Service vs. Beneficiary Needs &
    Unlike civilian healthcare systems, the military health system is 
built mainly to meet military readiness requirements rather than to 
deliver needed care efficiently to beneficiaries.
    Each Service maintains its unique facilities and systems to meet 
its unique needs, and its primary mission is to sustain readiness by 
keeping a healthy force and sustaining capacity to treat casualties 
from military actions. That model is built neither for cost efficiency 
nor beneficiary welfare.
    When military forces deploy, the military medical force goes with 
them, and that forces families, retirees and survivors to use the more 
expensive civilian health care system in the absence of so many 
uniformed health care providers. This shift in the venue of care and 
the associated costs are completely out of beneficiary control.
    These military-unique requirements have significantly increased 
readiness costs. But those added costs were incurred for the 
convenience of the military, not for any beneficiary consideration, and 
beneficiaries should not be expected to bear any share of military-
driven costs--particularly in wartime.
    The coalition strongly rejects Defense leaders' efforts to seek 
dramatic beneficiary cost increases as a first cost-containment option 
rather than meeting their own responsibilities to manage military 
healthcare programs in a more cost-effective manner.
    Instead of imposing higher fees on beneficiaries as the first 
budget option, DOD leaders should be held accountable for the REAL 
source of excess costs: failing to fix/consolidate redundant, 
counterproductive DOD health systems. These failures have added 
billions to defense health costs. Specifically:

        <bullet> Decades of GAO and other reports demonstrate DOD cost 
        accounting systems lack transparency and are unauditable
        <bullet> No single authority over three separate service health 
        systems and multiple contractors that compete for budget share 
        in self-defeating ways
        <bullet> DOD and service leaders ignore 19 studies by GAO, IG, 
        and others since 1947, all showing consolidation of policies, 
        medical budget oversight and execution would save billions
        <bullet> A last-century contract system undermines capacity for 
        best practices
        <bullet> Military treatment facilities are 25 percent less 
        costly--but 27 percent underutilized
        <bullet> DOD-sponsored reviews indicate more efficient 
        organization could cut health costs 30 percent without 
        affecting care or beneficiary costs
        <bullet> Incentives to providers are not sufficiently based on 
        quality-driven clinical outcomes that reward efficiency and 
        value
        <bullet> Referral requirements that add complexity and actually 
        inhibit timely delivery of needed and cost-effective care 
        should be eliminated (e.g., referral is not required for 
        emergency room visits, but is required for acute care 
        facilities, leading many TRICARE Prime beneficiaries to 
        routinely visit far-more-expensive emergency rooms on weekends 
        and evenings)
        <bullet> Current inflexible appointment systems inhibit 
        beneficiary access to care

    These are only some of the examples demonstrating that effective 
leadership, oversight, and reorganization of military healthcare 
delivery could dramatically reduce defense health costs without 
affecting care or costs for beneficiaries.
    The coalition urges the subcommittee to hold Defense leaders 
accountable for their own leadership, oversight, and efficiency 
failures instead of simply seeking to shift more costs to 
beneficiaries. Congress should direct DOD to pursue any and all options 
to improve efficient and cost-effective care delivery in ways that do 
not disadvantage beneficiaries.

Military vs. Civilian Cash Fees Is ``Apple to Orange'' Comparison
    The coalition continues to object strongly to simple comparisons of 
military vs. civilian cash fees. Such ``apple to orange'' comparisons 
ignore most of the very great price career military members and 
families pay for their coverage in retirement.
    The unique package of military retirement benefits--of which a key 
component is a superior health care benefit--is the primary offset 
provided uniformed servicemembers for enduring a career of unique and 
extraordinary sacrifices that few Americans are willing to accept for 1 
year, let alone 20 or 30. It is an unusual and essential compensation 
package a grateful Nation provides to the small fraction of the 
population who agree to subordinate their personal and family lives to 
protecting our national interests for so many years.
    For all practical purposes, those who wear the uniform of their 
country are enrolled in a 20- to 30-year prepayment plan that must be 
completed to earn lifetime health coverage. Once that prepayment is 
already rendered, the government cannot simply ignore it and focus only 
on post-service cash payments--as if the past service, sacrifice, and 
commitments had no value.
    DOD and the Nation--as good-faith employers of the trusting members 
from whom they demand such extraordinary commitment and sacrifice--have 
a reciprocal health care obligation to retired servicemembers and their 
families and survivors that far exceeds any civilian employers.
    Until a few years ago, this was not a particular matter of concern, 
as no Secretary had previously proposed dramatic fee increases.
    The experience of the recent past--during which several Secretaries 
proposed no increases and then a new Secretary proposed doubling, 
tripling, and quadrupling various fees--has convinced the coalition 
that current law leaves military beneficiaries excessively vulnerable 
to the varying budgetary inclinations of the incumbent Secretary of 
Defense.
    It's true that many private sector employers are choosing to shift 
more healthcare costs to their employees and retirees, and that's 
causing many still-working military retirees to fall back on their 
service-earned TRICARE coverage. Fallout from the recession has 
reinforced this trend.
    Efforts to paint this in a negative light (i.e., implying that 
working-age military retirees with access to civilian employer plans 
should be expected to use those instead of military coverage) belie 
both the service-earned nature of the military coverage and the 
longstanding healthcare promises the government aggressively employed 
to induce their career service.
    The coalition urges the subcommittee to continue to reject simple 
comparisons of military-to-civilian cash healthcare fees as grossly 
devaluing career servicemembers' and families' extraordinarily steep 
nonmonetary contributions through decades of service and sacrifice.

              WOUNDED, ILL, AND INJURED SERVICEMEMBER CARE

    TMC believes strongly that Active DOD and VA collaboration is not 
only essential to achieving seamless transition, such cooperation is 
also critical to the long-term sustainability of our defense strategy, 
the health and wellness of the All-Volunteer Force and the 
acknowledgement of our country's commitment and moral obligation to the 
long-term care and support for those who served.
    As the military begins implementing its exit strategy in 
Afghanistan, the coalition worries about the stability and viability of 
the policies, programs, and services over the long haul intended to 
care and support our wounded, ill, and injured and their families-
caregivers.
    Thanks to the subcommittee's efforts, policy, program and service 
enhancements have greatly enhanced system capacities and capabilities. 
Since 2007, every National Defense Authorization Act has built upon 
institutionalizing a seamless, unified and synchronized health systems-
approach for caring and supporting our wounded heroes and their 
families.
    The coalition commends DOD and VA for the milestones they have 
achieved to make these systems better over the last decade. We believe 
greater progress can be made if the Departments more aggressively 
pursue collaborative partnerships with other government agencies and 
non-government entities to drive down costs, support seamless 
transition efforts, and improve continuity of medical care. Both 
agencies have stated repeatedly that `they can't meet the needs of our 
recovering warriors without the help of outside organizations'--yet, 
DOD and VA continue to remain isolated and closed systems, not drawing 
on or leveraging the very public-private partnerships they say they 
want and need.
    The challenges are many, and the policy and program issues remain 
extremely complex and seemingly difficult to overcome. However, TMC 
believes collaborative efforts of the administration, Congress, the 
Pentagon and Military Services, and VA working together with military 
and veteran organizations and beneficiaries can remove these barriers 
and simplify the systems.

DOD-VA Oversight, Accountability, and Integration
    Since the Pentagon and VA have relegated responsibility and 
authority to lower levels of the agencies, TMC has seen an expansion of 
uncertainty and confusion as to what the hundreds of wounded, ill, and 
injured programs are doing, what the span of control is over these 
programs, or what the return on investment, efficacy, or effectiveness 
of these program in meeting the needs of a growing population of 
military, veterans and families that are and will be accessing these 
systems of care.
    The limited authority of the Joint Executive Committee (JEC) and 
visibility of these important issues are making it difficult for senior 
official involvement and oversight on these matters and limiting the 
Department's ability to fully establish a synchronized, uniform and 
seamless approach to care and services. Additionally, significant 
changes in the DOD civilian and military leadership and threats of 
significant budget cuts make caring for our wounded warriors more 
critical than ever before.
    While many well-meaning and hard-working military personnel and 
civilians are doing their best to keep pushing progress forward, 
leadership, organization, and mission changes have left many leaders 
frustrated with the process, insufficient resources, and struggling to 
effect needed changes.
    The coalition urges joint hearings by the Armed Services and 
Veterans Affairs Committees to assess the effectiveness of current 
seamless transition oversight efforts and systems and to solicit views 
and recommendations from DOD, VA, the military services, and 
nongovernmental organizations concerning how joint communication, 
cooperation, and oversight could be improved.
    The recent announcement that DOD and VA are backtracking on 
development and implementation of a joint DOD-VA electronic medical 
record is particularly discouraging, given the broad consensus on how 
essential this joint record is to long-term success of seamless 
transition efforts.
    The coalition specifically recommends Congress:

        <bullet> Appoint the Deputy Secretaries of DOD and VA as co-
        chairs of the Joint Executive Council (JEC)
        <bullet> Hold joint hearings with the Veterans Affairs 
        Committee addressing the Joint Executive Council's (JEC) 
        effectiveness in daily oversight, management, collaboration, 
        and coordination of the Departments' wounded warrior programs
        <bullet> Continue to press for creation and implementation of a 
        joint, bidirectional electronic medical record
        <bullet> Provide permanent funding, staffing, and 
        accountability for congressionally mandated Defense Centers of 
        Excellence and associated mental-behavioral health, suicide 
        prevention, alcohol and substance abuse, caregiver, respite, 
        and other medical and non-medical programs
        <bullet> Continue aggressive oversight of the Integrated 
        Disability Evaluation and legacy disability evaluations systems 
        to ensure preservation of the 30-percent threshold for medical 
        retirement, consistency and uniformity of policies, ratings, 
        legal assistance, benefits, and transitional services Defense-
        wide
        <bullet> Standardize terminology, definitions, eligibility 
        criteria, roles and responsibilities around policies, programs, 
        services, and administration of medical and non-medical support 
        (e.g., recovering warrior categories, all categories of case 
        managers, caregiver support and benefits, power of attorney, 
        and a comprehensive recovery plan)
        <bullet> Standardize the coordination of DOD-VA care, treatment 
        and benefits of all Departments' case management programs, and 
        medical and non-medical programs and services

Continuity of Health Care
    Transitioning between DOD and VA health care systems remains a 
significant and one of the most challenging aspects of the care process 
for wounded warriors and their families. The medical systems continue 
to be overwhelming and confusing to those trying to navigate them, 
especially during times when individuals are experiencing a great deal 
of trauma and uncertainty about what the future holds at the same time 
coping with the realities of their wounds and disabilities. Wounded 
warriors and their families continue to be less satisfied with their 
transition after separation or medical retirement and into longer-term 
care and support in either the military or VA medical systems.
    Additionally, systemic, cultural, and bureaucratic obstacles often 
prevent the servicemember or veteran from receiving the continuity of 
care they need to heal and have productive and a high level of quality 
of life they so desperately need and desire. We hear regularly from 
members who have experienced significant disruptions of care upon 
leaving service, and frustration that many of the essential 
rehabilitation services that were available on active duty are no 
longer available to them in the military health system and/or VA, such 
as behavioral health, cognitive rehabilitation services.
    The coalition urges Congress to:

        <bullet> Secure the same level of payments, support and 
        benefits for all uniformed services' wounded, ill, or injured 
        (WII) in the line of duty
        <bullet> Create a standardized curriculum and training programs 
        for all DOD-VA mental-behavioral health providers and 
        educational institutions in the diagnosis and treatment of PTS/
        PTSD/TBI
        <bullet> Increase and improve the quality and timeliness of 
        access to initial and follow-on appointments, treatment, and 
        services in DOD-VA systems, ensuring seamless transition of 
        mental-behavioral health services are maintained for wounded, 
        ill, and injured, their families and caregivers across the 
        Departments
        <bullet> Ensure Guard and Reserve members have adequate access 
        and treatment in the DOD and VA health systems for Post-
        Traumatic Stress Disorder and Traumatic Brain Injury following 
        separation from active duty service in a theatre of operations

Mental Health Care Engagement and Destigmatization
    The rising suicide rate within the military suggests that a 
majority of servicemembers are not seeking the help they need. Stigma 
and organizational barriers to care are part of the reason why only a 
small proportion of soldiers with psychological problems seek 
professional help. Another deterrent is servicemembers' negative 
perceptions about the utility of mental health care. To reach these 
warriors, greater engagement is key.
    Family support, peer outreach, and community partnerships have been 
explored as methods to better engage servicemembers in needed care. The 
recent Army Task Force on Behavioral Health report acknowledged the 
need to reach out and involve family members. Given the impact of 
family support and strain on warriors' resilience and recovery, more 
must be done to provide needed mental health care to veterans' family 
members. Meeting warriors where they are within the community or 
through peer outreach has been found to be an effective first step in 
engaging warriors in mental health care. DOD should do more to enlist 
these resources as an effective method to get servicemembers to seek 
help.
    DOD and the VA must work collaboratively, not simply to improve 
access to mental health care, but to identify and further research the 
reasons for--and solutions to--warriors' resistance to seeking such 
care. With a high percentage of servicemembers not seeking mental 
health treatment, it is important to ascertain which modalities of 
treatment might be effective. There should be greater investment in 
researching treatment efficacy, so more evidence based treatments can 
be rolled out to provide greater flexibility in mental health care that 
would engage more servicemembers.
    In addition to identifying and resolving reasons warriors often 
don't engage in mental health care, DOD and VA must do more to measure 
what current programs are working. There are a myriad of suicide 
prevention and resiliency programs within the DOD, yet it remains 
unclear how effectiveness is measured or how these programs are 
coordinated to provide real assistance to those in need no matter their 
service, where they are stationed or deployed.
    The Army report on behavioral health highlighted an expanded 
program of behavioral health providers at the brigade level. While 
increasing access to care is an important step in providing needed 
treatment, ensuring efficacy is critical. DOD must be able to measure a 
range of pertinent mental health matters, including timely access, 
patient outcomes, staffing needs, numbers needing or provided 
treatment, provider productivity, and treatment capacity. Greater 
transparency and continued oversight into DOD's mental health care 
operations are starting points for closing gaps in servicemembers' 
mental health treatment.
    The coalition recommends Congress:

        <bullet> Continue efforts to promote engagement in and 
        destigmatization of mental health care
        <bullet> Continue to press for research on most effective 
        treatments, coordination of programs, and measures of efficacy.

DOD-VA Integrated Disability Evaluation/Legacy Systems (IDES)
    TMC still hears too many emotional stories of ``low-balling'' 
disabled servicemembers' disability ratings, or troops separated with 
service-connected conditions not documented or reported in records, 
causing members with significant disabling conditions to be separated 
and turned over to the VA rather than being medically retired--a 
troublesome trend today, especially for those in the Guard and 
Reserves.
    Congress has taken positive steps to address this situation, 
including establishment of the Physical Disability Board of Review 
(PDBR) to give previously separated servicemembers an opportunity to 
appeal too-low disability ratings.
    The DOD-VA IDES pilot has been fully implemented and expanded, and 
is considered to be much more streamlined and non-adversarial, and more 
mechanisms are in place to help members navigate and advocate for the 
member through the process, unlike its legacy system counterpart.
    Unfortunately, some services still use loopholes, such as 
designating disorders as ``existing prior to service,'' even though the 
VA rated the condition as ``service-connected'' and the member was 
deemed fit enough to serve in a combat zone. The coalition believes 
strongly that once we have sent a soldier, sailor, airman, or marine to 
war, the member should be given the benefit of the doubt that any 
condition subsequently found should not be considered as existing prior 
to service.
    The coalition also agrees with the opinion expressed by former 
Secretary Gates that a member forced from service for wartime injuries 
should not be separated, but should be awarded a high enough rating to 
be retired for disability.
    The coalition recommends Congress:

        <bullet> Preserve the statutory 30 percent disability threshold 
        for medical retirement in order to provide lifetime TRICARE 
        coverage for those who are injured while on active duty
        <bullet> Reform the DOD disability retirement system to require 
        inclusion of all unfitting conditions and accepting the VA's 
        ``service-connected'' rating
        <bullet> Ensure any restructure of the DOD and VA disability 
        and compensation systems does not inadvertently reduce 
        compensation levels for disabled servicemembers
        <bullet> Eliminate distinctions between disabilities incurred 
        in combat vs. non-combat when determining benefits eligibility 
        for retirement
        <bullet> Tightening the Integrated Disability Evaluation System 
        (IDES) (as recommended by the RWTF) to include:

                <bullet> Create a ``joint'' formal physical evaluation 
                board in order to standardize disability ratings by 
                each of the Services
                <bullet> Mandate in policy that all servicemembers 
                entering into a Medical Evaluation Board (MEB) be 
                contacted by the MEB outreach lawyer to help navigate 
                the board process upon notification that a narrative 
                summary will be completed

        <bullet> Pursue improvements in identifying and properly 
        boarding (medical evaluation and physical evaluation boards) 
        Guard and Reserve members (to include the IRR) who have been 
        wounded or incurred injuries or illnesses while activated but 
        have had their conditions manifest or worsen post deactivation 
        such as establishing policies that allow for the rapid issuance 
        of title 10 orders to affected Reserve component (as 
        recommended by the RWTF)
        <bullet> Seek legislation to eliminate legacy DES so that that 
        servicemembers who are placed on the Temporary Disability 
        Retirement List (TDRL) are afforded the opportunity to have the 
        VA rate their disability by the IDES upon their removal from 
        the TDRL
        <bullet> Revise the VA schedule for rating disabilities (VASRD) 
        to improve the care and treatment of those wounded, ill, and 
        injured, especially those diagnosed with PTSD and TBI
        <bullet> Bar the designation of disabling conditions as 
        ``existing prior to service'' for servicemembers who have been 
        deployed to a combat zone

Caregiver/Family Support Services
    The sad reality is that, for the most severely wounded, ill, or 
injured servicemembers, their family members or other loved ones often 
become their full-time caregiver. Many are forced to give up their 
jobs, homes, and savings to care for their loved one--an incredible and 
overwhelming burden for these individuals to shoulder.
    The coalition believes the government has an obligation to provide 
reasonable compensation and training for such caregivers, who never 
dreamed that their own well-being, careers, and futures would be 
devastated by military-caused injuries to their servicemembers.
    The coalition appreciates the subcommittee's sustained support for 
caregivers and requests additional steps be taken to ensure that 
nondependent caregivers (e.g., parents and siblings) who have had to 
sacrifice their own employment and health coverage are provided health 
and respite care while the injured member remains on active duty, 
commensurate with what the VA authorizes for caregivers of wounded, 
ill, and injured veterans.
    In a similar vein, many wounded or otherwise-disabled members 
experience significant difficulty transitioning to medical retirement 
status. To assist in this process, consideration should be given to 
authorizing medically retired members and their families to remain in 
on-base housing for up to 1 year after retirement, in the same way that 
families are allowed to do when a member dies on active duty.
    Another important care continuity issue for the severely wounded, 
ill, and injured is the failure to keep caregivers of these personnel 
involved in every step of the care and follow-up process, even when 
they have official documentation authorizing them as a caregiver or 
guardian. TMC continues to hear with great frequency, that clinicians 
and administrative staff in military treatment or VA facilities exclude 
caregiver participation, talking only to the injured member or 
excluding them completely in the process.
    Congress, DOD, and the VA have worked to get essential information 
to the wounded, ill, and injured and their caregivers. Similar efforts 
are urgently needed to educate medical providers and administrative 
staff at all levels that the final responsibility for ensuring 
execution of prescribed regimens of care for severely wounded, ill, and 
injured servicemembers typically rests with the caregivers, who must be 
kept involved and informed on all aspects of these members' treatment, 
appointments, and medical evaluations.
    The coalition recommends Congress:

        <bullet> Ensure wounded, ill, and injured families and 
        caregivers are an integral part of the rehabilitation and 
        recovery team and be included in and educated about medical 
        care and treatment, disability evaluation system processes, 
        development and implementation of the comprehensive recovery 
        plan, and receive DOD-VA support and guidance throughout the 
        process
        <bullet> Provide enhanced training of DOD and VA medical and 
        support staff on the vital importance of involving and 
        informing designated caregivers in treatment of and 
        communication with severely wounded, ill, and injured personnel
        <bullet> Provide health and respite care for non-dependent 
        caregivers (e.g., parents and siblings) who have had to 
        sacrifice their own employment and health coverage while the 
        injured member remains on active duty, commensurate with what 
        the VA authorizes for eligible caregivers of medically retired 
        or separated members
        <bullet> Ensure consistency of DOD and VA caregiver benefits to 
        ensure seamless transition from DOD to VA programs
        <bullet> Extend eligibility for residence in on-base housing 
        for up to 1 year for medically retired and severely wounded, 
        ill, and injured members and their families, or until the 
        servicemember receives a VA disability rating, whichever is 
        longer

Guard and Reserve Health Care
    The coalition is very grateful for sustained progress in providing 
reservists' families a continuum of government-sponsored health care 
coverage options throughout their military careers into retirement, but 
key gaps remain.
    DOD took the first step in the 1990s by establishing a policy to 
pay the Federal Health Benefits Program (FEHB) premiums for G-R 
employees of the Department during periods of their active duty 
service.
    Thanks to this subcommittee's efforts, considerable additional 
progress has been made in subsequent years to provide at least some 
form of military health coverage at each stage of a Reserve component 
member's life, including TRICARE Reserve Select for actively drilling 
Guard/Reserve families and TRICARE Retired Reserve for ``gray area'' 
retirees.
    But some deserving segments of the Guard and Reserve population 
remain without needed coverage, including post-deployed members of the 
Individual Ready Reserve and early Reserve retirees who are in receipt 
of non-regular retired pay before age 60.
    In other cases, the coalition believes it would serve Guard/Reserve 
members' and DOD's common interests to explore additional options for 
delivery of care to Guard and Reserve families. As deployment rates 
decline, for example, it would be cost-effective to establish an option 
under which DOD would subsidize continuation of employer coverage for 
family members during (hopefully less-frequent) periods of activation 
rather than funding year-round TRS coverage.
    TMC continues to support closing the remaining gaps to establish a 
continuum of health coverage for operational reserve families.
    The coalition recommends:

        <bullet> Authorizing TRICARE for early Reserve retirees who are 
        in receipt of retired pay prior to age 60
        <bullet> Authorizing premium-based TRICARE coverage for members 
        of the Individual Ready Reserve after being called to active 
        service for a cumulative period of at least 12 months
        <bullet> Permitting employers to pay TRS premiums for 
        reservist-employees as a bottom-line incentive for hiring and 
        retaining them
        <bullet> Authorizing an option for the government to subsidize 
        continuation of a civilian employer's family coverage during 
        periods of activation, similar to FEHBP coverage for activated 
        Guard-Reserve employees of Federal agencies
        <bullet> Extending corrective dental care following return from 
        a call-up to ensure G-R members meet dental readiness standards
        <bullet> Allowing eligibility in Continued Health Care Benefits 
        Program for selected reservists who are voluntarily separating 
        and subject to disenrollment from TRS
        <bullet> Allowing beneficiaries of the FEHBP who are Selected 
        reservists the option of participating in TRICARE Reserve 
        Select
        <bullet> Improving the pre- and post-deployment health 
        assessment program to address a range of mental/behavioral 
        health issues such as substance abuse and suicide
        <bullet> Allow for access to a full range of evidenced-based 
        care and services for Reserve component members and their 
        families, particularly during periods of reintegration back 
        into the community

Additional TRICARE Prime Issues
    The coalition strongly advocates for the transparency of healthcare 
information via the patient electronic record between both the MTF 
provider and network providers. Additionally, institutional and 
provider healthcare quality information should be available to all 
beneficiaries so that they can make better informed decisions with 
their healthcare choices.
    Most importantly, the coalition is highly concerned regarding the 
growing dissatisfaction among TRICARE Prime enrollees in the Prime 
Service Areas (PSAs). The dissatisfaction arises with the impending 
impact this will have on beneficiaries and the elimination of many PSAs 
under the new contract.
    This will entail a substantive disruption in health care delivery 
for thousands of beneficiaries who will be required to find different 
providers and will change the continuity of care for beneficiaries who 
have difficulty accessing care in many areas of the country. The 
beneficiary will also bear more of the cost of their healthcare by 
covering co-payments.
    Now that the three managed care contractors are in sync, this 
reduction will commence on October 1, 2013 with the beneficiaries who 
live in the areas where Prime service will be terminated.
    The Military Coalition urges the subcommittee to:

        <bullet> Authorize beneficiaries affected by Prime Service Area 
        changes to be grandfathered in their present arrangement until 
        they either relocate or change their current primary care 
        provider
        <bullet> Require reports from DOD and the managed care support 
        contractors on actions being taken to ensure those affected by 
        the Prime Service Area reductions will be able to maintain 
        continuity of care from their existing provider or receive an 
        adequate selection of providers from which to obtain care
        <bullet> Require increased DOD efforts to ensure electronic 
        health record consistency between MTFs and purchased care 
        sectors and provide beneficiaries with information to assist in 
        informed decisionmaking

Special Needs Families
    The coalition is grateful that the National Defense Authorization 
Act for Fiscal Year 2013 established a year pilot program making family 
members of currently serving and retired members of all Services 
diagnosed with an autism spectrum disorder eligible for applied 
behavioral analysis therapy (ABA) under the TRICARE program.
    The coalition is very pleased the original provision was amended to 
include all uniformed services, but is disappointed the new authority 
excludes family members with other diagnoses for which ABA therapy is 
beneficial.
    The coalition also is concerned that the pilot program was funded 
for only 1 year.
    The Military Coalition urges the subcommittee to:

        <bullet> Authorize ABA coverage as a permanent benefit under 
        the TRICARE basic program;
        <bullet> Include eligibility to other developmental 
        disabilities that may benefit from ABA
        <bullet> Ensure permanent funding for this critical therapy; 
        and
        <bullet> Ensure any further adjustments to TRICARE eligibility 
        apply equally to all seven uniformed services.

Additional TRICARE Standard Issues
    The coalition appreciates the subcommittee's continuing interest in 
the specific problems unique to TRICARE Standard beneficiaries. TRICARE 
Standard beneficiaries need assistance in finding participating 
providers within a reasonable time and distance from their home. This 
is particularly important with the expansion of TRICARE Reserve Select 
and the upcoming change in the Prime Service Areas, which will place 
thousands more beneficiaries into TRICARE Standard.
    The coalition is grateful that the National Defense Authorization 
Act for Fiscal Year 2012 extended through 2015 the requirement for DOD 
to survey participation of providers in TRICARE Standard.
    However, we are concerned that DOD has not yet established 
benchmarks for adequacy of provider participation, as required by 
section 711(a)(2) of the NDAA for Fiscal Year 2008. Participation by 
half of the providers in a locality may suffice if there is not a large 
Standard beneficiary population, but could severely constrain access in 
other areas with higher beneficiary density.
    The coalition hopes to see an objective participation standard 
(perhaps based on the number of beneficiaries per provider) that would 
help shed more light on which locations have participation shortfalls 
of primary care managers and specialists that require intervention.
    Further, the coalition believes the Department should be required 
to take action to increase provider participation in localities where 
participation falls short of the standard.
    A source of continuing concern is the TRICARE Standard inpatient 
copay for retired members, which now stands at $708 per day or 25 
percent of billed charges. The coalition believes this amount already 
is excessive, and should continue to remain capped at that rate for the 
foreseeable future.
    The coalition urges the subcommittee to:

        <bullet> Bar any further increase in the TRICARE Standard 
        inpatient copay for the foreseeable future
        <bullet> Insist on immediate delivery of an adequacy threshold 
        for provider participation, below which additional action is 
        required to improve such participation to meet the threshold
        <bullet> Require a specific report on provider participation 
        adequacy in the localities where Prime Service Areas will be 
        discontinued under the new TRICARE contracts
        <bullet> Increase locator support to TRICARE Standard 
        beneficiaries seeking providers who will accept new Standard 
        patients, particularly for primary care and mental health 
        specialties

                   NATIONAL GUARD AND RESERVE FORCES

    Since September 11, 2001, more than 865,500 Guard and Reserve 
servicemembers have been called up, including about 285,000 who have 
served multiple tours. There is no precedent in American history for 
this sustained reliance on warrior-citizens and their families. To 
their credit, Guard and Reserve combat veterans continue to reenlist, 
but recurring activations and deployments cannot be sustained under 
Operational Reserve policy without adjustments to the compensation 
package.
    Guard and Reserve members and families face unique challenges in 
their readjustment following active duty service. Unlike active duty 
personnel, many Guard and Reserve members return to employers who 
question their contributions in the civilian workplace, especially as 
multiple deployments have become the norm. Many Guard-Reserve troops 
return with varying degrees of combat-related injuries and stress 
disorders, and encounter additional difficulties after they return that 
can cost them their jobs, careers, and families.
    Despite the continuing efforts of the Services and Congress, most 
Guard and Reserve families do not have access to the same level of 
counseling and support that active duty members have. The coalition is 
encouraged that last year Congress enacted measures to attack the 
epidemic of suicides in the total force, expand access to behavioral 
health services and create a pilot to provide transition services 
outside of active duty bases. Properly implemented, these initiatives 
will help, but more remains to be done.

Operational Reserve Retention and Retirement Reform
    Congress took the first step in modernizing the Reserve retirement 
system with enactment of early retirement eligibility for certain 
reservists activated for at least 90 continuous days served since 
January 28, 2008.
    More recently, Congress passed an historic measure authorizing up 
to 60,000 reservists to perform active duty missions for up to 1 year 
without a formal emergency declaration so long as the missions are pre-
planned and budgeted.
    The coalition believes this change further underscores the need to 
ensure Guard and Reserve members' compensation keeps pace with the 
Nation's ever-increasing reliance on them. The greater the demands 
placed on them, the greater the need to enhance inducements that are 
essential to sustain the operational Reserve Force over the long term.
    Repeated, extended activations make it more difficult to sustain a 
full civilian career and impede reservists' ability to build a full 
civilian retirement, 401(k), et cetera. Regardless of statutory 
protections, periodic long-term absences from the civilian workplace 
can only limit Guard/Reserve members' upward mobility, employability 
and financial security. Further, strengthening the Reserve retirement 
system will serve as an incentive to retaining critical mid-career 
officers and NCOs for continued service and thereby enhance readiness.
    As a minimum, the next step in modernizing the Reserve retirement 
system is to eliminate the inequity inherent in the current fiscal year 
retirement calculation, which credits 90 days of active service for 
early retirement purposes only if it occurs within the same fiscal 
year. A 90-day tour served from January through March is credited, but 
a 120-day tour served from August through November is worthless 
(because the latter covers 60 days in each of 2 fiscal years).
    Moreover, the law-change authorizing early retirement credit for 
qualifying active duty served after 28 Jan 2008 requires early Reserve 
retirees to pay exorbitant TRICARE Retired Reserve premiums if they 
wish to have government health insurance before age 60.
    The coalition urges the subcommittee to:

        <bullet> Eliminate the fiscal year limitation which effectively 
        denies full early retirement credit for active duty tours that 
        span the start of a fiscal year (1 October)
        <bullet> Modernize the Reserve retirement system to incentivize 
        continued service beyond 20 years and provide fair recognition 
        of increased requirements for active duty service
        <bullet> Authorize early retirement credit for all active duty 
        tours of at least 90 days retroactive to September 11, 2001

Yellow Ribbon Reintegration Program
    Congress has provided increased resources to support the transition 
of warrior-citizens back into the community. But program execution 
remains spotty from State to State and falls short for those returning 
Federal Reserve warriors in widely dispersed regional commands. 
Programs should meet a standard level of family support within each 
State. Military and civilian leaders at all levels must improve the 
coordination and delivery of services for the entire operational 
Reserve Force. Many communities are eager to provide support and do it 
well. But Yellow Ribbon efforts in a number of locations amount to 
little more than PowerPoint slides and little or no actual 
implementation.
    DOD must ensure that State-level best practices--such as those in 
Maryland, Minnesota, and New Hampshire--are applied for all operational 
Reserve Force members and their families, and that Federal Reserve 
veterans have equal access to services and support available to 
National Guard veterans. Community groups, employers and service 
organization efforts need to be encouraged and better coordinated to 
supplement unit, component, Service and VA outreach and services.
    The Military Coalition urges immediate implementation of the 2-year 
pilot for providing TAP services `outside the gate' of active duty 
bases and broader expansion as soon as possible. Congress should hold 
oversight hearings and direct additional improvements in coordination, 
collaboration and consistency of Yellow Ribbon services between States.

Reserve Compensation System
    The increasing demands of qualifications, mental skills, physical 
fitness, and training readiness on the Guard and Reserve to perform 
national security missions at home and abroad and increased training 
requirements indicate that the compensation system needs to be improved 
to attract and retain individuals into the Guard/Reserve. The added 
responsibility of returning to active duty multiple times over the 
course of a Reserve career requires improvements to the compensation 
package and to make it more equitable with the Active component.
    The coalition recommends subcommittee authorize:

        <bullet> Credit for all inactive duty training points earned 
        annually toward Reserve retirement
        <bullet> Parity in special incentive pay for career enlisted/
        officer special aviation incentive pay, diving special duty 
        pay, and pro-pay for Reserve component medical professionals
        <bullet> The recalculation of retirement points after 1 year of 
        activation

                <bullet> The 2010 NDAA authorized certain flag officers 
                to recalculate retirement pay after 1 year of active 
                duty, and we recommend this authority be extended to 
                all ranks

Guard/Reserve GI Bill
    The coalition is most grateful to Congress for passage of the Post-
9/11 GI Bill (Chapter 33, 38 U.S.C.), which includes a provision for 
reservists to accrue benefits for operational active duty service. 
However, Selected Reserve GI Bill benefits (Chapter 1606, 10 U.S.C.) 
have not been adjusted proportionally for more than 13 years.
    The coalition recommends the subcommittee:

        <bullet> Work with the Veterans Affairs Committee to restore 
        basic Reserve Montgomery GI Bill benefits for initially joining 
        the Selected Reserve to the historic benchmark of 47-50 percent 
        of the active duty MGIB
        <bullet> Integrate Reserve MGIB benefits currently in title 10 
        with active duty veteran educational benefit programs under 
        title 38
        <bullet> Enact academic protections for mobilized Guard and 
        Reserve students, including refund guarantees

Guard/Reserve Family Support Programs
    The coalition appreciates the upgrades in outreach programs and 
services for returning Guard-Reserve families. Family support programs 
promote better communication with servicemembers and help underwrite 
morale and overall readiness.
    The coalition urges the subcommittee to:

        <bullet> Review the adequacy of programs to meet the special 
        information and support needs of families of individual Reserve 
        augmentees or those who are geographically dispersed
        <bullet> Foster programs among military and community leaders 
        to support servicemembers and families during all phases of 
        deployments
        <bullet> Provide preventive counseling services for 
        servicemembers and families
        <bullet> Authorize child care for family readiness group 
        meetings and drill time and respite care during deployments
        <bullet> Improve the joint family readiness program to 
        facilitate understanding and sharing of information between all 
        family members

                             RETIREE ISSUES

Military Retirement Reform
    Whenever military budgets get tight, budget analysts, commissions 
and chartered task forces propose military retirement cutbacks.
    Past defense leaders resisted such efforts as being detrimental to 
retention and readiness. In contrast, former Secretary of Defenses 
Gates and Panetta voiced support for significant retirement changes. 
The administration's recently proposed (2012) BRAC like commission to 
modernize the military compensation system reflects a lack of 
understanding about the radical differences between uniform service and 
civil careers.
    The coalition appreciates Congress' wise action last year in 
modifying the composition of the Military Compensation and Retirement 
Modernization Commission and eliminating restrictions under which its 
recommendations may be considered by Congress.
    We strongly believe that any proposed changes recommended by the 
Commission must be considered in light of previous congressional reform 
efforts and thoroughly vetted in the public forum.
    The basic principles of the existing compensation system were 
designed to foster and maintain the profession of arms as a 
``dignified, respected, sought after, and honorable career'' as 
outlined in the DOD's Military Compensation Background Papers.
    The unique military retirement package we have today was formulated 
to offset the extraordinary demands and sacrifices inherent in a 
service career. These benefits provide a powerful incentive for top-
quality people to serve 20-30 years in uniform, despite the burden of 
sacrifices as eloquently articulated by the Secretary of the Air Force 
during his January 18, 1978 testimony before the President's Commission 
on Military Compensation:

          ``The military services are unique callings. The demands we 
        place on our military men and women are unlike those of any 
        other country. Our worldwide interests and commitments place 
        heavy burdens and responsibilities on their shoulders. They 
        must be prepared to live anywhere, fight anywhere, and maintain 
        high morale and combat efficiency under frequently adverse and 
        uncomfortable conditions. They are asked to undergo frequent 
        exposure to risk, long hours, periodic relocation and family 
        separation. They accept abridgement of freedom of speech, 
        political and organizational activity, and control over living 
        and working conditions. They are all part of the very personal 
        price our military people pay.
          ``Yet all of this must be done in the light of--and in 
        comparison to--a civilian sector that is considerably 
        different. We ask military people to be highly disciplined when 
        society places a heavy premium on individual freedom, to 
        maintain a steady and acute sense of purpose when some in 
        society question the value of our institutions and debate our 
        national goals. In short, we ask them to surrender elements of 
        their freedom in order to serve and defend a society that has 
        the highest degree of liberty and independence in the world. I 
        might add, a society with the highest standard of living and an 
        unmatched quality of life.
          ``Implicit in this concept of military service must be long-
        term security and a system of institutional supports for the 
        serviceman and his family which are beyond the level of 
        compensation commonly offered in the private, industrial 
        sector.''

    There is no better illustration of that reality than the past 11 
years of war. Absent the career drawing power of the current 20-year 
retirement system and its promised benefits, the coalition asserts that 
sustaining anything approaching the needed retention rates over such an 
extended period of combat deployments would have been simply 
impossible.
    The crucial element to sustaining a high-quality, career military 
force is establishing a strong bond of reciprocal commitment between 
the servicemember and the government. If that reciprocity is not 
fulfilled, if we break faith with those who serve, retention and 
readiness will inevitably suffer.
    The coalition believes the government has a unique responsibility 
to this small segment of Americans that goes far beyond any civilian 
employer's obligation to its employees. We actively induce these 
citizens to subordinate their interests to that of America's for 
periods of 20 to 30 years. No private employer would ever consider 
making such a request.
    The uniformed services retirement system has had its critics since 
the 1970s and even earlier.
    In the 1980s, budget pressures led to amending retirement rules 
twice for new service entrants:

        <bullet> Basing retired pay calculations on the high-36-month 
        average of basic pay instead of final basic pay (1980), and
        <bullet> Enacting the REDUX system that cut 20-year retired pay 
        value by more than 25 percent (1986).

    At the time the REDUX plan was being considered, then-Secretary of 
Defense Caspar Weinberger strongly, but unsuccessfully, opposed it (see 
attached letter), arguing the change would harm retention and degrade 
readiness. ``It says in absolute terms,'' said Weinberger, ``that the 
unique, dangerous, and vital sacrifices they routinely make are not 
worth the taxpayer dollars they receive.''
    When his prediction of adverse retention consequences proved all 
too accurate in the 1990s, Congress repealed REDUX in 1999 at the 
urging of the Joint Chiefs of Staff.
    Since then innumerable studies and task forces have recommended 
even more dramatic changes, usually either to save money, to make the 
system more like those offered under civilian programs, or both.
    Most recently, groups such as the National Commission on Fiscal 
Responsibility and Reform, the Debt Reduction Task Force, the 
Sustainable Defense Task Force, and the Defense Business Board's (DBB) 
``Modernizing the Military Retirement'' Task Group have all recommended 
radically revamping the system more on civilian lines, significantly 
reducing military retirement compensation.
    Secretary Gates criticized the 20-year retirement system as 
``unfair'' to those who leave service before that point, pointing out 
that vesting options are provided to civilian workers. Therefore he 
directed the DBB to identify alternative options. In his final 
appearance before the Senate, Gates endorsed an early vesting program, 
noting, ``70 to 80 percent of the force does not stay until retirement 
but leaves with nothing.''
    However, there is no support for spending more money on military 
retirement, so the vesting options proposed to date--including those of 
the DBB and the DOD-sponsored 11th Quadrennial Review of Military 
Compensation (QRMC)--would fund that new benefit by imposing dramatic 
benefit cuts for the 17 percent who complete decades in uniform.
    All too aware of the lessons learned, Congress has wisely ignored 
and dismissed these ivory-tower recommendations which propose far 
greater retirement cuts than REDUX entailed.
    The existing retirement system is often characterized as 
``inflexible'', limiting the ability of Service personnel managers to 
more precisely and effectively manage the force. The coalition strongly 
disagrees.
    The Services already have substantial authority to adjust force 
structure by revising high-year-of-tenure limits to enforce the unique 
military ``up-or-out'' promotion system, to incentivize voluntary 
separations and to bring about voluntary or mandatory early 
retirements.
    The Services routinely tighten retention and reenlistment 
incentives and other restrictions when budget considerations create a 
need for additional separations and retirements. When necessary, 
Congress has provided additional special drawdown authorities to create 
the right force structure.
    However, the reality is that precisely planned force management 
initiatives are regularly abandoned in the wake of real-world events 
that often force dramatic reversals of planned actions. Reform measures 
which envision delaying retirement until age 57 or 60 belie the reality 
that the Services don't need or want the vast majority of members to 
stay in uniform that long.
    Service desires for unlimited flexibility to shape the force may be 
appropriate for the management of hardware and other non-sentient 
resources. However, the Services are dependent upon attracting and 
retaining smart people who understand all too well when their leaders 
place no limits on the sacrifices that may be demanded of them, but 
also wish to reserve the right to change the rules on them and kick 
them out at will . . . even while building a system that assumes they 
will be willing to serve under these conditions until age 60.
    Servicemembers from whom we demand so much deserve some stability 
of career expectations in return.
    The coalition believes ``civilianizing'' the military benefit 
package would dramatically undermine the primary military career 
retention incentive and would be disastrous for retention and 
readiness, as they increase the incentives to leave and reduce the 
incentives for career service.
    Moreover, we believe it is irresponsible to focus on budget and 
``civilian equity'' concerns while ignoring the primary purpose of the 
retirement system--to ensure a strong and top-quality career force in 
spite of arduous service conditions which no civilians experience and 
few are willing to accept.
    America will remain the world's greatest superpower only as long as 
it continues to fulfill its reciprocal obligation to the All-Volunteer 
Career Force.
    The coalition urges the subcommittee to oppose any initiative which 
would ``civilianize'' the military retirement system, ignore the 
lessons of the ill-fated REDUX initiative, and inadequately recognize 
the unique and extraordinary demands and sacrifices inherent in a 
military career.

Cost-of-Living Adjustments (COLAs)
    In recent years, several commissions have proposed adjusting the 
Consumer Price Index (CPI) methodology to the so-called ``chained CPI'' 
calculation as a means of holding down COLA growth for military and 
Federal civilian retired pay, Social Security and all other Federal 
annuities over time.
    Proponents of the chained CPI say it more accurately reflects 
changes in annuitants' cost of living by recognizing that their 
purchasing behavior changes as prices change. If the price of beef 
rises, for example, consumers may purchase more chicken and less beef.
    What chained CPI doesn't capture is increasing costs where there 
are no adequate substitutes, such as rent or utilities. The real issue 
is whether chained CPI measuring changes in prices or changes in the 
quality of life. Following the logical progression to an extreme we 
could find consumers substituting hot dogs for chicken, et cetera.
    The Bureau of Labor Statistics has estimated that implementation of 
the chained CPI would depress COLAs by about 0.25 to 0.3 percentage 
point per year.
    The DOD actuary estimates that inflation will average 3 percent per 
year over the long term.
    Using those two estimates, applying the chained-CPI COLAs for a 
servicemember retiring at age 42 would yield about 10 percent less in 
his or her retired paycheck at age 85 relative to the current COLA 
system. The longer you live, the worse it gets.
    Additionally, some commissions have proposed delaying any COLAs on 
military retired pay until age 60 or later, barring COLAs on annuity 
levels above some set dollar amount, or reducing the CPI by one-half 
percent or a full percentage point per year.
    The coalition believes such initiatives would constitute a breach 
of faith with military people and constitute a disproportional penalty.
    COLAs are particularly important to military retirees, disabled 
retirees, and survivors because they start drawing their annuities at 
younger ages than most other COLA-eligibles and thus experience the 
compounding effects over a greater number of years. To the extent that 
COLAs fail to keep up with living costs, real purchasing power 
continues to decline ever more dramatically as long as one lives.
    The coalition urges the subcommittee to:

        <bullet> Reject the chained CPI as a basis for adjusting 
        military retired pay
        <bullet> Ensure the continued fulfillment of congressional COLA 
        intent, as expressed in House National Security Committee Print 
        of title 37, U.S.C.: ``to provide every military retired member 
        the same purchasing power of the retired pay to which he was 
        entitled at the time of retirement [and ensure it is] not, at 
        any time in the future . . . eroded by subsequent increases in 
        consumer prices''
        <bullet> Ensure equal treatment of all uniformed service 
        personnel, to include NOAA/USPHS/USCG personnel, with respect 
        to any retirement/COLA legislation

Concurrent Receipt
    Congress clearly recognized the inequity of the disability offset 
to earned retired pay during the past decade and has gone to great 
lengths to establish a process to end or phase out the offset for many 
disabled retirees. The coalition is extremely grateful for the 
subcommittee's efforts to continue progress in easing the adverse 
effects of the offset.
    In that vein, we are very pleased Congress identified resources to 
fix a longstanding inadvertent ``glitch'' in the statutory computation 
formula for Combat-Related Special Compensation (CRSC). This was 
clearly a victory for our war wounded veterans.
    The coalition strongly believes in the principle that career 
military members earn their retired pay by service alone, and that 
those unfortunate enough to suffer a service-caused disability in the 
process should have any VA disability compensation from the VA added 
to, not subtracted from, their service-earned military retired pay.
    In 2010, we were very optimistic that another very deserving group 
of disabled retirees--those forced into medical retirement short of 20-
years of service--would become eligible for concurrent receipt when the 
White House included a concurrent receipt proposal in the Budget 
Resolution--the first time in history any administration had ever 
proposed such a fix.
    The proposal would have expanded concurrent receipt eligibility 
over a 5 year period to all those forced to retire early from Service 
due to a disability, injury, or illness that was service-connected 
(chapter 61 retirees). We were dismayed that, despite the 
subcommittee's leadership efforts and White House support, the 
provision has not yet been enacted--an extremely disappointing outcome 
for a most deserving group of disabled retirees.
    We recognize only too well the challenges associated with adding 
new mandatory spending provisions in this difficult budget environment. 
But making at least some progress to address this grievous inequity 
(e.g., covering all 100-percent disabled retirees with less than 20 
years of service) remains an important goal.
    The coalition urges the subcommittee to continue seeking to expand 
Concurrent Retirement and Disability Payments (CRDP) to disabled 
retirees not eligible under the current statute, with first priority 
for vesting of earned retirement credit for Chapter 61 retirees with 
less than 20 years of service.

Fair Treatment for Servicemembers Affected by Force Reductions
    Throughout the 1990s and into the early 2000s the services had 
several drawdown tools at their disposal to incentivize members to 
voluntarily leave the Service: Voluntary Separation Incentive (VSI), 
Special Separation Benefit (SSB), and Temporary Early Retirement 
Authority (TERA). The recently reauthorized TERA will greatly aid the 
Services in anticipation of significant force drawdowns and combat 
forces depart southwest Asia.
    During any force reduction, servicemembers who intend to make the 
Service a career are forced out. We believe the Nation should recognize 
their service and provide a ``transportable'' benefit for those that 
have their careers curtailed involuntarily short of 20 years.
    The coalition emphasizes that this limited ``vesting'' initiative 
should be applied only during periods of significant force reductions 
and funding for it should not come at the expense of those who serve 20 
years or more.
    Authorizing separated servicemembers the ability to contribute part 
or all of their involuntary or voluntary separation pay into their 
Thrift Savings Plan (TSP) account would appropriately recognize their 
past service and provide a level of ``transportable'' career benefit 
under these difficult times.
    The coalition recommends enacting temporary legislation that would 
allow members separated during periods of significant force reductions 
to deposit part or all of their involuntary separation pay or VSP into 
their TSP account.

                            SURVIVOR ISSUES

    The coalition is grateful to the subcommittee for its significant 
efforts in the past decade to improve the Survivor Benefit Plan (SBP), 
especially its major achievement in 2005 eliminating the Military 
Widows Tax--the Social Security offset that SBP survivors encountered 
upon attaining age 62. Yet, there is still more to do when looking at 
the plight of our widows.

SBP-DIC Offset
    The coalition believes strongly that current law is unfair in 
reducing military SBP annuities by the amount of any survivor benefits 
payable from the Dependency and Indemnity Compensation (DIC) program.
    If the surviving spouse of a retiree who dies of a service-
connected cause is entitled to DIC from the Department of Veterans 
Affairs and if the retiree was also enrolled in SBP, the surviving 
spouse's SBP annuity is reduced by the amount of DIC. A pro-rata share 
of the SBP premiums is refunded to the widow upon the member's death in 
a lump sum, but with no interest. This offset also affects all 
survivors of members who are killed on active duty.
    The coalition believes SBP and DIC payments are paid for different 
reasons. SBP is insurance purchased by the retiree and is intended to 
provide a portion of retired pay to the survivor. DIC is a special 
indemnity compensation paid to the survivor when a member's service 
causes his or her premature death. In such cases, the VA indemnity 
compensation should be added to the SBP annuity the retiree paid for, 
not substituted for it.
    In comparison, Federal civilian retirees who are disabled veterans 
and die of military-service-connected causes can receive DIC without 
losing any of their Federal civilian SBP benefits.
    Unfortunately, in every SBP-DIC case, active duty or retired, the 
true premium extracted by the service from both the member and the 
survivor was the ultimate one--the very life of the member. This 
reality was underscored by the August 2009 Federal Court of Appeals 
ruling in Sharp v. U.S. which found, ``After all, the servicemember 
paid for both benefits: SBP with premiums; DIC with his life.''
    The Veterans Disability Benefits Commission (VDBC) reviewed the 
SBP-DIC issue, among other DOD/VA benefit topics. The VDBC's final 
report to Congress in 2007 agreed with the coalition in finding that 
the offset is inappropriate and should be eliminated.
    In 2005, then-Speaker Pelosi and other House leaders made repeal of 
the SBP-DIC offset a centerpiece of their GI Bill of Rights for the 
21st Century.
    Leadership has made great progress in delivering on other elements 
of that plan, but the only progress to date on the SBP-DIC offset has 
been the enactment a small monthly Special Survivor Indemnity Allowance 
(SSIA).
    The coalition recognizes that the subcommittee's initiative in the 
fiscal year 2008 defense bill to establish the SSIA was intended as a 
first, admittedly very modest, step in a longer-term effort to phase 
out the DIC offset to SBP.
    We're very grateful for the subcommittee's subsequent efforts to 
increase SSIA amounts as additional steps toward the goal of 
eliminating the offset.
    While fully acknowledging the subcommittee's good-faith efforts to 
win more substantive progress, the coalition shares the extreme 
disappointment and sense of abandonment of the SBP-DIC widows who are 
forced to sacrifice up to $1,215 each month and are being asked to be 
satisfied with a $90 monthly rebate.
    The coalition understands the mandatory-spending constraints the 
subcommittee has faced in seeking redress, but also points out that 
those constraints have been waived for many, many far more expensive 
initiatives, including the recent extension of civilian unemployment 
benefits.
    The coalition believes widows whose sponsors' deaths were caused by 
military service should not be last in line for redress.
    The coalition urges the subcommittee to:

        <bullet> Continue pursuing ways to repeal the SBP-DIC offset
        <bullet> Authorize SBP annuities to be placed into a Special 
        Needs Trust for permanently disabled survivors who otherwise 
        lose eligibility for state programs because of means testing
        <bullet> Reduce the age for paid-up SBP to age 67 for those who 
        joined the military at age 17, 18, or 19
        <bullet> Reinstate SBP annuities to survivors who transfer it 
        to their children when the children reach majority, or when a 
        subsequent remarriage ends in death or divorce

Final Retired Paycheck
    Under current law, DFAS recoups from military widows'/widowers' 
bank accounts all retired pay for the month in which a retiree dies. 
Subsequently, DFAS pays the survivor a pro-rated amount for the number 
of days of that month in which the retiree was alive. This often 
creates hardships for survivors who have already spent that pay on 
rent, food, et cetera, and who routinely are required to wait several 
months for DFAS to start paying SBP benefits.
    The coalition believes this is an extremely insensitive policy 
imposed by the government at the most traumatic time for a deceased 
member's next of kin. Unlike his or her active duty counterpart, a 
retiree's survivor receives no death gratuity. Many older retirees do 
not have adequate insurance to provide even a moderate financial 
cushion for surviving spouses.
    In contrast to the law governing military retired pay treatment of 
survivors, the title 38 statute requires the VA to make full payment of 
the final month's VA disability compensation to the survivor of a 
disabled veteran.
    The disparity between DOD and VA policy on this matter is 
indefensible. Congress should do for retirees' widows the same thing it 
did 10 years ago to protect veterans' widows.
    TMC urges the subcommittee to authorize survivors of retired 
members to retain the final month's retired pay for the month in which 
the retiree dies.

                                SUMMARY

    The Military Coalition again thanks the subcommittee for your 
unfailing support of the entire uniformed service community and for 
taking our concerns and priorities into consideration as you deliberate 
on the future of the one weapon system that has never let our Nation 
down--the men and women who wear and have worn the uniform and their 
families.
                                 ______
                                 
   Master Chief Joseph L. Barnes, USN (Retired), National Executive 
   Director, Fleet Reserve Association and Co-Chairman, The Military 
                               Coalition

    Joseph L. (Joe) Barnes is a retired Navy Master Chief and serves as 
the Fleet Reserve Association's (FRA's) National Executive Director. He 
is a member of FRA's National Board of Directors, chairs the 
Association's National Committee on Legislative Service, and is 
responsible for managing the organization's National Headquarters in 
Alexandria, VA. In addition, he is president of the FRA Education 
Foundation which oversees the Association's scholarship program that 
presented awards totaling $128,000 in 2012.
    Barnes joined FRA's National Headquarters team in 1993 and prior to 
assuming his current position in 2002, he served as FRA's Director of 
Legislative Programs. During his tenure, the Association realized 
significant legislative gains, and was recognized with a certificate 
award for excellence in government relations from the American Society 
of Association Executives (ASAE).
    In addition to his FRA duties, Barnes is Co-Chairman of the 
Military Coalition (TMC) and co-chairs the Coalition's Personnel, 
Compensation and Commissaries Committee. He is also a member of the 
Defense Commissary Agency's Patron Council and an ex-officio member of 
the U.S. Navy Memorial Foundation's Board of Directors.
    He received the U.S. Coast Guard's Meritorious Public Service Award 
and was appointed an Honorary Member of the U.S. Coast Guard in 2003.
    While on active duty, he was the public affairs director for the 
U.S. Navy Band in Washington, DC, and directed marketing and 
promotional efforts for national tours, network radio and television 
appearances, and major special events in the Nation's capital. His 
awards include the Defense Meritorious Service and Navy Commendation 
Medals.
    Barnes holds a bachelor's degree in education and a master's degree 
in public relations management from The American University, 
Washington, DC. He earned the Certified Association Executive (CAE) 
designation from ASAE in 2003 and is an accredited member of the 
International Association of Business Communicators (IABC).
                                 ______
                                 
Kathleen B. Moakler, Director, Government Relations, National Military 
                           Family Association

    Mrs. Moakler has been associated with the National Military Family 
Association since 1995 as a member of the headquarters staff. She was 
appointed to Government Relations Director in October 2007. In that 
position, she monitors the range of issues relevant to the quality of 
life of the families of the seven uniformed services and coordinates 
the six members of the Government Relations staff. Mrs. Moakler 
represents the interests of military families on a variety of advisory 
panels and working groups, including the Military Family Readiness 
Council.
    Mrs. Moakler is co-chair of the Survivor Programs Committee and the 
Personnel/Compensation/Commissaries Committee for the Military 
Coalition (TMC), a consortium of 34 military and veteran organizations. 
She is often called to comment on issues pertaining to military 
families for such media outlets as the NY Times, CNN, NBC News, NPR and 
the Military Times. She writes regularly for military focused 
publications.
    During her husband's 28 year Army career, Mrs. Moakler served in 
various volunteer leadership positions in civilian and military 
community organizations, as well as working with many military 
community programs including hospital consumer boards, commanders' 
advisory boards, family readiness groups, church councils, youth 
programs, and the Army Family Action Plan at all levels. She believes 
that communication is paramount in the efficient delivery of services 
and the fostering of a rich community life for military families. She 
holds a Bachelor of Science degree in Business Administration from the 
State University of New York at Albany. Mrs. Moakler has been awarded 
the Army Commanders Award for Public Service and the President's 
Volunteer Service Award.
    Mrs. Moakler is also a military mom. Her daughter, Megan, is an 
Army Major and nurse who has served two tours in Iraq and son, Matthew, 
is an Army major and Operation New Dawn veteran. Both are presently 
stationed at Fort Belvoir, VA. Her oldest son, Marty, works for 
Hulu.com and is an aspiring writer/actor in Los Angeles, CA. Mrs. 
Moakler and her husband, Colonel Martin W. Moakler, Jr. USA (retired), 
reside in Alexandria, VA.
                                 ______
                                 
 Colonel Steve Strobridge (USAF-Ret.), Director, Government Relations, 
 Military Officers Association of America (MOAA); and Co-Chairman, The 
                           Military Coalition

    Steve Strobridge, a native of Vermont, is a 1969 graduate from 
Syracuse University. Commissioned through ROTC, he was called to active 
duty in October 1969.
    After several assignments as a personnel officer and commander in 
Texas, Thailand, and North Carolina, he was assigned to the Pentagon 
from 1977 to 1981 as a compensation and legislation analyst at 
Headquarters USAF. While in this position, he researched and developed 
legislation on military pay, health care, retirement and survivor 
benefits issues.
    In 1981, he attended the Armed Forces Staff College in Norfolk, VA, 
en route to a January 1982 transfer to Ramstein AB, Germany. Following 
assignments as Chief, Officer Assignments and assistant for Senior 
Officer Management at HQ, U.S. Air Forces in Europe, he was selected to 
attend the National War College at Fort McNair, DC in 1985.
    Transferred to the Office of the Secretary of Defense upon 
graduation in June 1986, he served as Deputy Director and then as 
Director, Officer and Enlisted Personnel Management. In this position, 
he was responsible for establishing DOD policy on military personnel 
promotions, utilization, retention, separation and retirement.
    In June 1989, he returned to Headquarters USAF as Chief of the 
Entitlements Division, assuming responsibility for Air Force policy on 
all matters involving pay and entitlements, including the military 
retirement system and survivor benefits, and all legislative matters 
affecting active and retired military members and families.
    He retired from that position on January 1, 1994 to become MOAA's 
Deputy Director for Government Relations.
    In March 2001, he was appointed as MOAA's Director of Government 
Relations and also was elected Co-Chairman of The Military Coalition, 
an influential consortium of 33 military and veterans associations.
                                 ______
                                 
    Captain Marshall Hanson, USNR (Ret.), Director, Legislative and 
             Military Policy, Reserve Officers Association

    Captain Marshall Hanson became the Legislative Director of the 
Reserve Officers Association on 12 September 2005, 2 years after 
joining the ROA staff as the Naval Services Director. Not new to 
Washington, DC, he brings to the ROA team experience and success as the 
full time Director of Legislation for two other associations, Naval 
Reserve Association (NRA) and the National Association for Uniformed 
Services. Marshall brings to the ROA extensive expertise, working with 
the House and Senate Armed Services Committees, and with Defense 
Appropriations. He has gone through more than 13 legislative cycles. In 
2000, Marshall participated with the Reserve Officers Association in a 
Roles and Missions study that submitted a white paper to Congress and 
the Pentagon.
    Captain Hanson has testified before the House and Senate Armed 
Services committees, the Senate Appropriations subcommittee on Defense, 
the House Veterans Affairs committee and Senate Finance committee, and 
before the National Reserve Force's Policy Board on Guard and Reserve 
issues.
    He has been chairman of the Navy Marine Corps Council, co-director 
of the National Military and Veteran's Alliance, and is the chairman 
for the Guard and Reserve committee in The Military Coalition. In 1999, 
he moved to Alexandria, VA, from Seattle, WA, to join the NRA staff. 
Marshall has worked to develop a new adhoc committee, Associations for 
America's Defense (A4AD), coordinating 12 other associations on 
national security, force planning, and equipment issues, which were 
normally not covered by either the coalition or the alliance.
    Captain Hanson was born in Darby, PA, and raised in Glen Rock, NJ, 
and Seattle, WA. A 1972 Graduate of the University of Washington, he 
was commissioned by the U of W NROTC. He earned an MBA from the 
University of Washington in 1978, and is a 1990 graduate with 
distinction of the Naval War College. With a Fleet Support designator, 
he is a qualified, specialist in strategic operations, analysis, and 
planning.
    CAPT Hanson retired from the Naval Reserve in August 2002. With 
over 3 years of active duty and 27 years with the Reserves, Hanson's 
had 7 commands, and has collectively commanded over 200 people. 
Marshall's seagoing assignments include active duty on USS Niagara 
Falls (AFS-3) as an underway Officer of the Deck (I) and Damage Control 
Assistant. He has spent additional training periods aboard USS Kansas 
City (AOR-3), USS Blue Ridge (LLC-19), JMDS Isoyuki (DD-127), and 
various Canadian Naval Reserve Ships; and he has been the Chief of 
Staff for a Convoy Commodore, and staff-watch commander at Esquimalt 
Naval Base in Canada.
    Upon retirement, Captain Hanson was awarded the Meritorious Service 
Medal; he was also awarded the Military Outstanding Volunteer Service 
Medal in 1997 for community activities in the greater Puget Sound Area. 
He has twice been awarded the overseas ribbon, and has the Vietnam 
Campaign Medals and National Defense Service Medal. Prior to his move 
to Washington, DC, he was a Materials Manager for a Seattle 
manufacturing company in his civilian career. He and his wife, Deborah, 
reside in Alexandria, VA, and have two daughters, Loren Louise, age 20 
and Sydney Emilia, 14 years.

    Senator Gillibrand. Thank you.
    Ms. Moakler?

  STATEMENT OF MS. KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Moakler. Madam Chairman, distinguished committee 
members, thank you for letting me speak to you today about 
military families.
    Military families are strong, resilient, and resourceful. 
They know about uncertainty after more than 11 years of war. 
But there is a new uncertainty, the uncertainty of the 
programs, resources, and benefits contributing to their 
strength and resilience remaining available to support them now 
and in the future.
    Because of sequestration and the 6-month delay in passing a 
defense appropriations bill, military families now doubt our 
Nation's leaders' commitment to supporting their service. DOD 
civilian furloughs will affect military families. Some are 
military spouses, so while military pay is not affected, for 
which we are grateful, the overall income of some military 
families will be impacted. Furloughs and hiring freezes could 
force family service centers to adjust hours. Smaller staffs 
will result in longer waits for families needing counseling, 
financial advice, new parent support, survivor outreach, and 
victim advocates.
    DOD insists they will work to provide school children with 
a full year of quality education, and ensure each school 
maintains its accreditation. We are pleased DOD announced late 
last week there would be no school level furloughs at the end 
of the current school year. But we know communities are 
concerned about the beginning of the next school year.
    The TRICARE benefit is a rich and appreciated benefit. 
Military families can sometimes find it difficult to access 
care, but rarely complain about the quality of care. Access to 
care is most threatened by the $3 billion sequestration cut and 
anticipated furloughs of hospital personnel.
    You have heard from the Service Chiefs how sequestration is 
hurting the readiness of our servicemembers. We have shared 
some examples in our written statement of how sequestration is 
negatively affecting military families. We ask Congress to end 
sequestration now.
    With the number of cuts already made, military families are 
concerned about the elimination of vital resources and programs 
as part of the next round of savings. What is an acceptable 
level of support? What should the standard be? Our association 
believes DOD Instruction 1342.22, Military Family Readiness, 
must be the unequivocal baseline for military family readiness. 
It provides appropriate expectations and emphasizes that 
resource decisions be made based both on the evaluation of 
military family needs and the effectiveness of those programs.
    Programs and services can adapt as needed to respond 
swiftly to the changing needs during peacetime, war, base 
closures, natural disaster, and other emergency situations. 
Currently, this effort at a baseline of support is stymied at 
all levels by the continued call for belt tightening and 
capricious budget cuts where these programs are often the first 
targeted. Military families need to know what to realistically 
expect about the delivery of support services.
    We remain concerned about the transition of wounded, 
injured, and ill servicemembers and their families. Caregivers 
are an important part of the servicemember's recovery. VA and 
DOD caregiver benefits do not mesh, and many caregivers lose 
the support just when they need it the most.
    We ask you to create a smoother transition for caregivers 
between DOD and VA caregiver benefits. Now is the time to end 
the dependency and indemnity compensation offset to the 
survivor benefit plan. Although we know there is a significant 
price tag associated with this change, ending this offset would 
correct an inequity that has existed for many years for our 
survivors.
    We appreciate the action being taken to address the rising 
number of suicides by servicemembers. We are concerned that 
military and veteran families were not included when examining 
suicides. We recommend Congress require a DOD report on the 
number of family members who commit suicide, made a suicide 
attempt, or reported suicidal thoughts.
    We want to ensure family support programs are authorized, 
funded, and implemented at the level needed to maintain the 
readiness of servicemembers and their families, and to allow 
them to meet the challenges of the military lifestyle. Military 
families should be able to access support no matter where they 
live.
    We believe the people the servicemember identifies as 
family should have the information and help they need within 
the law and DOD regulations to support the readiness of the 
servicemember.
    Thank you, and I await any questions you may have.
    Senator Gillibrand. Mr. Barnes?

   STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, USN, RETIRED, 
     NATIONAL EXECUTIVE DIRECTOR, FLEET RESERVE ASSOCIATION

    Chief Barnes. Madam Chairman and members of the 
subcommittee, thank you for the opportunity to appear before 
you today. I will be addressing priority active duty and 
retiree issues.
    Military service is unlike any other career or occupation, 
and less than 1 percent of our population is shouldering 100 
percent of the responsibility for our national security. 
Ensuring adequate pay and benefits for our Active, Guard, and 
Reserve personnel, their families and survivors, and fulfilling 
commitments to provide health care and other benefits for 
military retirees, must be top priorities.
    Thanks to support from this subcommittee, there have been 
major pay and benefit improvements enacted since 2000. There 
has been much attention to these and the associated costs 
during the ongoing sequestration related budget crisis. 
However, there is usually no mention of the 13.5 percent pay 
gap at that time, plus major recruiting and retention 
challenges, concerns about a hollow force, and the government's 
failure to honor commitments to those who served in the past.
    Defense spending as a percentage of gross domestic product 
(GDP) during war time is now much lower than during past 
conflicts. According to the Wall Street Journal, projected 
defense spending will shrink from more than 4 percent today to 
2.7 percent of GDP by 2021, a level last seen before Pearl 
Harbor. The coalition strongly supports a full 1.8 percent ECI 
active duty pay increase for 2014. Pay comparability is 
directly related to long-term readiness.
    There is concern in the active duty community regarding the 
so-called reform of pay and retirement benefits by the Military 
Compensation and Retirement Modernization Commission. The 
powerful pull of the 20-year retirement system is the main 
reason retention levels have not imploded as a result of 
unprecedented wartime strain on troops and their families. 
Despite extraordinary demands, men and women in uniform are 
still answering the call, but at the cost of ever greater 
personal sacrifices.
    Budget driven retirement benefit cuts enacted in 1986 
affected only future retirees and eventually resulted in the 
repeal of the plan in 1999 due to concerns about retention and 
readiness. Adequate end strengths are also essential to 
military readiness.
    Significant threats to national security continue despite 
the winding down of operations in Afghanistan, and ensuring 
sufficient dwell time between deployments remains an elusive 
goal. Navy deployments, for example, have increased from 6 to 
as long as 9 months, and the stress on repeatedly deployed 
servicemembers and their families continues.
    No Federal obligation is more important than protecting 
national security, and the most important element of national 
security is sustaining a dedicated, top quality, All-Volunteer 
Force.
    Thank you again for the opportunity to present our views on 
these issues.
    [The prepared statement of the Fleet Reserve Association 
follows:]

          Prepared Statement by the Fleet Reserve Association

                     THE FLEET RESERVE ASSOCIATION

    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving Active Duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization for claim 
representation and entrusted to serve all veterans who seek its help. 
In 2007, FRA was selected for full membership on the National Veterans' 
Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted Active Duty, Reserve, retired and veterans of the Sea 
Services. The Association also sponsors a National Americanism Essay 
Program and other recognition and relief programs. In addition, the FRA 
Education Foundation oversees the Association's scholarship program 
that presents awards totaling over $125,000 to deserving students each 
year.
    The Association is a founding member of The Military Coalition 
(TMC), a 34-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA celebrated 88 years of service in November 2012. For over 8 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, (now TRICARE 
Standard) was an initiative of FRA, as was the Uniformed Services 
Survivor Benefit Plan. More recently, FRA led the way in reforming the 
REDUX Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections and absentee voting reform for servicemembers and their 
dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any Federal grant or contract during the 
current fiscal year or either of the 2 previous fiscal years.

                                SYNOPSIS

    The Fleet Reserve Association (FRA) is an active participant and 
leading organization in The Military Coalition (TMC) and strongly 
supports the recommendations addressed in the more extensive TMC 
testimony prepared for this hearing. The intent of this statement is to 
address other issues of particular importance to FRA's membership and 
the Sea Services enlisted communities.
    The following Letter to the Editor of The Washington Post dated 
December 7, 2012 summarizes the concerns of our members and others in 
the Uniformed Services community regarding proposals to drastically 
increase health care fees, cut pay and retirement benefits and other 
personnel programs in conjunction with the Defense Budget reductions.

          Regarding the December 3rd editorial ``Time to Rein In 
        Tricare.''
          Personnel expenditures are directly associated with defense 
        readiness and reneging on past commitments by imposing drastic 
        health care fee hikes on military retirees will negatively 
        impact recruiting and retention. Threats to also cut retirement 
        benefits and other quality-of-life programs are major concerns 
        within the Active and Reserve military communities and are 
        viewed as devaluing military service.
          The debt crisis is serious, but total defense spending as a 
        percentage of gross domestic product is significantly below 
        past wartime periods and is projected to go lower. Despite 
        claims of rising health care costs, in recent years the Defense 
        Department has asked to shift unspent Defense Health Program 
        funds to other areas.
          Military retirees who are younger than 65 and are enrolled in 
        TRICARE Prime experienced a 13-percent increase in their annual 
        enrollment fees last year, and these fees will increase 
        annually based on inflation. Pharmacy copays will also increase 
        in 2013.
          Military service is unlike any other occupation. Roughly 1 
        percent of the population has volunteered to shoulder 100 
        percent of the responsibility for our national security. The 
        benefits associated with this service have been earned through 
        20 or more years of arduous military service.
                                      Joseph L. Barnes,    
                                   National Executive Director,    
                                         Fleet Reserve Association.

                              INTRODUCTION

    Chairman Gillibrand and Ranking Member Graham, FRA salutes you, 
other members of the subcommittee, and your staff for the strong and 
unwavering support of programs essential to Active Duty, Reserve 
component, and retired members of the armed services, their families, 
and survivors. The subcommittee's work has greatly enhanced care and 
support for our wounded warriors and significantly improved military 
pay, and other benefits and enhanced other personnel, retirement and 
survivor programs. This support is critical in maintaining readiness 
and is invaluable to military personnel engaged in operational 
commitments throughout the world and in fulfilling commitments to those 
who've served in the past.

                   SEQUESTRATION, CR, AND DOD BUDGET

    There's uncertainty and growing anxiety within the Active Duty, 
Reserve, and retiree communities regarding the effects of sequestration 
and major concerns about delayed approval of the fiscal year 2013 
spending package halfway through the current fiscal year and the 
administration's fiscal year 2014 budget request. This is reflected in 
responses to FRA's February 2013 online survey indicating that 90 
percent of retires were ``very concerned'' about the situation--the 
highest rating. FRA urges the administration and Congress to work 
together to ensure sufficient funding for fiscal year 2014 and beyond. 
Former Secretary of Defense Leon Panetta stated that sequestration cuts 
``would do catastrophic damage to our military, hollowing out the force 
and degrading its ability to protect the country.'' It is significant 
that defense spending totals 17 percent of the Federal budget, yet 50 
percent of the sequestration cuts are targeted for the Department of 
Defense (DOD). Operations are winding down in Afghanistan, however, the 
Nation is still at war and slashing DOD's budget further will not 
reduce the associated threats.
    FRA supports the ``Down Payment to Protect National Security Act'' 
(S. 263), sponsored by Senator Kelly Ayotte (NH) and its House 
companion bill (H.R. 593) sponsored by House Armed Services Committee 
Chairman Representative Howard ``Buck'' McKeon, (CA) that would amend 
the Budget Control Act (BCA) by excluding the DOD budget from the next 
round of sequestration cuts mandated by the BCA.
    FRA supports a defense budget of at least 5 percent of gross 
domestic product that will adequately fund both people and weapons 
programs, and is concerned that the administration's spending plan is 
not enough to sufficiently support both.

                       COST-OF-LIVING ADJUSTMENTS

    The administration's fiscal year 2014 budget request includes a 
plan to calculate future cost-of-living adjustments (COLAs) for 
inflation adjusted benefits by using the chained Consumer Price Index 
(CPI) in lieu of the current CPI. The so-called ``chained CPI'' takes 
into account the effect of substitutions consumers make in response to 
changes in prices. FRA believes that change over time would have a 
significant cumulative impact on the annual COLAs for military retirees 
and personnel receiving veterans' benefits.
    In additon, under current law, military retired pay is rounded down 
to the next lowest dollar. For many enlisted retirees, their retired 
pay is sometimes the sole source of income for them and their 
dependents. Over time, the effect of rounding down can be substantial 
for these personnel and FRA supports a policy change to rounding up 
retiree COLAs to the next highest dollar.

                      ``MODERNIZATION'' COMMISSION

    The National Defense Authorization Act (NDAA) for Fiscal Year 2013 
(H.R. 4310, P.L. 112-239) establishes the Military Compensation and 
Retirement Modernization Commission but limits its recommendations from 
being BRAC-like in conjunction with its review and ``reform'' of the 
current compensation and military retirement system. FRA believes it's 
important that this distinguished Subcommittee and its House 
counterpart along with the full Armed Services Committees maintain 
oversight over commission recommendations. Numerous studies and 
commissions (10 since the beginning of 2006) have focused on military 
retirement and other benefits as an opportunity to reduce overhead 
costs for the Pentagon.
    In 1986, Congress passed, over the objection of then Secretary of 
Defense Casper Weinberger, major retirement changes known as ``Redux'' 
that significantly reduced retirement benefits for those joining the 
military after 1986. FRA led efforts to repeal the act in 1999 after 
the military experienced retention and recruitment problems and the 
Association continues to monitor the take rate for personnel choosing 
between remaining on the High 3 program, or the Redux program at 15 
years of service.
    Maintaining a highly-motivated, well-trained, and professional all-
volunteer career military force requires an adequate pay and benefit 
package. Military service is unlike any other career or occupation, and 
requires adequate compensation and a unique retirement system. Career 
senior noncommissioned officers are the backbone of our military and 
their leadership and guidance are invaluable and a result of 
specialized years of training and experience.

                   TRICARE BENEFITS AND FEE INCREASES

    FRA's membership appreciates the following Sense of Congress 
provisions in the NDAA for Fiscal Year 2013: (1) DOD and the Nation 
have a committed health benefit obligation to retired military 
personnel that exceeds the obligation of corporate employers to 
civilian employees; (2) DOD has many additional options to constrain 
the growth of health care spending in ways that do not disadvantage 
beneficiaries; and (3) DOD should first pursue all options rather than 
seeking large fee increases or marginalize the benefit for 
beneficiaries.
    Health care dominated priorities for military retirees responding 
to FRA's 2013 online survey, with quality of health care benefits rated 
as ``very important'' by over 95 percent of respondees. Access to the 
benefit followed in importance as indicated by over 94 percent of those 
participating in the survey.
    On October 1, 2013 DOD will reduce TRICARE Prime Service Areas, a 
change that will affect more than 170,000 retirees and their qualified 
family members and require enrollment in TRICARE Standard. Our members 
are voicing serious concerns about this change due to the higher costs 
associated with TRICARE Standard.
    FRA understands that under the new TRICARE contracts access to 
TRICARE Prime is limited to within 40 miles of a Military Treatment 
Facilities (MTF) and in areas affected by the 2005 base closure and 
realignment process. FRA believes current TRICARE Prime beneficiaries 
that live outside the TRICARE Prime Service Area (PSA) should be 
allowed to continue to have access to TRICARE Prime coverage 
(grandfathered) until they relocate or change their current primary 
care provider.
    Beyond the Military Health System (MHS) transitioning to a more 
integrated delivery model that will leverage a shared service approach 
to common functions, FRA believes that DOD must sufficiently 
investigate and implement other options to make TRICARE more cost-
efficient as alternatives to shifting costs to TRICARE beneficiaries.

                WOUNDED WARRIORS AND SEAMLESS TRANSITION

    FRA strongly supports the administration's efforts to create an 
integrated Electronic Health Record (iEHR) for every servicemember 
which would be a major step towards the Association's longstanding goal 
of a truly seamless transition from military to veteran status for all 
servicemembers and permit DOD, the Department of Veterans Affairs (VA), 
and private health care providers immediate access to a veteran's 
health data.
    The importance of fully implemented interoperability of electronic 
medical records cannot be overstated. However, former Secretary of 
Defense Leon Panetta and Secretary of the VA Eric Shinseki recently 
announced jointly that the departments are abandoning plans to create a 
single electronic health record for active duty military and veterans. 
FRA and others view this as a step backwards on this issue apparently 
due to budget pressures and higher costs. There is some sharing now 
between DOD, VA, and the private sector, however, wider expansion of 
data sharing and exchange agreements between VA, DOD, and the private 
sector is needed.
    FRA strongly supports the VA/DOD joint effort to invest more than 
$100 million in new research to improve diagnosis and treatment of post 
traumatic stress (PTS) and mild traumatic brain injury (TBI) in 
response to a August 31, 2012 Presidential Executive order calling for 
DOD and VA to also establish an interagency task force to coordinate 
their efforts, and VA and Health and Human Services will establish at 
least 15 pilot programs involving community-based health providers to 
expand mental health services in areas not well served by VA. DOD and 
VA should work together to standardize training for all DOD/VA mental 
health care providers.
    The Armed Services and Veterans Affairs Committees must remain 
vigilant regarding their oversight responsibilities associated with 
ensuring a ``seamless transition'' for our Nation's wounded warriors. 
In conjunction with this, FRA is concerned about shifting of 
departmental oversight from the Senior Oversight Committee (SOC) 
comprised of the DOD and VA secretaries per provisions of the NDAA for 
Fiscal Year 2009, to the lower echelon Joint Executive Council which is 
now responsible for supervision, and coordination of all aspects of DOD 
and VA wounded warrior programs. This change is perceived by many as 
diminishing the importance of addressing significant challenges faced 
by servicemembers--particularly wounded warriors and their families--in 
transitioning from DOD to the VA.
    The Association notes the importance of the e-Benefits web site 
which serves as an electronic portal for servicemembers, veterans, and 
their families to research, find, access, and in the near future manage 
their VA benefits and track progress on claims processing. The program 
is a service of the DOD and VA and was one of the recommendations of 
the President's Commission on Care for America's Returning Wounded 
Warriors (Dole/Shalala). There are now more than 1.86 million e-
Benefits users.
    FRA recommends support for the ``Servicemembers Mental Health 
Review Act'' (S. 628), sponsored by Senator Jon Tester (MT) and its 
House companion bill (H.R. 975) sponsored by Representative Tim Walz 
(MN). The bills would authorize the Physical Disability Board of Review 
to review and, when necessary, correct service records for veterans 
diagnosed by DOD with a Personality Disorder (PD) or Adjustment 
Disorder (AD) and discharged after active duty deployment. Many of 
these brave veterans have seen combat and may actually be suffering 
from Post-Traumatic Stress (PTS). Because PD and AD are considered pre-
existing conditions, the DOD is not obligated to award the benefits 
they earned that may help them properly reintegrate into their 
communities.
    The Association also supports the ``Ruth Moore Act'' (S. 294/H.R. 
671) sponsored by Senator Jon Tester (MT) and Representative Chellie 
Pingree (ME) respectively that will improve the disability compensation 
evaluation procedure at the VA for veterans with mental health 
conditions related to military sexual trauma.
    FRA believes post traumatic stress should not be referred to as a 
``disorder.'' This terminology adds to the stigma of this condition, 
and it is critical that the military do all it can to reduce the stigma 
associated with PTS and TBI. The DOD disability evaluation should be 
required to include all unfitting conditions and DOD physical 
evaluation boards should be mandated to standardize disability ratings 
between the Service branches. The Association also strongly encourages 
support for the Navy's Safe Harbor Program and the Marine Corps Wounded 
Warrior Regiment, programs that are providing invaluable support for 
these personnel before and after they transition to veterans' status.

                      MILITARY SUICIDES UP IN 2012

    Data from DOD on military suicides in 2012 indicates an increase of 
16 percent over 2011. Total active duty suicides for 2012 were 349, up 
from 301 suicides in 2011. During a March 21, 2013 hearing, Jacqueline 
Garrick, acting director of the Defense Suicide Prevention Office, told 
the House Armed Services Military Personnel Subcommittee that 
servicemember suicide rate had increased from 10.3 suicides per 100,000 
in 2001 to 18.3 suicides per 100,000 in 2010. She compared the military 
data from 2001 and 2010 to the U.S. suicide rate for males, ages 17 to 
60--an age demographic that she claimed best matches the armed forces 
demographic. This data reveals that the 2001 comparable civilian 
suicide rate was 21.8 suicides per 100,000 and 25.1 per 100,000 in 
2010. Military suicides by comparison are increasing at a dramatically 
higher rate (77 percent for military vice 15 percent for comparable 
civilian population) or five times higher than the civilian rate.
    The NDAA for Fiscal Year 2013 (H.R. 4310, P.L. 112-239) includes a 
Senate floor amendment sponsored by Senator Patty Murray (WA) that 
requires DOD to implement a standardize and comprehensive suicide 
prevention program. The provision was in response to a Rand Corporation 
study that indicated that there are serious gaps and a lack of 
consistency in military suicide prevention programs. Further, a 
Presidential Executive Order was issued in September 2012 that mandates 
the VA and DOD to establish an interagency task force to coordinate 
suicide prevention efforts. FRA notes that the VA/DOD crisis hot line 
has assisted more than 640,000 people and stopped over 23,000 potential 
suicides, and believes there must be readily available counseling 
support and expanded awareness of help that's available to 
servicemembers and veterans in crisis. Expanding VA counseling to 
veteran's family members, strengthening oversight of the Integrated 
Disability Evaluation System, and requiring VA to establish accurate 
measures for mental health are also important and addressed in the NDAA 
for Fiscal Year 2013. FRA believes challenges and stress associated 
with marital problems and divorce should be considered in addressing 
suicide prevention which is a high priority for FRA and the Association 
welcomes and supports the initiatives listed above.

            UNIFORMED SERVICES FORMER SPOUSES PROTECTION ACT

    According to Military.com writer Amy Bushatz, ``The military 
divorce rate went down slightly in 2012, settling at 3.5 percent from 
the record high 3.7 percent in 2011. Military officials and divorce 
experts are hopeful that the overall rate, which had crept slowly up 
from 2.6 percent in 2001 to 3.7 percent in 2011, is starting to move 
downward.'' Female enlisted soldiers and marines, however, continue to 
experience the highest rate of divorce--9.4 percent and 9.3 percent 
respectively. In the Army, the female enlisted divorce rate is more 
than triple that of enlisted males.''
    Related to these statistics, FRA urges Congress to review the 
Uniformed Services Former Spouses Protection Act (USFSPA) with the 
intent to amend the language so that the Federal Government is required 
to protect its servicemembers against State courts that ignore the act.
    The USFSPA was enacted 30 years ago; the result of congressional 
maneuvering that denied the opposition an opportunity to express its 
position in open public hearings. The last hearing, in 1999, was 
conducted by the House Veterans' Affairs Committee rather than the 
House Armed Services Committee which has oversight authority for 
USFSPA.
    Few provisions of the USFSPA protect the rights of the 
servicemember, and none are enforceable by the Department of Justice or 
DOD. If a State court violates the right of the servicemember under the 
provisions of USFSPA, the Solicitor General will make no move to 
reverse the error. Why? Because the act fails to have the enforceable 
language required for Justice or the Defense Department to react. The 
only recourse is for the servicemember to appeal to the court, which in 
many cases gives that court jurisdiction over the member. Another 
infraction is committed by some State courts awarding a percentage of 
veterans' compensation to ex-spouses, a clear violation of U.S. law; 
yet, the Federal Government does nothing to stop this transgression.
    There are other provisions that weigh heavily in favor of former 
spouses. For example, when a divorce is granted and the former spouse 
is awarded a percentage of the servicemember's retired pay, the amount 
should be based on the member's pay grade at the time of the divorce 
and not at a higher grade that may be held upon retirement.
    FRA believes that the Pentagon's USFSPA study recommendations are a 
good starting point for reform. This study includes improvements for 
both former spouse and the servicemember.

                        ACTIVE DUTY/RESERVE PAY

    FRA strongly supports a 2014 full Employment Cost Index military 
pay increase of 1.8 percent. The Rand Corporation released a study last 
year recommending smaller military pay increases starting in fiscal 
year 2015. The study indicates that military pay increased faster than 
civilian pay since 2000, but ignores the fact that military pay 
increases lagged behind civilian pay during the 1990s resulting in a 
1999 pay gap of 13.5 percent, which contributed to major recruitment 
and retention problems. The study suggests that smaller pay increases 
will not significantly impact retention and recruitment due to the 
relatively high unemployment rate through out the economy. FRA 
disagrees and believes the current high rate of unemployment will not 
continue indefinitely, and that pay for the all-volunteer military 
should accurately reflect service and the sacrifices borne by those who 
serve and their families. As Alex Keenan wrote in Navy Times (03-11-
13), ``The plain truth is that if we want the best, most-highly 
trained, most capable military in recorded history, we have to be 
collectively willing to pay the monetary price--not only because it 
benefits our own national security, but because the people wearing the 
uniform are willing to pay an even higher price if called upon.''

                              END STRENGTH

    Adequate military end strength is vital in sustaining our national 
security, and FRA is concerned about budget-driven calls for reducing 
end strength. After years of reducing its end strength through 
involuntary separations and other initiatives, the Navy has now 
admitted it has cut too much. As of December 6, 2012 Navy end strength 
was 317,600 which is the lowest end strength since 1940.
    The strain and inadequate dwell time of repeated deployments is 
significant and related to end strength levels. This is reflected in 
troubling stress-related statistics that include alarming suicide 
rates, prescription drug abuse, alcohol use and military divorce rates.

                           CONCURRENT RECEIPT

    FRA continues its advocacy for legislation authorizing the 
immediate payment of concurrent receipt of full military retired pay 
and veterans' disability compensation for all disabled retirees. The 
Association appreciates the progress that has been made on this issue 
that includes a recently enacted provision fixing the Combat Related 
Special Compensation (CRSC) glitch that caused some beneficiaries to 
lose compensation when their disability rating was increased. There 
still remain Chapter 61 retirees receiving Concurrent Retirement and 
Disability Pay (CRDP) and CRDP retirees with 20 or more years of 
service with less than 50 percent disability rating that should receive 
full military retired pay and VA disability compensation without any 
offset.
    The Association strongly supports pending legislation to authorize 
additional improvements that include Senate Majority Leader Harry 
Reid's legislation (S.234), Representative Sanford Bishop's ``Disabled 
Veterans Tax Termination Act'' (H.R. 333) and Representative Gus 
Bilirakis' ``Retired Pay Restoration Act'' (H.R. 303).

                        RESERVE COMPONENT ISSUES

    FRA stands foursquare in support of the Nation's reservists and to 
improved compensation and benefits packages to attract recruits and 
retain currently serving personnel. These changes should include 
eliminating the fiscal year early retirement limitation which is 
addressed in the ``Reserve Retirement Deployment Credit Correction 
Act'' (S. 240) sponsored by Senator Jon Tester (MT) and its House 
companion bill (H.R.690), sponsored by Representative Tom Latham (IA).
    FRA also supports making early retirement credit retroactive to 
September 11, 2001, after which the Reserve component changed from a 
strategic reserve to an operational reserve that's vital in prosecuting 
the war efforts and other operational commitments.
    FRA supports the ``Healthcare for Early Retirement Eligible 
Reservists Act'' (H.R. 738), sponsored by HASC Personnel Subcommittee 
Chairman Representative Joe Wilson (SC), that would allow retirees of 
the Reserve Component to receive medical and dental care at military 
treatment facilities (MTF) or VA facilities prior to reaching age 60. 
The NDAA for Fiscal Year 2009 granted qualifying reservists early 
retirement, but did not authorize healthcare benefits. In addition 
reservists in the Individual Ready Reserve (IRR) have no access to 
health care.
    The Association also supports restoring the Reserve Montgomery GI 
Bill benefits to at least 47 percent of active duty MGIB benefits. 
Further FRA recommends funding of a tailored Transition Assistance 
Program (TAP) to meet the unique needs of reservists, including 
academic protections for mobilized reservists students such as refund 
guarantees, exemption from repayment of Federal student loans during 
activation, and maintaining academic standing.

                         SBP/DIC OFFSET REPEAL

    FRA supports the ``Military Surviving Equity Act'' (H.R. 32) 
sponsored by Representative Joe Wilson (SC) to eliminate the Survivor 
Benefit Plan (SBP)/Dependency and Indemnity Compensation (DIC) offset 
for widows and widowers of servicemembers. This bill would eliminate 
the offset, also known as the ``widow's tax,'' on approximately 60,000 
widows and widowers of our Armed Forces.
    SBP and DIC payments are paid for different reasons. SBP is 
purchased by the retiree and is intended to provide a portion of 
retired pay to the survivor. DIC is a special indemnity compensation 
paid to the survivor when a member's service causes his or her 
premature death. In such cases, the VA indemnity compensation should be 
added to the SBP the retiree paid for, not substituted for it. It 
should be noted as a matter of equity that surviving spouses of Federal 
civilian retirees who are disabled veterans and die of military-
service-connected causes can receive DIC without losing any of their 
Federal civilian SBP benefits.

              RETENTION OF FINAL FULL MONTH'S RETIRED PAY

    FRA urges the subcommittee to authorize the retention of the full 
final month's retired pay by the surviving spouse (or other designated 
survivor) of a military retiree for the month in which the member was 
alive for at least 24 hours. FRA strongly supports ``The Military 
Retiree Survivor Comfort Act'' (H.R. 1360), introduced by 
Representative Walter Jones (NC) that achieves this goal.
    Current regulations require survivors of deceased military retirees 
to return any retirement payment received in the month the retiree 
passes away or any subsequent month thereafter. Upon the demise of a 
retired servicemember in receipt of military retired pay, the surviving 
spouse is to notify DOD of the death. The Department's financial arm 
then stops payment on the retirement account, recalculates the final 
payment to cover only the days in the month the retiree was alive, 
forwards a check for those days to the surviving spouse (beneficiary) 
and, if not reported in a timely manner, recoups any payment(s) made 
covering periods subsequent to the retiree's death. The recouping is 
made without consideration of the survivor's financial status.
    The measure is related to a similar pay policy enacted by the VA. 
Congress passed a law in 1996 that allows a surviving spouse to retain 
the veteran's disability and VA pension payments issued for the month 
of the veteran's death. FRA believes military retired pay should be no 
different.

            IMPROVEMENTS FOR MILITARY PREDATORY LENDING LAW

    FRA thanks this subcommittee for improvements in the Military 
Lending Act (MLA) specified in the Senate version (S. 3254) of the 
fiscal year 2013 Defense Authorization bill. This provision provides an 
explicit private right of action and civil penalties for predatory 
lenders, and expands oversight and enforcement authority to the 
Consumer Financial Protection Bureau (CFPB) and the Federal Trade 
Commission. Unfortunately, other related amendments to close loopholes 
in the definitions of payday and car title loans in the Senate version 
of the NDAA were not included in the final bill.
    The NDAA also called on DOD to conduct a study during 2013 to 
identify harmful credit products and practices and recommend 
protections to close loopholes. DOD is also required to promulgate a 
regulation in 2013 to implement changes in the law. FRA, CFPB, and 
consumer groups recently meet with DOD officials on this issue and have 
asked the Department to include payday and car title loan definitions 
in the regulation and also clarify that nonresident military borrowers 
are protected by all State credit laws. FRA urges continued oversight 
by this subcommittee to ensure that the report is timely and accurate.

              PROTECT THE COMMISSARY AND EXCHANGE SYSTEMS

    Military commissaries and exchanges are essential parts of the 
military benefit package and FRA's online survey completed in February 
2013 indicates that nearly 61 percent of retirees rated Commissary/
Exchange privileges as ``very important.'' FRA is a member of the 
recently established coalition to Save Our Military Shopping Benefits. 
The coalition now has 13 member organizations representing 1.5 million 
servicemembers, veterans, and their families, many of which are 
authorized patrons of the resale system.
    A new study by the Resale and MWR Center for Research entitled 
``Costs and Benefits of the DOD Resale System'' indicates that these 
programs provide military members, retirees and their families with 
shopping discounts worth $4.5 billion annually. These stores are the 
biggest employers of military family members with 50,000 spouses, 
dependent children, retirees and veterans on the payrolls, adding $884 
million a year to military household incomes. The Association notes 
with concern DOD's plans to soon issue furlough notices to the Defense 
Commissary Agency (DeCA) employees and close commissaries on Mondays 
for the remainder of the fiscal year due to sequestration related cuts 
to operating accounts of 9.2 percent.
    The report also indicates that approximately $545 million a year 
from store operations is reinvested in base infrastructure. This is 
from profits of military exchanges and from a 5-percent surcharge 
collected at cash registers in commissaries. These facilities and 
capital improvements become assets on the balance sheet of the Federal 
Government. Exchange profits also fund important base morale, welfare, 
and recreation programs (MWR) that contribute to an enhanced quality of 
life for military beneficiaries.

                     CHILD CARE AND FAMILY HOUSING

    Access to affordable, quality child care must be a high priority 
for all the military services. Adequate and reliable child care helps 
reduce stress on a military family--especially when one of the parents 
is deployed. Master Chief Petty Officer of the Navy Michael Stevens' 
March 19, 2013 statement to the House Military Construction and 
Veterans Affairs Appropriations Subcommittee state that Navy Child 
Development Centers (CDC) provide quality care that is affordable when 
compared to commercial programs that charge based on age (children age 
three and under the most expensive and typically most junior enlisted 
have younger children); whereas Navy fees are based on total family 
income. Sergeant Major of the Marine Corps Micheal Barrett also 
testified before the subcommittee indicating that the Marine Corps is 
scheduled to increase CDC spaces in fiscal year 2013-2014. The Navy 
completed its CDC multi-year expansion efforts last year that added 
7,000 new child care spaces to meet the Office of Secretary of Defense 
guidance to provide 80 percent of potential child care needs. This 
expansion reduced waiting times to 3 months or less. The impact of 
sequestration on CDCs is unclear. Some centers are staffed by non-
appropriated fund (NAF) workers who will not be affected by furloughs. 
Others are staffed by civilian government employees and some by a 
combination of both. Centers staffed by DOD civilians will be impacted 
by furloughs.
    Regarding military housing, the Marines have more than 24,000 homes 
and 96 percent are privatized (PPV). The Marine Corps reports that PPVs 
improve family housing, community centers, and playgrounds creating 
more of a sense of community. The Navy has privatized 97 percent of its 
homes in CONUS and Hawaii. The Navy will begin construction of new 
housing at the Naval Base Coronado, CA, for 468 E-1 through E-4 
sailors. The Navy is working to reduce inadequate housing from 37 
percent currently, to 10 percent by fiscal year 2019.
    FRA believes there is also a need to reform enlisted housing 
standards by allowing E-7s and above to reside in separate homes, track 
the Basic Allowance for Housing to ensure it is commensurate with 
actual housing costs, ensure adequate housing inventory and that 
housing privatization programs are beneficial to servicemembers and 
their families.

                               CONCLUSION

    FRA is grateful for the opportunity to provide these 
recommendations to this distinguished subcommittee.

Master Chief Joseph L. Barnes, USN (Ret.), National Executive Director, 
                       Fleet Reserve Association
    Joseph L. (Joe) Barnes is a retired Navy Master Chief and serves as 
the Fleet Reserve Association's (FRA) National Executive Director. He 
is a member of FRA's National Board of Directors, chairs the 
Association's National Committee on Legislative Service, and is 
responsible for managing the organization's National Headquarters in 
Alexandria, VA. In addition, he is president of the FRA Education 
Foundation which oversees the Association's scholarship program that 
presented awards totaling $128,000 in 2012.
    Barnes joined FRA's National Headquarters team in 1993 and prior to 
assuming his current position in 2002, he served as FRA's Director of 
Legislative Programs. During his tenure, the Association realized 
significant legislative gains, and was recognized with a certificate 
award for excellence in government relations from the American Society 
of Association Executives (ASAE).
    In addition to his FRA duties, Barnes is Co-Chairman of the 
Military Coalition and co-chairs the Coalition's Personnel, 
Compensation and Commissaries Committee. He is also a member of the 
Defense Commissary Agency's Patron Council and an ex-officio member of 
the U.S. Navy Memorial Foundation's Board of Directors.
    He received the U.S. Coast Guard's Meritorious Public Service Award 
and was appointed an Honorary Member of the U.S. Coast Guard in 2003.
    While on active duty, he was the public affairs director for the 
U.S. Navy Band in Washington, DC, and directed marketing and 
promotional efforts for national tours, network radio and television 
appearances, and major special events in the Nation's capital. His 
awards include the Defense Meritorious Service and Navy Commendation 
Medals.
    Barnes holds a bachelor's degree in education and a master's degree 
in public relations management from The American University, 
Washington, DC. He earned the Certified Association Executive 
designation from ASAE in 2003 and is an accredited member of the 
International Association of Business Communicators.

  STATEMENT OF CAPT MARSHALL HANSON, USN, RETIRED, DIRECTOR, 
 LEGISLATIVE AND MILITARY POLICY, RESERVE OFFICERS ASSOCIATION

    Captain Hanson. Madam Chairman, members of the 
subcommittee, I am Marshall Hanson. In addition to my job at 
the ROA, I am a co-chair for the TMC's Guard and Reserve 
Committee.
    Amid the news reports about Monday's bombing in Boston, 
there was a video clip of two people in uniform helping clear 
debris. Whether they were active or Reserve component, these 
brave individuals exemplify a military that runs towards chaos.
    During the last 11 years of war, almost 875,000 Reserve and 
Guard members were called to active duty. Of these, 1,225 died 
in the line of duty. Despite such sacrifices, there remains a 
number of benefit parity issues that need to be fixed by 
legislation.
    While TMC thanks this committee for allowing Reserve 
component members to earn early retirement, many do not receive 
the full retirement credit that they deserve. A fiscal year 
barrier exists, denying them a 90-day credit if their service 
crosses between 2 fiscal years. TMC supports S. 240 by Senators 
Tester, Chambliss, and Blumenthal to fix the problem in U.S. 
Code. TMC also advocates extending the early retirement to the 
warriors who served since September 11, 2001. Just yesterday, I 
learned of a female colonel who was affected by both aspects of 
the law. She served 16 months in theater, won a Bronze Star, 
but only got 9 months' credit towards earlier retirement.
    A need exists to modernize the Reserve retirement system to 
incentivize service beyond 20 years. This has been declining 
over the last 11 years of war. As many senior officers and 
enlisted are performing duty without pay, TMC endorses 
crediting all inactive duty toward Reserve retirement. Also, if 
an officer or enlisted retiree is recalled, his or her 
retirement should be recalculated after 1 year of mobilization 
as it is allowed now for general offices.
    Documenting active duty should be reexamined. Many Reserve 
and Guard members do not qualify for veteran status because 
their active duty periods are not long enough. Rather than 
collect a pile of DD-214s at the end of one's career, it makes 
sense to have a single document upon separation from the 
Reserve component that accumulates that all duty performed and 
lists specialty codes and awards.
    The title 10 Montgomery GI Bill (MGIB) allowance for 
selective reservists is woefully inadequate, being only 11.5 
percent of what is paid in the post-9/11 GI Bill. The new GI 
Bill pays up to $2,800 per month while the Montgomery GI Bill 
for selected Reserve pays only $356 per month for full time 
study. As one reservist said, ``This barely pays for gas and 
parking.''
    TMC asks the committee to work with the Senate Veterans 
Affairs to restore the selected Reserve allowance to the 
historic benchmark of 47 percent of the Active Duty MGIB, and 
to also integrate it into title 38 so there is no longer an 
orphan GI Bill under title 10.
    While the TAP is being revised and improved, the Reserve 
and Guard members will not benefit. The active duty is hesitant 
to allow Reserve component members to linger on active duty so 
they can participate in TAP. After a long period of Active 
Duty, Reserve, and Guard members are anxious to get home.
    There is a need to explore an outside of the gate version 
of TAP so that RC members can get the materials without being 
at an active duty base. Integrating this with the Yellow Ribbon 
Program is an option, but one that requires funding as we 
cannot ask our returning Guard and Reserve members to be 
debriefed without pay.
    Reserve health care also needs some continuity tweaking. 
Those who participate in TRICARE Reserve Select love the 
program, but the ROA joins other groups in not supporting 
suggested TRICARE fee increases because it will have a possible 
impact on the cost of TRICARE Reserve Select.
    Regrettably, the transitions between different military 
health care programs are not seamless. Serving members need to 
re-enroll at various points as they transition on and off of 
active duty. It is even worse for those who have kept their 
civilian employer's medical plan.
    TMC thanks this committee for the added 18 months' TRICARE 
Reserve Select transition when one leaves the Selected Reserve. 
But the current TRICARE retired Reserve program is inadequate 
because of its high premium levels.
    ROA, like other associations, looks forward to working with 
the committee on these and other issues that were highlighted 
in written testimony. I thank you, and I await your questions.
    [The prepared statement of the Reserve Officers Association 
follows:]

 Prepared Statement by the Reserve Officers Association of the United 
              States and the Reserve Enlisted Association

                              INTRODUCTION

    On behalf of our members, the Reserve Officers Association and the 
Reserve Enlisted Association thank the committee for the opportunity to 
submit testimony on personnel issues affecting serving Active and 
Reserve members, retirees, their families, and survivors, as well as 
civilian personnel.
    The Federal Reserve and the National Guard are integral 
contributors to our Nation's operational ability to defend itself, 
assist other countries in maintaining global peace, and fight against 
overseas threats. They are an integrated part of the Total Force, yet 
remain a surge capability as well. A recent study by the Reserve Forces 
Policy Board has found that a Reserve component member costs the 
Department of Defense (DOD) 31 percent of the cost of his or her Active 
Duty counterpart over the life cycle of the warrior.
    At a time when the Pentagon and Congress are examining our Nation's 
security, it would be incorrect to discount the Reserve components' 
abilities and cost efficiencies. Instead, these part-time warriors 
provide a cost savings solution and an area to retain competencies for 
missions not directly embodied in the administration's strategic 
policy, Sustaining U.S. Global Leadership: Priorities for a 21st 
Century Defense.
    ROA and REA are concerned that as the Pentagon strives to achieve 
the administration's goals for this new strategic policy, it is not 
seriously considering the available assets and cost efficiencies of the 
Reserve component, and that it instead views the Reserve and National 
Guard as a bill payer. Congress, starting with the leadership of this 
subcommittee, should insist on a methodical analysis of suggested 
reductions in missions and bases before authorizing such changes.

           PROVIDE AND EXECUTE AN ADEQUATE NATIONAL SECURITY

    The Reserve Officers Association is chartered by Congress ``to 
support and promote the development and execution of a military policy 
for the United States that will provide adequate national security.'' 
The nation must have adequate military force structure, training, and 
equipment to defeat any known or emerging military force that could be 
used against us.
    Requested Action
        <bullet> Hold congressional hearings on the budget implications 
        of the policy ``Sustaining U.S. Global Leadership: Priorities 
        for the 21st Century Defense.''
        <bullet> Reconcile the budget in order to end the Defense 
        Sequestration budget cuts.
        <bullet> Study the impact of manpower cuts to Army and Marine 
        Corps on national Security.
        <bullet> Avoid parity cuts of both Active and Reserve 
        components without analyzing rebalance.
        <bullet> Maintain a robust and versatile All-Volunteer Armed 
        Forces that can accomplish its mission to defend the homeland 
        and U.S. national security interests overseas.

    The proposed Defense budget by the administration builds upon a DOD 
reform agenda that it began several years ago. In 2010, Secretary of 
Defense Robert M. Gates outlined an efficiencies initiative designed to 
save the Department $100 billion over the next 5 years. In 2012, 
Secretary of Defense Leon Panetta announced that DOD was on the path to 
cut $487 billion from expenses over the next 10 years as mandated by 
the Budget Control Act of 2011. DOD's fiscal year 2013 budget request 
included an additional $60 billion in cuts between 2013 and 2017.
    The original initiative by former Secretary Gates as stated in the 
fiscal year 2012 defense budget was to identify $178 billion in 
efficiency savings in order to reinvest $100 billion in high-priority 
programs. Yet the reinvestment strategy has gone by the wayside, with 
the focus simply on reducing the defense dollars.
    For fiscal year 2014, a savings of approximately $34 billion have 
been identified by the administration to be reprogrammed for better use 
across the ``Future Years Defense Plan. Many of these efficiencies 
``mimic the fiscal year 2013 requests'' which Congress rejected last 
year.
    ROA and REA question the current spending priorities that place 
more importance on the immediate future, rather than first doing a 
short- and long-term threat analysis. The result of such a budget-
centric policy could again lead to a hollow force whose readiness and 
effectiveness is degraded.
    In its statement about priorities and choices, the administration 
talked about ``reducing overhead costs within the military service and 
across the defense enterprise--by an estimated $200 billion between 
fiscal year 2012 and fiscal year 2017--as a result of paring back 
excess staff [and] headquarters.''
    The administration proposes to cut defense ``civilian personnel of 
about 5 percent between fiscal year 2012 and 2018,'' but warns that 
``about half of these reductions depend on infrastructure 
consolidation, restructuring of military treatment facilities, and 
forecasted reductions in demand for depot maintenance as we come out of 
Afghanistan.''

                  BASE CLOSURE OR DEFENSE REALIGNMENT?

    The President's budget continues to ask for more rounds of base 
closures. REA and ROA don't support such a BRAC recommendation. In the 
2005 BRAC, Reserve and National Guard facilities were closed, reducing 
the risk of closure of active duty facilities.

    (1)  BRAC savings are faux savings as these savings are outside the 
accounting cycle; with a lot of additional dollar expenses front loaded 
into the defense budget for infrastructure improvements to support 
transferred personnel.
    (2)  Too much base reduction eliminates facilities needed to 
support surge capability. Some surplus is good.

    Instead, ROA and REA recommend that Congress consider an 
independent Defense Realignment Commission that would examine the 
aggregate national security structure. It could examine:

     (1)  Emerging Threats.
     (2)  Foreign defense treaties and alliance obligations.
     (3)  Overseas and forward deployment requirements.
     (4)  Foreign Defense Aid.
     (5)  Defense partnerships with the State Department and other 
agencies, as well as NGO's.
     (6)  Requisite missions and elimination of duplicity between the 
Services.
     (7)  Current and Future weapon procurement and development.
     (8)  Resetting the force for a post-war context.
     (9)  Critical Industrial base.
    (10)  Surge capability and contingency repository.
    (11)  Best utilization and force structure of Active and Reserve 
components.
    (12)  Regional or centralized training, and dual purpose equipment 
availability.
    (13)  Compensation, recruiting, and retention; trends and 
solutions.

    In a time of war and force rebalancing, it is wrong to make cuts to 
the end strength of the Reserve components. We need to pause to permit 
force planning and strategy to take precedence over budget reductions.

                            RESERVE STRENGTH

    ``The challenges DOD has to face are not going to be handled by 
circling the wagons here at home,'' Dennis McCarthy, then-Assistant 
Secretary of Defense for Reserve Affairs told ROA at its national 
meeting in 2011. ``We're going to continue to need a force that can 
deploy worldwide . . . for the full spectrum of missions. . . . With 
roughly 1.4 [million] active-duty servicemembers, 1.2 million Reserve 
component members and likely future missions worldwide,'' McCarthy 
added, ``the military will need to continue to rely on Reserve 
strength.''
    The Reserve Forces are an integral contributor to our Nation's 
operational ability to defend our soil, assist other countries in 
maintaining global peace, and fight in overseas contingency operations. 
The utilization of America's Reserve and National Guard during all 
phases of military operations is a fundamental enabler to properly 
gaining and sustaining the support of our citizens. It should be noted 
that this principle, known by many as the Abrams Doctrine, has become 
more important since the elimination of the draft and in times of 
prolonged conflict.
    ROA and REA agree with the Reserve Forces Policy Board that despite 
11 years of war, there is inconsistency within the Pentagon on what is 
an operational reserve, which causes confusion within the DOD and leads 
to improper communications about the Reserve component's role to both 
Congress and the public.
    This lack of understanding about the contributions of the Reserve 
component can handicap strategy planning and the budget process, as 
discussions occur in both Congress and the Pentagon on how to reduce 
the budget and the deficit. The peril of lowering defense spending is 
that the Reserve components will become a bill payer. The Air Force and 
the Navy are already making drastic cuts to their Reserve components.
    REA and ROA would like to thank the Senate and members of this 
subcommittee who took legislative action to reduce the impact of 
recommend cuts to airframes and personnel that were touted by the Air 
Force.
    However, the risk continues to exist where Defense planners may be 
tempted to put the Federal Reserve and the National Guard back on the 
shelf, by providing them ``hand me down'' outmoded equipment and by 
underfunding training.
The Reserve Components Remain a Cost-Efficient and Valued Force.
    Reserve component servicemembers have significantly less overhead 
and infrastructure costs than their Active component counterparts.
    On January 11, 2013, the Reserve Forces Policy Board (RFBP) 
delivered a report on military personnel costing practices to the 
Secretary of Defense. In it executive summary RFPB states that the cost 
of a Reserve component servicemember, when not activated, is less than 
one third of their Active Duty counterpart. According to RFPB analysis 
of the fiscal year 2013 budget request, ``the Reserve component per 
capita cost ranges from 22 percent to 32 percent of their AC 
counterparts' per capita costs, depending on which cost elements are 
included.''
    The RFBP found that the Department does not know, use, or track the 
fully-burdened and life-cycle costs of its most expensive resource--its 
military personnel. ``Thus, major military manpower decisions are 
uninformed on the real present and future costs. The RFPB concluded 
that the Department suffers from a gap in its costing data, because it 
lacks proper policy to require a complete and consistent costing 
methodology that can identify the true fully-burdened and life-cycle 
costs.''
    ROA and REA support changes to U.S. Code to require DOD to use a 
costing methodology based on a true fully-burdened and life-cycle 
costing.
    The Reserve and National Guard should also be viewed as a 
repository for missions and equipment that aren't addressed in the 
administration's new Strategic Policy. They can sustain special 
capabilities not normally needed in peacetime.
    Part of the President's budget includes planned end strength 
reductions for both the Army and Marine Corps, by 80,000 and 20,000, 
respectively. It should be remembered that individuals cannot be 
brought quickly on to active duty on a temporary basis, as it is an 
accumulation of experience and training that is acquired over years 
that becomes an asset for the military. The Reserve is also a 
repository for these skills.
    In the Hamilton Project-National Defense in a Time of Change, 
authors ADM Gary Roughhead, USN (Ret.) and Kori Schake recommend that 
``we must redesign our forces and budget to our strategy, and not to 
equal service share between branches. . . . Putting more of the 
responsibilities for ground combat into the combat-proven Reserve 
component is both consistent with the new demands of the evolving 
international order and justified by the superb performance of National 
Guard and Reserve units in our recent wars.''
    The study authors suggest that Congress should reduce the Army ``by 
200,000 soldiers from the 490,000 planned in the fiscal year 2013 
budget, and the [R]eserve and National Guard units would be increased 
by 100,000 and would have the principal mission of arriving in a mature 
theater for sustained combat.''
    Rather than be limited by historical thinking, and parochial 
protections, creative approaches should be explored. The Reserve 
component needs to continue in an operational capacity because of cost 
efficiency and added value. Further, the cost of the Reserve and 
National Guard should not be confused with their value, as their value 
to national defense is incalculable. Civilian skill sets add to the 
value of the individual serving member.
    To maintain a strong, relevant, and responsive Reserve Force, the 
Nation must commit the resources necessary to do so. Reserve strength 
is predicated on assuring the necessary resources-funding for personnel 
and training, equipment reconstitution, and horizontal fielding of new 
technology to the Reserve component, coupled with defining roles and 
missions to achieve a strategic/operational reserve balance.
National Guard and Reserve Equipment Allowance
    The Reserve and National Guard are faced with ongoing challenges on 
how to replace worn out equipment, equipment lost due to combat 
operations and legacy equipment that is becoming irrelevant or 
obsolete. The National Guard and Reserve Equipment Allowance (NGREA) 
provide critical funds to the Reserve Chiefs and National Guard 
Directors to improve readiness throughout procurement of new and 
modernized equipment. Continued receipt of NGREA and congressionally 
added funding will allow the Reserve components (RC) to continue to 
close the Active/Reserve component modernization and interoperability 
gap.
Merger of the Reserve and the National Guard
    Since the administration has a goal to consolidate infrastructure, 
there is a temptation by some to endorse merging the Reserve and the 
Guard as a means to save money. ROA and REA are against any such 
merger.
    The various Reserve components--Reserve and Guard--are serving well 
as currently organized. They both have distinguished traditions of 
service that should not be trampled without a definitive rational to do 
so. No case has been made that national security would be better served 
by a merger.
    A merger may limit the President's accessibility (ability to 
mobilize and use) to the Federal Reserve. There is some history 
reflecting noncooperation between Governors and the President when the 
latter has wished to utilize the National Guard. Access to the Reserve 
component combat commanders would be limited, with planners reducing 
the utilization of an operational reserve. The U.S. Army Reserve is now 
a Federal asset that can become a State asset (Guard); the U.S. Air 
Force Reserve has already flown support for State and disaster 
missions.
    Merging of the Guard and Reserve at a minimum would involve nearly 
three-quarters of a million personnel. The reorganization caused by a 
merger of the Nation's Reserve components would be a mammoth 
undertaking, costing more than suggested savings.
    No major defense figure has called for a merger--not the President, 
not the Secretary of Defense, none of the Service Secretaries, nor the 
Joint Chiefs, no combatant commander, and no Reserve Chief--Guard or 
Reserve. Indeed, the Reserve Chiefs of the USAR and USAFR oppose a 
merger. The calls for a merger have come from retired officers and 
State-level leadership with anecdotal and speculative opinion.
    REA and ROA would like to thank Congress and this committee for 
amending title 10, U.S.C., chapter 1209 of section 12304a that allows 
title 10 reservists to provide assistance during a time of major 
disaster or emergency, and for amending Section 515 of Chapter 1209 
that now authorizes Service Secretaries to activate Guard and Reserve 
members at times other than war or emergencies to augment the Active 
component. ROA and REA hope that the administration makes use of these 
new authorities by providing necessary funding.
Quadrennial Defense Review.
    The QDR does not adequately utilize the Reserve and Guard in its 
national security review. The Reserve Forces Policy Board found that 
senior officials in the Office of the Secretary of Defense with 
responsibility for preparing the 2010 QDR did not ensure that it 
complied with the requirements of title 10, section 118, that specifies 
that the QDR include ``the anticipated roles and missions of the 
Reserve components in the national defense strategy and the strength, 
capabilities, and equipment necessary to assure that the Reserve 
components can capably discharge those roles and missions.'' The RFPB 
also noted that Government Accountability Office found that the QDR 
submitted to Congress in February 2010 did not meet this requirement.
    ROA plans to publish a white paper this summer that will discuss 
anticipated roles and missions for the Reserve and Guard as input to 
the 2014 Quadrennial Defense Review.

                              RESERVE LIFE

    Reserve and Guard members have provided unprecedented service and 
sacrifice for the past decade. Congress should make a commitment to 
them to provide lifelong support for them through career growth, 
civilian employment, seamless health care, family support and deferred 
compensation that has been promised to them upon retirement. This will 
be an incentive to continue to serve.
Continuum of Service
    A continuum of service influences the way the Nation uses 
individual servicemembers and the way it employs its Active and Reserve 
Forces. It enables an effective use of our most important national 
security asset: the men and women who are willing to serve in the Armed 
Forces. It allows them and their families to continue to serve 
throughout predictable life-status changes, and leverages their skills 
throughout a career that is unencumbered with unnecessary barriers.
    By consolidating Active and Reserve personnel procedures and 
policies, and permitting seamless transition between the Active and 
Reserve components, individuals can gain better control of their own 
careers, while the Services maximize the efficiency of force structure. 
A continuum would allow for flexibility and optimization of the Total 
Force by allowing special skills and functions to be activated as 
needed and returned to the Reserve component when not.
    Continuum of service is a human capital strategy that views Active 
(full-time) and Reserve (part-time) military service not as two 
elements of valuable service but as a continuation of service where a 
qualified individual can serve in different capacities and durations 
during his or her career. A continuum of service strategy recognizes 
the tremendous cost of accessing and training each servicemember and 
seeks to avoid unnecessary replication of such costs by accessing those 
skills rather than replacing them.
    Taken to its full potential, a continuum of service would require a 
re-examination of how service is credited and compensated, but would 
also allow for a more efficient management of our forces in a resource 
constrained environment.
    This will require a seamless continuity of military healthcare, 
supported by TRICARE; and an accumulative documentation of both Active 
and Reserve active duty service, published on a single DOD form, rather 
than a series of Certificate(s) of Release or Discharge from Active 
Duty (DD Form 214), whenever someone leaves active duty.
Reserve Life Issues supported by the Reserve Officers and Reserve 
        Enlisted Associations include:

    Changes to retention policies:
        <bullet> Permit service beyond current mandatory retirement 
        limitations.
        <bullet> Eliminate the fiscal year barrier, permitting the 
        accumulation of active service between 2 years.
        <bullet> Retain serving members for skill sets, even when 
        passed over for promotion.
        <bullet> Support incentives for affiliation, reenlistment, 
        retention and continuation in the Reserve component.
        <bullet> Advocate against cuts in Reserve component; support 
        Reserve commissioning programs.
        <bullet> Reauthorize yellow ribbon program to support 
        demobilized Guard and Reserve members.

    Pay and Compensation:
        <bullet> Reject recommendations by The 11th Quadrennial Review 
        of Military Compensation to reduce Reserve component pay for 
        monthly inactive duty training in half.
        <bullet> Reimburse a Reserve component member for expenses 
        incurred in connection with round-trip travel in excess of 50 
        miles to an inactive training location, including mileage 
        traveled, lodging, and subsistence.
        <bullet> Eliminate the 1/30th rule for Aviation Career 
        Incentive Pay, Career Enlisted Flyers Incentive Pay, and Diving 
        Special Duty Pay.
        <bullet> Simplify the Reserve duty order system without 
        compromising drill compensation.

    Education:
        <bullet> Exempt earned benefit from GI Bill from being 
        considered income in need based aid calculations.
        <bullet> Increase MGIB-Selected Reserve (MGIB-SR) to 47 percent 
        of MGIB-Active.
        <bullet> Include 4-year reenlistment contracts to qualify for 
        MGIB-SR.

    Spouse Support:
        <bullet> Expand eligibility of surviving spouses to receive 
        Survivor Benefit Plan (SBP)-Dependency Indemnity Clause (DIC) 
        payments with no offset.
        <bullet> Provide family leave for spouses and family care-
        givers of mobilized Guard and Reserve for a period of time 
        prior to or following the deployment of the military member.

    Deferred Benefits and Retirement:
        <bullet> Extend current early retirement legislation 
        retroactively to Sept. 11, 2001.
        <bullet> Change U.S. Code to eliminate the fiscal year barrier 
        toward full credit toward early retirement.
        <bullet> Promote improved legislation on reducing the Reserve 
        component retirement age.
        <bullet> Permit mobilized retirees to earn additional 
        retirement points with less than 2 years of activated service, 
        and codify retirement credit for serving members over age 60.
        <bullet> Modify U.S. Code that requires repayment of separation 
        bonuses if an individual receives a Uniformed Service 
        retirement annuity.
        <bullet> Continue to protect and sustain existing retirement 
        benefits for currently retired.

    Voting:
        <bullet> Ensure that every deployed servicemember has an 
        opportunity to vote by:

                <bullet> Working with the Federal Voting Assistance 
                Program.
                <bullet> Supporting electronic voting.

        <bullet> Ensure that every military absentee ballot is counted.

Continuity of Health Care:
    REA and ROA support improving health care continuity to all 
drilling reservists and their families. While Transitional Assistance 
Management Program (TAMP) TRICARE and TRICARE Reserve Select (TRS) are 
good first steps, TRICARE is neither universally accepted nor 
accessible to everyone entitled.
    The President's decision to reduce 5,235 full-time positions in the 
Military Health System will force more military personnel and families 
into the TRICARE network, and by reducing the Prime Service Areas, will 
likely reduce the number of civilian providers who will accept TRICARE 
beneficiaries.
    Recent DOD policies on mobilization frequency of the Reserve and 
National Guard members set a goal of 1 year out of 5. This will make 
continuity of health care even more important to Reserve component (RC) 
members. ROA endorses enhancements to:

        <bullet> Continue to improve health care continuity to all 
        drilling reservists and their families by:

                <bullet> providing individuals an option of DOD paying 
                a stipend toward employer's health care,
                <bullet> extending TRS coverage to mobilization ready 
                IRR members; levels of subsidy would vary for different 
                levels of readiness,
                <bullet> allowing demobilized retirees and reservists 
                involuntarily returning to IRR to qualify for 
                subsidized TRS coverage,
                <bullet> extending TRICARE coverage from the time of 
                alert prior to mobilization,
                <bullet> allowing demobilized Federal employees the 
                option of TRS coverage.

        <bullet> Fund restorative dental care prior to mobilization.
        <bullet> Request a GAO Review of TRR premiums which currently 
        do not support a continuity of healthcare.

    Reserve and Guard members experience problems when moving from 
their civilian health care to TRICARE while being deployed. They 
frequently must change physicians, which is extremely stressful for 
family members who require continuing care, such as a pregnant spouse 
or a family member who requires special care. Members and their 
families can also experience problems when returning to private 
healthcare insurance from TRICARE if there is a condition which began 
while in the TRICARE system.
    Additionally, REA and ROA view the military health care provided to 
retirees as an earned benefit. This is also a deferred incentive that 
encourages both Active and Reserve members to be retained. DOD health 
care inefficiencies and wartime expenses should not be a financial 
burden placed on these retirees. ROA and REA are grateful to Congress 
for the passage of TRICARE Standard coverage for gray-area reservists 
but hope that the Armed Services Committees can request a review of 
premium levels.

Joint Military Professional Education--a need to expand.
    A deep bench of Joint Qualified Officers (JQO) is essential to 
military planning and operations in today's national security 
environment. The architects of the Goldwater-Nichols Act recognized 
this and attempted to codify standards and career milestones to build a 
robust cadre of Joint officers. Although this act makes no distinction 
between the Services' Active and Reserve components, obtaining JQO 
Level III status, which requires both joint experience and education, 
has proven much more challenging for members of the Reserve components 
(RC) to achieve. The primary reason is that opportunities for members 
of the RC to attain JPME Phase II credit or attend Senior-Level 
Education in residence are more limited than for the Active component 
(AC). Members of the RC typically complete Senior-Level Service School 
through their respective Services' distance education program.
    However, graduates of the Distance Education Programs (DEP) do not 
receive the JPME Phase II credit required to achieve the coveted JQO 
Level III status. So, in addition to completing a 12 to 24 month DEP, 
RC members aspiring to achieve JQO status must complete the Advanced 
Joint Professional Military Education (AJPME), a 10-month blended 
course, through Joint Forces Staff College. Altogether this can 
potentially add up to 34 months of education to achieve what most 
members of the AC do in 10 months at in-residence programs--despite the 
fact that nearly the same curricula standards apply to both the DEP and 
the resident education program (REP). To both provide equal access to 
achieve Level III status, and to better position the RC to continue to 
function as an Operational Force, barriers to educational achievement 
must be creatively addressed while not lowering standards.
    Solution--Amend title 10, U.S.C., and adjust policy to provide that 
nonresident graduates of accredited senior-level service school 
programs receive the same JPME credit as resident graduates. It is 
acceptable to also require that a certain amount of the non-resident 
curricula also deal with joint issues. Further, the laws should be 
amended that provide that graduates of the Joint Forces Staff College 
(JFSC) Advanced JPME course receive Phase II credit.
    Permit flexibility in the student and faculty ratios now required 
by title 10, U.S.C., to permit the nonresident programs to adjust and 
validate other ratios that would still yield a proper joint education. 
The waiving of the current ratios would be solely within the control of 
the Secretary of Defense although his discretion should be limited to 
permitting a maximum ratio of 80 percent faculty and students coming 
from the host institution to ensure cross-culturalization.
    ROA has suggested language to amend title 10, U.S.C., and will work 
with the committee to make these improvements.

                               CONCLUSION

    ROA and REA restate our profound gratitude for the bipartisan 
success achieved by this committee by improving parity on pay, 
compensation and benefits between the Active and Reserve components. 
The challenges being faced with proposed budget cuts are going to make 
this committee's job that much harder.
    ROA and REA look forward to working with the personnel subcommittee 
where we can present solutions to these challenges and other issues, 
and offers our support in anyway.

    Senator Gillibrand. Thank you to each of you for your 
testimony and your advocacy and your service. We appreciate it 
very much.
    I wanted to start with Ms. Moakler just because you raised 
the issue of suicide. We are obviously still seeing a very high 
number of suicides by our servicemembers from those both 
returning from war and those who have never been deployed. In 
2012, the military hit a tragic record high of 349 suicides, or 
1 every 25 hours. This statistic obviously is heartbreaking and 
tragic, and should serve as a call to action for the DOD to do 
more to prevent our servicemembers from taking their own lives.
    Ms. Moakler, you said that you wished the families and the 
servicemembers had been included in the work they are doing. 
Can you amplify what you stated and give me more information?
    Ms. Moakler. Yes. Because of the need of accessing 
behavioral health care, because of perhaps not having access 
and the tools that they need to address the stress from 
deployment, we hear of many family members who have 
contemplated suicide or even have committed suicide. As a 
matter of fact, we have been hearing about three military 
children who have committed suicide just in Fairfax County over 
the past year.
    So while the tools are out there, how do we determine--how 
do we pinpoint what we can give to families to meet their 
needs? How do we get the information out to them so that they 
can realize that there is someone that they can reach out to 
before they take drastic steps?
    Senator Gillibrand. From other members on the panel, I 
would like your thoughts on this. Obviously we have a lot of 
challenges after separation. There is often a stigma associated 
with seeking mental health services. There is the Yellow Ribbon 
program and other programs we have often do not continue beyond 
the first year. Oftentimes post-traumatic stress disorder and 
other traumatic brain injuries (TBIs) manifest themselves over 
time, and so suicide becomes an issue over time.
    What are some of your thoughts on this issue and how we 
should respond to it as a committee?
    Chief Barnes. Madam Chairman, I would thank you for your 
attention to this issue and for the question. I know from my 
own personal experience while on active duty, I can speak to 
the tremendous stigma associated with seeking counseling and 
admitting the need for counseling. That continues. That a major 
motivator, as you mentioned.
    I believe it is a leadership issue with regard to--from the 
top down within the Department to uniform leaders with trying 
to communicate the importance of seeking counseling, and also 
educating servicemembers about the importance of that, not just 
with regard to suicide, but with regard to PTS and TBI 
conditions and whatever the signature conditions associated 
with service in Iraq and Afghanistan.
    But I think that is really, really important to emphasize 
and try to address the stigma associated with that. I agree 
with the importance of looking at this more broadly with regard 
to family members and dependents.
    Thank you.
    Colonel Strobridge. Madam Chairman, I have to say there is 
a certain amount of intransigence to this problem. But I think 
there is at least some similarity to the sexual assault issue. 
Both of these are highly traumatic kinds of situations. They 
are deeply personal. People are, in many cases, very reluctant 
to come forward.
    But I do think that there is an institutional element to 
that stigma. Just as you have talked about holding the command 
responsible for the sexual assault issues, we have had many 
cases, very frankly, where there was pretty atrocious behavior 
by people in the chain of command telling people, ``suck it 
up,'' ``you do not have a problem,'' ``get back to work,'' 
those kinds of things. We even had a very senior officer--it 
was several years ago--actually prosecuted a lieutenant colonel 
for attempting to commit suicide against the advice of the 
surgeon general.
    To my knowledge, I have never heard of anybody being 
relieved for that kind of behavior. To me, I think that is one 
of the reasons why the stigma persists, because people see no 
penalty for the people who do engage in that behavior. Now, I 
have no doubt about the sincerity of the leadership in pursuing 
this, but I think in the chain of command, whether it is a 
senior noncommissioned officer, or an O-3, or an O-5, or an O-
6, or a flag officer who tolerates the behavior or participates 
in that behavior. The person suffers the consequences, but the 
person who imposed that intimidating factor does not, that 
sends a message.
    Senator Gillibrand. We, in the last NDAA, asked for a 
study, particularly about hazing. We said suicide resulted from 
a couple of hazing incidents. They happened to be New Yorkers. 
So we asked for an analysis by the military on incidents of 
hazing and how to get rid of it and how to address the issue. 
Ms. Moakler, you said that you were requesting that we ask for 
a study similarly for military families on suicide rates, which 
I think is a very fine suggestion.
    Captain Hanson, do you have any thoughts you want to add to 
this debate?
    Captain Hanson. Thank you. I was noticing how everybody was 
so quick going for the talk button. It just shows you how 
impassioned we are all on this issue.
    The challenge for the Reserve and Guard is the fact that 
when they return home, they do not have the same type of ties 
to military bases that the members of the Active Duty component 
have access to. So there are more challenges out there for 
getting them assistance, and there have been some good 
programs. TriWest worked on, for example, embedding mental 
health professionals right into units prior to deployment so 
that when these people returned, they had rapport already 
established.
    Also the expansion that both DOD and the TRICARE 
contractors are working on of providing civilian mental health 
providers out in the field closer to the reservists and guard 
members has already been very helpful.
    But one program that I would encourage is basically peer 
counseling. One thing you learn if you ever come in contact 
with a combat veteran is they feel comfortable only talking 
with someone else who has been through the same experiences. I 
think this is an important program to expand.
    Senator Gillibrand. Senator Ayotte.
    Senator Ayotte. Thank you very much. I want to thank all of 
our witnesses who are here today for their service and 
particularly the important organizations that you represent for 
our men and women in uniform and our veterans.
    I wanted to follow up on this idea, Captain Hanson, on the 
Guard and Reserve assistance. I noticed in your prepared 
testimony you talked about the Yellow Ribbon Reintegration 
Program. As you mentioned New Hampshire in that program, 
because we have a deployment cycle support program that is 
really trying to put together the public resources from the 
Guard and then mirroring it with Easter Seals in terms of 
private resources to be able to provide our Guard and Reserve 
members support because they do not have--they do not go back 
to a base, so they do not have that group of peers that are 
even there or the active duty support structure.
    So I wanted to get your thoughts. I know that you cite our 
program in it, and I am very proud of it. But one of the 
concerns that I have had is I have asked our military leaders 
to come and see it so that it is one thing if New Hampshire or 
Virginia or some other State has it, but every Guard and 
Reserve member across this Nation and their families deserve 
that type of support because we could not have fought the wars 
in Iraq and Afghanistan without their help. They go through the 
same traumatic issues and have so many issues that their 
families need support for, yet that structure is not there the 
same as in the active duty.
    I wanted to get your thoughts on what more we can do to 
move this so that there is some consistency and national 
emphasis on this.
    Captain Hanson. Well, Senator, I think you hit the nail on 
the head by suggesting better communications. New Hampshire, 
Minnesota, Montana, Maryland have all had outstanding programs, 
and one of the successes is sharing what each is doing rather 
than developing things independently. I think the lessons 
learned definitely have to be communicated.
    I have to commend DOD that they have taken some special 
action to do that, and each of the Services have also shared. 
Coming from a Navy background, I know the Navy learned from the 
other Services, so it included such things as bringing family 
members into Yellow Ribbon and finding financing to help the 
more junior people to be able to afford to attend these things. 
In fact, in many cases for the Yellow Ribbon Program, they are 
now soliciting private money for the States to assist in some 
of the financing that's occurring.
    Senator Ayotte. I can tell you in our program, the Veterans 
Count is a non-profit organization, so we are raising money 
privately to match the Federal dollars to have the community 
involved as well. But that does not take away the 
responsibility of the Federal Government, given what we have 
asked our Guard and Reserve members to do, along with our 
Active-Duty Forces in fighting the wars for our country and for 
our Nation.
    Captain Hanson. One of the things that other States have 
done that they share with New Hampshire is going out into the 
community because it is important to teach community leaders 
about what type of stresses that returning members from 
deployment are going to be facing. Not that these individuals 
should not be responsible for their activities, but it has been 
pointed out that there is an adrenalin withdrawal after 
deployment, and a lot of substitute activities occur. The more 
people know about it, the more they can understand the 
situation.
    Senator Ayotte. Ms. Moakler, do you have anything to add to 
this because the family piece of this is incredibly important 
as well in the support structure.
    Ms. Moakler. Well, I think that--I am sorry. I wanted to 
bring this up under the last set of questioning. Recently we 
became aware of a program in the chairwoman's home State of New 
York in Bay Shore, Long Island, where the VA has partnered with 
a local counseling hospital, organization, corporation, and the 
veterans, and, of course, our returning guardsmen and 
reservists are eligible for care and counseling from the VA as 
they return from deployment, as well as those who separate from 
service are offering counseling for the servicemember.
    It is done in cooperation with the private counseling, and 
so the families are able to access that, and then, oh, my 
goodness, the doctors talk to each other, so they are able to 
treat the families as a whole and deal holistically with the 
reintegration problems that they might be having.
    Senator Ayotte. Thank you. Mr. Strobridge, thank you for 
your service. I wanted to ask you about the TRICARE increases 
that are proposed in the President's budget. You had testified 
the concerns you have, the opposition that you have to those 
increases. You identified that you believe that the Services 
have not undertaken some of the hard work of looking for 
efficiencies. There has been a lot of discussion in the past 
about, for example, consolidation of health care commands.
    I wanted to get your thoughts on what types of efficiencies 
and work should our Service bureaus be doing and should we be 
emphasizing with them rather than going back again to those who 
have served and asking them to pay--there are some very 
significant increases proposed here.
    Colonel Strobridge. Yes, Senator. We believe very strongly 
that the military health care system is built to meet the 
requirements of the Services, to meet the requirements of 
readiness. That is different from being built to meet the needs 
of the beneficiaries.
    The military is unique. The beneficiaries need--you need to 
serve readiness. It has that unique role. However, when people 
start talking about having the beneficiaries share some 
percentage of DOD health costs, those kinds of things have to 
be brought into the equation. When the system is built to have 
three different Service surgeons general and DOD running four 
different major contracts, and tons of subcontracts, and they 
are all competing with each other one way or another for budget 
share, that is not the way you or I would organize the system 
if we are trying to be efficient.
    So there is a part of that that is, if it is the right way 
to do business, it is an institutional cost. When we deploy 
doctors, we send more beneficiaries downtown, which costs DOD 
more money. That is not the beneficiary's fault. The 
beneficiary should not have to pay for that.
    When we implemented the mail-order pharmacy system in 2001, 
for the first 6 years there was no DOD effort whatsoever to try 
to get people to use it, even though at that time, every 
prescription was $100 cheaper through the mail-order system. We 
actually were pushing. Just the preventive care kinds of 
issues, DOD just put out a big program saying we have--we are 
now paying for smoking cessation. Well, they only did that 
because you had to put something in the law requiring them to 
do it, and then they took 4 years to implement it, and they 
still do not cover Medicare eligible beneficiaries.
    Another example, on the chronic conditions. What is the 
most important way to hold down long-term health care costs for 
people with asthma, for people with diabetes, those kinds of 
things? It is for them to take their medications. There are 
studies that show that even a modest co-pay deters people from 
taking their medications.
    One of the things we had urged DOD to do was eliminate the 
co-pay for those chronic condition medications. Instead, we 
just jacked them up, and DOD is proposing to triple them. This 
just is not cost efficient.
    Senator Ayotte. Thank you for your testimony. I want to 
thank all of you for being here.
    Senator Gillibrand. Senator Kaine.
    Senator Kaine. I also want to thank you, Madam Chairman, 
and committee members.
    I feel better having you guys on the case. I have a son in 
the military, and it is good to know that there are great 
advocates like you out there battling for him. To those of you 
who are completing this chapter of service with more to come, 
thank you for that.
    I kind of feel like I am in a schizophrenic world in the 
Senate because I go to Budget Committee meetings where a 
primary message is we are not cutting enough spending, and I go 
to Armed Services Committee meetings where a primary message is 
that the cuts that are being made or being proposed are too 
severe. Sometimes even the schizophrenia combines, so when 
active, major military figures say that the deficit is the 
number one security challenge, which we have had that testimony 
before us, it is challenging to know how to negotiate these 
icebergs and be pro-military, pro-armed services, and yet try 
to deal responsibly with a budget.
    I think we would all say if we looked at deficits right 
now, they are not what we want them to be, and we want to 
manage them in a significant way, but do it right, and do it 
consistent with obligations.
    Colonel Strobridge, you were testifying earlier about 
TRICARE, and I was sort of struck. Your opposition as a 
coalition, you were speaking on behalf of the coalition, your 
opposition to the TRICARE proposals, but you are not opposed to 
reform. It is just this particular one you do not like because 
you cited in response to Senator Ayotte's question a whole 
series of reforms or avenues for reform that you think should 
be done.
    If I am--I think I am accurate in this that the coalition 
in the past has also supported a number of reforms that have 
been done to health care or retirement on the military side.
    So you are not an anti-reform coalition. You have supported 
reform efforts to try to find savings, is that not true?
    Colonel Strobridge. Yes, Senator, that is very true. When 
DOD, 2 years ago, proposed far more modest fee increases, they 
proposed a 13 percent increase in TRICARE prime, they proposed 
$2 and $3 increases in pharmacy co-pays, we took some heat for 
not objecting to those because we had really strongly objected 
to previous DOD proposals for a far higher increase.
    We had always said, look, if you talk about--we are about 
principles. One of the big problems here is that DOD did go a 
long time without exercising authority it had to do any fee 
increase. What that meant, what that told beneficiaries each 
year was that we do not think fees are appropriate, any 
increases are appropriate.
    Senator Kaine. Right.
    Colonel Strobridge. When you do that for a decade at a 
time, people kind of get the impression that it is not 
appropriate. Then you get a new Secretary of Defense, and we 
got a new budget problem. He says, let us quadruple the fees.
    Senator Kaine. Right.
    Colonel Strobridge. That is----
    Senator Kaine. Unacceptable.
    Colonel Strobridge.--unacceptable.
    Senator Kaine. Yes, absolutely.
    Colonel Strobridge. What we have been after is trying to 
put principles in law: what are the fees, what is the reason 
for the fees, what is the adjustment methodology? We have done 
pretty much that over the last couple of years working with the 
subcommittee.
    Senator Kaine. You mentioned something I completely agree 
with, raising the notion, for example, that military benefits, 
health care or otherwise, be means tested would be very 
discriminatory given the fact that we do not generally means 
test other Federal health or retirement programs.
    I am not asking you to advance an organizational position, 
but clearly the idea of means testing broadly is an idea that 
is being kicked around a lot here. I agree it would be very 
unwise to do this on the military side without doing it more 
broadly.
    But has the coalition or organization talked more broadly 
about what it thinks about means testing strategies if it 
really was a society-wide approach to dealing with some of our 
spending or deficit issues?
    Colonel Strobridge. Yes, sir, we have. We draw the 
distinction between programs--when you look at the programs 
that are means tested, they are either--you do not like to use 
the term ``welfare programs,'' but there are those kinds of 
things. They are social insurance programs. Social security is 
means tested. You get different benefits based on how much you 
earned. Medicare is means tested. You pay different premiums 
based on how much you earn. But none of those is earned by 
decades of service, and that is the difference. To us, if your 
benefit is earned by service as an employee, then that benefit 
should not be means tested.
    We have had proposals in the past to say we should means 
test military retired pay or military retired pay cost-of-
living adjustments. What that boils down to is if you get a 
job, you lose your retirement, or if your spouse gets a good 
job, you lose your retirement.
    Then what do we tell someone we are trying to induce to 
serve 20 years under the conditions we have had, the war time 
conditions we have had over the last decade? Do we tell them if 
you serve these years, you will get these benefits, unless you 
get a good job, even if we kick you out of the Service in your 
40s or 50s, or unless you marry a spouse who has a job, in 
which case we will cut your benefits. Is that a message that we 
want to send to people? Do we think that is a good career 
attractant? I do not.
    Senator Kaine. Just extending the metaphor for the 
discussion, what about non-military Federal employees?
    Colonel Strobridge. I think that is the same thing, sir. 
When people make a decision to make a career, they are looking 
ahead to see what you earn for that. What you earn for your 
service is different than what you get from social security or 
from Medicare that is open to every American regardless of 
whether they work for the military or work for the government 
or not.
    Senator Kaine. Just to make sure I understood your point. 
When you said earlier that to means test military without 
programs would be discriminatory, would be, and in my view that 
would be wrong. But even if we looked at means testing, you 
would draw a distinction between means testing social welfare 
programs like Medicaid, for example, might be allowable or in 
accord with principles. Means testing programs that are--like 
social security and Medicare where you are chipping in out of 
your salary might be allowable, but would not be allowable 
either for programs associated with military service or public 
employment.
    Colonel Strobridge. It is bad policy as an employer to tell 
your employees that the benefits they earn by serving you for 
decades are conditional. You are not going to tell them what 
the conditions are.
    Senator Kaine. Yes, and I agree. If it was only a matter of 
employment law we were thinking about, you would be right. If 
we are dealing also with the reality of deficits and budgets 
that all of us as citizens have some desire and maybe even a 
citizen's obligation to try to fix, it is not just a matter of 
employment law and practice.
    Colonel Strobridge. Well, in the end it is, sir, because 
this is my last time here. I started working military 
compensation issues in 1977. That was in the middle of a 
terrible erosion of benefits. We had another one in the late 
1990s. We do this periodically, and we always do it because of 
budget cutbacks, and we always rationalize.
    You made the point, what is the ultimate? Is recruiting and 
retention okay? Well, when you are drawing down the force, 
recruiting and retention is always okay. We have used that in 
the past to say, gee, we cannot afford it. It is unaffordable 
if you project the costs out in the future, so we cut 
retirement benefits in 1986. They said the same thing we have 
today. Oh, gee, we cannot change the rules, so it will only 
apply to new people, as if that would not affect the new 
people. All that does is kick the problem 10 years downstream. 
We had to repeal it because then the new people ultimately 
would not stay.
    We rationalized annual pay caps by saying retention is 
fine, so we can cut pay again. That is like driving by looking 
in the rear view mirror. You never see the problems ahead, and 
you keep doing it until you cause a retention problem. Then you 
have to scramble to pay even more to repair the force, and you 
end up with a hole in the force because a lot of people got 
out.
    That is the consequence of the budget mentality, and that 
is why we have worked so hard over decades literally to put 
these principles in law. Congress only put the pay standard in 
law in 2003 because we learned the lessons of the past and we 
said, we do not want to do that anymore. The standard should be 
whatever the average American gets is what the military should 
get, and that is supposed to apply through good times and bad.
    Now, the practical reality is it does not. We always cut 
when we are having budget--and we always pay it, and we always 
say when the problem comes, gee, we have to learn from that. We 
will never do it again. Here we go again.
    Senator Kaine. Does your organization--last question--ever 
take a position on big picture issues like the right and wrong 
ways to deal with deficit and spending? Do you deal with it all 
with cuts? Do you deal with it with revenue increases? Do you 
take positions on that?
    Colonel Strobridge. I think it is safe to say that we have 
some of the same problems with taking a stance on revenue 
increases that you all do.
    Senator Kaine. Yes. We have a divided--we have a citizenry 
that is of multiple opinions about it.
    Colonel Strobridge. Yes, sir.
    Senator Kaine. I guess we are all in the same boat there. 
Thank you a lot. Thanks, Madam Chairman.
    Senator Gillibrand. Senator King.
    Senator King. Thank you. I apologize for being late. I was 
at a----
    Senator Gillibrand. We will conclude at 4 p.m. in time for 
votes, so there is enough time for you to have a full----
    Senator King. I was at a full committee hearing on the 
issue of Syria with Secretary Hagel and General Dempsey.
    A couple of questions following up on the exchange, and 
please feel free to chime in. Just to be sure I have the 
numbers right, as I have been told, the TRICARE fees for 
enlisted--for active duty are zero. They are covered. We are 
really talking about retirees, and the rates I have been told 
are $270 for an individual, $540 for a family. Are those in the 
ballpark? Is that right?
    Chief Barnes. A little low.
    Senator King. A little low? How low? Can you give me a 
number?
    Colonel Strobridge. It is pretty close.
    Senator King. I think it is important just to know what we 
are talking about.
    Colonel Strobridge. For TRICARE prime for a family, it is 
now $539. I think that is about what you said.
    Senator King. Yes, $540 is what I said. Okay.
    Colonel Strobridge. About half that for the single people. 
But we kind of rush to say that is not the full premium people 
pay. That is what they pay in cash.
    Senator King. Okay. What else do they pay?
    Colonel Strobridge. We tell people if you want to 
understand the full premium people pay, it is--would you be 
willing to sign up to spend the next 20 or 30 years being 
deployed to Afghanistan on a regular basis.
    Senator King. I understand that. I am going to get to that 
next.
    Colonel Strobridge. No, that is it.
    Senator King. I am going to get to that next.
    Colonel Strobridge. Most people are unwilling to do that.
    Senator King. But that is the number.
    Colonel Strobridge. Yes, that is the cash annual enrollment 
fee.
    Senator King. So the next question is, and I think you make 
a good point that you should not--if you are contracting with 
people essentially that you should not change the terms of the 
deal. When people sign up with the military, do they know $540 
a month is what they are going to have to pay for their health 
care in 20 years? In other words, what are they told at 
enlistment about health care benefits?
    Colonel Strobridge. They are not told details. They are 
told words like, you will have health care for life.
    Senator King. Is there an implication that it is free?
    Colonel Strobridge. In many cases, as you said, while they 
are on active duty, they are not paying it, and so many of them 
interpret it as meaning that. Many are very surprised that they 
have to pay anything once they retire. Many are surprised to 
learn they cannot go to the military facility anymore. They 
have to go find a civilian doctor. To a lot of people, that 
does not seem like much. To a military person or anybody who 
has spent their 20 or 30 years in one health care system, 
changing is traumatic.
    Senator King. But the question is, and perhaps, Madam 
Chairman, we could see the documents. I would like to see what 
somebody is given when they sign up. They must be given terms 
of employment, and it would be interesting to see what they are 
told about health care, and whether, in fact, it is part of 
what they are contracting for when they sign up.
    Colonel Strobridge. Well, I used to write some of those, 
and I have seen a lot of others. I have never seen one that is 
handed to someone with 4 to 10 years of service that lays out 
specific premiums that will be paid in the future.
    Senator King. But you understand the line of my questions.
    Colonel Strobridge. Yes.
    Senator King. You are essentially saying this is a contract 
that we are making with somebody when they sign up that they 
are going to get this health care in the future. I would like 
to know is that, in fact, the case.
    Colonel Strobridge. I guess that is a little firmer way 
than I would say it. That is----
    Senator King. Moral obligation?
    Colonel Strobridge. Well, I would come to say that there 
need to be some standards. I do not think you are ever going to 
brief any person when they are coming up to reenlistment on all 
the details of what they will earn if they stay.
    Number one, if they are 15 or 20 years away from 
retirement, Congress may well change it. So you cannot 
guarantee what they will get, and that is one reason why they 
are vague. But they say you will have health care for life. You 
will earn X amount of retired pay. They do not say, well, 
unless you get disabled in the line of duty, in which case you 
may have to give up part of your retired pay if you also get VA 
compensation. Or you may have to pay X amount of money for 
health care, because I do not know what the health care fees 
are going to be 15 years from now.
    Senator King. I am not being argumentative. I am new to 
this committee, so I am trying to understand and learn.
    Colonel Strobridge. Sure, absolutely.
    Senator King. But as I understand it, if you retire from 
the military and you are a doctor and you set up a practice, 
and you are an orthopedic surgeon and make half a million 
dollars a year, your health care costs would still be $540 a 
year. Do you think that is okay?
    Colonel Strobridge. Yes, sir, I do because number one, that 
person is probably not using TRICARE. He is probably in a 
facility where he is getting care on his own. So, you have to 
take those kinds of things into consideration.
    But the issue is, did your Service earn the benefit or not? 
Very simple yes or no question.
    Senator King. That was the point of my prior questions. I 
am trying to get to the bottom of that of was that an 
expectation.
    Colonel Strobridge. Absolutely.
    Senator King. Chief Barnes.
    Chief Barnes. Senator, we take an oath of office when we 
join the military. We do not necessarily sign a contract. One 
observation. The second point, within our association, we are 
communicating with three generations, those that are currently 
serving, those that are currently serving ends of careers and 
moving into retirement, and those that have served in the past, 
going back to the Korean and sometimes World War II conflicts 
and that era.
    The older retirees are adamant with regard to commitments 
that were made to them in return for their service. Many 
believe they are entitled to health care for life, and many 
attest to being promised free health care for life. This has 
been tried in the courts. This is an issue. We reference this. 
This is a huge issue with them, their periods of service, them 
coming forward serving our Nation, and then how they were 
treated subsequent to their service.
    Another point with regard to the TRICARE fees, those are 
adjusted annually based on inflation. There was a point made 
earlier about the many years that DOD declined to adjust fees, 
the TRICARE prime fees. I asked that question when I was much 
younger and doing legislative service work in meetings with the 
Department over that period of time. This is a commitment.
    Going back to my comments, and I think the comments of my 
colleagues here that is coming through, military service is 
unlike any other occupation or career field. It is essential 
that the pay and benefits associated with that service are 
unique and reflect that service. I believe that is----
    Senator King. I completely agree with that statement. I 
completely agree with that statement and understand it 
entirely. I am just trying to determine--it would be 
interesting to survey 21-year-olds who have enlisted and ask 
them what their expectations are.
    Colonel Strobridge. If I could comment on that. I think the 
expectations--a 21-year-old is probably not even thinking about 
it. They probably never gave two thoughts to it. It is at some 
point between the 4- and 10-year point where people get 
married, have children, start thinking about financial 
responsibilities, start thinking about do I want to keep doing 
this for a career or not. That is when they start weighing the 
sacrifices expected of them versus the rewards that they are 
likely to receive if they complete a career.
    Very few people sit down and do the research to say exactly 
how much is it. They do some basics. They may look at a pay 
table and say, here is today's pay table. Here is what a 
colonel with 26 years of service makes, get a rough idea of the 
retirement. They probably do not do any investigation on health 
care. They assume, I think, that their health care will 
continue the way it is now, and they make those judgments.
    Senator King. Well, I understand. Madam Chairman, I know I 
am out of time. Just one more quick observation.
    The sequester, which many think is a 1-year deal, is not. 
It is in the law for 10 years. The cuts that are coming, unless 
we can unwind that in some way, are drastic. The impact on the 
military is going to be and already is drastic.
    From the point of view of the people you represent, you 
need to understand that you have a stake in how we collectively 
resolve this problem because if we are unable to do something 
realistic about it and have to absorb those cuts, these kinds 
of things are going to be very difficult, very difficult, 
because we are talking, in the next 6 months almost $50 billion 
out of DOD, and multiply that by 10 in addition to the cuts 
that were made in the bill in August 2011.
    There is a lot of discussion around here about these budget 
cuts. They are real. They are going below the level of--they 
are real cuts. They are not just cuts in growth.
    So I urge you to think broadly as we are wrestling with 
this issue because there is no way to make those cuts without 
impacting virtually everybody in the military system. That is 
just reality.
    Senator Gillibrand. Thank you, Senator King.
    Thank each of you for your testimony. Thank you for your 
service. Thank you for being advocates. We appreciate it. Your 
written statements will be made part of the record.
    We also received a statement, for the record, from the 
National Association of Chain Drug Stores. Without objection, 
it will be included in the record.
    [The information referred to follows:]

  Prepared Statement by The National Association of Chain Drug Stores

                              INTRODUCTION

    The National Association of Chain Drug Stores (NACDS) thanks the 
subcommittee for the opportunity to submit a statement for today's 
hearing on the President's fiscal year 2014 budget.
    NACDS represents traditional drug stores, supermarkets, and mass 
merchants with pharmacies--from regional chains with four stores to 
national companies. Chains operate more than 41,000 pharmacies and 
employ more than 3.8 million employees, including 132,000 pharmacists. 
They fill over 2.7 billion prescriptions annually, which is more than 
72 percent of annual prescriptions in the United States.
community pharmacy are the most readily accessible healthcare providers
    Ninety-two percent of Americans live within 5 miles of a community 
pharmacy, making pharmacies among the most accessible healthcare 
providers. Local pharmacists play a key role in helping patients to 
take their medications as prescribed and offer a variety of pharmacist-
delivered services to improve health quality and outcomes. With 
preventive immunizations and appropriate medication use, it is possible 
to reduce utilization of costly medical services such as emergency room 
visits and unnecessary physician visits. The proximity of community 
pharmacies to each and every American and pharmacists' exceptional 
knowledge and training renders pharmacies uniquely positioned to 
provide care for the American public.

       PHARMACIST-ADMINISTERED VACCINATIONS IMPROVE PUBLIC HEALTH

    Increasingly, local pharmacies are not only a reliable, convenient 
source for obtaining prescription drugs, but also a healthcare 
destination. For example, retail network pharmacies now provide 
vaccinations to TRICARE beneficiaries. Recognizing the cost 
effectiveness of pharmacist-provided vaccinations, the Department of 
Defense (DOD) authorizes TRICARE beneficiaries to obtain vaccinations 
at a retail network pharmacy for a $0 co-payment. In its final rule 
expanding the authority of retail pharmacies to provide vaccinations, 
DOD estimated that in the first 6 months of the immunization program, 
it had saved over $1.5 million by having vaccinations provided through 
the pharmacy rather than the medical benefit (Federal Register, Vol. 
76, No. 134, p. 41064). This cost savings did not take into 
consideration the savings from medical costs that would have been 
incurred in treating influenza and other illnesses, if TRICARE 
beneficiaries had not been vaccinated. In addition, DOD also noted in 
the final rule that ``adding immunizations to the pharmacy benefits 
program is an important public health initiative for TRICARE, making 
immunizations more readily available to beneficiaries. It is especially 
important as part of the Nation's public health preparations for a 
potential pandemic, such as was threatened last fall and winter by a 
novel HlNl virus strain. Ensuring that TRICARE beneficiaries have ready 
access to vaccine supplies allocated to private sector pharmacies will 
facilitate making vaccines appropriately available to high risk groups 
of TRICARE beneficiaries'' (Federal Register, Vol. 76, No. 134, p. 
41063).

  MEDICATION THERAPY MANAGEMENT IMPROVES HEALTH OUTCOMES AND REDUCES 
                                SPENDING

    Medication Therapy Management (MTM) is a distinct service or group 
of services that optimize therapeutic outcomes of medications for 
individuals based on their unique needs. MTM services increase 
medication adherence, enhance communication and collaboration among 
providers and patients, optimize medication use, and reduce overall 
healthcare costs. Increasingly, MTM services provided face-to-face by 
retail pharmacists is proving to be the most effective intervention. 
For example, a recent study published in the January 2012 edition of 
Health Affairs demonstrated the key role retail pharmacies play in 
providing MTM services to patients with diabetes. The study found that 
a pharmacy-based intervention program increased patient adherence and 
that the benefits were greater for those who received counseling in a 
retail, face-to-face setting as opposed to a phone call from a mail-
order pharmacist. The study also suggested that an integrated, 
pharmacy-based program, including interventions such as in-person, 
face-to-face interactions between the retail pharmacist and the 
patient, contributed to improved behavior with a return on investment 
of 3 to l.
    A recent report by the Centers for Medicare & Medicaid Services 
(CMS) found that Medicare Part D beneficiaries with congestive heart 
failure and COPD who were newly enrolled in the Part D MTM program 
experienced increased medication adherence and discontinuation of high-
risk medications. The report also found that monthly prescription drug 
costs for these beneficiaries were lowered by approximately $4 to $6 
per month and that they had nearly $400 to $500 lower overall 
hospitalization costs than those who did not participate in the Part D 
MTM program. NACDS is confident that the TRICARE program could achieve 
similar results with an effective MTM program utilizing local 
pharmacists.

      PRESERVING PATIENT ACCESS AND CHOICE IN THE TRICARE PROGRAM

    NACDS is opposed to the proposal in the President's budget to make 
further changes to pharmacy co-payments and other policies that would 
further drive TRICARE beneficiaries out of their local pharmacies and 
to the TRICARE Mail-Order Pharmacy (TMOP). There are already strong 
incentives in place to encourage beneficiaries to use mail order, as a 
result of provisions in the National Defense Authorization Act for 
Fiscal Year 2013. Nevertheless, the President's budget includes 
additional changes. In most cases, TRICARE beneficiaries would be 
unable to obtain non-formulary medications at their local pharmacy. 
Furthermore, cost sharing will increase to as much as $34 for a 30-day 
supply of a formulary medication at retail, and as much as $66 for a 
90-day supply of a non-formulary medication at TMOP.
    In addition to unfairly penalizing TRICARE beneficiaries who prefer 
to use local pharmacies, NACDS believes this proposal is pennywise and 
pound foolish. Failure to take medications as prescribed, costs the 
U.S. health system $290 billion annually, or 13 percent of total health 
expenditures, as estimated by the New England Healthcare Institute in 
2009. Threatening beneficiary access to prescription medications and 
their preferred healthcare provider will only increase the use of more 
costly medical interventions, such as physician and emergency room 
visits and hospitalizations.
    NACDS supports cost savings initiatives that preserve patient 
choice. For example, the utilization of generic medications by TRICARE 
beneficiaries is low in comparison with other plans. The generic 
dispensing rate at retail pharmacies--78 percent in 2012--is higher 
than any other practice setting. Partnering with local pharmacists, 
modest increases in generic utilization by TRICARE beneficiaries would 
have a dramatic impact on the DOD budget.

                               CONCLUSION

    Thank you for the opportunity to share our views. We look forward 
to working with you on policies that control costs and preserve access 
to local pharmacies.

    Senator Gillibrand. Thank you all for your testimony today.
    Hearing adjourned.
    [Questions for the record with answers supplied follow:]

          Question Submitted by Senator Kirsten E. Gillibrand

                DEPARTMENT OF DEFENSE LABORATORY HIRING

    1. Senator Gillibrand. Mr. Vollrath, the strength of our military 
not only resides in the outstanding capabilities of our service men and 
women, but also in the technological edge that they hold on the 
battlefield. Crucial to developing this technological edge are the 
60,000 men and women of Department of Defense's (DOD) laboratory 
enterprise spread across 22 States--half of whom are degreed scientists 
and engineers. As DOD competes with industry for the best and brightest 
scientists and engineers, it needs certain flexibilities to be rapid in 
its hiring and aggressive in its retention of this segment of its 
workforce. What flexibilities are you giving to the DOD laboratories to 
recruit and retain the best and brightest scientists and engineers?
    Mr. Vollrath. DOD labs are using numerous human resources 
flexibilities aimed at quickly recruiting the most skilled scientists 
and engineers, allowing for competitive salary offers through the use 
of pay banding, and rewarding high performers through contribution-
based and pay-for-performance programs. Lab demonstration projects have 
access to Federal Government hiring processes, and are experimenting 
with numerous flexibilities to attract, hire, and retain high quality 
candidates. These flexibilities include Expedited Hiring Authority, 
Direct Hire Authority, and use of interns. Additional specifics are 
below:

        <bullet> The Labs have robust educational programs offering 
        internships to students from high school through post-graduate 
        school. These programs provide meaningful training and career 
        development opportunities for individuals who are at the 
        beginning of their Federal service. Programs include the 
        Pathways Intern Programs, Recent Graduates Program, and the 
        Science, Mathematics, and Research for Transformation 
        scholarship program for students pursuing degrees in Science, 
        Technology, Engineering, and Mathematics (STEM) disciplines.
        <bullet> A Voluntary Emeritus Program or Corps offering retired 
        or separated employees volunteer positions, thus providing 
        mentorship from highly seasoned professionals.
        <bullet> Acquisition Workforce Expedited Hiring Authority, 
        National Defense Authorization Act (NDAA) for Fiscal Year 2009, 
        section 833, as amended by NDAA for Fiscal Year 2010, 
        authorizes expedited hiring for positions in Acquisition 
        Workforce career fields for which there is a shortage of 
        candidates or a critical hiring need.
        <bullet> Of special significance to the demo enterprise is the 
        direct hire authority to appoint candidates with advanced 
        degrees (Masters and Ph.D.) to scientific and engineering 
        positions non-competitively. This legislative authority, 
        established in fiscal year 2009 and amended in fiscal year 
        2011, has significantly increased the laboratories' ability to 
        compete with private industry in quickly making firm job 
        offers.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham

              HEALTHCARE EFFICIENCY AND COST EFFECTIVENESS

    2. Senator Graham. Dr. Woodson, more work needs to be done to 
deliver healthcare efficiently within military hospitals and clinics. 
What are you and the Services' Surgeons General doing to make the 
delivery of healthcare services more efficient and cost-effective in 
those facilities?
    Dr. Woodson. At this time the Military Healthcare system is 
undergoing a comprehensive transformation that will streamline our 
decisionmaking and management in our largest medical markets and 
assessing the effectiveness of our current inventory of hospitals' 
ability to maintain a ready medical force and meet beneficiary 
healthcare needs. The Services are fully engaged with us in these 
efforts that will consolidate our approach to provide cost-effective 
and efficient delivery of health care to all our beneficiaries. We will 
achieve Initial Operating Capability of the new governance structure on 
October 1, 2013 and Full Operating Capability on October 1, 2015.

         CIVILIAN FURLOUGHS: IMPACT ON FAMILY SUPPORT PROGRAMS

    3. Senator Graham. Secretary Wright, we are concerned about the 
potential impact of civilian furloughs on critically important family 
support programs. If furloughs take place, do you expect any cutbacks 
in operating hours at commissaries, exchanges and child development 
centers or curtailment of morale, welfare and recreation, Department of 
Defense Education Activities programs, transition assistance program, 
or military spouse employment programs?
    Secretary Wright. Sequestration will impact funding across the 
board for family programs and services, and civilian furloughs will 
impact civilian positions that provide fitness, child care and family 
programs at the Installation level. The Department remains committed to 
providing military families with support programs and resources that 
empower them to address the unique challenges of military life, these 
programs are crucial to the readiness and quality of life of military 
members and their families; however impacts to programs and services 
may be unavoidable.

Commissaries
    Furlough will result in the closure of each commissary 1 day a 
week.

Exchanges
    Nonappropriated Fund (NAF) employees are not covered by the 
requirements and procedures applicable to furloughs of appropriated 
fund employees under fiscal year 2013 sequestration. However, if the 
reduction in appropriated fund resources leads to a curtailment in MWR 
or exchange business operations, NAF employees may be furloughed for 
business-based reasons.

Child Development Centers
    Child development programs impact approximately 200,000 children 
daily. Guidance issued by the Secretary of Defense on May 14, 2013 
exempting NAF employee and designated appropriated fund (APF) staff 
ensures that the daily operation of the installation child development 
and school-age care programs will not be negatively impacted by 
furloughs.

Family Programs
    Impacts of furloughing family program personnel at the installation 
level include the possible closure or reduction in services of Military 
and Family Support Centers. Access to relocation support, financial 
counseling and education, deployment support, exceptional family member 
services, non-medical counseling, employment support, and transition 
assistance, could all be curtailed due to manpower shortages. Impact of 
furloughing National Guard and Reserve family program personnel in 
Reserve Family Assistance Centers may reduce capacity and hours based 
upon the length of the furlough.

Morale, Welfare and Recreation Programs
    Civilian furloughs will result in reduced hours of operation and 
services. Access will be limited for fitness centers, libraries, 
outdoor recreation; recreational information, tickets, tours, and 
travel services; recreational swimming; recreation centers; arts and 
crafts skill development; automotive crafts skill development; lodging 
and Armed Forces Sports Programs (above intramural level) may be 
curtailed.

Department of Defense Education Activity (DODEA)
    DODEA employees will be subject to furlough for up to 5 days at the 
beginning of the 2013-2014 school year. Regardless of the number of 
furlough days, DODEA will ensure that all students will have a robust 
academic year. School staff will ensure that students receive a full 
year of academic study and school accreditation will not be impacted.

Transition Assistance Program
    Transition Assistance Program (TAP) provides servicemember's career 
readiness training prior to discharge from the Military. We don't 
currently anticipate major delays in the redesign of the TAP due to 
sequestration, furloughs, and the hiring freezes. The Military 
Departments are on track to comply with law, the Veterans Opportunity 
to Work to Hire Heroes Act, and the Presidential Veteran Employment 
Taskforce mandates.

Military Spouse Employment Programs
    Military Spouse Employment programs may face a delay in services on 
installations due to shortage of personnel to provide services. A 
furlough may degrade the quality of the event should contributing 
agencies be unable to support or assist in the planning and 
implementation.

                    EMERGENCY DEPARTMENT UTILIZATION

    4. Senator Graham. Dr. Woodson, TRICARE's average cost of an 
emergency department visit is $541 in the private sector while the 
average cost for an urgent care visit is only $88 per visit. Yet, 
TRICARE requires beneficiaries to get a pre-authorization before they 
can get urgent care. Understandably, there are no pre-authorization 
requirements for emergent care. Essentially, TRICARE has created a 
disincentive for beneficiaries to use the less costly urgent care 
option. How much money could DOD save if TRICARE removed the urgent 
care pre-authorization requirement entirely?
    Dr. Woodson. DOD could save an estimated $21 million per year by 
removing the urgent care pre-authorization requirement entirely. On 
October 1, 2013, we will implement a demonstration intended to test 
whether permitting active duty family members (ADFMs) to receive urgent 
care in the private sector without a referral from their PCM will 
result in decreasing emergency room (ER) visits and health care costs. 
Under the demonstration, ADFMs enrolled in TRICARE Prime or TRICARE 
Prime Remote will be permitted to have four urgent care private sector 
visits per year without the need to first obtain a referral from their 
primary care manger. The hypothesis of the demonstration is that ADFMs 
often seek care in private sector ERs for conditions that are not 
actually urgent because they are subject to a point-of-service charge 
for obtaining care from an urgent care clinic without having a referral 
to do so.

    5. Senator Graham. Dr. Woodson, how soon could DOD implement 
policy/program changes and begin to achieve savings in this area?
    Dr. Woodson. On October 1, 2013, we will implement a demonstration 
intended to test whether permitting ADFMs to receive urgent care in the 
private sector without a referral from their PCM will result in 
decreasing ER visits and health care costs. Under the demonstration, 
ADFMs enrolled in TRICARE Prime or TRICARE Prime Remote will be 
permitted to have four urgent care private sector visits per year 
without the need to first obtain a referral from their primary care 
manger. The hypothesis of the demonstration is that ADFMs often seek 
care in private sector ERs for conditions that are not actually urgent 
because they are subject to a point-of-service charge for obtaining 
care from an urgent care clinic without having a referral to do so.

               MILITARY HEALTH SYSTEM MODERNIZATION STUDY

    6. Senator Graham. Dr. Woodson, DOD issued a Resource Management 
Decision directing a comprehensive review of Military Health System 
capabilities and requirements. What is the intent of this review?
    Dr. Woodson. The intent of the review is to assess the DOD's 
clinical delivery system and identify opportunities to increase our 
ability to maintain the clinical skills of our uniformed providers to 
assure availability of a ready medical force while improving 
effectiveness and efficiency of care delivery.

    7. Senator Graham. Dr. Woodson, what is the timeline for this 
review?
    Dr. Woodson. This review is ongoing and will be completed by 
September 30, 2013.

    8. Senator Graham. Dr. Woodson, do you expect your recommendations 
will include downsizing of facilities and personnel?
    Dr. Woodson. It is too early to forecast the recommendations of the 
Modernization Study because the data and models are still in 
development. The study will develop options to sustain the clinical 
skills of our uniformed providers while assuring availability of a 
medically ready force and improving effectiveness and efficiency of 
care delivery. Options will be developed that maintain or enhance 
access to care by evaluation of alternative delivery approaches.

                   IMPACT OF SEQUESTRATION ON TRICARE

    9. Senator Graham. Dr. Woodson, Under Secretary Hale has told us 
that DOD may stop paying private sector medical claims this summer as a 
result of the budgetary impact of sequestration. If so, this would 
damage DOD's managed care support contractors' relationships with 
providers. What other options has DOD explored to prevent a delay in 
claims reimbursements to protect the integrity of the TRICARE provider 
network?
    Dr. Woodson. In order to minimize the impact on the Direct Care 
system and TRICARE, we intend to take risk in other areas, such as 
reducing Facility Sustainment, Restoration and Modernization projects; 
implementing a civilian hiring freeze; reducing equipment purchases; 
strictly limiting travel; reducing or cancelling contracts; and 
implementing a civilian furlough. Additionally, we have taken a 
reduction in our core research and development program. All of these 
actions are designed to preserve resources in order to maintain our 
ability to provide care in the Direct Care system and to continue to 
pay TRICARE claims and avoid harming the network.

    10. Senator Graham. Dr. Woodson, what will be the impact on 
individual and institutional providers in local communities if their 
claims are not paid timely?
    Dr. Woodson. Sequestration could have a potentially ruinous effect 
on the provider network if we are forced to slow or suspend claims 
payments. We have spent years building a provider network that has come 
to recognize us as a reliable payer. Our goal is to maintain these good 
relationships and sustain the provider network intact despite the 
challenges posed by sequestration.

    11. Senator Graham. Dr. Woodson, how might this damage the future 
of TRICARE provider networks?
    Dr. Woodson. It has taken us years to build our robust health care 
network. Our strategy is to maintain that to the best of our ability 
despite the devastating impact that sequestration will bring in other 
areas. We intend to take substantial risk in other areas, such as 
Facility Sustainment, Restoration and Modernization, in order to 
continue to pay TRICARE claims and avoid harming the network.

                          PURCHASED CARE VALUE

    12. Senator Graham. Dr. Woodson, DOD's fiscal year 2012 budget 
requests almost $16 billion to purchase healthcare services in the 
private sector. We understand why you need to purchase some services 
from civilian providers and hospitals, but we are concerned that your 
budget asks for almost twice the funding for private sector healthcare 
than for healthcare provided in military hospitals and clinics. How do 
you know if DOD and its beneficiaries are getting good value for 
dollars spent in the private sector healthcare?
    Dr. Woodson. The cost of health care services in the private sector 
is a key concern of the Department. We believe we are getting a good 
value for dollars spent in the private sector via provider discounts 
obtained through TRICARE managed care network contracts as well the 
TRICARE provider reimbursement rates being statutorily tied to the 
Medicare reimbursement rates. For beneficiaries enrolled in TRICARE 
Prime, our managed care option, our referral and authorization 
procedures ensure only timely and necessary private sector care is 
being provided to Prime enrollees, regardless of whether they are 
enrolled to a military treatment facility (MTF) primary care manager 
(PCM) or to a civilian PCM.
    Through beneficiary surveys, we know our customers often prefer to 
receive health care services at a MTF versus in the private sector. The 
Department will continue to work to expand the capacity and 
capabilities of the MTFs as we welcome returning medical professionals 
from the war theaters and through initiatives such as the reengineering 
that will occur as part of the Defense Health Agency standup.

    13. Senator Graham. Dr. Woodson, do you have data to show that 
beneficiaries who get care from civilian providers are actually getting 
healthier?
    Dr. Woodson. No. We are actively working to provide access to 
preventive services and treatment, and to engage our patients in a 
partnership to preserve and even improve their health. However, 
measures of health outcomes (i.e. data that they are getting healthier) 
are still difficult to obtain. TMA has beneficiary survey data that 
looks at such issues as obesity, tobacco use and utilization of 
preventive screening services. Trending data for both the purchased and 
direct care sectors shows a slight decline in smoking rates over the 
past 3 years and an obesity trend that is flat. While we do collect 
Healthcare Effectiveness Data and Information Set data for both the 
direct and purchased care, and we do have data for both of these 
sectors on such things as colorectal cancer screening, breast cancer 
and cervical cancer screening, this doesn't tell us if our population 
is getting healthier. It tells us only we are screening for these 
diseases. To answer the question if the population is healthier as a 
result of these screenings would require additional data on whether we 
avoided disease as a result of these screenings, which we do not 
currently have. TMA also currently does not perform a health risk 
assessment either in the direct or purchased care sector, which would 
give self-assessment information on the health of the individual, and 
in aggregate, the population.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    14. Senator Graham. Secretary Wright, it is unconscionable that 
servicemembers must wait many months to receive a disability 
determination from the Department of Veterans Affairs (VA). While DOD 
and VA have made some progress in decreasing the amount of time it 
takes to get disability claims completed in the Integrated Disability 
Evaluation System (IDES), more work must be done. Why are the 
Departments not meeting goals?
    Secretary Wright. The Department shares your concerns regarding 
IDES processing time and we are aggressively taking action to reduce 
the cycle time.
    Specifically, over the last 6-months we've decreased the time 
necessary to process servicemembers through the medical evaluation 
board (MEB) portion of the IDES 39 percent (132 days to 80 days 
average). We've also decreased physical evaluation board (PEB) time 25 
percent (133 days to 100 days average). As a result, many of these MEB 
and PEB cases are now nearing completion as they move through the IDES 
Transition and VA Benefit Phases. If these trends continue and once we 
work through the bow wave of cases the acceleration has created in the 
later portions of the IDES, by December 2013, we expect servicemembers 
to complete the entire IDES in significantly fewer days. We attribute 
the improvement to the following:

        <bullet> Increased IDES staff levels by 127 percent (676 
        personnel) over the last 2 years.
        <bullet> Authorized the Services to use Ph.D. psychologists (in 
        addition to psychiatrists) to adjudicate behavioral health 
        cases.
        <bullet> Reduced Informal Physical Evaluation Board membership 
        from 3 to 2 to increase their capacity to process cases.
        <bullet> The Army improved its Medical Evaluation Board 
        timeliness by 74 percent (reduced from 117 to 31 days against 
        100-day goal) at select locations by segmenting Soldiers into 
        cohorts of simpler versus complex cases.
        <bullet> The Army placed 15 Reserve Soldiers at VA's Seattle 
        Disability Rating Activity Site to ensure VA has all the DOD 
        information it requires to complete IDES disability case 
        reviews and claims adjudication.

    15. Senator Graham. Secretary Wright, what are DOD and VA doing to 
expedite claims through the system?
    Secretary Wright. The Department shares your concerns regarding 
IDES processing time and we are aggressively taking action to reduce 
the cycle time.
    Specifically, over the last 6-months we've decreased the time 
necessary to process servicemembers through the MEB portion of the IDES 
39 percent (132 days to 80 days average). We've also decreased PEB time 
25 percent (133 days to 100 days average). As a result, many of these 
MEB and PEB cases are now nearing completion as they move through the 
IDES Transition and VA Benefit Phases. If these trends continue and 
once we work through the bow wave of cases the acceleration has created 
in the later portions of the IDES, by December 2013, we expect 
servicemembers to complete the entire IDES in significantly fewer days. 
We attribute the improvement to the following:

        <bullet> Increased IDES staff levels by 127 percent (676 
        personnel) over the last 2 years.
        <bullet> Authorized the Services to use Ph.D. psychologists (in 
        addition to psychiatrists) to adjudicate behavioral health 
        cases.
        <bullet> Reduced Informal Physical Evaluation Board membership 
        from three to two to increase their capacity to process cases.
        <bullet> The Army improved its Medical Evaluation Board 
        timeliness by 74 percent (reduced from 117 to 31 days against 
        100-day goal) at select locations by segmenting soldiers into 
        cohorts of simpler versus complex cases.
        <bullet> The Army placed 15 Reserve soldiers at VA's Seattle 
        Disability Rating Activity Site to ensure VA has all the DOD 
        information it requires to complete IDES disability case 
        reviews and claims adjudication.

    16. Senator Graham. Secretary Wright, do you believe the VA is 
doing all that it can do to decrease the amount of time for disability 
case reviews and claims adjudication?
    Secretary Wright. I do believe the VA is doing all that it can do 
to decrease the amount of time for disability case reviews and claims 
adjudication. VA and DOD continually work to improve the quality of 
service and timeliness for our servicemembers who transit the IDES. 
Most recently, VA requested and DOD agreed to position 15 Reserve 
servicemembers at VA's Seattle Disability Rating Activity Site to 
ensure VA has all DOD information it requires to complete IDES 
disability case reviews and claims adjudication.

    17. Senator Graham. Secretary Wright, does the VA need additional 
resources to hire more claims adjudicators?
    Secretary Wright. I do not have the required knowledge of the VA 
resourcing, their internal business processes, and disability claims 
processing rates to make that assessment. We are committed to working 
closely with the VA where we can to put enablers in place and enhance 
the completeness of the information which we provide which will help 
eliminate the backlog.

                MILITARY TRAINING INSTRUCTOR MISCONDUCT

    18. Senator Graham. Secretary Wright, your combined statement 
indicated a DOD-wide review and assessment was conducted of all initial 
military training of enlisted personnel and commissioned officers 
following the incidents at Joint Base San Antonio-Lackland. What were 
the results of that review and what actions have been taken?
    Secretary Wright.
Background:
    The Army, Navy and Marine Corps performed a comprehensive 
assessment of their IMT using the U.S. Air Force Lackland Report as a 
basis from which to review and validate their own policies, procedures, 
and training. The Lackland report and subsequent follow-on reports 
served as the Air Force's assessment.
Results of Review:
    The assessments revealed that although the Army, Navy, and Marine 
Corps conduct IMT in their own Service-specific manner, the majority of 
the recommendations from the Lackland Report were established practices 
throughout each of these Services. The Army, Navy, and Marine Corps 
reports describe in detail their internal control mechanisms that 
ensure proper instructor behavior and monitoring to include extensive 
leadership presence and oversight. In addition, each Service provides 
explicit guidance on behavior and expectations for leadership, 
instructors and support staff. Some areas of improvement were 
identified by each Service, but no misconduct or disciplinary concerns 
were cited. Areas needing improvement include ensuring sufficient 
manning of instructor and leadership positions, the assignment of 
appropriate numbers of female instructors and enhancing SAPR training 
delivery through the use of additional adult learning methods.
Actions Taken:
    The Army, Navy and Marine Corps are all working towards achieving 
the optimum manning levels and improving the quality of instruction 
provided. The Air Force continues to make significant progress in 
addressing the concerns raised in the Lackland Report, and numerous new 
procedures and policies have been successfully implemented. Of the few 
remaining recommendations cited in the Lackland Report that have not 
been implemented to date, full implementation is expected by the end of 
the fiscal year. In addition, as recommended in the Lackland report, 
the multi-Service Council of Recruit Basic Training (CORBT) was 
established to provide a venue by which the Services can share best 
practices and identify potential areas of concern. The CORBT held its 
first meeting in April 2013 and will meet on a quarterly basis with 
general/flag officer representatives from each of the Services' 
Training Commands in attendance.

                    PROTECTING PROSPECTIVE RECRUITS

    19. Senator Graham. Secretary Wright, a recent tragic case in 
Maryland appears to have been a murder/suicide involving a prospective 
recruit and her recruiter. What guidance has DOD provided to ensure 
that prospective recruits and their parents or guardians are fully 
aware of the limits for relationships with recruiters?
    Secretary Wright. Each of the Services has policies and procedures 
in place to ensure that prospective recruits are fully aware of the 
limits for relationships with recruiters. During the recruitment 
process applicants are given a card or document that outlines 
acceptable behavior regarding applicant/recruiter relationships. As 
applicants progress through the recruitment process, more detailed 
information is provided. Applicants are free to share this information 
with their parents or guardians.
    In a recent memorandum to the Service Secretaries, the Secretary of 
Defense directed each to review current practices and policies to 
ensure they are effective at protecting our newest and aspiring 
servicemembers. These Secretary of Defense-directed assessments will 
include: (1) the selection, Sexual Assault Prevention and Response 
(SAPR) training, and oversight of recruiters; (2) the dissemination of 
SAPR program information to potential and actual recruits; and (3) the 
prevention and education programs in ROTC environments and curricula. 
The findings will be reported to Secretary of Defense through me by 
September 30, 2013.

    20. Senator Graham. Secretary Wright, what information does DOD 
require to be provided to prospective recruits to ensure that they have 
immediate access to assistance and intervention, if necessary, if they 
believe a recruiter is intending to take improper advantage of them?
    Secretary Wright. The Services provide applicants with contact 
information in the early part of the recruiting process. Applicants can 
use this information if they believe a recruiter has acted improperly. 
As applicants progress through the recruitment process, more detailed 
information is provided regarding appropriate recruiter behavior. In a 
recent memorandum to the Service Secretaries, the Secretary of Defense 
directed each to review current practices and policies to ensure they 
are effective at protecting our newest and aspiring servicemembers. 
These Secretary of Defense-directed assessments will include: (1) the 
selection, Sexual Assault Prevention and Response (SAPR) training, and 
oversight of recruiters; (2) the dissemination of SAPR program 
information to potential and actual recruits; and (3) the prevention 
and education programs in ROTC environments and curricula. The findings 
will be reported to Secretary of Defense through me by September 30, 
2013.

                DEFENSE SEXUAL ASSAULT INCIDENT DATABASE

    21. Senator Graham. Secretary Wright, your combined statement 
indicated DOD has achieved full-deployment of the congressionally-
mandated Defense Sexual Assault Incident Database (DSAID). What 
information, specifically, is DSAID providing DOD leadership concerning 
sexual assault incidents?
    Secretary Wright. The DSAID is a centralized system to collect and 
maintain information on sexual assaults involving members of the Armed 
Forces. Since achieving full-deployment, DSAID has been giving our 
Sexual Assault Response Coordinators (SARCs) an enhanced ability to 
manage victim cases and assistance. SARCs input and maintain sexual 
assault case data, important documentation, and victim support history 
throughout the case lifecycle. DSAID tracks referral services to assess 
response efforts provided to victims in both the long and short-term. 
Tracking referral of services allows SARCs to better manage cases by 
accessing cases electronically, identifying cases for review and 
follow-up, and facilitating case management meetings. SARCs also use 
DSAID to document other information, such as the prevention and 
response training sessions they provide.
    Victims benefit from the improved tools in DSAID as well. Victims 
receive improved care and assistance through DSAID's case management 
and meeting features, referral services tracking, and storage of the 
official form documenting the vicitm's unrestricted reporting option 
(DD Form 2910, Victim Reporting Preference Statement). To comply with 
recent legislation, we will be expanding DSAID's capability to 
confidentially store the DD Form 2910 in restricted reports. DSAID's 
storage capability for DD Form 2910 provides a central location from 
which victims may request access to this documentation. Access to 
records like this becomes very important to victims who may choose to 
pursue VA benefits.
    DSAID also provides military service Sexual Assault Prevention and 
Response (SAPR) Program Managers with the capability for improved case 
management oversight, enhanced trend analysis, and access control for 
sexual assault personnel working in their Service.
    On October 1, 2012 all sexual assault reports were being entered 
into DSAID through interface with a Military Service data system, or by 
direct data entry by authorized personnel. Prior to fiscal year 2012, 
historical data is not contained in DSAID because this data was not 
standardized across the Services. This year, DOD is closely monitoring 
the information entered into DSAID, conducting information assurance 
activities, and updating reporting modules to comply with legislation 
in the NDAAs for Fiscal Year 2012 and Fiscal Year 2013. The Department 
will use DSAID as its primary means to fulfill congressional reporting 
requirements beginning in fiscal year 2014.

    22. Senator Graham. Secretary Wright, what additional tools does 
DOD need in order to continue to reduce--with the goal of eliminating--
sexual assault?
    Secretary Wright. At this time, we believe the Department's 
strategic plan, Secretary of Defense-led initiatives, and unified data 
collection activities will help us reduce sexual assault.
    Our data collection efforts are supported by the DSAID, which is a 
centralized system to collect and maintain information on sexual 
assaults involving members of the Armed Forces. DSAID is standardizing 
data collection and reporting in support of the Department and each 
Service's sexual assault prevention and response program. The 
availability of electronic data will also enable reports and queries to 
be generated quicker than in the past. DSAID will ease the burden of 
difficult and timeconsuming data collection, trend analysis, and 
reporting. The Department will use DSAID to meet congressional 
reporting requirements beginning this next fiscal year.
    To fully leverage DSAID's functionality, the Department plans to 
evaluate additional data analysis means in fiscal year 2014. Expanding 
DSAID's current capabilities beyond operational reports to a complex 
analysis system will allow us to better understand the factors that 
influence reporting, victim assistance and accountability efforts. This 
expanded capability will deliver the data needed by leadership and 
stakeholders to better understand our progress in eliminating sexual 
assault from the military.

                      COMMAND CLIMATE ASSESSMENTS

    23. Senator Graham. Secretary Wright, what percent of commands 
conduct command climate assessments?
    Secretary Wright. One hundred percent of commands are expected to 
participate in command climate assessments. Commands are composed of 
several organizations and units all of which participate in the command 
climate assessments. If less than 50 persons are assigned to an 
organization or unit, a command climate assessment will be conducted at 
a higher level of the command to protect the anonymity of the 
servicemembers participating in the assessment. Existing DOD guidance 
requires all commanding officers to assess their organizational 
climate, preferably upon assumption of command, and to schedule follow-
up assessments periodically during their command tenure.

    24. Senator Graham. Secretary Wright, what is DOD doing to improve 
the regularity of command climate assessments?
    Secretary Wright. Command climate assessments involve the use of 
surveys, record reviews, and interviews to evaluate shared perceptions 
on formal or informal policies, practices, and procedures within an 
organization. Topics include, but are not limited to, equal 
opportunity, equal employment opportunity, and how well the 
organization functions as a team. We have considered commanding 
officers to be accountable for command climates in their organizations 
in DOD guidance since 1995.
    In a memorandum to the Service Secretaries and Service Chiefs on 
May 6, 2013, the Secretary strengthened current guidance by adding 
mandatory questions addressing sexual harassment and sexual assault to 
climate assessment surveys; requiring command climate assessments to be 
conducted 120 days after assumption of command; and annually thereafter 
directing command climate assessment results to be reported to the next 
level-up in the chain-of-command beginning in July 2013.

    25. Senator Graham. Secretary Wright, what is DOD doing to evaluate 
the results of the command climate assessments to ensure necessary 
follow-up action?
    Secretary Wright. The evaluation of climate survey results will 
rest with senior level military commanders within the chain of command. 
From an oversight perspective, I am particularly interested in noting 
that command climate assessments address the perceptions of 
servicemembers regarding equal opportunity and fair treatment related 
to policies and practices within the unit; the ability of the 
organization to function as a team; and the extent to which each 
servicemember feels like a valued member of the team.
    Additionally, as part of the 2013 Sexual Assault Prevention 
Response (SAPR) Strategic Plan, the Secretary of Defense directed the 
Service Chiefs, through their Service Secretaries, to develop methods 
to assess the performance of military commanders in establishing 
command climates of dignity and respect to include incorporating sexual 
assault prevention and victim care principles, and hold commanders 
accountable. The methods for accomplishing this action must be reported 
to the Secretary of Defense through my office.
    Reviews of the Service methods called for in the SAPR Strategic 
Plan will provide my office the opportunity to exercise the required 
oversight to ensure the Department's efforts are on track.

                   FEDERAL VOTING ASSISTANCE PROGRAM

    26. Senator Graham. Secretary Wright, what is your assessment of 
the performance of DOD's Federal Voting Assistance Program (FVAP) and 
when will Congress receive the report on the 2012 Federal election 
cycle?
    Secretary Wright. The Department's preparation, voter assistance 
provision and outreach during the 2012 election cycle were the best 
they have ever been, due in large part to the FVAP's strong 
partnerships with the Military Services, the Department of State, and 
State and local election officials.
    FVAP engaged Flag Officers and Senior Enlisted Advisors to increase 
awareness of the right to vote and the ease of voting absentee. Voting 
Assistance Officers (VAOs,) trained by FVAP, sponsored voter 
registration drives at installation exchanges and commissaries, and 
events to increase awareness and encourage voting participation. Mass 
emails to all military members were deployed multiple times to reach 
all servicemembers and military dependents on installations, and voting 
notifications were printed on servicemembers' Leave and Earnings 
Statements. FVAP also provided in-person and online training to 
Installation Voter Assistance Offices and Unit VAOs.
    In addition, FVAP teamed with State and local election officials to 
share expertise and best practice recommendations on policies and 
procedures affecting military and overseas citizen voters. FVAP 
provided direct and online training to ensure these officials were 
aware of the Federal requirements as well.
    The Department conducted comprehensive communications and outreach 
campaigns leading up to the November election. FVAP made online tools 
available to guide voters to a completed registration or ballot request 
(the Federal Post Card Application (FPCA) or back-up ballot--the 
Federal Write-In Absentee Ballot) to be signed and submitted by the 
voter. The FVAP.gov portal was enhanced to provide more direct-to-the-
voter assistance, including links to local election official 
information and State-specific information and forms. FVAP included 
print advertisements in The Military Times, Stars and Stripes, and 
Military Spouse magazine, complemented by online ads using behavioral, 
contextual and geographic targeting to reach military and overseas 
voters. FVAP also utilized the social media channels Facebook, Twitter 
and LinkedIn to share timely absentee voting deadlines and procedures.
    The FVAP 2012 election report will be delivered by June 30, 2013. 
The data gathered and lessons learned from the 2012 election will be 
used toward continued program improvements for the 2014 and 2016 
election cycles.

                       OPERATION TEMPO OVERSIGHT

    27. Senator Graham. Secretary Wright, what is your assessment of 
the Services' Operation Tempo (OPTEMPO) reporting and how well are we 
meeting our OPTEMPO requirements to reduce stress on our servicemembers 
and their families?
    Secretary Wright. Keeping in mind that high OPTEMPO can cause undue 
stress for servicemembers and their families, we continue to carefully 
manage the dwell time of our forces across the Department and monitor 
the Services' achievements in meeting the established goals. We are 
encouraged that the Services are at or above the deployment to dwell 
objective (1x deployment: 2 x home) for the Active component.
    We monitor and report this objective by quarter through our 
readiness reporting system. For fiscal year 2013, all of the Services 
have met or exceeded this deployment to dwell goal. Specifically:

        <bullet> The Navy achieved its goal of 95 percent of sailors 
        meeting a 1:2 deployment to dwell ratio;
        <bullet> The Marine Corps goal is also 95 percent and had 97 
        percent of marines achieve the goal;
        <bullet> The Air Force goal is 95 percent and had 97 percent of 
        its airmen achieve the goal;
        <bullet> The Army goal is 85 percent and had 92 percent of its 
        soldiers achieve the goal.

                     LANGUAGE AND CULTURE TRAINING

    28. Senator Graham. Secretary Wright, having military members with 
language and culture training are essential to a U.S. global force. The 
NDAA for Fiscal Year 2013 authorized the Secretary of Defense to 
transform the National Language Service Corps from a pilot to a 
permanent program, and also enhance the ability of our Federal agencies 
to hire people with strategic foreign language skills and as National 
Security Education Program awardees. What are DOD's goals with respect 
to the capabilities represented by the National Language Service Corps?
    Secretary Wright. As a result of the NDAA for Fiscal Year 2013, DOD 
will formally establish the National Language Service Corps by July 31, 
2014. In order to respond to increasing demands for foreign language 
skills, the Department plans to increase membership in the National 
Language Service Corps from the current 4,200 to at least 5,500 and 
expand the number of languages/dialects represented from 283 at present 
to at least 350, by fiscal year 2015.
    This increase will provide greater opportunities for the Corps to 
respond to requests in areas such as strategic language support 
operations (interpretation, translation, and analysis), training 
(instruction), logistics activities, emergency relief activities, and 
administrative language support services to Federal Government domestic 
and international activities.

                       MARKETING AND ADVERTISING

    29. Senator Graham. Secretary Wright, one effect of sequestration 
was that DOD quickly moved to end Service advertising, marketing, and 
outreach programs that have been used to aid in recruiting. What is 
your assessment of the value of funding these programs, and the 
projected impact to recruiting if these programs are not funded?
    Secretary Wright. Advertising and marketing programs create a means 
to maintain a high level of awareness of the opportunities and benefits 
provided by military service. In today's world of non-stop media, it is 
important that the Services have the resources to reach prospective 
applicants through a multitude of marketing activities. Research shows 
there has been a gradual reduction in the number of people who know 
someone who has served or is currently serving in the military. Combine 
this with the fact that only 25 percent of our youth are qualified to 
serve, and advertising and marketing become critical to keeping 
propensity to serve at a level necessary to sustain the All-Volunteer 
Force. Awareness and interest in military service is only achieved over 
time with repeated exposures to the opportunities available in today's 
military. By reducing the funding for these programs, the Military 
Services run the risk of reducing awareness and interest over the long-
term with the greatest impact being felt in future recruiting efforts.

                       FLEXIBLE SPENDING ACCOUNTS

    30. Senator Graham. Secretary Wright, the administration has still 
not implemented flexible spending accounts to enable military families 
to pay health care and child care expenses with pre-tax dollars. When 
can we expect these flexible spending accounts to be established?
    Secretary Wright. The Department does not support establishing 
flexible spending accounts (FSA) due to the administrative cost of 
these programs and the corresponding limited benefit to servicemembers.
    There are two types of FSAs: Dependent Care FSA (DCFSA) and Health 
Care FSA (HCFSA). Annual direct agency costs per member (2013) would be 
$15 for a DCFSA and $16.20 for an HCFSA. According to a 2010 Tricare 
Management Activity (TMA) survey, less than 20 percent of respondents 
indicated interest in participating in an FSA. Yet, the cost to DOD 
each year could be as much as $3.8 million and $4.3 million for a DCFSA 
and HCFSA, respectively. Additionally, the participation rates could be 
even lower than 20 percent given DOD civilian employee participation 
rates for 2012 were 1.5 percent for DCFSAs and 10.1 percent for HCFSAs. 
These costs and anticipated low participation rates argue against 
establishing FSAs.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                            MILITARY VOTING

    31. Senator Ayotte. Secretary Wright, it is our moral duty to 
protect the civil rights of our men and women in uniform and their 
families. They make tremendous sacrifices in the defense of our Nation, 
but those sacrifices should not include their right to vote. I believe 
DOD should treat military voting the same way it treats Servicemember 
Group Life Insurance (SGLI). Every time a servicemember changes a duty 
station or in-processes to or out-processes from a unit, DOD actively 
has the servicemember reconfirm their SGLI status. Why can't DOD treat 
registering to vote the same way it treats SGLI?
    Secretary Wright. We agree with you and DOD does treat voting 
rights like SGLI in that at each transition point in their military 
careers individuals are provided the opportunity to apply for voter 
registration or request an absentee ballot. As individual States run 
elections, a voter's completed form is sent directly to the State or 
local election official where the voter is requesting registration. We 
take the following specific actions:

    1.  DOD Instruction 1000.04 requires Installation Voter Assistance 
Offices to be included in the administrative in- and out-processing 
activities of reporting and detaching personnel.
    2.  Voting assistance is also required to be provided to all 
personnel, military and civilian, who are reporting for duty on an 
installation, detaching from duty and when deploying and returning from 
deployment.
    3.  The Instruction requires the registration and absentee ballot 
request form to be delivered by January of each year and again by July 
of even-numbered years.
    4.  The Instruction requires the Military Services to provide 
annually training on absentee registration and voting procedures to all 
servicemembers, including activated National Guard and Reserve 
personnel.
    5.  The FVAP focuses on promoting awareness of the right to vote 
and providing non-partisan tools and resources to vote from anywhere in 
the world. Resources available include the FVAP.gov web portal, an 
information-rich website with live chat assistance and online wizards 
that walk the individual through the process of registering, requesting 
a ballot, or using the back-up ballot (Federal Write-In Absentee 
Ballot).
    6.  FVAP also sends email reminders to all servicemembers with a 
``.mil'' address, publishes voting notifications on servicemembers' 
Leave and Earnings Statements and uses Public Service Announcements, 
social media, and print and online media.

                 NATIONAL GUARD YOUTH CHALLENGE PROGRAM

    32. Senator Ayotte. Secretary Wright and Secretary Wightman, why 
did DOD cut training services to the entire field well below the 
National Guard Bureau standards, in order to address a small number of 
chronic underperformers by hiring a new and apparently duplicative 
contractor in a near dollar-for-dollar trade-off?
    Secretary Wright and Secretary Wightman. In fiscal year 2013, DOD 
was faced with funding restrictions during the continuing resolution 
period and fiscal challenges due to sequestration reductions. DOD 
placed a priority on fully supporting NGYCP at the maximum DOD cost 
share of 75 percent to ensure continued program operations and cadet 
development. The strategy to ensure operations resulted in restricting 
discretionary spending in other areas; such as staff training and 
travel. Our review revealed that training standards for NGYCP staff 
have not yet been fully certified. Since most NGYCP staff training is 
considered discretionary by the states and currently varies from state 
to state, we are working with National Guard Bureau (NGB) to establish 
staff training criteria. Results will be included in the program's 
annual report to Congress. The goal of these assessments is to find the 
best methods for each individual program to maintain and deliver staff 
training by leveraging existing DOD and other Federal, State, and local 
agency programs.
    The hiring of a new contractor in fiscal year 2012 was based on an 
assessment that a number of sites were not meeting cadet graduation 
targets. It was determined that analysis of student participation was 
required before more staff training. In fiscal year 2010, NGB had 
reported ten programs, nearly 30 percent of the total NGYCPs, failed to 
graduate at least 100 cadets per class. Seven of the thirty-two 
programs (22 percent) failed to meet their graduation goals by more 
than 10 percent. In 2011, DOD further reviewed graduation information, 
and assessed that after recent funding increases over the past several 
years, there had been only negligible increases in the number of NGYCP 
graduates. In fiscal year 2012, we realized that without reversing this 
downward trend, coupled with the continued implementation of the SECDEF 
efficiencies initiative, the funding support for the program could be 
seriously jeopardized. The goal of the new contract proposal is to 
investigate and identify any process and technical reasons for the 
declining trend in the performance of certain NGYCPs, and to recommend 
appropriate solutions to policies and regulations that could be 
implemented at the Departmental, State and local levels.
    We continue to closely oversee the Youth Challenge Program in 
accordance with statutory authority, and intend to assist the NGB to 
further strengthen this important program. We appreciate your support.

         BEYOND YELLOW RIBBON/DEPLOYMENT CYCLE SUPPORT PROGRAM

    33. Senator Ayotte. Secretary Wightman, I would like to thank you 
for your office's past support for National Guard and Reserve outreach 
and integration programs. On March 26, 2013, Senator Shaheen and I sent 
you a letter regarding Beyond the Yellow Ribbon outreach programs. 
These programs have helped thousands of servicemembers and their 
families ease the transition back into civilian life over the better 
part of the last decade. Do you commit to utilizing the full amount 
appropriated by Congress for the purpose of funding existing programs 
with strong records of success and using unspent balances to evaluate 
programs to develop a nationwide set of best practices or to initiate 
similar programs in other States?
    Secretary Wightman. The Department commits to utilizing the full 
amount of supplemental funding appropriated by Congress for its Beyond 
the Yellow Ribbon outreach programs. In accordance with congressional 
guidance, the additional funding shall be used for National Guard and 
Reserve outreach and reintegration programs with strong records of 
success, National Guard and Reserve employment enhancement programs and 
peer-to-peer hotline services. A portion of the funding shall be used 
to evaluate those programs to develop a nationwide set of best 
practices. This is a continuation of efforts that Congress began 
supporting in 2011 with an original $16 million in supplemental OCO 
funding.

                             NAVY FURLOUGHS

    34. Senator Ayotte. Secretary Wright, I remain concerned about the 
impact furloughs will have on our military readiness--not to mention 
the financial hardship they will inflict on our DOD civilians who 
perform critical tasks at our shipyards and depots. I hope that we can 
eliminate furloughs for the entire department. However, if the Navy has 
a plan to avoid furloughs, the Navy should be allowed to implement that 
plan regardless of the other Services. Are you aware of the Navy's plan 
to avoid furloughs?
    Secretary Wright. The Department must evaluate the impact of 
sequestration cuts across all military service accounts. The 
sequestration cuts $20 billion in operating accounts, requiring cuts in 
training and maintenance that are harming readiness. The Navy delayed 
deployments and cut back on training, including one less carrier strike 
group in the Gulf. In addition to the sequestration cuts, we have a $7 
to $10 billion shortfall in our fiscal year 2013 war costs due to 
higher operating tempo and transport costs than we estimated 2 years 
ago.
    While we appreciate your desire to allow the Navy maximum 
flexibility to avoid civilian furloughs, DOD's most important 
responsibility is national security. In reallocating resources 
throughout the Department to the highest national security priorities, 
we will strive for consistency and fairness across the Department. As 
announced by the Secretary of Defense on May 14, 2013, most of the 
Department's civilian personnel will be subject to furloughs of up to 
11 days to help cover operating shortfalls. However, DOD guidance 
allowed for a specific limited number of exceptions driven by law and 
by the need to minimize harm to mission execution. Accordingly, 
civilian employees in Navy shipyards will be excepted from furloughs 
because it would be particularly difficult to make up delays in 
maintenance work on nuclear vessels and these vessels are critical to 
mission success.

    35. Senator Ayotte. Secretary Wright, would you support the Navy's 
request to avoid furloughs regardless of the actions of the other 
Services?
    Secretary Wright. The Department must evaluate the impact of 
sequestration cuts across all military service accounts. While we 
appreciate your desire to allow the Navy maximum flexibility to avoid 
civilian furloughs, DOD's most important responsibility is national 
security. In reallocating resources throughout the Department to the 
highest national security priorities, we will strive for consistency 
and fairness across the Department. As announced by the Secretary of 
Defense on May 14, 2013, most of the Department's civilian personnel 
will be subject to furloughs of up to 11 days to help cover operating 
shortfalls. However, DOD guidance allowed for a specific limited number 
of exceptions driven by law and by the need to minimize harm to mission 
execution. Accordingly, civilian employees in Navy shipyards will be 
excepted from furloughs because it would be particularly difficult to 
make up delays in maintenance work on nuclear vessels and these vessels 
are critical to mission success.

                         INVOLUNTARY SEPARATION

    36. Senator Ayotte. Secretary Wright, in order to achieve end 
strength reductions, it has been said that the Army in particular might 
have to utilize involuntary separations. Has the Army had to utilize 
involuntary separations thus far?
    Secretary Wright. Yes, the Army has used involuntary separations to 
properly shape their force and ensure they are postured correctly for 
mission readiness and to meet all national security objectives.

    37. Senator Ayotte. Secretary Wright, do you anticipate that the 
Army will have to use involuntary separations to achieve end strength 
reductions?
    Secretary Wright. I anticipate the Army will continue to use 
involuntary separations to properly shape their force and ensure they 
are postured correctly for mission readiness and to meet all national 
security objectives.

    38. Senator Ayotte. Secretary Wright, if sequestration goes 
forward, do you believe that the Army and Marine Corps will have to 
further reduce their end strengths?
    Secretary Wright. The fiscal year 2014 budget builds on the choices 
from the previous budget cycle and further implements the defense 
strategy articulated in January 2012 Defense Strategic Guidance. In 
developing our fiscal year 2014 budget and planning for future years, 
we reduced the size of the Joint Force commensurate with requirements 
for future missions, while at the same time ensuring full support for 
our All-Volunteer Force.
    If sequester levels remain in place, we will ask for flexibility to 
apply the reductions in a more strategic manner than the current 
sequestration rules that require large and sudden reductions to defense 
spending in a rigid, across-the-board manner. The Department has 
initiated the Strategic Choices and Management Review to focus on the 
choices we have to make in fiscal year 2015 and beyond, informed by the 
strategy that was put forth by the President a year ago. We will have 
to look at everything, including further force cuts to absorb a $52 
billion level reduction.

    39. Senator Ayotte. Secretary Wright, would large additional end 
strength reductions due to sequestration likely necessitate the more 
aggressive use of involuntary separations?
    Secretary Wright. Sequestration should have minimal effect on end 
strength. Sequestration primarily affects our civilian personnel, since 
uniformed personnel are exempt from sequestration cuts. If, however, 
reductions to the budget force additional end strength reductions, 
increases in involuntary separation actions may be necessary as this is 
the fastest way to accelerate a drawdown.

    [Whereupon, at 3:59 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

 CONTINUATION OF TESTIMONY ON THE ACTIVE, GUARD, RESERVE, AND CIVILIAN 
                           PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SR-222, Russell Senate Office Building, Senator Kirsten 
Gillibrand (chairman of the subcommittee) presiding.
    Committee members present: Senators Gillibrand, Blumenthal, 
Ayotte, and Graham.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; Gerald J. Leeling, general 
counsel.
    Minority staff members present: Steven M. Barney, minority 
counsel; and Allen M. Edwards, professional staff member.
    Staff assistant present: Jennifer R. Knowles.
    Committee members' assistants present: Kathryn Parker, 
assistant to Senator Gillibrand; Brad Bowman, assistant to 
Senator Ayotte; Craig Abele, assistant to Senator Graham; and 
Charles Prosch, assistant to Senator Blunt.

  OPENING STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND, CHAIRMAN

    Senator Gillibrand. The subcommittee meets today to receive 
testimony from the Military Services on military and civilian 
personnel programs contained in the administration's national 
defense authorization request for fiscal year 2014 and the 
Future Years Defense Program.
    With us today are the senior leaders responsible for 
military and civilian personnel matters in each of the 
Services. In addition to discussing their plans and programs 
for fiscal year 2014, we will also look forward to hearing 
about specific budget items relevant to our subcommittee's 
oversight responsibilities.
    Your statements and testimony today are extremely important 
as we prepare to mark up the National Defense Authorization Act 
for Fiscal Year 2014, and to find a way ahead with respect to 
the Budget Control Act (BCA) and the effects that sequestration 
is having on our Nation's military.
    Our witnesses today are the Honorable Thomas R. Lamont, 
Assistant Secretary of the Army for Manpower and Reserve 
Affairs; the Honorable Juan M. Garcia III, Assistant Secretary 
of the Navy for Manpower and Reserve Affairs; the Honorable 
Daniel B. Ginsberg, Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs; Lieutenant General Howard B. 
Bromberg, Deputy Chief of Staff, G-1, U.S. Army; Vice Admiral 
Scott R. Van Buskirk, Chief of Naval Personnel, U.S. Navy; 
Lieutenant General Robert E. Milstead, Jr., Deputy Commandant 
for Manpower and Reserve Affairs, U.S. Marine Corps; and 
Lieutenant General Darrell D. Jones, Deputy Chief of Staff for 
Manpower, Personnel and Services in the U.S. Air Force.
    As I stated at our oversight hearing last week, there is no 
greater responsibility for Congress and military leaders than 
to support our courageous and dedicated servicemembers, their 
families, and the civilian employees who are a vital component 
of the military team. For more than a decade, Congress has 
ensured that our military personnel receive a pay raise that 
meets or exceeds the increase in private sector wages. We have 
also been able to substantially enhance health care benefits, 
though I would like to see us expand the benefit further to 
include coverage for autism therapy for all TRICARE 
beneficiaries.
    However, this subcommittee faces a very clear challenge 
this year as we address the need to control the increasing 
costs of personnel programs. I am deeply committed and 
concerned about the rising costs of health care for both our 
Active Duty and retirees, and I believe we need to consider all 
other options before breaking faith with our servicemembers on 
this.
    This challenge is made more difficult by the significant 
budgetary and programmatic pressures imposed by sequestration 
under the BCA. As the result of sequestration, the Department 
has told us that it already has taken extraordinary measures to 
cope with the across-the-board cuts of nearly 8 percent. The 
President's budget request for fiscal year 2014 does not 
account for any sequester of funding for that fiscal year, 
which, if it remains in effect, would reduce the Department's 
budget by yet another $52 billion, further affecting morale and 
military readiness.
    While military personnel pay accounts are exempt from 
sequestration, the funding to pay for the Department of Defense 
(DOD) civilian employees, family support programs, health care 
claims, and training, among other things, are not. I am 
particularly concerned about the effects that possible 
furloughs are already having on the morale of DOD's 800,000 
civilian employees who are an integral component to the 
military's total force in crucial fields, such as cyber 
security and health care. I worry that breaking our commitment 
to our civilian workforce in this way will have devastating 
effects, not only on the morale, but the future propensity to 
continue their civil service, but on the critical services and 
support programs for servicemembers and their families, 
including DOD schools, child care centers, and access to health 
care.
    Because of the tenuous budget environment, difficult 
choices had to be made by the President, DOD leadership, and 
the Services. The subcommittee intends to carefully examine 
each of them as we begin consideration of the annual defense 
bill.
    As you know by now, I am deeply committed to addressing the 
scourge of sexual assault of our men and women in uniform. At 
the hearing with the Office of the Secretary of Defense (OSD) 
officials, I also discussed several other personnel issues that 
are important to me as we begin this budget cycle, in 
particular, hazing, DOD's proposed health care fee increases, 
and the provision of benefits to same sex partners.
    The Army and Marine Corps continue to draw down their 
forces. The Army requested fiscal year 2014 Active Duty end 
strength of 520,000. That is 32,000 below the fiscal year 2013 
authorized level. Moreover, we know that the Army will finish 
this fiscal year with 530,000 soldiers, primarily because of 
success in reducing the backlog of its wounded soldiers 
processing out of the military and back into civilian life, 
which is a good story.
    Finally, I and the rest of Congress remain extremely 
troubled about the number of servicemembers who are committing 
suicide, both Active Duty and Reserve component members. 
Another facet to this issue that was brought to our attention 
at last week's hearing is the military dependent suicides, and 
whether the Services are tracking or even at this point whether 
they have the capability of tracking those tragic deaths.
    I look forward to hearing about each of these issues from 
the Service perspective. We want to hear in your views what you 
believe your Service is doing well, what challenges remain, and 
how Congress can help so that we can best provide for our 
servicemembers, civilians, retirees, and families.
    Now I would like to give the floor to Senator Graham.

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Madam Chairman. It has been a 
pleasure working with you on the subcommittee. This is, I 
think, the best one to have because we are in charge of the men 
and women who serve and their families. This is really a 
wonderful opportunity to make sure that Congress listens and we 
get it right.
    Two areas: the sustainability of health care costs. They 
are just unsustainable. We are going to have to do something 
about TRICARE. We are going to have to make it more sustainable 
for those who are on it and for the military's budget. Second, 
sequestration seems to me one of the most ill-conceived ideas 
in a place that is known for ill-conceived ideas. That is 
pretty impressive. We can maybe top the list here.
    The Chairman of the Joint Chiefs said that sequestration 
was affecting morale, and it is detrimental to morale. So could 
you please focus on that? Tell us from a military personnel/
family point of view what are we doing to our men and women in 
uniform and their families under sequestration.
    Thank you all for your service.
    Senator Gillibrand. In the interest of time, I will be 
calling only on the Assistant Secretaries to provide oral 
statements. I ask that each of you keep your oral statements to 
3 to 5 minutes in length. Your complete prepared statements 
will be included in the record. Following the opening 
statements, we will limit our questions to 7 minutes per round.
    I am going to call on our witnesses by Service, starting 
with the Army. Mr. Lamont?

STATEMENT OF HON. THOMAS R. LAMONT, ASSISTANT SECRETARY OF THE 
             ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Lamont. Thank you. Chairman Gillibrand, Senator Graham, 
distinguished members of this committee, thank you for the 
opportunity to appear before you today. I am honored to 
represent the 1.1 million men and women serving in the U.S. 
Army in uniform, and our more than 260,000 army civilians.
    This combat seasoned force has performed superbly over more 
than a decade of war and now faces the difficult task of 
reducing strength during this time of fiscal constraint. We 
will do this in a careful and deliberate manner, ensuring the 
future of the All-Volunteer Force while maintaining the best 
army in the world.
    Our challenge is to ensure that we balance the 
congressional mandate, which I quote, ``to fulfill the current 
and future operational requirements of combat and commands,'' 
with the need to maintain our All-Volunteer Force. We recognize 
our greatest moral obligation is to ensure that our Nation's 
sons and daughters are fully prepared and trained when called 
on to risk their lives for the defense of freedom, and then to 
ensure the service and capabilities exist to care for these 
brave Americans.
    As we manage constrained resources, we look to ensure that 
soldier-focused programs, such as recruiting, compensation, 
educational opportunities, Sexual Harassment Assault Response 
and Prevention, suicide prevention, and transition assistance 
are balanced with the requirement to train and equip our Army 
to ensure its success on today's complex battlefields. We must 
ensure that however large the Army may be, we maintain its 
readiness, even as we sustain the All-Volunteer Force.
    To ensure a force of the highest quality soldiers, the Army 
must likewise balance recruitment, retention, promotions, 
voluntary and involuntary separations, and natural losses. To 
assist our soldiers and civilians who will transition to 
employment in the private sector, we must equip them with the 
skills and knowledge to continue their professional growth. We 
must continue to keep faith with the soldiers and family 
members who sacrificed so much for our country.
    We continue to work with the Veterans Administration (VA) 
to streamline the disability system and improve coordination 
for health care, compensation, and benefits for our medically-
separated and retired soldiers. The Army must also maintain its 
focus on assisting our soldiers and family members struggling 
with depression, substance abuse, and other health of the force 
issues.
    The American soldier is the centerpiece of everything we do 
in the Army. Our efforts must remain focused on the 
preservation of our most precious resource: our people. I can 
assure you that your Army will continue to meet the Nation's 
needs whenever and wherever it is called to serve.
    Chairman Gillibrand, Senator Graham, and members of the 
subcommittee, thank you for your support, and I look forward to 
your questions.
    [The prepared joint statement of Mr. Lamont and Lieutenant 
General Bromberg follows:]

  Joint Prepared Statement by Hon. Thomas R. Lamont and LTG Howard B. 
                             Bromberg, USA

                              INTRODUCTION

    Chairman Gillibrand, Senator Graham, distinguished members of this 
subcommittee, we thank you for the opportunity to appear before you on 
behalf of America's Army. The U.S. Army is a values-based organization 
that exists to serve the American people, to defend the Nation, to 
protect vital national interests, and to fulfill national military 
responsibilities. We are now poised to execute a historic drawdown of 
both our military and civilian personnel, and we are proposing to do it 
in a deliberate, responsible, and careful manner. Thousands of 
individuals will transition out of military and civil service and 
deserve quality transition assistance.
    While the future Army will be smaller, the Army is implementing a 
number of changes in force structure and other capabilities to ensure 
it remains the best led, best trained and best equipped land force in 
the world today and in the future. Our soldiers have performed superbly 
during more than a decade of war, displaying the values, character and 
competence that make our Army second to none. We must not waver on our 
commitment to support all those who have served with courage, pride, 
and honor.
    Thank you for your steadfast commitment to ensuring that the needs 
of our soldiers, their families, and our civilian workforce are met by 
supporting our personnel initiatives to ensure the sustainment and well 
being of our All-Volunteer Force.

                           STRATEGIC OVERVIEW

    The Army has been in a state of continuous war for nearly 12 
years--the longest in our Nation's history. More than 4,800 soldiers 
have given their lives on behalf of this Nation. Today we have more 
than 81,000 soldiers committed to operations around the world with 
approximately 58,000 in Afghanistan. Nearly 1.5 million soldiers have 
deployed and more than half a million have deployed multiple times--
some as many as six times. Additionally, Army civilians shoulder a 
majority of the Generating Force mission, and 30,000 civilians have 
deployed into harm's way. Our soldiers, civilians, and families remain 
vital to the strength of our Nation.
    Now we will transition to a smaller force, while continuing to 
remain vigilant of new threats and prepare for new capabilities and 
requirements. To maintain an All-Volunteer Force of the highest quality 
soldiers and achieve our end-strength goal, the Army must responsibly 
balance force shaping across accessions, retention, promotions, 
voluntary and involuntary separations, and natural losses. We will 
leverage the Army Total Force Policy, for full integration of our 
Active and Reserve components, maximizing each component's strengths, 
in order to continue accomplishing our mission in a time of fiscal 
constraints. We will expand opportunities to women in the Army by 
opening up previously closed positions and career paths. We will ensure 
quality assistance to our soldiers and civilians who transition from 
their military and civil service careers to employment in the private 
sector.
    We are currently working with the Veterans Administration to 
streamline the disability system and improve coordination for health 
care, compensation, and benefits for our medically separated and 
retired soldiers. The Army also continues to focus on assisting our 
soldiers and family members struggling with depression, substance 
abuse, and other Health of the Force issues. This year we have 
implemented ``Ready and Resilient,'' a new comprehensive campaign--
designed to enhance individual and collective resilience and improve 
readiness.
    The American soldier is the centerpiece of everything we do in the 
Army. Our efforts must remain focused on the preservation of our most 
precious resource, our people.

                         DRAWDOWN/END STRENGTH

    In keeping with the National Defense Strategy, the Army is building 
our future force to meet the Nation's requirements. The Army is 
reducing its Active component end strength to 490,000 soldiers by 
fiscal year 2017. The Army has already reduced the additional temporary 
end strength increase of 22,000 soldiers, approved in 2009 by the 
Secretary of Defense, and is on target to be at an Active component end 
strength of 530,000 by the end of fiscal year 2013. In fiscal year 
2014, the Army will begin to take further steps to achieve the end 
state force of 490,000 by fiscal year 2017.
    Based on Total Army Analysis of future requirements, the force 
structure effective in fiscal year 2017 requires an additional decrease 
of approximately 5,700 enlisted soldiers and 6,900 officers beyond our 
current rate of attrition over this same period. Our projected drawdown 
ramp allows for funding 490,000 of end strength in the base budget in 
fiscal year 2014 and beyond, with all other end strength resourced with 
Overseas Contingency Operations funding. This ramp allows for a steady 
enlisted annual accession mission of about 68,000 and an Active Army 
Competitive Category officer mission of about 4,600. Our strength 
projections also incorporates additional soldier inventory to mitigate 
the impact of nondeployable soldiers in the Integrated Disability 
Evaluation System. Temporary end strength Army medical is present in 
fiscal year 2013 and fiscal year 2014 and fully eliminated by the end 
of fiscal year 2015.
    To maintain the highest quality All-Volunteer Army, we will execute 
the upcoming force reductions in a responsible and targeted fashion 
while maintaining a ready force. To achieve planned end strength 
reductions, the Army expects to use various types of separation 
authorities across all elements of the force (Officer and Enlisted). 
The National Defense Authorization Acts for Fiscal Year 2012 and Fiscal 
Year 2013 provided several incentive authorities to help the Army shape 
the force over the drawdown period, along with the flexibility to apply 
them to meet specific grade and skill requirements. Under normal loss 
rates, the Army will not be able to reach its end strength goal over 
the fiscal year 2013-fiscal year 2017 period. There is no single force 
shaping method among the choices of accessions, retention and 
separations that will achieve the Army's end strength goals, and there 
will be good soldiers who we cannot retain. Reduced accession levels, 
promotion selectivity and tightened retention standards will help shape 
our force naturally. Through these processes, we expect to lose some 
combat-seasoned soldiers and leaders, but our focus will be on 
retaining the best individuals in the right grades and skills. As 
soldiers depart our active duty formations, the Army is committed to 
assisting them and their families as they transition to the Army 
Reserve, National Guard, or civilian life.

            RECRUITING AND RETENTION (OFFICER AND ENLISTED)

    Our soldiers are the Army's most important resource, and our 
ability to meet the challenges of the current and future operational 
environment depends on our ability to sustain the All-Volunteer Force. 
Even as we drawdown the Army, we must continue to bring high quality 
men and women into the force to grow our future leaders. We must also 
retain the most talented soldiers with the experience and skills 
necessary to meet our future needs.
    Despite the challenges of an ongoing conflict, future drawdown 
plans, and budgetary constraints, the active Army and the Army Reserve 
once again exceeded their enlisted retention missions in fiscal year 
2012. Focusing on required grades and skills, the Army National Guard 
reduced their retention mission in fiscal year 2012 to avoid exceeding 
their congressionally mandated end strength limits. The active 
component achieved its fiscal year 2012 recruiting mission and accessed 
over 96 percent high school diploma graduates, with the lowest number 
of waivers and test category IV enlistments ever. The Total Army's 
percentage of new enlisted soldiers with a high school diploma was well 
above historic rates. Additionally, the Army achieved over 99 percent 
Military Occupational Specialty requirements. In addition, recruits 
scoring 50-99 percent on the Armed Forces Qualification Test exceeded 
the DOD standard of 60 percent, while recruits who scored in the lower 
range (30 percent and below) were at a record low in fiscal year 2012. 
We are currently on track to achieve the fiscal year 2013 recruiting 
mission, with the exception of the U.S. Army Reserve mission. However, 
a tougher recruiting environment and impacts of sequestration have 
already caused a decline in the fiscal year 2014 entry pool.
    Upcoming reductions in Army operating budgets will likely have 
significant impact on recruiting operations. While the Army can 
mitigate many of the fiscal constraints by focusing cuts to preserve 
operational capabilities at the tactical level, the impact of 
reductions across multiple funding lines poses the greatest threat to 
the Army's ability to sustain the All-Volunteer Force.
    In fiscal year 2012, Combined Active Army (AC) and Army Reserve 
component (RC) enlistment and reenlistment incentives totaled slightly 
over $1.03 billion compared to $1.23 billion in fiscal year 2011. 
Entering fiscal year 2013, the combined Active and Reserve components 
will spend slightly over $1.009 billion: AC recruiting ($237 million), 
AC retention ($237 million); Army National Guard recruiting and 
retention ($348 million); USAR recruiting and retention ($187 million). 
A large part of the fiscal year 2013 incentives budget is a result of 
obligations for enlistment bonuses occurring from fiscal years 2008-
2011. As a result of lower recruiting missions and prior year success, 
the percentage of Army recruits receiving a bonus dropped from over 62 
percent of all recruits in fiscal year 2009 to 3 percent in fiscal year 
2013. Enlistment and reenlistment bonuses are only used to incentivize 
longer-term enlistments in a small percentage of critical skills. These 
incentives ensure the success of the total Army recruiting and 
retention missions and shape the force to meet specific grade and skill 
requirements. The amount budgeted for contractual payments is 
anticipated to decrease until at least fiscal year 2015.
    Recruiting is expected to be more difficult in fiscal year 2014. 
The Army and the Nation still face challenges such as rising obesity 
rates as we recruit the All-Volunteer Force. In today's environment, 
fewer than one in four 17- to 24-year-olds are eligible to serve in the 
Army without a waiver. One in five youths age 12-19 are currently 
overweight, compared to 1 in 20 in the 1960s, and this trend is 
projected to grow to one in four by 2015. More than 20 percent of high 
school students fail to graduate, a critical milestone in becoming 
competitive to serve in highly skilled postions.
    In fiscal year 2012, the Active Army reenlisted 64,012 soldiers. 
The Army Reserve reenlisted 14,377 soldiers, exceeding their annual 
goal by 9 percent. The Army National Guard fell short of their mission, 
achieving 93 percent of their assigned mission, reenlisting 49,272 
soldiers, again purposely under producing to avoid exceeding end 
strength limits.
    During fiscal year 2012 and into fiscal year 2013, retention 
bonuses were carefully monitored and adjusted to ensure that the Army 
met its retention goals while remaining fiscally responsible. During 
fiscal year 2013, the Active component retention program is on track to 
successfully retain a quality force that supports Army end strength and 
readiness requirements. As we posture for future reductions in the size 
of our force, the Army is using lessons learned from past reductions to 
ensure that today's decisions maintain the viability of tomorrow's All-
Volunteer Force. Retention policies will emphasize retention of 
soldiers with high potential coupled with appropriate force alignment 
and structure.

                     TRANSITION ASSISTANCE PROGRAM

    Our Nation entrusts its best and brightest to the Army to support 
the All-Volunteer Force. Therefore, the Army has a responsibility to 
help our transitioning personnel prepare for post-active duty life by 
providing the training and tools to enable their success. We must help 
them use their Army training, education and experience to successfully 
return to civilian life and to become gainfully employed. With 
thousands of soldiers possessing diverse skills, and scheduled to 
depart over the next few years, the Nation has a motivated, disciplined 
and work-ready force to employ. The redesigned Transition Assistance 
Program (TAP)--entitled ``Transition GPS'' (Goals, Plans, Succeed)--
will assist our soldiers in understanding and communicating what great 
skills and abilities they do bring to our Nation's workforce. To be 
successful in their transition, we must provide the assistance, 
curriculum, training, skills building and tools our members need so 
they are prepared and most importantly, career ready to achieve their 
goals in civilian life. Transition GPS includes the following elements:

        <bullet> Pre-Separation Assessment and Individual Counseling: 
        Through the new transition program, separating servicemembers 
        will have a one-on-one counseling session to discuss their 
        transition needs and goals. Each servicemember will develop an 
        Individual Transition Plan that documents their personal 
        transition, as well as the deliverables they must attain to 
        meet the new transition program's Career Readiness Standards.
        <bullet> 5-Day Core Curriculum: The 5-day Transition GPS Core 
        Curriculum will include a financial planning seminar, a 
        workshop offered by the Department of Veterans Affairs on the 
        available veterans' benefits, and a redesigned employment 
        workshop offered by the Department of Labor. Transitioning 
        servicemembers will also undertake a Military Occupational Code 
        Crosswalk to translate their military skills, training, and 
        experience into civilian occupations and credentials.
        <bullet> Career-Specific Additional Curriculum: In addition to 
        completing the Transition GPS Core Curriculum, transitioning 
        servicemembers will also have the option of participating in a 
        series of 2 day tailored tracks within the Transition GPS 
        curriculum: (1) an Education track, for those pursing college 
        education; (2) a Technical Training track, for those seeking to 
        attend technical school or earn a credential; and (3) an 
        Entrepreneurship track, for those wanting to start a business.
        <bullet> CAPSTONE Event: At least 90 days before their 
        separation from Military Service, servicemembers will 
        participate in a CAPSTONE event, which will verify that 
        transitioning servicemembers completed the Transition GPS 
        curriculum and achieved Career Readiness Standards. 
        Servicemembers who require additional assistance will be 
        referred to additional or remedial training opportunities. In 
        addition, through the CAPSTONE event, all servicemembers will 
        be offered a ``warm handover'' to government agencies and 
        organizations that will be able to provide them continued 
        benefits, services, and support as veterans.
        <bullet> Military Life Cycle Transition Model: The new 
        transition program will incorporate career readiness and 
        transition preparation into the entire span of a 
        servicemember's career. In the past, transition and preparation 
        for the civilian workforce occurred late in a servicemember's 
        lifecycle--near the point of separation. Under this new 
        program, these concepts will be incorporated earlier as a way 
        to ensure that the counseling, assessments, and access to 
        resources to build skills or credentials occur at earlier 
        stages.

    In December 2011, the Army published an execution order for 
transition policy which changed our program to a ``Commander's 
program'' to ensure soldiers have their commander's support and take 
advantage of transition services. We have established a Transition 
Strategic Outreach Office to synchronize job connection efforts between 
soldiers and industry. In November 2012, the Army implemented the 
``Veterans' Opportunity to Work (VOW) to Hire Heroes Act'' and has 
began efforts to implement recommendations from the Veterans' 
Employment Initative Task Force. As part of this effort, the Army 
increased its ACAP counselor support within the Warrior Transition 
Command from 30 to 41 counselors. Through the revamped Transition 
Assistance Program, the Army is working to maximize job opportunities 
by leveraging private industry contacts and local governments to remove 
barriers to job-related licenses and certifications wherever possible.
    To support these recent changes in legislation and policy, we 
reinforced the Army Career and Alumni Program (ACAP) and demobilization 
platforms with a total of nearly 700 contractors and civilian personnel 
comprised of transition and finance counselors, administrative support 
staff, and information technology support team. We established a new 
ACAP center in Kuwait. We have created 25 regionally-located transition 
support teams to support the USAR and ARNG in the soldiers' hometowns. 
We plan to add 65 education counselors at the end of fiscal year 2013. 
The legislative and policy mandates present a 300 percent increase in 
participation and focus our program on compliance.

                    CIVILIAN WORKFORCE/END STRENGTH

    Consistent with the reductions of our authorized end strength for 
active duty and the Army National Guard, we expect to reduce the 
civilian workforce from 272,000 to 255,000 by the end of fiscal year 
2017. The rate of reductions for the civilian workforce will be based 
on the understanding that it will take 2-3 years after our troops 
redeploy from Afghanistan to adequately reset our personnel, families, 
and equipment.
    To help mitigate the Army's budget execution risks, on January 22, 
2013, a hiring freeze went into effect. The memorandum that established 
the freeze also directed commanders to terminate temporary employees 
and to let the appointments of term employees lapse upon the expiration 
of their current appointments. To date, we have released over 1,800 
temporary and term employees and expect to release a total of 3,100 by 
the end of this fiscal year.
    Recognizing the inevitable risks of decreased civilian employee 
productivity and morale, we may need to furlough up to 250,000 civilian 
employees this fiscal year. In addition to the hardship the pay loss 
poses to our dedicated workforce, this furlough will have an immediate 
trickle-down effect as the majority of these civilians are located 
throughout the United States on our posts and stations, and their 
spending directly impacts local economies and contributes towards State 
and local taxes. Although we will endeavor to protect critical services 
as much as possible, any furlough will have an immediate impact on 
important Army services.

                IMPLEMENTING THE ARMY TOTAL FORCE POLICY

    Approved by the Secretary of the Army in September 2012, the Army 
Total Force Policy is an important milestone in our Army's history 
because it lays out a roadmap for the full integration of our Active 
and Reserve component forces. The Active Army, the Army National Guard 
(ARNG), and the Army Reserve (USAR) each serve vital roles in our 
National Security Strategy, and it is imperative that we use each 
component's strengths to accomplish the Army's missions in a time of 
fiscal constraint. The essence of the Total Force Policy is to manage 
risks by maintaining appropriate levels of readiness while balancing 
immediate response capabilities with operational and strategic depth.
    The Total Force Policy establishes formal guidance for integrating 
the diverse regulations that govern how the Army mans, trains, equips, 
and sustains Active Army, Army National Guard, and Army Reserve Forces. 
To employ Active and Reserve component forces most efficiently, the 
Army will establish common standards for unit training and readiness 
validation; a common deployment period policy; standard procedures for 
mobilizing and deploying Reserve component forces using new activation 
authorities under title 10, 12304b, and will complete fielding of the 
Integrated Pay and Personnel System. The Army Total Force Policy will 
reshape the Army and ensure the Total Force provides the Nation the 
best balance of readiness and depth.

                           WOMEN IN THE ARMY

    On January 24, 2013, the Secretary of Defense and the Chairman of 
the Joint Chiefs of Staff (CJCS) eliminated the Direct Ground Combat 
Assignment Rule. While this resulted in all positions being opened to 
women, the Army must notify Congress through the CJCS and Office of the 
Secretary of Defense and complete the congressional notification period 
prior to recruiting, reclassifying or assigning women to these 
positions. There are significant documentation requirements as the Army 
proposes opening further positions and completes the required 
validation of occupational standards prior to January 1, 2016.
    Female soldiers have demonstrated their ability to excel in combat 
over the last 10 years. The Army is committed to ensuring all soldiers 
have career opportunities that enable them to reach their highest 
potential without regard to gender. The expansion of opportunities for 
women will improve overall Army capability and readiness. With the 
removal of the collocation restrictions in fiscal year 2012, this 
enabled the Army to open an additional 13,139 positions and 6 
additional military occupational specialties previously closed to 
women. Women may now serve in leadership positions previously closed to 
them; allowing them to be competitive with their male peers as they 
gain new experiences.

                        DIVERSITY AND INCLUSION

    The diversity of our Army is a continuous source of strength as we 
recruit soldiers and Army civilians from an increasingly diverse 
America. We must take full advantage of opportunities to bring new 
ideas and expanded capabilities to the mission by reaching out to 
diverse communities and building relationships that will support the 
Army's human resource requirements. To this end, we have developed and 
fully implemented a strategy for conducting outreach activities to our 
Nations's diverse communities on an Army-wide basis. In the first year 
of execution, 9 commands and the Army Staff coordinated 35 outreach 
events for the Total Army. We will continue to build on this strategy 
in the future.
    Our ability to be inclusive of the Nation's diverse citizenry while 
sustaining a high performance Army requires the engagement of senior 
leaders and continuous diversity education throughout the Force. The 
Army Diversity Roadmap outlines a unique approach to an enterprise-wide 
diversity and inclusion initiative over the coming years and guides our 
actions in the areas of leadership, people, structure and resources, 
training and education, and inclusive work environments. Within the 
Roadmap, we are implementing an intra-Army council of senior leaders to 
advise the Secretary and provide a forum for collaboration and sharing 
ideas in connection with implementation of the Army Diversity Roadmap 
and execution of components of our strategy. In addition, the Council 
will facilitate delivering the diversity and inclusion message 
throughout the Army, while receiving direct feedback from senior 
leaders on recommended priorities and areas of emphasis.
    Our initial diversity training and education efforts have focused 
on practitioners who support our commanders and other leaders. We 
continue to ensure high quality initial training for Military Equal 
Opportunity and Equal Employment Opportunity professionals. Over the 
past 4 years, over 600 general officers and civilian senior executives 
have completed a diversity education program that emphasizes inclusive 
leadership, self-awareness, leading change, and other topics that 
ensure a successful diversity and inclusion strategy for the Army. In 
this program senior leaders are presented with challenges and 
opportunities and participate in experiential exercises that enhance 
understanding and perspective.
    We will continue to invest in diversity education and inclusive 
leadership by seamlessly integrating the training for senior leaders 
into their initial leader development programs. Ultimately, we will 
also reach every soldier and Army civilian through the Army's 
institutional professional development system.
    We must position the Army to recruit, develop and retain the most 
talented people our Nation has to offer. Critical to our global mission 
is an understanding of the cultures, languages and social norms of the 
people in locations where we deploy as well as in our own ranks. This 
diversity and inclusion initiative is integral to the Army's long-term 
vision for human capital and our understanding of the human dimension 
of leadership and global engagements.

                 THE ARMY DISABILITY EVALUATION SYSTEM

    Fiscal year 2012 was the first full year in which the Army used the 
Integrated Disability Evaluation System (IDES) Army-wide. Under IDES, 
the Department of Defense (DOD) and the Department of Veterans Affairs 
(VA) use a single set of general and specialty medical examinations and 
a single-source disability rating to execute their respective 
responsibilities. This results in more consistent, less contentious 
evaluations, faster fitness determinations, and timely benefits 
delivery for our medically retired or separated soldiers. As a result, 
the VA can deliver benefits in the shortest period allowed by law 
following discharge, thus reducing the ``benefit gap'' that previously 
existed under the legacy process. IDES also provides assistance to 
soldiers as they transition from the military to the services and 
benefits the VA offers, and has eliminated many of the sequential and 
duplicative processes found in our respective legacy systems.
    The IDES has been strategically successful in reducing the post-
separation benefit gap; however expansion of IDES across the Army has 
been challenging. Historically, several factors have hindered the 
processing of soldiers through the IDES, including: ineffective 
governance structure, inadequate capacity to meet demands, lack of 
standardization, and a lack compliance with established policies and 
guidance.
    Over the last year, the Army has devoted an extraordinary amount of 
time, attention, resources, and leadership to improve the IDES. In 
addition to adding staff to our Medical and Physical Evaluation Boards 
to support current operational demands, the VA and the Army have 
implemented a number of initiatives to improve the performance of IDES. 
These improvements have resulted in the following:

        <bullet> Since February 2012, the Army has reduced the number 
        of cases over 400 days by 24 percent.
        <bullet> Over the last year, the Army increased its capacity 
        from 1,200 to 3,000 cases per month. Consequently, Medical 
        Evaluation Board (MEB) output has exceeded input for the last 8 
        months, and the MEDCOM reduced its inventory of MEB from over 
        5,000 to 2,300 cases.
        <bullet> MEB output has exceeded input for the last 8 months; 
        the average days to complete the MEB Phase have improved 46 
        percent from 146 days in March 2012 to 112 days at the end of 
        February 2013. Time to complete the Narrative Summary (NARSUM) 
        has improved from 51 days in March 2012 to 22 days in February 
        2013 (56 percent improvement).
        <bullet> The Physical Evaluation Boards (PEBs) achieved DOD's 
        120-day goal for the last 4 months. The average number of days 
        to complete the PEB Phase has also decreased from 126 days in 
        March 2012 to 104 days at the end of February 2013, an 18 
        percent improvement.

    Soldiers starting IDES today will complete the process in less than 
295 days. With the added capacity and process improvements in place, 
the Army expects to meet the DOD's goal of completing 70 percent of AC 
cases in 295 days and RC cases in 305 days by January 2014. More 
importantly, we remain committed to making this process more accessible 
to our soldiers and their families.

                      READY AND RESILIENT CAMPAIGN

    For the Army to continue to improve, and increase capability and 
performance, we must continue to build resilience in our total force. 
We have a historic opportunity to understand the lessons of the last 12 
years and make our force even stronger. Thus on February 4, 2013, the 
Secretary of the Army issued a Directive requiring the Army to move 
forward with its Ready and Resilient Campaign (R2C) plan. The R2C will 
address the challenges that stress the Force, and integrate and 
synchronize the multiple efforts and programs designed to improve the 
readiness and resilience of soldiers (Active, Reserve, and National 
Guard), Army civilians, and their families.
    The R2C is a far-reaching, comprehensive campaign, designed to 
enhance individual and collective resilience and improve readiness. 
This initiative will integrate and synchronize existing and emerging 
Army programs that focus on improving physical, psychological and 
emotional health. The goal is to ensure that individuals understand and 
have access to effective programs and feel empowered to seek help if 
and when they need it; free from stigma related barriers.
    The success of the Ready and Resilient Campaign depends on 
commanders and leaders at all levels acting with unity of effort and 
emphasizing the campaign's importance to sustaining Army readiness in 
the future. This campaign will guide the Army's efforts to build and 
maintain resilience across the Total Army to improve unit readiness and 
further reinforce the Army Profession. The Ready and Resilient Campaign 
Execution Order (EXORD) will follow the Campaign Plan with specific 
tasks and details for the execution of the campaign. We expect every 
leader to fully support the campaign by incorporating resilience 
training into all educational and professional development programs. 
Soldiers of all ranks must practice the skills that build resilience as 
part of our collective effort to build a strong Army team. Success will 
come from a cultural change in the Army by directly linking personal 
resilience to readiness and emphasizing the responsibility of personnel 
at all levels to build and maintain resilience.

         HEALTH PROMOTION RISK REDUCTION AND SUICIDE PREVENTION

    The Army continues to institute a multi-disciplinary, holistic 
approach to readiness and resilience and suicide prevention. Increased 
emphasis remains on developing and implementing targeted training 
programs as well as funding for support programs that impact the entire 
Army Family. This approach is also reflected in the various senior 
leader forums that are conducted throughout the Army: the Army Vice 
Chief of Staff-led Senior Suicide Review Group; the Health Promotion 
Risk Reduction Council; and the Community Health Promotion Councils at 
posts, camps, and stations.
    Key elements of the Army's approach are: (1) Prompt access by 
soldiers to quality behavioral health care; (2) Multi-point screening 
and documentation of mild Traumatic Brain Injuries/Post-Traumatic 
Stress Disorders; (3) Improved leader and soldier awareness of high-
risk behavior and intervention programs; and (4) Increased emphasis on 
programs that support Total Force (soldiers, Army civilians, and family 
members) readiness and resilience.
    The Army had 324 potential suicides during 2012--the highest annual 
total on record. Of those, 184 deaths occurred within the AC and RC 
(Army National Guard [ARNG]/U.S. Army Reserve [USAR]) on Active Duty. 
This total exceeds the previous Active Duty high of 166 in 2009 and 
2011. The RC not on Active Duty total of 140 is the second highest on 
record, exceeded only by the 2010 not on Active Duty total of 146. 
While most Army suicides continue to be among junior enlisted soldiers, 
the number of suicides by noncommissioned officers has increased over 
each of the last 3 years. By far, most Army suicides were in the 21-30 
age range, a trend that held each year from 2010 to 2012.
    In November 2012, the Army published the ``2020 Army Strategy for 
Suicide Prevention'' as Annex C of the ``Headquarters Department of the 
Army (HQDA) EXORD 037-13, Ready and Resilient Quick Wins.'' It is 
deliberately and closely synchronized with the ``2012 National Strategy 
for Suicide Prevention'' in order to promote coordinated 
implementation. It features four major lines of Effort: (1) Healthy and 
Empowered Individuals, Families, and Communities-Prevention; (2) 
Clinical and Community Support Services--Intervention; (3) Treatment 
and Recovery Services--Postvention; and (4) Surveillance, Research, and 
Evaluation. The references to Prevention, Intervention and Postvention 
tie the 2020 Army Strategy back to extensive work done over many 
preceding years, while at the same time it presents a forward-looking 
way-ahead in step with the National Strategy.

                      ARMY SUBSTANCE ABUSE PROGRAM

    The Army Substance Abuse Program (ASAP) is a commander's program 
that uses prevention, education, deterrence, detection, and 
rehabilitation, to reduce and eliminate alcohol and drug abuse. It is 
based on the expectations of readiness and personal responsibility.
    In March 2010, the Army conducted a counselor requirements analysis 
based on each installation's average daily client census with a ratio 
of one counselor for 30 patients. Patient caseload was as high as 60 
patients per counselor at some installations. The Army has shifted to a 
1:30 ratio as an acceptable ratio based on literature and counselor 
input. Applying this ratio yielded a requirement of 563 counselors 
assuming a 20 percent growth in number of patients over a 5 year 
period.
    An Army priority in this area includes the hiring of more 
counselors. There is a finite pool of qualified substance abuse 
counselors nationwide and the Army is competing for this scarce talent 
with private industry, the Veteran's Administration and State and local 
governments. As of March 20, 2013, the Army has hired 436 of the 563 
counselors needed. The Army is increasing the use of recruiting, 
relocation, and student loan reimbursement incentives to attract more 
qualified candidates, and is developing a ASAP Counselor Internship 
Program which will allow students with Master's degrees to work in a 
supervised internship for up to 2 years as they obtain their licenses 
and substance abuse counselor certifications.
    The Confidential Alcohol Treatment and Education Pilot began in 
July 2009 and offers confidential alcohol treatment and education to 
eligible soldiers. This pilot was initially offered at Fort Lewis, Fort 
Richardson, and Schofield Barracks. The Secretary of the Army directed 
that the pilot be expanded to include Forts Carson, Riley, and Leonard 
Wood with successful treatment outcomes at these sites.

       SEXUAL HARASSMENT/ASSAULT RESPONSE AND PREVENTION PROGRAM

    Over the last year, the Army made great strides to institutionalize 
our Sexual Harassment/Assault Response and Prevention (SHARP) Program 
to enable Army readiness, combat sexual violence and reinforce the 
Army's commitment to create a climate where soldiers live the Army 
Values, thereby eliminating sexual assault and sexual harassment.
    As we assess our efforts, results from our recent Operational Troop 
Survey indicate a significant increase (28 percent in 2009 to 42 
percent in 2012) of female soldier survey respondents who indicated 
they experienced a sexual assault and reported the crime. This increase 
in soldiers propensity to report this crime is critical to ensure 
commanders can provide support to survivors, take appropriate action 
against offenders, and effectively address command safety issues.
    The Army's goal is to eliminate sexual violence through cultural 
change, thereby, creating a professional climate where every member of 
the Army family (soldiers, civilians, and family members) trusts their 
leaders to treat them with dignity and respect. The Army is 
aggressively pursuing this goal through the integration of policies, 
training, communication and a unity-of-command approach to our sexual 
harassment and sexual assault response and prevention efforts.
    Highly trained SHARP staff are key to achieving SHARP goals. The 
Army trained approximately 19,000 command-selected program personnel on 
a prevention-focused 80-hour program certification course. The Army is 
institutionalizing this training at the command level by establishing 
73 full-time SHARP 80-hour certification course trainer positions 
within our Active and Reserve components. The Army is aggressively 
pursuing DOD certification of more than 10,000 SHARP personnel by the 
end of fiscal year 2013.
    The Army also continues to expand our SHARP Life-Cycle Training. 
The training is designed to improve the capabilities of our force to 
address sexual assault at every level of career progression.
    While the primary objective is prevention, when an incident occurs, 
the Army is committed to providing the best possible support and 
protection of the survivor through our advocacy efforts. In 2012, the 
Army implemented the requirement to have two full-time program 
personnel to serve as Sexual Assault Response Coordinators (SARC) and 
Victim Advocates (VA) at brigade and equivalent units. To 
institutionalize these efforts, the Army is resourcing 829 military and 
civilian full-time SARC and VA positions at AC/RC brigade and 
equivalent units and thousands of collateral positions at battalions 
and below.
    In 2012, the Army began executing its executive agent role to train 
military investigators/prosecutors from all Services at the U.S. Army 
Military Police School 80-hour Special Victim Unit Investigation 
Course. The course includes the ground-breaking Forensic Experiential 
Trauma Interview technique developed by the Army. This interviewing 
technique reduces the survivor's risk of re-traumatization during 
interviews and produces stronger case evidence.

  DON'T ASK, DON'T TELL REPEAL/EXTENDING BENEFITS TO SAME SEX PARTNERS

    The Army, in coordination with the DOD, is proceeding with the 
planning necessary to implement the extension of benefits to same sex 
domestic partners.
    With the repeal of ``Don't Ask Don't Tell,'' discrimination based 
on sexual orientation no longer has a place in the military. All 
soldiers who serve our Nation deserve to be treated with equal dignity 
and respect. As such, on February 11, 2013, the Secretary of Defense, 
directed the Services to develop plans to extend family member and 
dependent benefits that can be lawfully provided to the same-sex 
domestic partners of military servicemembers and their children.
    These 22 family member and dependent benefits identified by the 
Joint Benefits Review Working Group require policy revisions, training, 
and technical upgrades to our automated personnel identification 
system. However, the Army will be ready to make these benefits 
available to same-sex domestic partners by August 31, 2013 as directed 
by the Secretary of Defense.
    While our work is focused on changing our policies and practices in 
accordance with current law to ensure fair and equal treatment of all 
our members and their families, we will ensure we implement this change 
in the same disciplined manner that has characterized the Army's 
service for the past 237 years.

                        CONGRESSIONAL ASSISTANCE

    As the Army continues the deliberate and methodical reductions in 
the force, we will need congressional support to drawdown accurately 
and efficiently while maintaining readiness. The Army will maximize 
voluntary measures, but will need congressional support as it resorts 
to inevitable involuntary measures in the coming fiscal year. The 
continued support of Congress for competitive military benefits and 
compensation, along with incentives and bonuses for soldiers will 
remain critical to the All-Volunteer Army's efforts to recruit, retain, 
and support the highest caliber of individuals. The Army must retain 
the flexibility to offer incentives to attract and retain talent. The 
continued funding of these programs by Congress is absolutely critical. 
These incentives assist in shaping the force for both quality and 
specific talent required. Finally, predictability in the authorization 
and appropriation bills that are aligned with the President's budget 
request would help the Army tremendously in preparations for the force 
of the future.

                               CONCLUSION

    We have invested a tremendous amount of resources and deliberate 
planning to develop and preserve the All-Volunteer Force. People are 
the Army, and our enduring priority is to preserve the high quality, 
All-Volunteer Force--the essential element of our strength.
    While we transform to a smaller Army, we remain dedicated to 
improving readiness, and building resilience in our soldiers, 
civilians, and their families. The Army will not sacrifice readiness as 
it draws down. We must draw down wisely to preserve the health of the 
force and prevent breaking faith with the brave men and women who serve 
our Nation. The Army has gained the trust of the American public more 
now than at any other time in recent history, while fulfilling our 
responsibilities toward those who serve.
    The well-being of our force, regardless of its size, is absolutely 
dependent upon your tremendous support. The Army is proud of the high 
caliber men and women whose willingness to serve, is a credit to this 
great nation. To conclude, we wish to thank all of you for your 
continued support, which has been vital in sustaining our All-Volunteer 
Army through an unprecedented period of continuous combat operations 
and will continue to be vital to ensure the future of our Army.
    Chairman Gillibrand, Senator Graham, and members of the 
subcommittee, we thank you again for your generous and unwavering 
support of our outstanding soldiers, civilian professionals, and their 
families.

    Senator Gillibrand. Thank you.
    Secretary Garcia?

 STATEMENT OF HON. JUAN M. GARCIA III, ASSISTANT SECRETARY OF 
           THE NAVY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Garcia. Thank you, Chairman Gillibrand, Senator Graham, 
and distinguished members of the subcommittee. Thank you for 
this opportunity to speak about the Department of the Navy's 
personnel programs, about the sailors, the marines, and the 
civilians who comprise the Navy.
    There have been several significant and successful changes 
in the Navy in personnel policies and programs since we last 
testified before this subcommittee. In accordance with the 
January 24, 2013 Secretary of Defense memorandum entitled 
``Elimination of the 1994 Direct Ground Combat Definition 
Assignment Rule,'' we will submit the Navy-Marine Corps 
implementation plans next month to the Secretary of Defense. 
These plans will provide details on how we intend to move 
forward with our expansion of opportunities for females to 
serve in previously closed Military Occupational Specialties 
(MOSs), ground combat units, and those positions closed due to 
privacy and berthing restrictions.
    We have made great strides by opening positions on 
submarines and assigning women to previously closed ground 
combat units at the battalion level. We continue to offer the 
opportunity for female lieutenants to volunteer for training at 
the Marine Corps Infantry Officer Course immediately following 
graduation from The Basic School. We are committed to providing 
women with the same opportunities as their male counterparts 
while maintaining the highest levels of combat readiness and 
capitalizing upon every opportunity to enhance our warfighting 
capabilities.
    The Navy is supporting ongoing efforts by DOD to review and 
extend benefits, including compensation benefits, to same sex 
domestic partners of servicemembers. Many benefits are 
currently available to same sex domestic partners by 
designation of servicemembers. At the direction of the 
President, DOD established a Joint Benefits Review (JBR) 
Working Group, comprised of representatives from each of the 
Services. The JBR's mission is to conduct a careful and 
deliberative review of the benefits currently provided to the 
families of servicemembers.
    The working group has identified 22 additional family well-
being, child and youth programs, family support, travel and 
transportation, and survivor and death benefits that can be 
lawfully provided to the same sex domestic partners of 
servicemembers and their families through changes to DOD 
policies and regulations. On February 11, 2013, then Secretary 
of Defense Panetta directed the extension of those benefits to 
same sex domestic partners and their children once the 
servicemembers and their same sex partners sign declarations 
attesting to the existence of a committed relationship.
    Implementation of these benefit changes requires 
substantial policy revision, training, and technical upgrades. 
The Department of the Navy will extend the 22 additional family 
member and dependent benefits to eligible partners of the 
servicemembers no later than October 1 of this year, subject to 
approval by the Secretary of Defense. Meanwhile, the Department 
will continue to comply with existing law and will review the 
extension of military benefits in conjunction with OSD and 
other Services should a change in law occur.
    In addition to ensuring our manpower and personnel policies 
meet our country's security requirements, it is my honor and 
privilege to represent and advocate for the more than 800,000 
sailors, marines, and civilian teammates who are always 
prepared to respond to whatever our Nation needs. Vice Admiral 
Van Buskirk and Lieutenant General Milstead will have the 
opportunity to address their respective Services' personnel 
plans in detail, but I would like to touch on some common 
challenges the Navy faces as a whole.
    After more than a decade of war and given the challenges in 
the broader economy, we must honor our commitment to veterans 
and wounded warriors by taking concrete steps to facilitate 
their transition to civilian life. A key achievement over the 
last year is the progress made with regard to transition 
support and reintegration. In fiscal year 2012, the Navy hired 
10,867 veterans into civilian positions. Fifty-nine percent of 
those were new hires. Of these, nearly one-quarter were 
disabled veterans and 1 in 10 was a wounded warrior.
    The Navy has just over 200,000 U.S. direct hire civilians 
as of December. Veterans, including wounded warriors and 
disabled veterans, comprise a majority of our civilian 
workforce. Civilians operate across a broad spectrum of 558 
occupations to include world class scientists and researchers 
who develop and procure cutting-edge weapons and equipment. 
More than half of the civilian workforce is made up of 
technical professionals, such as engineers, logisticians, 
mathematicians, scientists, acquisition specialists, and 
members of the medical community.
    Because of the combination of sequestration and the fiscal 
year 2013 continuing resolution, Navy commands have been 
operating under an across-the-board civilian hiring freeze to 
reduce spending, primarily in the Operations and Maintenance 
(O&M) accounts, since January. Fortunately, the Marine Corps 
has been able to avoid so drastic a measure. Sustained 
execution of a hiring freeze simply hampers the Navy's ability 
to recruit a skilled and talented workforce capable of 
executing the mission. Critical gaps created by ongoing 
vacancies affect the Navy's readiness and could negatively 
impact execution for many months to come.
    Our Department level sexual assault prevention strategy 
since 2009 has had three main components, each of which has 
shown progress during fiscal years 2012 and 2013. I know we 
will have a chance to address those.
    From suicide reduction to sexual assault prevention and 
response, the Navy's 21st Century Sailor and Marine Initiative 
is addressing head-on the critical and urgent issues facing our 
sailors, marines, and their families. As part of our aggressive 
drug demand reduction efforts, we have expanded our drug 
testing panel to include synthetics, like spice. We have also 
ended discount subsidies on the sale of tobacco products in our 
Navy and Marine Corps exchanges, while providing no cost 
tobacco cessation products for those trying to quit, and 
improved education and training programs to steer potential new 
consumers away from starting.
    In short, the 21st Century Initiative is providing the 
tools needed to face challenges through a variety of programs 
aimed at fostering a healthy lifestyle both on and off duty. We 
are committed to continuing these efforts to ensure a safe, 
healthy, resilient, and ready force.
    I wish to thank the committee members for your continued 
and unwavering support to the Navy, Marine Corps, and the men 
and women who are sailors and marines, who serve bravely in 
Afghanistan, spend months at sea apart from their families, 
guard embassies throughout the world, conduct humanitarian 
assistant missions whenever and wherever needed, and perform 
countless other missions under often unimaginably demanding 
conditions and circumstances.
    We look forward to your questions. Thank you.
    [The prepared joint statement of Mr. Garcia, Vice Admiral 
Van Buskirk, and Lieutenant General Milstead follows:]

  Prepared Joint Statement by Hon. Juan M. Garcia, VADM Scott R. Van 
        Buskirk, USN, and Lt. Gen. Robert E. Milstead, Jr., USMC

                           EXECUTIVE SUMMARY

    The Department of the Navy's fiscal year 2014 manpower and 
personnel budget request appropriately balances risk in supporting the 
readiness requirements of the fleet and providing for the care and 
compensation of our sailors and marines. Our active budget request will 
support active end-strength of 323,600 within the Navy and 182,100 
within the Marine Corps (190,200 with Overseas Contingency Operations 
support) and a Reserve end strength of 59,100 within the Navy and 
39,600 within the Marine Corps.

Personnel Efficiencies
    The overall pressure on the budget and the need for efficiency made 
achieving an appropriate balance between resources and requirements 
particularly difficult this year. The pay raises and changes in TRICARE 
fees for fiscal year 2014 and across the Future Years Defense Program 
(FYDP) represent the Department's best effort to balance personnel 
requirements, budget realities, and the welfare of our servicemembers 
and retirees. Because the increases in base pay are more modest than 
those of recent years, funding of special pays and bonuses will be 
particularly important. In addition, the budget includes increases for 
Basic Allowance for Housing (4.2 percent) and Basic Allowance for 
Subsistence (3.4 percent). As indicators of an improving economy 
emerge, we are closely monitoring for any downward trend in recruiting 
and retention. Meanwhile certain critical skills and positions remain 
difficult to fill.

Sailor, Marine, and Family Care
    In fiscal year 2014 our team of dedicated family readiness 
professionals will continue to respond with agility to the needs of 
sailors, marines, and their families. Our goal is to address the needs 
of individual service and family members while also providing for the 
family unit as a whole. Technology, such as handheld applications and 
more sophisticated tools like eMarine, provides a wide range of 
communication capabilities. By providing information for self-help and 
education electronically, these tools enable our staff to focus their 
efforts on providing face-to-face interaction when and where it is 
needed the most. In addition, the Department continues to support vital 
programs such as the Military Spouse Employment Partnership, both as a 
resource for our members' spouses and as an employer, and the Yellow 
Ribbon Reintegration Program, a popular and proven reintegration tool.

Recruiting
    Both the Navy and Marine Corps continue to experience strong 
performance in our recruiting programs across both the officer and 
enlisted force. Accordingly, both Services' fiscal year 2014 budget 
requests for accession bonuses represent reductions from fiscal year 
2013. However, accession bonuses remain critical to achieving our goals 
for certain hard to fill positions such as health professionals, 
nuclear operators, and special warfare/special operations in both the 
Active and Reserve components and Unrestricted Line officers in the 
Navy Reserve component.

Retention
    The overall economic conditions, particularly with the improving 
but still weak civilian job market, contribute to the Navy and Marine 
Corps having had considerable success with retention across the force. 
As a result, bonuses and special pays have been reduced significantly 
in recent years. While we continue to make selected reductions in 
bonuses and special pays paid to sailors and marines, these highly 
targeted forms of compensation remain crucial to filling critical skill 
areas. In many cases these skill areas require significant investments 
in training and education and civilian demand for people with these 
skills remains strong despite the overall economic environment.

Transition Support
    While higher than normal unemployment in the civilian sector makes 
it easier to meet our retention goals, it also makes it more difficult 
for those who leave the military to find a job. In fiscal year 2012, 
the Department of Navy spent nearly $344 million on unemployment 
benefits for those who left active service. While the unemployment rate 
for veterans is lower than the national average, and the vast majority 
of our veterans do find civilian employment, it is taking many of them 
too long to do so. The newly redesigned Transition Assistance Program 
(TAP)--entitled ``Transition GPS'' (Goals, Plans, Succeed)--is intended 
to prepare sailors and marines to make a successful transition from 
military to civilian life and help shorten their time to post-service 
employment. Transition GPS includes the following elements:

        <bullet> Pre-Separation Assessment and Individual Counseling: 
        Through the new transition program, separating servicemembers 
        will have a one-on-one counseling session to discuss their 
        transition needs and goals. Each servicemember will develop an 
        Individual Transition Plan that documents their personal 
        transition, as well as the deliverables they must attain to 
        meet the new transition program's Career Readiness Standards.
        <bullet> 5-Day Core Curriculum: The 5 day Transition GPS Core 
        Curriculum will include a financial planning seminar, a 
        workshop offered by the Department of Veterans Affairs on the 
        available veterans' benefits, and a re-designed employment 
        workshop offered by the Department of Labor. Transitioning 
        servicemembers will also undertake a Military Occupational Code 
        Crosswalk to translate their military skills, training, and 
        experience into civilian occupations and credentials.
        <bullet> Career-Specific Additional Curriculum: In addition to 
        completing the Transition GPS Core Curriculum, transitioning 
        servicemembers will also have the option of participating in a 
        series of 2 day tailored tracks within the Transition GPS 
        curriculum: (1) an Education track, for those pursing college 
        education; (2) a Technical Training track, for those seeking to 
        attend technical school or earn a credential; and (3) an 
        Entrepreneurship track, for those wanting to start a business.
        <bullet> CAPSTONE Event: At least 90 days before their 
        separation from Military Service, servicemembers will 
        participate in a CAPSTONE event, which will verify that 
        transitioning servicemembers completed the Transition GPS 
        curriculum and achieved Career Readiness Standards. 
        Servicemembers who require additional assistance will be 
        referred to additional or remedial training opportunities. In 
        addition, through the CAPSTONE event, all servicemembers will 
        be offered a ``warm handover'' to government agencies and 
        organizations that will be able to provide them continued 
        benefits, services, and support as veterans.
        <bullet> Military Life Cycle Transition Model: The new 
        transition program will incorporate career readiness and 
        transition preparation into the entire span of a 
        servicemember's career. In the past, transition and preparation 
        for the civilian workforce occurred late in a servicemember's 
        lifecycle--near the point of separation. Under this new 
        program, these concepts will be incorporated earlier as a way 
        to ensure that the counseling, assessments, and access to 
        resources to build skills or credentials occur at earlier 
        stages.
                                 ______
                                 
    Chairman Gillibrand, Senator Graham, and distinguished members of 
the subcommittee, thank you for the opportunity to speak about the 
Department of the Navy's personnel programs and about the sailors, 
marines, and civilians who comprise the Department of the Navy.
    There have been many significant and successful changes in the 
Department of the Navy personnel policies and programs since I 
testified before you last spring.
    In accordance with the January 24, 2013, Secretary of Defense 
Memorandum, ``Elimination of the 1994 Direct Ground Combat Definition 
and Assignment Rule,'' we will submit the Navy and Marine Corps 
implementation plans in May to the Secretary of Defense. These plans 
will provide details on how we intend to move forward with our 
expansion of opportunities for females to serve in previously closed 
Military Occupation Specialties (MOS), ground combat units, and those 
positions closed due to privacy and berthing restrictions. We have made 
great strides by opening positions on submarines and assigning women to 
previously closed ground combat units at the battalion level. We 
continue to offer the opportunity for female lieutenants to volunteer 
for training at the Marine Corps Infantry Officer Course immediately 
following graduation from The Basic School. We are committed to 
providing women with the same opportunities as their male counterparts 
while maintaining the highest levels of combat readiness and 
capitalizing upon every opportunity to enhance our warfighting 
capabilities.
    The Department of the Navy is supporting ongoing efforts by the 
Department of Defense to review and extend benefits, including 
compensation benefits, to same-sex domestic partners of servicemembers. 
Many benefits are currently available to same sex domestic partners by 
designation of servicemembers. At the direction of the President, the 
Department of Defense established a Joint Benefits Review (JBR) working 
group. Comprised of representatives from all the Services, the JBR's 
mission is to conduct a careful and deliberative review of the benefits 
currently provided to the families of servicemembers. The working group 
has identified 22 additional family well-being, child and youth 
program, family support, travel and transportation, and survivor and 
death benefits that can be lawfully provided to the same-sex domestic 
partners of servicemembers and their families through changes to 
Department of Defense policies and regulations. On February 11, 2013, 
then-Secretary of Defense Panetta directed the extension of these 
benefits to same-sex domestic partners and their children once the 
servicemembers and their same-sex domestic partners sign declarations 
attesting to the existence of their committed relationship.
    Implementation of these benefit changes requires substantial policy 
revision, training, and technical upgrades. The Department of the Navy 
will extend the 22 additional family member and dependent benefits to 
eligible same-sex domestic partners of servicemembers no later than 
October 1, 2013, subject to approval by the Secretary of Defense. 
Meanwhile, the Department of the Navy will continue to comply with 
existing law and will review the extension of military benefits in 
conjunction with OSD and the other services should a change in law 
occur.
    In addition to ensuring our manpower and personnel policies meet 
our country's security requirements, it is my honor and privilege to 
represent and advocate for the more than 800,000 sailors, marines, and 
civilian employees who are always prepared to respond to whatever our 
Nation demands.
    Vice Admiral Van Buskirk and Lieutenant General Milstead will 
address their respective Service's personnel plans in detail, but I 
would like to touch on some common challenges the Department of the 
Navy faces as a whole.
    Last March, the Secretary of the Navy unveiled the 21st Century 
Sailor and Marine Initiative which is designed to place an increased 
focus on the resiliency and fitness of our servicemembers. With so much 
of our new defense strategy dependent upon the Navy and Marine Corps, 
we must ensure that our resources support the most combat effective and 
the most resilient force in our history. We set high standards and 
provide individuals with the services and training needed to meet those 
standards.
    Aligned with the Defense Strategic Guidance's direction to maintain 
a ready and capable force, the 21st Century Sailor and Marine 
Initiative is designed to maximize sailor and marine personal 
readiness, to maintain the resiliency of the force, and to hone the 
most combat effective force in the history of the Department of the 
Navy. The 21st Century Sailor and Marine Initiative consists of five 
basic ``pillars'': Readiness, Safety, Physical Fitness, Inclusion, and 
Continuum of Service. Our intention is to maximize sailor and marine 
personal readiness and resilience by concentrating on all five pillars.
    The Navy will continue to provide a well-trained, healthy force in 
order to maximize our greatest military advantage and the bedrock of 
our Navy and Marine Corps--our sailors and marines. To accomplish this, 
our leadership team will do all we can to provide each member with the 
resources needed to maintain resiliency. The Navy will continue efforts 
to reduce suicides, curb alcohol abuse, deter the illegal use and 
misuse of drugs--including emerging synthetic drugs and prescription 
drugs, prevent sexual assaults, improve motorcycle safety, move to a 
culture of physical readiness, offer healthful and nutritious dining 
options, expand diversity (ideas, expertise and backgrounds) and 
provide tools for life after military service.
    After more than a decade of war, and given the challenges in the 
broader economy, we must honor our commitment to veterans and Wounded 
Warriors by taking concrete steps to facilitate their transition to 
civilian life. A key achievement over the last year is the progress 
made with regard to transition support and reintegration. In fiscal 
year 2012, The Department of the Navy hired 10,867 veterans into 
civilian positions (59 percent of new hires). Of these, nearly one-
quarter (2,540) were disabled veterans and 1-in-10 was a Wounded 
Warrior.
    The Department of the Navy has just over 200,000 U.S. direct hire 
civilians as of December 2012. Veterans, including wounded warriors and 
disabled veterans, comprise a majority of our civilian workforce. The 
Navy civilians operate across a broad spectrum of 558 occupations, to 
include world-class scientists and researchers who develop and procure 
cutting-edge weapons and equipment. More than half of the civilian 
workforce is made up of technical professionals such as engineers, 
logisticians, mathematicians, scientists, acquisition specialists, and 
members of the medical community.
    Because of the combination of sequestration and the fiscal year 
2013 continuing resolution, Navy Commands have been operating under an 
across-the-board civilian hiring freeze to reduce spending, primarily 
in the Operations and Maintenance (O&M) accounts, since January. 
Fortunately, the Marine Corps has been able to avoid so drastic a 
measure. Sustained execution of a hiring freeze severely hampers the 
Navy's ability to recruit a skilled and talented workforce capable of 
executing its mission. Critical gaps created by ongoing vacancies 
affect the Navy's readiness and could negatively impact execution for 
many months to come.
    One consequence of the hiring freeze is a significant reduction in 
our hiring of veterans and Wounded Warriors. The number of veterans 
hired in February 2013 totaled only 355, compared to 925 in December 
2012. Similarly, the numbers of Wounded Warriors and disabled veterans 
brought onboard in February dropped to 97, a sharp decrease from the 
306 in December.
    Additionally, the sequestration required DOD to consider 
furloughing civilian personnel. The reduction in pay associated with 
furloughs, in conjunction with the hiring freeze, could severely impact 
our ability to attract and/or retain employees in our mission critical 
occupations.
    The Navy views civilian furloughs as an option of last resort. Our 
civilian employees are absolutely critical to the Navy and Marine Corps 
team that is more than 10 years into the longest sustained period of 
combat operations in American history. Our civilians have responded to 
the increased operational tempo of the last decade, but the impact of a 
furlough, combined with continued pay freezes, may severely damage 
morale and retention. This proposed civilian furlough affects all 
levels of the department, from blue collar workers to members of the 
Senior Executive Service. Exceptions are extremely rare, largely 
limited to those deployed in a combat zone; those responsible for 
safety of life and property (mostly police, fire fighters, and nuclear 
accident responders); those who provide 24-hour inpatient and emergency 
care; those funded by the Foreign Military Sales trust fund; and 
civilian mariners at sea. DOD has also exempted foreign nationals, 
select child care employees and non-appropriated-fund employees. As it 
currently stands, mid-June is the earliest possible date for a civilian 
furlough. We continue to prepare our employees and our Commands for the 
impact this would have on our operations.
    Another topic of special concern is sexual assault and prevention. 
Both the CNO and the CMC have clearly made these issues a high priority 
for senior leaders. The Marine Corps instituted the Sexual Assault 
Prevention and Response Campaign Plan 2012, and the Navy focused on 
improving the victim support process. We hold ourselves to a high 
standard of conduct and we will not tolerate sexual assaults within our 
ranks.
    The Department of the Navy is committed to a Department-wide 
culture of gender respect where sexual assault is completely eliminated 
and never tolerated, and where sexual assault victims receive 
compassionate and coordinated support. This ongoing effort is a top 
priority of the Department and its two Services--the Navy and the 
Marine Corps. There are challenges yet to overcome, but we have 
accomplished much.
    Our Department-level sexual assault prevention strategy since 2009 
has had three main components, each of which has shown progress during 
fiscal year 2012 and fiscal year 2013. The first involves the 
progressive dissemination of a clear, consistent, top-down leadership 
message that sexual assault is never acceptable anywhere in the 
Department of the Navy, and that all sailors and marines have shared 
responsibilities for their own behavior and for protecting each other 
from sexual assault. The second component involves the broad 
application of updated Service-wide training tools across the Navy and 
Marine Corps. Influencing the attitudes and behaviors of young sailors 
and marines requires their repeated exposure to training that is 
informative, relevant, and pertinent to them. Our third strategy 
component involves testing new initiatives to determine their efficacy 
in actually preventing sexual assaults. Experience at the Navy's 
Training Support Command Great Lakes has been very encouraging, and we 
are working to distill the key insights from numerous simultaneous 
initiatives there, and to apply the more effective ones elsewhere. 
Underlying all of these concepts is our commitment to candid self-
assessment using insights from anonymous surveys, sexual assault case 
reviews, and site visits to Navy and Marine Corps locations worldwide. 
Our tactical objective is to reduce the number of sexual assaults 
involving sailors or marines with a special focus on preventing the 
most egregious forms of sexual assault.
    During fiscal year 2012, both Services deployed innovative new 
sexual assault prevention training tools. At the Department level, we 
distributed over 15,000 copies of a newly-published Commander's Guide 
containing information on departmental priorities, background data, and 
specific suggestions on the management of sexual assault cases. We also 
fielded half-day leadership programs at eight concentration sites of 
Navy and Marine Corps operational forces in the United States and 
abroad. Each session combined summaries of Departmental insights and 
priorities, along with presentations by an outside civilian expert with 
unique experience in sexual assault criminal investigations and 
offender profiling. A separate, live-acted, vignette-based educational 
program, which emphasized the importance of bystander intervention in 
preventing sexual assault, was presented simultaneously to packed 
theaters of sailors and marines. In addition, work is nearing 
completion on a professionally produced Department-level sexual assault 
prevention and response (SAPR) training video suitable for Department-
wide use and focused on educating and orienting Navy civilians.
    The Navy leadership has worked with both Services to improve sexual 
assault victim support services. In addition to coordinating Service-
level strategies for implementing new requirements established in NDAA 
2012 for full-time victim advocates and sexual assault response 
coordinators, the Under Secretary of the Navy worked directly with the 
Naval Audit Service and Navy-SAPRO to assess the responsiveness of 24/7 
telephone access to SAPR services for sexual assault victims. The 
result has been a dramatic improvement in performance and the 
establishment of formal Navy standards. In another area, the Department 
partnered during fiscal year 2012 with the Department of Justice (DOJ) 
to develop a DOJ grant project to explore the efficacy of tele-medicine 
support for Sexual Assault Forensic Exams at remote sites. The 
Department of the Navy is the only Military Department engaged with DOJ 
in this effort, and our insights have helped shape the focus of ongoing 
project development.
    From suicide reduction to sexual assault prevention and response, 
the Department of the Navy's 21st Century Sailor and Marine Initiative 
is addressing, head on, the critical and urgent issues facing our 
sailors, marines, and their families. As part of our aggressive drug 
demand reduction efforts, we have expanded our drug-testing panel to 
include synthetics like ``Spice''. We have also ended discount 
``subsidies'' on the sale of tobacco products in our Navy and Marine 
Corps Exchanges while providing no-cost tobacco cessation products for 
those trying to quit and improving education and training programs to 
steer potential new consumers away from ever starting. In short, the 
21st Century Initiative is providing the tools needed to face 
challenges through a variety of programs aimed at fostering a healthy 
lifestyle, both on and off duty. We commit to continue these efforts to 
ensure a safe, healthy, resilient and ready force.
    The budget process requires a careful balancing of resources and 
assessment of risk. The President's fiscal year 2014 budget and the 
Future Years Defense Program are the results of difficult decisions and 
tradeoffs. The final product meets mission requirements while providing 
appropriate compensation and benefits for our Active Duty, Reserves, 
civilian employees, and military retirees.
    In response to the newly enacted requirement to ``establish 
policies and procedures for determining the most appropriate and cost 
efficient mix of military, civilian, and contractor personnel to 
perform the mission of the Department of Defense'' contained in Section 
931 of the National Defense Authorization Act of 2012, the Department 
of the Navy has established the Total Force Integration Board (TFIB), 
which I chair. The TFIB serves as the principal forum for Total Force 
Planning and Management efforts, including determination of optimal 
workforce mix across the Navy enterprise. Additionally, as of September 
2012, the Department of the Navy has implemented the Contractor 
Manpower Reporting Application (CMRA) which provides for the 
identification of Service contracts and labor hours expended within the 
Navy as reported by the contractors. These data will be aggregated and 
reported to Congress beginning in fiscal year 2014. The application is 
modeled after the Army's version of CMRA and may eventually transition 
to an enterprise-wide version of CMRA at the OSD level.
    Both Sea Services will strive to meet their operational 
requirements with as efficient a force as possible. For the Navy this 
means continuing to move sailors from shore support functions to sea 
duty to enhance operational readiness. Such a shift means not only 
fewer sailors available for mission critical work ashore, but also that 
sailors will, on average, spend more time at sea away from their 
families. For the marines, the reduction of nearly 20,000 end strength 
coincides with the planned withdrawal from Afghanistan, but will 
require careful balancing to maintain the right mix of seniority and 
specialties.
    Our highest priority remains the care and the recovery of our 
wounded, ill, and injured servicemembers. The Department of the Navy is 
leading the way in innovative therapeutic treatments of our wounded 
warriors and these efforts include our continued focus and research in 
the areas of traumatic brain injury (TBI) and post-traumatic stress 
disorder. The Navy is collaborating with the other Services, our 
Centers of Excellence, the Veterans Administration, and leading 
research and academic centers. We continue to make progress but 
recognize there is more work ahead in this area.
    We continue to search for innovative ways to improve the efficiency 
and capability of our forces as well as the quality of life of our 
members and their families. The Navy is actively preparing for the 
congressionally-created commission on military compensation and hopes 
for increased flexibility to meet our requirements with both efficiency 
and fairness to our members and retirees.
    We wish to thank the committee members for your continuous and 
unwavering commitment to support the Navy and Marine Corps and the men 
and women who, as sailors and marines, serve bravely in Afghanistan, 
spend months at sea apart from their families, guard embassies 
throughout the world, conduct humanitarian missions whenever and 
wherever needed, and perform countless other missions, often under 
unimaginably demanding conditions and circumstances.
    The following service specific information is provided for the 
committee. We look forward to your questions.

    [The prepared statement of Vice Admiral Van Buskirk 
follows:]

          Prepared Statement by VADM Scott R. Van Buskirk, USN

                            I. INTRODUCTION

    Chairman Gillibrand, Ranking Member Graham, and distinguished 
members of the subcommittee, I am honored to appear before you today to 
review Navy manpower, personnel, training, education and family support 
programs and priorities for fiscal year 2014.
    These are clearly challenging times for all of us. With budget 
concerns continuing and the pressures of increased OPTEMPO we are 
asking sailors to do more than ever before. Navy has had to make tough 
and sometimes unpopular decisions; however, we remain committed to 
supporting sailors and their families through this challenging time. 
While we have planned for, and are executing, prudent reductions; the 
majority of the impacts will not take effect until this summer. My 
primary concern is the potential for a slowdown in training and impacts 
on recruiting our future force, resulting in reduced manning and 
quality of our deployable forces. Our sequestration planning 
specifically attempted to avoid training and recruiting impacts; 
however, the depth and prevalence of reductions, increase the 
probability of an unintended training slowdown and challenge in 
accessing quality recruits.

                  II. A READY AND CAPABLE GLOBAL NAVY

    In the past year, since assuming duties as Chief of Naval Personnel 
and Deputy Chief of Naval Operations (Manpower, Personnel, Training, 
and Education), I have had the opportunity to observe and assess where 
the Navy is and where it needs to go within the manpower, personnel, 
training, and education domain. Navy is America's away team--relevant 
and in demand--for peace keeping duties and power projection. As we 
expand America's focus in the Pacific Theater, Navy assumes an 
increasingly critical role in the Defense Strategic Guidance. As we 
work to achieve the Chief of Naval Operations' tenets of Warfighting 
First, Operate Forward, and Be Ready, I have established as my three 
strategic priorities, Responsive Force Management, Effective Personnel 
Readiness and Sound Organizational Management.

Responsive Force Management:
    We must maintain forward progress to properly man the fleet with 
trained and experienced sailors. This begins with attracting the most 
qualified youth of America to serve in the Navy by demonstrating the 
many opportunities and rewards associated with naval service, and 
appealing to their pride in our Nation, commitment to its ideals, and 
devotion to protecting its freedoms. It continues with providing world-
class training and education opportunities to prepare them to excel in 
maritime-centric jobs in an increasingly technical fleet comprised of 
fewer and less manpower-intensive platforms and weapon systems.

Effective Personnel Readiness:
    We must capitalize on investments in sailors, both officer and 
enlisted, by providing the incentives needed to retain the best and to 
achieve and sustain optimum fleet readiness. Compensation remains an 
important part of our incentives system but is only a part of what we 
must do to preserve the world's best All-Volunteer Force. We must 
continue to offer the best training available and provide opportunities 
for off-duty education to enhance the force and help our people meet 
their education goals. Highly educated sailors are our best performers 
and tend to stay in the Navy making them key to Navy's success. We must 
continue to build resiliency among sailors and their families. We ask 
much of our men and women in uniform and those who support them at 
home. We owe them the tools to help them endure and thrive in 
challenging environments and under demanding circumstances.

Sound Organizational Alignment:
    The fleet is our primary customer and we must ensure that every 
decision and action supports the needs of the fleet and its sailors. 
Shortly after assuming the helm as Chief of Naval Operations, Admiral 
Greenert issued direction to optimally position his headquarters staff 
to meet the demand signals provided by fleet and combatant commanders. 
We continue to evaluate our effectiveness in delivering what the fleet 
requires and to ensure that we align ourselves to be on time and within 
budget. We must ensure effective coordination and communications among 
major headquarter organizations, fleet and shore commands, and our 
support organizations, to deliver the best possible services to sailors 
and their families in all areas of Navy manpower, personnel, training, 
and education.
    In addition to these three strategic priorities, my primary mission 
objectives are to effectively Stabilize, Balance and Distribute the 
force. Since the mid-1990s, Navy end strength has trended downward, 
consistent with manpower needs dictated by a decreasing force structure 
and, more recently, withdrawal from Iraq and Afghanistan. However, 
beginning in fiscal year 2013, we began a period of slow growth to 
stabilize the force, increase manning at sea, improve sea/shore flow 
and increase the Navy's Cyber capabilities. As we worked to determine 
the proper force size, we conducted a requirements-based process to 
properly balance the force in size, seniority, and skill mix, and to 
enhance capabilities to better distribute qualified personnel to the 
right places at the right time. This set the stage for long-term force 
stabilization while maintaining effective personnel readiness.
    To stabilize, balance, and distribute the force, it is essential 
that sailors are assignable, deployable, and distributable. Given the 
demands placed on our people over the past decade, including the 
stresses of war and high operational tempo, we have placed 
unprecedented emphasis on force resiliency. Fit and resilient sailors 
are critical to Navy readiness. We must continue to bolster Navy 
families to meet the demands we place on them; the 21st century sailor 
initiatives provide the priority and resources necessary to permit 
sailors to achieve excellence while instilling confidence through our 
unwavering commitment to them and their families. It is imperative that 
we continue to commit resources toward programs that build force 
resiliency.

                    III. RESPONSIVE FORCE MANAGEMENT

    Responsive Force Management strategic priorities are focused on end 
strength, compensation, fleet manning, retention, recruiting, and 
training throughput.

Stabilize End Strength:
    The President's fiscal year 2014 budget request supports active end 
strength of 323,600, and selected Reserve end strength of 59,100. The 
request seeks $27.8 billion in Military Personnel, Navy (MPN) 
appropriations, and $1.8 billion in related Operation and Maintenance, 
Navy (O&MN), appropriations. The request includes $1.9 billion for 
Reserve Personnel, Navy (RPN) and $24.9 million in related Operation 
and Maintenance, Navy Reserve (O&MNR) appropriations.
    Navy has invested in additional strength to help reduce manning 
gaps at sea, while concurrently restoring targeted shore billets to 
provide adequate shore rotational assignments for sailors in sea-
intensive ratings, and at regional maintenance centers and afloat 
training groups. These additional billets will not only help improve 
sea/shore flow, they will develop additional trained sailors with 
advanced maintenance skills while on shore duty, who will return to sea 
better prepared to make an immediate technical contribution to their 
commands. In the near-term, we are also increasing strength among 
junior officers in the surface and submarine warfare communities to 
meet future department head requirements. Our budget request 
appropriately balances risk, preserves capabilities to meet current 
fleet and joint requirements, fosters growth in emerging mission areas, 
and provides vital support to sailors and Navy families, as we 
carefully monitor personnel and fleet readiness. We are also applying 
and adjusting force management tools to retain the right skills, pay 
grade, and experience-mix necessary to provide mission-ready naval 
forces. End strength continues to grow across the Future Years Defense 
Program until it stabilizes at approximately 326,100 in fiscal year 
2018.
    We are carefully managing reduction of over 3,000 positions from 
the Reserve billet base, to 59,100 end strength. These adjustments 
align the Selected Reserve with post Operation Enduring Freedom 
requirements, reconfiguration of the Navy Expeditionary Combat Command, 
and the new Defense Strategy, while retaining capabilities vital to 
fulfilling the Reserve component role in Navy's Total Force mission. By 
calibrating accessions, offering increased active duty augmentation and 
recall opportunities, and allowing for natural attrition, the Navy 
Reserve will accomplish this reduction within strength and fiscal 
controls. In the long term, however, the Navy Reserve Force will grow 
to approximately 60,000, and the Reserve mission-set is increased to 
include shipyard maintenance augmentation, unmanned aerial vehicle 
support, maritime operations center augmentation and additional 
intelligence, cyber and information dominance.

Effective Force Management:
    Perform to Serve (PTS) remains our primary force-management tool to 
maintain balance across all enlisted ratings by ensuring that we have 
the right number of enlisted sailors in each rating at the right 
experience level. Through PTS, which uses performance criteria within 
individual ratings and length of service cells to ensure long-term 
sustainment of experience, we have made significant progress toward 
achieving balance across all enlisted ratings, reducing the number of 
overmanned ratings from 35 in 2011, to just 9 today.
    Improved rating balance has resulted in more reenlistment 
approvals. In 2011, approximately 60 percent of PTS requests were 
approved, while just 1 year later 80 to 90 percent were approved, and 
advancement opportunity increased. PTS also allows sailors not selected 
for retention in their current rating to consider, as alternatives to 
leaving the Navy, converting to a new rating or transitioning into the 
Navy Reserve.

Compensation:
    Compensation is a critical force-management tool. As we look for 
cost saving measures, we strive to ensure that we will not disadvantage 
sailors; rather we will look to preserve the strength of the All-
Volunteer Force and ensure fiscal sustainability of our pay and 
benefits programs. Special and Incentive (S&I) pays provide flexible 
compensation incentives to address specific manning needs or other 
force management issues not efficiently addressed through basic pay 
increases alone. Navy judiciously applies S&I pays, such as Enlistment 
Bonuses, Selective Reenlistment Bonuses and Critical Skills Retention 
Bonuses, to recruit and retain sailors in key occupation specialties or 
critical skill areas. S&I pays are also provided as compensation for 
onerous or hazardous duty assignments or conditions, and for 
maintaining proficiency in specific skills important to national 
security.

Recruiting:
    Navy has worked hard to achieve strong recruiting success over the 
past 5 years by attracting the Nation's best and brightest for 
America's Navy. Our recruiting brand, ``America's Navy-A Global Force 
for Good'', captures CNO's priorities while appealing to our 17-24 
year-old recruiting market. In fiscal year 2012 and fiscal year 2013-
to-date, Navy achieved accession goals for officers in the Active 
component, and for enlisted in both the Active and Reserve components. 
We continue to do well recruiting into priority ratings in the Naval 
Nuclear Propulsion Program (NNPP) and Navy Special Warfare/Special 
Operations (NSW/SPECOPS). Additionally, we attained the highest quality 
future sailors in history, with 99 percent of accessions entering as 
high school diploma graduates, and 90.2 percent of accessions scoring 
in the upper 50th percentile on the Armed Services Vocational Aptitude 
Battery (ASVAB).
    Navy Recruiting leading indicators forecast that our recruiting 
mission will become increasingly challenging. While the quality of 
accessions rose between fiscal year 2009 and fiscal year 2012, 
accession quality has begun trending downward, and is expected to 
close-out the year with approximately 85 percent of accessions scoring 
in the upper 50th percentile on the ASVAB. While still well above DOD 
and Navy minimum standards, this trend is a source of concern as we 
continue our efforts to recruit the best America has to offer. 
Additionally, each month, Navy is meeting enlistment contracting goals 
later in the month. The impact of sequestration on recruiting 
resources, particularly marketing and advertising, will further 
increase our recruiting challenges.
    Navy achieved most Active component officer recruiting goals in 
fiscal year 2012, but experienced a shortfall in attaining direct 
accession physicians, which was offset by success in recruiting within 
student medical officer programs. We were also successful in recruiting 
officers into the priority NNPP and NSW/SPECOPS mission areas. Success 
in officer program recruiting was further reflected by the highest ever 
quality and number of diversity applicants into the NROTC Program.
    For the Reserve component, Navy faced challenges again this past 
year with recruiting for the General Officer unrestricted line 
communities (e.g., surface, submarine, and aviation warfare) primarily 
because of high active duty retention rates. In recent years, we have 
also had challenges in recruiting specialized medical professionals for 
the Reserve Component (e.g., surgeons, anesthesiologists) due to high 
active duty retention, stiff competition from the civilian healthcare 
community, and perceived risk to civilian medical practices due to 
frequent mobilizations.
    Fiscal year 2014 is projected to be more challenging for both 
officer and enlisted recruiting. Consequently, we will balance 
recruiter manning, accession bonuses, and the marketing and advertising 
budget, to continue to aggressively attack challenging areas, such as 
healthcare specialties, and maintain focus on priority recruiting 
mission areas. The fiscal year 2014 budget requests $269 million for 
recruiting programs, including accession incentives, advertising, and 
support for Active and Reserve recruiters despite the improving 
economic forecast, our budget request ensures that the recruiting force 
remains appropriately sized and resourced for success.

Selection and Classification Programs:
    Effective selection and classification programs are the foundation 
of Navy efforts to properly man the fleet to current and future 
requirements in this dynamic environment. We are using state-of-the-art 
technology and processes to hire recruits into jobs optimally suited to 
their abilities and interests. This same technology is used to identify 
sailors for lateral conversion into mission critical career fields. 
These programs have had a significant impact on reducing training 
losses, increasing retention and increasing promotion opportunity.

Fleet Manning:
    Navy manpower has decreased by more than 50,000 sailors since 2004, 
through a combination of reduced force structure and reduced manning 
aboard individual ships and aircraft, causing an imbalance between sea 
and shore billets and between ratings. As a result of efforts that 
began in fiscal year 2012 to improve fleet manning by moving 
approximately 6,000 billets from shore to sea, fleet manning is 
projected to improve throughout the remainder of the fiscal year while 
gaps at sea decrease from about 11,600 to 7,800. We also project that 
by the end of the fiscal year, nearly 95 percent of all enlisted 
billets at sea will be manned, with close to 90 percent filled by the 
right sailor with the proper seniority and appropriate skill level and 
training.
    Through various force management tools, including special and 
incentive pays applied to critical skills, voluntary/involuntary 
distribution, funding the Individuals Account and shore billets for sea 
intensive ratings, Reserve to Active augmentation, and Active Duty 
Definite Recall Program for Reserve Enlisted, we are shaping sailor 
behavior to attain optimum fleet manning. Selective application of 
these tools is helping retain sailors in undermanned skills, but 
requires continuous assessment and regular adjustments to account for 
changing economic conditions. Ultimately, we must ensure that gaps at 
sea are filled by the right sailor, with the right skills at the right 
time.

Retention:
    Navy aggregate enlisted retention continues to be strong compared 
to last year, with increased retention in all zones. However, retention 
in select areas is challenging and our current key focus is on first 
term sailors. Four years ago, we reduced accessions so that we could 
retain more career sailors. Consequently, as these cohort groups enter 
their reenlistment windows, we now need a greater percentage of first 
term sailors to reenlist. As we monitor personnel and fleet readiness, 
with a focus on increasing sea duty manning, we are applying force 
management tools, where appropriate, to retain the right skills across 
pay grades. Our new and existing policies encourage sailors to commit 
earlier to stay for longer periods, affording increasing predictability 
of future personnel readiness. We recently updated reenlistment bonuses 
to target junior enlisted personnel to attain first term retention 
goals in fiscal year 2013, and sustain a healthy force into the future.
    To position Navy to meet future mission requirements, we must 
balance the force by recruiting and retaining officers in the right mix 
of specialties. Officer inventory shortfalls remain in several critical 
communities. Offering precise targeted incentive pays and bonuses is 
essential to maintaining and improving manning in these mission-
essential specialties.

                   IV. EFFECTIVE PERSONNEL READINESS

    The Effective Personnel Readiness strategic priorities focus on 
matching sailors with jobs for which they are well-suited; and on 
sailor quality of life, training, education, and family support.
21st Century Sailor and Marine Initiative:
    In March 2012, the Secretary of the Navy announced the 21st Century 
Sailor and Marine initiative. To maximize sailor personal readiness, we 
designed objectives and policies to maintain the resiliency of the 
force and to hone the most combat effective force in the history of the 
Department of the Navy. Our aim is to prepare sailors and their 
families to face life's challenges through a myriad of programs focused 
on creating a balanced lifestyle, on- and off-duty, while specifically 
addressing the needs of wounded warriors through our Navy Safe Harbor 
Program.

        <bullet> Health of the Force. Navy's assessment of the overall 
        health of the force is good, morale remains high and work 
        satisfaction increased over the last 12 years. Our sailors are 
        choosing to remain in the Navy; aggregate retention remains 
        strong, though some areas continue to prove challenging. The 
        2012 Quality of Life Survey and Behavioral Health quick polls 
        revealed positive feedback with standard of living/income and 
        job satisfaction, while concern was expressed about manning 
        shortages, long work hours and high operational tempo. As 
        deployment lengths and schedules change, based on world events, 
        we must monitor the impact on sailors and their families and 
        understand the underlying factors that may distract from our 
        operational goals. We expect the assessment of the health of 
        the force to remain strong; however, there are areas that 
        require significant continued focus and efforts, specifically 
        prevention of suicides and sexual assaults. Additionally, we 
        remain committed to providing quality care and robust programs 
        through our wounded warrior Safe Harbor program.
        <bullet> Suicide Prevention and Operational Stress Control. 
        Suicide prevention extends beyond specific program efforts and 
        strives to create an open environment that reduces barriers and 
        encourages sailors to seek help. Navy's suicide prevention 
        strategy concentrates on moving prevention as far left of the 
        potential event as possible through effective execution of five 
        lines of effort: Education and Awareness, Prevention and 
        Intervention, Sailor Care and Transformational Growth, 
        Physical, Mental and Spiritual Fitness, and Assessment. Navy 
        focuses on building personal resilience, promoting peer-to-peer 
        support, enhancing family relationships, enabling intervention 
        up-and-down the chain of command, and fostering a command 
        climate in which help-seeking behaviors enable sustained 
        personal resilience. Our robust programs include:

                <bullet> Navy's Operational Stress Control (OSC) 
                Program;
                <bullet> Reserve Psychological Health Outreach Program 
                (RPHOP);
                <bullet> Navy Mobile Care Teams;
                <bullet> Deployment Health Assessments;
                <bullet> Returning Warrior Workshops;
                <bullet> Project FOCUS (Families Overcoming Under 
                Stress);
                <bullet> Coalition of Sailors Against Destructive 
                Decisions (CSADD); and
                <bullet> Crisis Intervention and Response.

                  Navy leadership is determined to prevent suicides in 
                our force; the loss of even one life to suicide is a 
                one too many.

        <bullet> Sexual Assault Prevention and Response (SAPR). Sexual 
        assault rates in the Navy remain unacceptable; we are committed 
        to achieving a steady reduction in the incidence of sexual 
        assault to eradicate this abhorrent crime from our ranks. Our 
        lines of effort to combat sexual assault are: Education and 
        Awareness, Prevention and Intervention, Victim Advocacy and 
        Resiliency, Investigation and Accountability and Assessment. 
        Navy has focused proactively on prevention programs, expanded a 
        successful model instituted at Recruit Training Command, 
        focused on individual unit climates and instituted enhanced 
        victim care, prosecution measures and reporting procedures. We 
        will continue to aggressively promote and foster a culturally 
        aware and informed Navy; respectful of all, intolerant of 
        sexual assault, and supported by a synergistic program of 
        prevention, advocacy and accountability.
        <bullet> Alcohol and Substance Abuse Prevention. Navy's ``zero 
        tolerance'' drug abuse policy is comprised of three key 
        elements: detection, deterrence, and prevention. Navy Alcohol 
        and Drug Abuse Prevention (NADAP) is a comprehensive, science-
        based program consisting of sailor education, prevention 
        awareness, advocacy, trend analysis/threat assessment, and 
        intervention. This past year, NADAP achieved tangible goals in 
        reducing the number of positive urinalysis and alcohol-related 
        incidents and increasing Navy leadership awareness of 
        prevention programs. In 2012, Navy incorporated testing for 
        synthetic drugs, including spice and bath salts. The testing 
        regimen is robust and flexible enough to adjust testing 
        protocols to the dynamic synthetic drug market through a 
        collaborative arrangement with intelligence resources that 
        track market changes. Initial indications are that this is 
        having the desired deterrent effect on synthetic drug use. We 
        recently implemented use of hand-held Alcohol Detection Devices 
        (ADD) as an education and awareness tool to provide sailors and 
        commands the ability to readily identify the impact of alcohol-
        use decisions.
        <bullet> Family Support. Navy recognizes that military service 
        presents unique challenges and opportunities for sailors and 
        their families. Family support programs assist commanding 
        officers and Navy families in managing the demands of military 
        life in concert with a healthy family life. Fleet and Family 
        Support Centers provide services that include deployment 
        support, crisis response, and career support and retention 
        programs. Navy leadership is committed to investing and 
        increasing resources for Sailor and Family Readiness Programs, 
        including:

                <bullet> sexual assault prevention and response;
                <bullet> alcohol awareness and deglamorization;
                <bullet> drug detection and abuse prevention;
                <bullet> Navy Safe Harbor wounded warrior support;
                <bullet> suicide prevention and resiliency;
                <bullet> casualty assistance and funeral support;
                <bullet> child care; and
                <bullet> Morale, Welfare, and Recreation.

                  We are working to minimize the impacts of 
                Sequestration on Sailor and Family Readiness programs 
                to avoid adverse affects on the people each of them 
                supports.
                  Navy's budget request adds $18 million to support 
                full implementation of the VOW Act and Veterans 
                Employment Initiative (VEI). We are also implementing a 
                re-designed Transition Assistance program, entitled 
                ``Transition GPS'' (Goals, Plans, Succeed)), which 
                includes delivery of legally mandated requirements, 
                such as Pre-Separation Counseling, Department of Labor 
                (DOL) Employment Workshop and a Department of Veterans 
                Affairs (VA) Benefits briefing. Transitioning sailors 
                will also have the option of participating in a series 
                of two-day tailored instructional tracks within the 
                transition GPS curriculum:

                <bullet> a higher education track, for those pursuing a 
                college degree;
                <bullet> a technical training track, for those seeking 
                job-ready skills and industry-recognized credentials in 
                shorter-term training programs; and
                <bullet> an entrepreneurship track for those desiring 
                to start a business.

                  The design of all of fleet and family support 
                programs is to help families be resilient, well-
                informed, and adaptable.

Training and Education:
    Our most critical obligation in the continuum of training is 
providing sailors with the most relevant knowledge, skills, and 
abilities as quickly as possible to achieve optimal knowledge transfer 
and make best use of finite resources. This means using our established 
end-to-end curriculum content development-and-revision process to 
identify the most cost-effective solutions to deliver training without 
sacrificing quality. As new weapon systems and platforms are 
introduced, we must ensure that innovative techniques, such as 
interactive multimedia, simulators, and avatars, are applied when 
appropriate.
    Navy has developed a plan to improve timeliness, relevance, and 
comprehensiveness of technical training. Modularized training optimizes 
the initial training pipeline and provides continuous training 
opportunities as sailors progress through their first tours. This 
approach creates flexibility in the pipeline and allows sailors to 
report sooner to their first duty station, armed with the necessary 
skills to have an immediate positive impact. Strategically distributing 
training delivery, so that sailors receive only the instruction 
necessary to perform their immediate duties, minimizes time between 
instruction and utilization, thereby, reducing knowledge-and-skill 
decay associated with current delays. Pilot programs evaluate the 
modularized training concept to ensure training quality remains high 
along the continuum.

        <bullet> Asymmetric Advantage: There is an inherent premise 
        that asymmetric warfare must deal with unknowns. The ability of 
        our maritime forces to respond quickly to crises and eliminate 
        threats is a direct result of exemplary training. Technical 
        expertise gained through a variety of initial and advanced 
        skills training gives sailors the ability to evaluate what 
        needs to be done to fight and win. Navy's leadership training, 
        mentoring, and coaching, contribute directly to development of 
        a sailor's critical thinking skills, willingness to accept 
        prudent risks, and ability to adjust rapidly based on 
        situational assessment.
         The discipline, technical expertise and esprit de corps that 
        enable us to win in combat also enable us to adapt to, and 
        accomplish, other complex missions, such as humanitarian relief 
        efforts at home and abroad. New technologies, combined with 
        proven learning strategies, continue to drive cost-effective 
        improvements in training. Intelligent tutoring systems and 
        learning strategies leveraging simulation, virtual worlds, and 
        emerging technologies, allow us to maximize training efficiency 
        while improving training effectiveness and timeliness of 
        delivery, ensuring our asymmetric edge is maintained.
        <bullet> Nationally Recognized: In addition to meeting fleet 
        performance requirements, initial skills training provided to 
        new accessions has been consistently recognized by leading 
        industry and training organizations for innovations that 
        improve workplace learning. Over the past 2 years, our training 
        commands were recognized by the prestigious American Society 
        for Training and Development, with three ``Excellence in 
        Practice'' awards and three citations. For the last 4 years, 
        Navy has ranked as one of the country's top training 
        organizations on Training Magazine's ``Top 125'' list. The high 
        quality of training provided to our force is also demonstrated 
        through thousands of college credit hours recommended by the 
        American Council on Education, which supports our efforts to 
        compete for the best talent in the Nation.
         Additionally, our training programs are internationally 
        recognized. We provide training and education to foreign 
        servicemembers and civilians from over 160 nations in support 
        of the DOD Guidance for the Employment of Forces and the 
        Maritime Strategy, for deeper partnerships, building partner 
        nation capacity; and improving joint, allied and coalition 
        interoperability. On any given day, over 1,270 international 
        military students train at over 150 schools and activities in 
        the United States and participate in a wide-range of training 
        activities in foreign countries. In fiscal year 2012, we 
        finalized training arrangements for U.S. grant programs, such 
        as the International Military Education and Training Program, 
        Counter Terrorism Fellowship Program and African Partnership 
        Station.
        <bullet> Transformative Training and Technology. Traditional 
        Navy war-fighting communities (e.g., surface, aviation, and 
        submarine) and the recently reconstituted expeditionary 
        community, rely increasingly on simulators to conduct training. 
        Simulators are among the most significant improvements in our 
        training programs. As fidelity and access to simulator 
        technology increase, prevalence of this technology is building 
        at Navy schoolhouses, training commands and in the fleet. 
        Investment in simulator training increases training capacity, 
        effectiveness, and efficiency and reduces wear on platforms and 
        operational equipment; thereby, minimizing operation 
        maintenance and replacement costs. Simulators used for the 
        expeditionary community are currently resourced through 
        Overseas Contingency Operations (OCO) funding. Accordingly, we 
        have requested an additional $3.3 million to facilitate 
        shifting funding for this vital simulator training into the 
        baseline budget.
        <bullet> Joint and Professional Military Education. Naval War 
        College (NWC) and Naval Postgraduate School (NPS) continue to 
        deliver core mission functions that provide critical support to 
        the maritime strategy. Both are central to Navy's strategic 
        investment in Navy- and DOD-relevant education to develop a 
        resilient, knowledgeable and adaptable force. With 
        implementation of Enlisted Professional Military Education 
        (EPME) in 2008, which includes Joint Professional Military 
        Education (JPME), Navy has a progressive continuum of Navy-
        specific PME coupled with JPME, from pay grade E-1 through O-9.
        <bullet> Voluntary Education/Tuition Assistance. Navy remains 
        steadfast in our commitment to sustain the Tuition Assistance 
        (TA) Program. The Chief of Naval Operations has assured sailors 
        that TA will remain intact and available. We have made no 
        changes to the program and continue to provide 100 percent 
        funding up to the established caps for eligible sailors. While 
        ongoing fiscal pressure will necessitate continued scrutiny of 
        all investments, our goal is to ensure that we can continue 
        meeting current obligations and fulfilling the educational 
        goals of every sailor who desires to enroll. Our course 
        completion rate is well over 90 percent, which we attribute in 
        part to the exceptional support sailors receive from trained 
        Navy education counselors. Each sailor, working with a 
        qualified counselor, must develop an appropriate educational 
        plan, which the counselor must approve before TA funding can be 
        authorized and classes begin. Counselors ensure that sailors 
        are prepared for the academic requirements associated with each 
        sailor's approved plan and help them streamline an attainable 
        degree completion process.
        <bullet> Credentialing and Licensure. Navy Credentialing 
        Opportunities Online funds over 17,000 credentials each year 
        for approximately 7,500 individuals. Every Navy occupation has 
        at least one professional credential available, with more than 
        1,800 civilian certifications now funded. Additionally, the 
        Navy Credentialing Program Office actively participates in the 
        President's Education, Training, and Credentialing Strategic 
        Working Group, in supporting the Presidential Call for a 
        Career-Ready military by maximizing servicemember 
        certifications in critical civilian job fields.
        <bullet> Language, Regional Expertise and Culture (LREC). 
        Navy's LREC program builds capability by incentivizing 
        language, regional, and culture learning through relevant, 
        cost-effective education and training products structured to 
        meet operational requirements while leveraging proven, existing 
        resources. The program incorporates regional and cultural 
        content in Navy Professional Military Education (NPME), 
        provides language acquisition and sustainment training to 
        Cryptologic Language Analysts (CTIs) and Foreign Area Officers 
        (FAOs), and makes nonresident language instruction available to 
        sailors who require it. To encourage language learning for 
        Naval Special Warfare commands, expeditionary units, and 
        Afghanistan-Pakistan Hands, Navy expanded its Foreign Language 
        Proficiency Bonus (FLPB) program to incentivize language skills 
        at the proficiency levels specifically required for the 
        operational readiness of those forces. Navy LREC also provided 
        products and services to more than 110,000 sailors and 
        coastguardsmen in 2013. In response to the Defense Strategic 
        Guidance of January 2012, Navy has developed an Asia-Pacific 
        Hands Pilot, which leverages existing educational resources to 
        provide enhanced regional knowledge to select officers ordered 
        to assignments in the Pacific Command Area of Operations.

                               CONCLUSION

    The President's fiscal year 2014 budget request resources critical 
programs that will continue to support Navy manpower, personnel, 
training, and education priorities of: Responsive Force Management, 
Effective Personnel Readiness, and Sound Organizational Alignment, 
while maintaining a ready and capable global Navy. I look forward to 
working with you as we continue to shape the Navy to meet current and 
emerging requirements, while confronting the challenges that lie ahead. 
On behalf of the men and women of the U.S. Navy, and their families, 
thank you for your leadership, commitment, and unwavering support.

    [The prepared statement of Lieutenant General Milstead 
follows:]

       Prepared Statement by LTGEN Robert E. Milstead, Jr., USMC

                            I. INTRODUCTION

    Chairman Gillibrand, Ranking Member Graham, and distinguished 
members of the subcommittee, it is my privilege to appear before you 
today to provide an overview on Marine Corps personnel.
    As our commandant recently testified to you, sequestration--both 
the immediate cuts in fiscal year 2013 and the associated reductions in 
discretionary caps in future years--could have a significant impact on 
our Nation's readiness both short- and long-term. However, no matter 
what the implications, there are some things that must endure. Your 
Marine Corps is, and will continue to be, our Nation's expeditionary 
force in readiness. We will be ready to rapidly respond to crises 
around the globe to ensure the continued security of the American 
people and to protect the interests that underpin our prosperity. 
Marines will be always faithful to the trust which the American people 
have vested in them. Already a lean organization, your marines will 
continue to give you the best capability that can be squeezed from the 
resources you allocate for our Nation's defense. Our individual marines 
are the Corps' most sacred resource, and always will be.

                            II. END STRENGTH

    Pursuant to guidance issued by the President and the Secretary of 
Defense, the Marine Corps has initiated a reduction in our Active 
component end strength from 202,100 to 182,100 by the end of fiscal 
year 2016. We are conducting our drawdown in a measured way. Our plan 
is to reduce our end strength by no more than 5,000 marines per year 
and will be accomplished primarily by natural attrition, voluntary 
separation, and retirement authorities. Involuntary separations will be 
minimized as much as possible, and we have no plans to conduct a 
reduction-in-force. Such an approach would no doubt do significant 
long-term damage to our ability to recruit and maintain a quality 
force. Our overarching goal must be to keep faith with our marines and 
their families.
    During fiscal year 2012, we made a conscious decision to get a 
`head start' on our drawdown rather than wait for fiscal year 2013. 
This early drawdown was achieved primarily through increased voluntary 
attrition of junior enlisted marines as part of the large Grow-the-
Force cohort population. As a result, the Marine Corps' active duty end 
strength at the end of fiscal year 2012 was 198,479 marines (including 
reservists who served on active duty at least 3 out of previous 4 
years). Our end strength goal for fiscal year 2013 is 193,500 marines.
    While our military personnel accounts have been exempted from 
sequester in fiscal year 2013, it would be inaccurate to assume that 
your marines are not to be impacted by it. Overall, the readiness of 
your Corps stands to take a hit. In essence, those whom have given the 
most to the security of this Nation are asked to accept the bulk of the 
risk sequestration poses to this Nation.

                       III. MARINE CORPS RESERVE

    Our Reserve component continues to make essential contributions to 
Total Force efforts in Overseas Contingency Operations. We are 
continuing to refocus our recruiting and retention efforts on meeting 
our Reserve component grade and skill requirements at the unit-level. 
These efforts include retraining marines affected by force structure-
directed actions, lowering rates of attrition, providing travel 
reimbursement for our senior staff noncommissioned officer and company 
grade officer leadership, and discreet targeting of those marines 
eligible to receive an incentive. As a result, we have achieved our end 
strength goal of 39,600 over the last 2 years.
    For fiscal year 2013 and beyond, we have refined the use of 
incentives to strengthen unit staffing in specialties and grades where 
we remain critically short. In particular, our Selected Marine Corps 
Reserve unit staffing of company grade officers, aviators, and staff 
noncommissioned officers (SNCO) remains most challenging. Targeted 
incentives and transition assistance outreach programs help us to 
attract junior officers and aviators who are leaving the Active 
component. While transitioning officers from the Active component 
provides the majority of our company grade officer leadership, we have 
had considerable success commissioning officers directly into the 
Reserve. The Reserve Officer Commissioning Program, which includes 
Officer Candidate Course-Reserve (OCC-R)--has produced a total of 561 
lieutenants for the Marine Corps since its creation in 2006 and has 
been key to increasing ground company grade officer fills from 21 to 67 
percent. More importantly, it enables the Marine Corps Reserve to place 
officers in critical small unit leadership positions at the platoon and 
company level.
    To complement outreach efforts and the use of incentives, and to 
address the challenges of geographic constraints, we offer occupational 
specialty retraining. Our retraining programs are crucial in our 
efforts to join enlisted marines to units that are located in areas of 
the country where it is geographically challenging to recruit, that are 
undergoing Force Structure Review Group actions, or that are in high-
demand low-density Military Occupational Specialties (MOS). This 
training has helped us to build positive trends with respect to 
recruiting and retention and are integral to our future success in 
staffing our SNCO above the current level of 63 percent.
    This year we increased efforts to fully staff Reserve aviation 
squadrons. To achieve this goal, we developed a number of Reserve 
aviation manpower initiatives designed to encourage transitioning 
Active component aviators to affiliate with Reserve units. Since there 
are a limited number of Reserve squadrons, the use of travel 
reimbursement, incentives, and aviator transition and conversion 
programs are critical to achieving our staffing goals. Altogether, 
these programs, combined with our prior service recruiting efforts, 
should provide for at least 90 percent staffing of critical combat arms 
and company grade officer billets by the end of fiscal year 2015 with 
Reserve squadrons reaching this mark 1 year later.

                             IV. RECRUITING

    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the purview 
of the Marine Corps Recruiting Command. Operationally, this provides us 
with tremendous flexibility and unity of command, allowing us to meet 
accession requirements.
    To meet future challenges in the current recruiting environment, it 
is imperative that we maintain our high standards both for our 
recruiters and those who volunteer to serve in our Corps. Recruiting 
quality youth ultimately translates into higher performance, reduced 
attrition, increased retention, and improved readiness for the 
operating forces. Our actions, commitment, and investments today in 
recruiting ensure a high state of readiness in our Corps tomorrow. 
Severe budget constraints related to sequestration that result in 
reductions in recruiters, recruit advertising, and potential civilian 
furloughs at our recruit processing stations will degrade the quality 
of our recruit pool, cause disruptions in our pipeline of recruits, and 
place added stress on our recruiters, 71 percent of whom already work 
in excess of 60 hours per week. Reductions to our recruit advertising 
budget jeopardizes our established market share and awareness with 
prospects, their influencers, and multicultural audiences, which 
includes diversity outreach capacity. It is important we acknowledge 
that today's successes are dividends from the investments made in 
recruiting and advertising 4 to 5 years ago.
    Last year, we successfully achieved all enlisted and officer 
recruiting goals for both the Active and Reserve components. Our 
current mission for enlisted marines is 33,200 regulars (Active 
component) and 5,780 reservists. We expect to achieve our annual 
recruiting `shipping' mission (i.e. new accessions sent to recruit 
training) and quality goals, but sequestration-related budget 
constraints may impact our contracting efforts and capacity to achieve 
success in fiscal year 2014. The fiscal year 2014 mission forecast is 
30,200 regulars and 5,481 reservists.
    Our officer accessions mission for fiscal year 2013 is 1,400 Active 
Duty and 125 Reserve officers. Historically, the Active component has 
been the exclusive source of lieutenants and captains for the Reserves. 
As previously noted, filling company grade officer billets for our 
Selected Marine Corps Reserve units is traditionally our greatest 
challenge, but the success from the OCC-R program is proving to help in 
remedying this shortfall.
    Our greatest asset continues to be the individual marine. 
Recruiting remains the lifeblood to the Corps and our bedrock to ``Make 
Marines, Win Battles, and Return Quality Citizens.'' We thank you for 
the generous support you have provided to us and look forward to 
working with you to ensure continued success in the future.

                              V. RETENTION

    For fiscal year 2013, the Marine Corps is on track to achieve its 
end strength target of 193,500 Active component marines (and 
approximately 250 reservists who have served on active duty at least 3 
of the previous 4 years). It is vital during our drawdown that the 
Marine Corps continue to shape our force to meet continuing mission 
requirements and fill critical military occupational specialties (MOSs) 
with the most qualified marines. Incentive pays remain critical to this 
effort, allowing the Marine Corps to fill hard to recruit positions, 
such as crypto linguists and reconnaissance. Enlistment bonuses also 
allow us to ship new recruits at critical times to balance recruit 
loads at the depots and meet school seat requirements. It is important 
to note that only 8 percent of new Marine Corps recruits receive an 
enlistment bonus. Similarly, Selective Reenlistment Bonuses (SRBs) 
allow us to shape our career force. SRBs target critical MOSs and 
supports lateral movement of marines to these MOSs.

                          VI. CIVILIAN MARINES

    Our civilian marines support the mission and daily functions of the 
Marine Corps and are an integral part of our Total Force. They 
exemplify our core values; they embrace esprit de corps, teamwork, and 
pride in belonging to our Nation's Corps of Marines. Serving alongside 
our marines throughout the world, in every occupation and at every 
level, our civilian appropriated funded workforce remains the leanest 
of all Services, with a ratio of 1 civilian to every 10 active duty 
marines. Over 93 percent of our civilians do not work in headquarters' 
elements in the Pentagon; they are at our bases, stations, depots, and 
installations. Sixty eight percent are veterans who have chosen to 
continue to serve our Nation; of those, a full 13 percent have a 
certified disability. Our civilian non-appropriated funded workforce 
steadfastly continues to provide vital support to our marines, Reserve 
marines, their families, and our wounded, ill, and injured.
    The potential human impact associated with furloughing our civilian 
marines is significant. While we would like to believe that a 
discontinuous furlough will reduce the impact on our employees, most 
will not be able to easily absorb this sudden loss of income, even over 
a period of several months. With prolonged budgetary uncertainty 
employee stress is increasing, morale is declining, and at some point 
productivity will begin to suffer. Marine Corps bases and commands in 
Virginia, California, North Carolina, and Georgia will feel the most 
dramatic impact as hiring pools stagnate and the essential talent 
needed to conduct missions there begins migrating.
    Our civilian labor represents less than 5 percent of the Marine 
Corps' total O&M budget, demonstrating that our ``best value'' for the 
defense dollar applies to our civilians as well as our marines.

                      VII. WOMEN IN SERVICE REVIEW

    On January 24, 2013, the Secretary of Defense rescinded the 1994 
policy that restricted women from combat roles. The Secretary has 
provided the services ample time to assess this change in policy by 
setting a deadline for full implementation of 1 January 2016. The 
Commandant and the entire Marine Corps are dedicated to maintaining the 
highest levels of combat readiness and capitalizing upon every 
opportunity to enhance our warfighting capabilities and the 
contributions of every marine; it is the right thing to do. Our ongoing 
deliberate, measured and responsible approach to validate occupational 
performance standards for all marines is consistent with the 
Secretary's decision to rescind the direct combat exclusion rule for 
women. As our Corps moves forward with this process, our focus will 
remain on combat readiness and generating combat-ready units while 
simultaneously ensuring maximum success for every marine. The talent 
pool from which we select our finest warfighters will consist of all 
qualified individuals, regardless of gender.
    Our implementation plan will take a two-pillar approach, which will 
be conducted concurrently--one for previously closed occupational 
specialties and the other for closed units. The first pillar will 
include a three-step process: (1) review and validate the physically 
demanding tasks by occupational specialty; (2) test male and female 
marines on these physically demanding tasks and correlate their 
performance to scores on the current Physical Fitness Test and Combat 
Fitness Test; and (3) develop a safe, physical test that will serve as 
a predictive mechanism for recruiters to use to determine an 
applicant's physical propensity to successfully accomplish the 
physically demanding tasks required of an MOS.
    The second pillar will include a phased expansion of our 
assignments of females in open MOSs to previously closed ground combat 
units. These assignments are a continuation of an effort which the 
Marine Corps began in June 2012 known as the Exception to Policy (ETP) 
pilot program. The Marine Corps opened 371 Marine and 60 Navy billets 
in open Military Occupational Specialties to females in previously 
closed units under the ETP. These 19 previously closed operational 
units included artillery, tanks, assault amphibian, combat engineers, 
and low altitude air defense communities. The assessments and feedback 
from these units are positive. Expansion of this pilot program in 
newly-opened units to female noncommissioned officers will be 
considered as assessment of the current assignments of SNCOs and 
officers to those units indicate that additional assignments would be 
successful. A phased approach will provide leadership the opportunity 
to address issues, establish a solid mentorship program, and progress 
towards the necessary social/cultural shifts within these units. 
Overall, 90 percent of our military occupational specialties are open 
to females, as well as 68 percent of our table of organization (T/O) 
billets.

                              VIII. HAZING

    Hazing violates our institutional character and disrespects our 
most precious asset--our marines and sailors. Consequently, the Marine 
Corps will continue to pursue the actions necessary to eliminate hazing 
in any form. In April 2012, a Marine Corps working group was convened 
to examine hazing prevention and response within the Marine Corps. The 
working group's efforts centered on conducting a critical review of the 
Marine Corps' current policies and procedures and culminated with the 
development of specific recommendations for increasing our 
effectiveness at preventing and responding to hazing. These 
recommendations, upon final approval, will be incorporated into our 
current policy.
    The most significant planned changes to the Marine Corps' new 
hazing policy include: mandatory and immediate reporting all hazing 
allegations irrespective of the initiation or completion of the initial 
investigation, mandatory reporting of hazing allegations within the 
existing Discrimination and Sexual Harassment (DASH) database, 
utilization of the DASH database as a comprehensive, service-level 
hazing database enabling tracking of all reported hazing allegations 
from start to finish, and amplification of the Marine Corps' hazing 
definition in order to enhance its application in real-world scenarios.
    In the short-term, implementation of these procedural changes may 
result in an increased number of reported hazing incidents. However, 
the positive consequence of this potential increase is that it may 
indicate growing trust in leadership to effectively respond to hazing 
allegations. Through this foundation of mutual trust, the Marine Corps 
will more accurately determine the prevalence of hazing within our 
ranks and ultimately develop more effective prevention plans.

                             IX. DIVERSITY

    The Marine Corps is committed to attracting, mentoring and 
retaining the most talented men and women who bring a diversity of 
background, culture and skill in service to our Nation. In both 
representation and assignment of marines, diversity remains a strategic 
issue. Our diversity effort is structured with the understanding that 
the objective of diversity is not merely to strive for a force that 
reflects a representational connectedness with the rich fabric of the 
American people, but to raise total capability through leveraging the 
strengths and talents of all marines.
    We are near completion of a new comprehensive campaign plan to 
focus our diversity effort in areas where improvement is most needed 
and anticipate release of this roadmap this year. This is an effort 
facilitated through our standing Diversity Review Board and Diversity 
Executive Steering Committee chartered to establish the foundations for 
diversity success in the Total Force. During January 2013, the Marine 
Corps held an Executive Off Site for Diversity to commence senior 
executive action in support of the long term diversity effort. In 
addition, since 2010, we have conducted leadership seminars that 
introduce diverse college undergraduates and high school students to 
Marine leadership traits and leadership opportunities in the Marine 
Corps; we are actively seeking new communities within which to continue 
this effort.
    The Marine Corps has established minority officer recruiting and 
mentoring as the highest priority in our recruiting efforts. Because we 
acknowledge the accession and retention of minority officers has been a 
challenge for our Corps, we are committed to taking steps to further 
facilitate the mentoring and career development of all our officers 
with emphasis on our minority officers in order to encourage the 
retention of our best officers no matter their background.
    Overall, we seek to communicate the Marine Corps diversity mission 
through community outreach and recruit marketing; to ensure continued 
opportunities for merit based development and advancement; and to 
optimize training and education to increase the understanding for all 
marines of the value that diversity brings to the Total Force.

            X. TAKING CARE OF MARINES, SAILORS, AND FAMILIES

    The Marine Corps' approach to potential sequestration cuts to our 
Marine and family support portfolio is focused on preserving programs 
that support the health and welfare of our marines and their families. 
These protected programs collectively promote the physical and mental 
well-being of marines and families and are considered most essential in 
meeting the operational objectives of the Marine Corps. We will have to 
prioritize our resources to ensure we maintain these protected programs 
while taking risk in lower priority programs.
    Furthermore, any actions that impact our civilian workforce will 
directly impact our capability to provide essential support services to 
marines and their families. A furlough would impact our direct-care 
service, decreasing service hours across Behavioral Health, Family 
Readiness, Personal and Professional Development, and Family Care 
programs, including child care. However, our highest priority family 
programs will be protected to the greatest degree possible, as will our 
Wounded Warrior Regiment, the command responsible for recovery care for 
our wounded, ill, and injured marines.

Caring for our Families
    Our Family Readiness Program strengthens and fortifies marines and 
families by providing official unit communication, readiness 
preparedness training, information on and referral to qualified helping 
professionals, and vital unit, installation and community connection. 
Our Family Readiness Officers are an asset throughout the Total Force 
and support the commander's family readiness mission through direct 
interaction with marines and families. Our Marine Corps Family Team 
Building training provides preventative education to marines and 
families and enhances their quality of life, provides a feeling of 
empowerment, and increases levels of resiliency. Lifestyle, Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.) training, for example, 
helps marines and families connect to the military culture and teaches 
how best to thrive in it. eMarine, our secure family readiness website, 
delivers strategic communications to marines and their families, both 
Active Duty and Reserve, whether they are stationed at large 
installations or in remote locations. It gives family members access to 
documents, photos and videos, discussion forums, and information about 
their marine's unit from anywhere in the world, 24/7. We continue to 
improve and streamline our programs in fiscal year 2013, with a focus 
on our computer-based Marine Corps Family Team Building curriculum and 
a new initiative to promote volunteerism to enhance unit morale and 
family readiness.
    Our Family Care programs support the development continuum of 
Marine Corps children from birth to their teens. First, our school 
liaisons provide school districts with information about the needs of 
Marine Corps families and access to training and counseling services to 
support teachers and students. Marine parents are comforted by the 
support of a local education expert, who provides meaningful insight to 
new transfers and those with questions on local education policies. 
Second, child care services remain a high priority, and we plan to 
increase our child care capacity with additional spaces in fiscal years 
2013 and 2014. Third, families enrolled in our Exceptional Family 
Member Program strongly endorse our focus on providing a continuum of 
care and the improvements made to their level of support. The Marine 
Corps continues to underwrite the cost of up to 40 hours of short-term 
respite care per month for enrolled families, providing more than 
400,000 hours of respite care in fiscal year 2012.

Transition Assistance
    Our transition assistance will be integrated into the lifecycle of 
a marine from recruitment, through separation or retirement, and beyond 
as a veteran marines. Our first step is our revised Transition 
Readiness Seminar, which now gives marines a choice of one of four 
pathways during this program: College/University Education; Employment; 
Vocational or Technical Training; or Entrepreneurship. This tailored 
approach reduces information overload, targets individual needs of the 
marine, promotes effective military skills translation, and is in full 
compliance with the VOW to Hire Heroes Act and the recommendations of 
the President's Veterans Employment Initiative. The Marine for Life 
Program, with its nationwide network of Marine for Life 
Representatives, will support improved reach-back and outreach support 
for those veteran marines who require localized support in their 
hometowns with information, opportunities, or other specific needs. 
These assets help veterans develop and maintain local networks of 
Marine-friendly individuals, employers, and organizations.

Sexual Assault Prevention and Response
    Sexual assault is a crime that is incompatible with Marine Corps 
values of honor, courage, and commitment. Not only does it undermine 
mission readiness and unit cohesion, sexual assault results in an 
irrevocable loss of faith in the institution and violates the basic 
principles every marine has vowed to uphold and defend. In step with 
our Commandant-directed 2012 Sexual Assault Prevention and Response 
(SAPR) Campaign Plan, the SAPR Program implemented large-scale Corps-
wide training initiatives, utilizing a top-down leadership model. 
SAPR's training message charges leadership with establishing an 
environment that is non-permissive to any misconduct or crime--
especially sexual assault--and making certain that the Marine Corps' 
high standard of discipline is maintained. SAPR training remains 
unequivocal in its assertion, however, that the inherent duty of 
preventing sexual assault belongs ultimately to marines of every rank.
    While aggressive in our prevention initiatives, we remain steadfast 
in our commitment to victim care and response, never ceasing in our 
efforts to ensure that all victims of sexual assault receive the kind 
of supportive services and justice that preserve their dignity and 
safety. Response systems have been strengthened through intensified 
credentialing requirements for SAPR personnel, as well as through an 
increased number of SAPR personnel in the field. In addition, the 
Commandant directed a reorganization of our legal community to improve 
our ability to prosecute complex cases. The centerpiece of this new 
model is the regional complex trial team comprised of experienced 
military prosecutors and augmented by civilian highly qualified 
experts, providing a wealth of experience for the prosecution of such 
cases. Eliminating sexual assault in our ranks is our ultimate goal, 
and the Commandant intends to stay personally and actively engaged in 
leading this campaign.

Behavioral Health Support
    The integration of our behavioral health programs seamlessly weaves 
our efforts in suicide prevention and response, combat and operational 
stress, substance abuse, and family advocacy into the support network 
of command structures and the health and human services across the 
Marine Corps. We focus on evidence-based practices to ensure we are 
providing effective support in these critical areas. The Marine Corps 
is increasing the number of personnel available on installations to 
develop, implement, and execute behavioral health prevention and 
treatment assistance. Community Counseling Centers are being 
established to enhance clinical case management capabilities as well as 
easier resource system navigation and ensure that marines are properly 
screened, tracked, and referred to appropriate behavioral health 
services. We are expanding our Military Family Life Consultant program 
so that these licensed clinical providers are embedded into the larger 
support network of command structures and can provide confidential 
counseling when needed.
    We are implementing our Behavioral Health Integrated Training, 
which will consolidate all behavioral health information into a single 
training session that focuses on common risk and protective factors 
across the full spectrum of behavioral health issues. Our Behavioral 
Health and Brain Injury Advisory Committee meets quarterly to advise 
senior Marine Corps leadership on emerging programs and issues, solicit 
senior leadership guidance and feedback regarding integration efforts, 
and identify gaps in services delivery as well as opportunities to gain 
efficiencies. Our Behavioral Health Integrated Case Management System 
will facilitate the communication of clinical and administrative data 
across behavioral health programs.

Suicide Prevention and Response
    One suicide is too many. Suicide prevention is not a single act but 
rather a series of actions. The Marine Corps is actively engaged in 
making lasting improvements to the overall health, well-being, and 
quality of life for marines. Each tragic loss to suicide has a far-
reaching impact on families, friends, and our entire Marine Corps 
community. Saving lives requires vigilance and our concerted effort to 
harness the strength of engaged leaders. Engaged leaders are alert to 
those at risk for suicide and take action to help marines address the 
hard times or pain in their lives, helping individual marines optimize 
their physical, psychological, social, and spiritual spheres and 
revitalize depleted areas. Fit marines are fortified and strengthened 
and better able to withstand the tensions and stressors of life in and 
out of the Marine Corps.
    Leaders prevent suicide by strengthening all marines and 
encouraging them to engage helping services early when problems are 
most manageable. Whenever possible, we deploy evidence-based prevention 
practices such as our award-winning ``Never Leave a Marine Behind'' 
suicide prevention training program, which is peer-led and updated to 
reflect emerging evidence-based practices. Our Suicide Prevention 
Program Officers, located at our battalions and squadrons, will be an 
administrative and coordinating resource for the commander to use in 
managing a unit's suicide prevention program. Our DSTRESS Line, which 
is staffed by veteran marines and corpsmen, family members and civilian 
counselors trained in Marine Corps culture, provides anonymous, 24/7 
counseling services to any marine, attached sailor or family member. We 
work closely with DOD and forge strong relationships with other Federal 
agencies, academia, and private industry in an effort to work together 
to better understand suicide and improve our programs.

Combat and Operational Stress Control
    Our Combat and Operational Stress Control (COSC) program assists 
marine leaders with maintaining warfighting capabilities by addressing 
the impacts of stress, enhancing fitness, and addressing the long-term 
health and well-being of marines and their families. COSC resources 
support all of the tenets of good leadership. Understanding the full 
range of stress reactions and associated leader actions enhances the 
ability to mitigate risk and take care of marines in all environments. 
COSC efforts prevent, identify, and manage combat and operational 
stress-related issues and increase access to mental health care by 
breaking stigma and raising awareness. COSC principles are embedded in 
Operational Stress Control and Readiness Team Training, Deployment 
Cycle Training and third location decompression events that reach the 
Total Force. We have improved training including education and 
awareness on Traumatic Brain Injury, continuing the destigmatization of 
behavioral health care, and incorporating current information from 
Operation Iraqi Freedom and Operation Enduring Freedom deployments.
    Marine Total Fitness. In fiscal year 2013, we are continuing to 
advance our Marine Total Fitness concept to develop marines of 
exemplary physical, psychological, spiritual, and social character. 
Marine Total Fitness infuses fitness-based information and concepts 
into all aspects of a marine's training and readiness and prepares 
marines to successfully operate in and respond to the rigors, demands, 
and stressors of both combat and garrison.

                  XI. SEMPER FIT AND EXCHANGE SERVICES

    Semper Fit and Recreation programs supports the social and physical 
cords of Marine Total Fitness efforts by providing the best mix of 
programs and services to marines and their families. This year we are 
expanding programs, such as High Intensity Tactical Training (HITT), a 
comprehensive strength and conditioning program geared towards 
optimizing physical performance and combat readiness. Another program 
slated for expansion to additional installations is Operation 
Adrenaline Rush (OAR), which combines Combat and Operational Stress 
Control (COSC) principles with an Outdoor Recreation Adventure activity 
to aid in mitigating boredom and high risk behavior for marines 
recently returned from deployment. OAR assists marines with 
reintegration by empowering small unit leaders, maintaining combat 
readiness, and reinforcing unit cohesion. The goal is to increase 
social resilience through unit-driven recreational activities such as 
whitewater rafting, mountain biking, and deep sea fishing. Semper Fit 
is focused on providing relevant programs that promote the overall 
fitness and health of our Corps.
    The Marine Corps Exchange (MCX) is an important part of the overall 
non-monetary benefits package. MCX success is measured on the program's 
value and contributions to the readiness and retention of marines, as 
well as our ability to provide unparalleled customer service, premier 
facilities, and valued goods and services at a significant savings. 
With MCX, unlike any other retail store, marines can rely upon a high 
quality product at a fair price and know that the proceeds are returned 
to their community, creating a stronger Marine Corps.
    Deployed support is one of the most important services we provide. 
Our Exchange, Recreation and Fitness, Communication, and MCCS Amenity 
Wi-Fi services not only boost and maintain morale, but also help to 
reduce mission-related stress:

        <bullet> Exchange. Ongoing missions in Afghanistan include the 
        operation of two Direct Operation Exchanges Tactical at Camps 
        Leatherneck and Dwyer, one Tactical Field Exchange at Camp 
        Delaram II, one Imprest Fund Site at Forward Operating Base 
        (FOB) Edinburgh, and numerous Warfighter Express Services Teams 
        operating out of Camps Leatherneck, Dwyer, and FOB Edinburgh.
        <bullet> Recreation and Fitness. We assist in providing 
        transportable recreation, sports, and fitness equipment to 
        units throughout Helmand Province.
        <bullet> Communication. We have delivered 13 satellite 
        communications systems to units in Afghanistan. Each system has 
        2 phones which each provide 6,000 free minutes per month and 5 
        laptops that allow internet access and chat/video capabilities 
        to deployed marines. In 2012, there were 94,272 phone calls 
        using 776,644 minutes of air time; approximately 72,860 marines 
        were able to use the Morale Satellite services at several 
        different FOBs/COPs during 2012.
        <bullet> MCCS Amenity Wi-Fi Solution. The Marine Corps 
        Community Services Amenity Wireless Fidelity (Wi-Fi) Solution 
        program deploys Wi-Fi capability at various facilities on 
        installation at no cost to marines and families. This morale 
        and welfare initiative helps families stay in contact while 
        separated from their marine.

                     XII. WOUNDED WARRIOR REGIMENT

    The Marine Corps' Wounded Warrior Regiment (WWR) is a fundamental 
component of the Marine Corps' pledge to ``keep faith'' with those who 
have served. The WWR supports marines wounded in combat, who fall ill, 
or who are injured in the line of duty.
    The WWR administers the Marine Corps' Recovery Coordination Program 
that ensures wounded, ill, and injured (WII) marines' medical and 
nonmedical care needs are fully integrated. Through its comprehensive 
organization of nonmedical care assets, the WWR has been supporting the 
recoveries of WII marines and their families since it was established 
in 2007. In the broadest terms, this includes determining the degree of 
support required through case review, working with marines and their 
families to develop recovery plans, and executing those plans for their 
return to duty or reintegration to their hometowns. When WII marines 
successfully execute their recovery plans, they are well-positioned for 
their future endeavors.
    Under the Marine Corps' proven care model, WII marines may remain 
with their parent units so long as their medical conditions allow and 
their units can support them. When WII marines remain with their parent 
units, they are also supported by the WWR through its various assets. 
This support is accomplished through direct contact with the WII marine 
and family members and by providing information and resources to the 
WII marine's commander. WII marines not assigned to a WWR element are 
still connected through the Wounded Warrior Battalion Contact Centers, 
where staff reaches out at regular intervals to ensure their needs are 
being met.

Recovery Care Coordinators and Marines' Comprehensive Recovery Plans
    To be successful in his or her recovery mission, a WII marine must 
take a pragmatic look forward and set attainable goals. These goals 
must be developed based on each marine's, and his or her family's 
needs, and incorporated into a plan with carefully articulated and 
monitored actionable steps.
    The Marine Corps continues to fully comply with the ``Wounded 
Warrior Act'' section of the National Defense Authorization Act for 
Fiscal Year 2008. Prominent in this section is the requirement to 
assign a Recovery Care Coordinator (RCC) to recovering marines. All 
eligible marines, generally those who are severely to catastrophically 
ill or injured and unlikely to return to duty, may be assigned an RCC. 
RCCs meet with a WII marine within 72 hours of assignment and begin a 
comprehensive assessment process which takes into consideration the 
various recovery components (i.e., housing, finances, counseling, 
family support, disability evaluation, employment, and more). The 
results of this assessment process form the basis for the Marine's 
Comprehensive Recovery Plan (CRP). Each CRP is tailored to the WII 
marine's and family's specific recovery circumstances. The CRP 
document, which is owned by the WII marine, is frequently updated and 
adjusted to suit the WII marine's evolving situation.

Support for Caregivers
    Compassionate and dedicated caregivers are central to recovery and 
they endure many hardships, to include financial setbacks when they 
leave their jobs, to be with their recovering marine. We thank Congress 
for authorizing Special Compensation for Assistance With Activities of 
Daily Living. The WWR is also providing our marines' caregivers the 
opportunity to receive caregiver training, which is identical to the 
caregiver training provided by the Department of Veterans Affairs to 
support their Caregiver Stipend Program.

Transition
    Most WII marines will not return to duty and will transition to 
veteran status. Meeting this transition milestone prepared and 
confident is paramount to a WII marine's success in his or her civilian 
community. The WWR's transition support is twofold: we help WII marines 
and families successfully enter the VA system and assist them with 
securing rewarding and fulfilling careers.
    For WII marines with CRPs, prior to leaving active duty service, 
the Marine's RCC will schedule phone conferences with the Marine's VA 
recovery team members to ensure all required paperwork is transferred 
and benefits are on schedule for payment. Marines not joined to a WWR 
element may be provided VA transition information via the WWR's fact 
sheets and staff who hold subject matter expertise. They are also 
assisted through the WWR's Call Center. The WWR highly encourages all 
WII marines to register with the VA's eBenefits, a joint VA/DOD web 
portal that provides resources and self-service capabilities to 
veterans, servicemembers, and their families.
    WWR has transition cells at its Regimental Headquarters and its 
Wounded Warrior Battalions where coordinators work with marines in a 
one-on-one setting to conduct comprehensive career assessments; develop 
education and career plans; provide career coaching; identify 
education, internship and training opportunities; and facilitate 
networking and transition activities such as job fairs. WWR also 
coordinates with external entities to enhance WII marines' transition 
success. The Regiment has facilitated the placement of Vocational 
Rehabilitation and Employment Service counselors aboard various Marine 
Corps installations; WII marines continue to take advantage of Federal 
internships through the Operation Warfighter Program; and the WWR 
continually coordinates with charitable organizations, such as the USO 
and Hire Heroes USA, to provide transition workshops and opportunities 
specifically geared toward WII servicemembers and their families.
    To further ensure WII marines are succeeding in their civilian 
lives, we utilize our Sergeant Merlin German Call Center to make 
outreach calls to marines and families who have transitioned. The Call 
Center conducts an average of 7,000 calls per month. Call Center staff, 
to include psychological health professionals, is also available 24/7 
to accept calls from marines and families. Moreover, WII marines who 
transition from the WWR receive varying levels of needs-based support 
for 90 days (or more if needed) to ensure smooth transition to the VA.
    The WWR's District Injured Support Coordinator Program (DISC) 
provides assistance to WII marines transitioning from military to 
veterans status through its geographically dispersed network of 
marines. Our DISCs are purposefully aligned with the Department of 
Veterans Affairs Veterans Integrated Service Networks to further 
enhance coordination with VA services. DISCs provide a multitude of 
services to include conducting face-to-face visits with marines and 
families, ensuring marines are registered with the VA, providing 
information on various community resources, and linking WII marines in 
need back to the WWR for assistance.

Collaboration with the Department of Veterans Affairs
    Given the transition outcomes of our WII marines, the value of our 
collaboration with the Department of Veterans Affairs cannot be 
overstated. Although our WII marines may depart our ranks, they are 
always considered marines and we have a sense of duty to advocate for 
them after they have transitioned. At the strategic, tactical, and 
operational levels, the WWR partners with various VA entities to ensure 
our marines receive the transition support they require. With our VA 
colleagues, we engage in policy development that will suit the 
interests of WII marines from point of incident throughout their 
veteran status. Currently, we are active participants in the 
Interagency Care and Coordination Committee, which is working to better 
harmonize the efforts of the Departments of Defense and Veterans 
Affairs, simplify processes, and reduce confusion for our recovering 
servicemembers and their families. We have a Marine Corps Liaison 
Officer position established at the VA for enhanced coordination. Our 
RCCs and other multi-disciplinary team advocates regularly engage with 
Federal Recovery Coordinators on behalf of our WII marines who have 
sustained serious or very serious wounds, injuries, or illnesses. We 
will continue to identify ways to collaborate with our VA partners on 
behalf of our Nation's wounded, ill, and injured.
    As this statement demonstrates, the Marine Corps is heavily 
invested in providing for WII marines and their dedicated family 
members. Whether we are a Nation at war or in times of peace, the WWR 
will continue to successfully meet their care and support needs. For 
the Marine Corps, wounded warrior care is not a process, but a 
persistent relationship between the Marine Corps and our marines.

                            XIII. CONCLUSION

    To continue to be successful, we must always remember that our 
individual marines are our most precious asset, and we must continue to 
attract and retain the best and brightest into our ranks. Marines are 
proud of what they do. They are proud of the ``Eagle, Globe, and 
Anchor'' and what it represents to our country. With your support, a 
vibrant Marine Corps will continue to meet our Nation's call.
    Thank you for the opportunity to present this testimony.

    Senator Gillibrand. Thank you.
    Secretary Ginsberg?

        STATEMENT OF HON. DANIEL B. GINSBERG, ASSISTANT 
          SECRETARY OF THE AIR FORCE FOR MANPOWER AND 
                        RESERVE AFFAIRS

    Mr. Ginsberg. Chairman Gillibrand, Ranking Member Graham, 
and members of the subcommittee, Lieutenant General Jones and I 
would like to thank you for the honor and opportunity to 
testify today on behalf of more than 700,000 Active, Guard, 
Reserve, and civilian airmen who make up the most capable air 
space and cyber space force the world has ever known. We know 
that you and the members of this subcommittee are keenly 
interested in the well-being and support of our airmen. We must 
start by thanking you for all that you have done and continue 
to do on their behalf.
    As the Nation draws down its efforts in the U.S. Central 
Command area of responsibility and prepares to support a 
strategic shift to the Asia-Pacific, the Air Force finds itself 
at a critical juncture. The Air Force faces continual demands 
on its people and all its specialized capabilities, while 
dealing with new fiscal realities. Our airmen have met every 
challenge and are poised to respond to these new challenges in 
the future.
    The strictures of sequestration have forced the Air Force 
to face tough choices, like a furlough of civilians and 
standing down of some our combat coded flying squadrons. At the 
direction of the Office of the Secretary of Defense, the Air 
Force is protecting funding for war time operations, wounded 
warrior programs and, to the extent feasible, programs most 
closely associated with this new defense strategy, as well, of 
course, as family programs.
    The Air Force remains committed to providing cost-effective 
medical care, services, and programs to maintain balanced, 
healthy, and resilient airmen and families. Initiatives 
implemented by our airmen and Family Readiness Centers, such as 
transition assistance, wounded warrior, Yellow Ribbon, and 
suicide prevention programs, have made considerable progress.
    This past year, we confronted the problem of sexual assault 
and unprofessional relationships at basic military training, 
and we have strengthened our sexual assault prevention efforts 
with new initiatives, like an Air Force-wide health and welfare 
inspection and the establishment of a Special Victim's Counsel 
program. The Air Force remains steadfast in our commitment to 
prevent incidents of sexual assault, provide victim care where 
assault has occurred, and hold those who commit such acts 
accountable.
    Looking ahead, the Air Force will continue to balance 
competing defense needs among the size of our force structure, 
today's readiness, and modernization in the future. The Air 
Force is committed to carrying out our national defense mission 
while dealing with the disruption of sequestration.
    As I have said before, it is both an honor and a privilege 
to represent and advocate on behalf of our Nation's airmen as 
we search for better and smarter ways to approach and solve our 
Nation's security challenges. Thank you for your continued 
commitment and overwhelming support to our total force airmen, 
civilians, and families. I look forward to answering your 
questions.
    [The prepared joint statement of Mr. Ginsberg and 
Lieutenant General Jones follows:]

   Prepared Joint Statement by Hon. Daniel B. Ginsberg and Lt. Gen. 
                         Darrell D. Jones, USAF

    Today the 690,000 Total Force airmen of your Air Force are a highly 
trained, experienced, and battle tested force, standing as vanguards of 
freedom around the world. Despite the last 2 decades of sustained 
conflict, the men and women of your Air Force are as dedicated, 
innovative and hard working as ever before. The Air Force does not take 
lightly its primary role of training and equipping the highest quality 
airmen the President, Congress, combatant commanders, and ultimately 
our Nation can call upon as needed.
    Airmen are the backbone of our Air Force. Throughout our Service 
history and ingrained in our culture, is a spirit of innovation where 
airmen are enabled and expected to find novel solutions to ensure 
domination in our multi-dimensional battlefield of air, space, and 
cyber space. In order for airmen to continue to fulfill their expected 
roles as innovative leaders and warriors, the Air Force must remain 
focused on recruiting, training, developing, supporting and retaining a 
world-class, All-Volunteer Force. Maintaining an All-Volunteer Air 
Force is a significant undertaking and requires a continuous and 
deliberate investment of time and national resources.

                MILITARY AND CIVILIAN PERSONNEL BUDGETS

    The Air Force is committed to maintaining and sustaining the 
appropriate size and force mix to meet mission requirements with 
acceptable personnel tempo and associated stress on the force. Total 
Force Military changes in end strength are based on Strategic Guidance, 
the Air Force operating budget, and an operational assessment to align 
manpower resources to critical missions. Fiscal realities require the 
Air Force to face tough choices, trading size to protect a high quality 
and ready force while balancing overall risk to military capabilities. 
The Air Force will focus on reinforcing military end strength in high 
priority areas, such as Cyber, Intelligence, F-35, KC-46, and Sexual 
Assault Prevention and Response (SAPR) programs.
    The Air Force's total military end strength forecast for fiscal 
year 2014 will be reduced by 2,640 from 506,040 to 503,400, which 
represents an approximate 0.5 percent reduction from fiscal year 2013 
levels. This will result in an Active Duty (AD) military end strength 
reduction from 329,460 to 327,600. Our Air Force Reserve (AFR) military 
end strength will decrease by 480 to 70,400, and Air National Guard 
(ANG) military end strength will decrease by 300 to 105,400. The fiscal 
year 2014 budget includes a total budget authority request of $29.2 
billion for AD, ANG and AFR military personnel. Included in this budget 
is a 1 percent military base pay increase, a 4.2 percent increase in 
the housing allowance and a 3.4 percent increase in subsistence 
allowance. In addition, the civilian personnel budget requested for 
fiscal year 2014 is $11.4 billion for a programmed civilian strength of 
186,026, and includes a 1 percent pay raise.
    Programmed reductions were accomplished in base/management 
operating support and logistics/maintenance functional areas, as a 
result of declining defense budgets, and in an effort to make the best 
use of our resources, including military manpower. These reductions to 
our military end strength would place greater responsibilities on the 
remaining civilian and contractor workforce.
    Subsequently, OSD tasked the Services to analyze their civilian 
workforce requirements. Working with OSD, Air Force conducted a 
comprehensive, enterprise-wide review examining the full spectrum of 
operations--from base level to headquarters activities in an effort to 
develop a wide range of initiatives to forge a leaner, more effective 
Air Force in support of defense guidance. As a result, civilian 
workforce reductions are planned which are commensurate with our 
programmed military reductions. The civilian workforce review also 
provided a means to shift resources in support of Cyber Command and 
source emerging requirements such as enhanced transition programs 
compliant with the Veterans Opportunity to Work (VOW) to Hire Heroes 
Act and the Veteran Employment Initiative (VEI).

                       MILITARY FORCE MANAGEMENT

    By trading size for quality, the Air Force is postured to rapidly 
respond to a full range of contingencies and threats to national 
security interests. Our Force Management program is a tailored multi-
year strategy focused on sizing and shaping the total force with the 
right balance of skills to meet current and emerging joint mission 
demands. The program ensures career field sustainability as we retain 
sufficient personnel inventory and experience to meet career field 
requirements. The Air Force's strategy over the past few years has been 
aggressive, allowing us to meet congressionally mandated end strength 
requirements and maintain a high quality force by leveraging voluntary 
programs first, offering incentive programs where needed, and 
implementing involuntary actions when required.
    Our active duty officer and enlisted force experienced continued 
high retention rates in fiscal year 2012, just below the 20-year high 
of 2011. This continued trend required us to employ a variety of 
voluntary and involuntary force management programs to achieve the 
required losses to stay within our fiscal year 2012 332,800 programmed 
end strength. Our force management initiatives brought the force within 
0.1 percent of end strength for fiscal year 2012, with the officer 
force 408 below and the enlisted force 545 above their targets.
    Our force management efforts in fiscal year 2012 positioned us well 
for fiscal year 2013 but a National Defense Authorization Act (NDAA) 
for Fiscal Year 2013 mandated 3,340 end strength reduction and 
lingering high retention require the continued use of Force Management 
tools. The Air Force's voluntary programs in fiscal year 2013 are 
similar to the officer and enlisted programs offered in fiscal year 
2012. For our officer force, we will rely solely on voluntary measures 
to achieve additional losses over normal attrition. Voluntary programs 
will include time-in-grade, active duty service commitment, 8 versus 10 
years of commissioned service waivers for certain year groups and 
overage career fields. We will also continue the Palace Chase program 
for eligible lieutenant colonels and below to retain experience levels 
in our Reserve component.
    For our enlisted force, we will rely on a number of voluntary and 
involuntary measures to achieve additional losses over normal 
attrition. Voluntary programs include Limited Active Duty Service 
Commitment and time-in-grade waivers, as well as Palace Chase 
opportunities. Additional enlisted measures include Date of Separation 
Rollbacks, a very limited reduction in accessions, reduced 
opportunities for retraining after initial skills training failures, 
and Career Job Reservation constraints.
    The AFR is also experiencing a reduction in end strength and while 
the cuts are smaller, they still require meticulous handling to 
maintain a strong force. Since AFR units are primarily filled by 
reservists who live relatively close to their base of assignment, force 
structure changes typically result in members separating from the AFR 
if they cannot find a position reasonably close to their residence. A 
number of authorities like Inactive Duty Training (IDT) travel pay and 
even Permanent Change of Station (PCS) entitlements, however, will help 
retain some of these well-trained and experienced assets in other 
vacant billets nation-wide. Authorities such as 180 days of Tricare and 
retention of the Montgomery GI Bill we help ease transition from the 
selected Reserve for those members unable to be placed in a suitable 
position. In anticipation of future reductions, the ANG and AFR are 
also submitting legislation to request approval for the Temporary Early 
Retirement Authority (TERA) and retention of education benefits for 
those members involuntarily discharged because they could not find a 
position. These additional authorities will help shape the force while 
allowing a smooth landing for those who are forced to end their 
careers.
    The objective of our fiscal year 2014 Force Management strategy is 
to continue to maximize voluntary programs first in order to minimize 
the need for involuntary measures. Given the current fiscal challenges, 
we will continue to assess the need to pursue voluntary and involuntary 
force management actions to meet future authorized end strength levels.

                       CIVILIAN FORCE MANAGEMENT

    The Air Force continues to perform strategic assessments to ensure 
our civilian workforce maintains mission critical competencies and to 
eliminate redundant functions in order to improve the effectiveness of 
the Air Force mission. The Air Force's civilian Strategic Human Capital 
Plan identified Cyber, Acquisition, Nuclear, and Engineering as 
critical occupational series necessary to meet current mission 
requirements and defense guidance. Our efforts are focused on ensuring 
these critical functions have the necessary talent to meet mission 
requirements, including heavy recruiting efforts to fill these highly 
technical specialties.
    In 2010, the Defense Department began a comprehensive effort to 
increase efficiencies, reduce overhead costs, and eliminate redundant 
functions in order to improve the effectiveness of the DOD enterprise. 
In fiscal year 2012, the Air Force voluntarily retired or separated 
approximately 3,500 civilian employees through three rounds of 
Voluntary Early Retirement Authority (VERA) and Voluntary Separation 
Incentive Pay (VSIP) to achieve civilian reductions. In addition, the 
service received limited approval to implement Reduction In Force (RIF) 
actions on positions in the Air Force Reserve Command (AFRC), Air 
Education and Training Command (AETC) and Air Force Space Command 
(AFSPC). The RIFs resulted in 77 separations, 27 reassignments, and 69 
grade reduction actions (without reductions in pay) which mitigated the 
need for involuntary separations.
    The Air Force requires latitude to continue voluntary separation 
programs, such as VERA and VSIP to allow civilian employees to retire 
or separate on a voluntary basis and avoid involuntary separations for 
fiscal year 2013 and fiscal year 2014. The Air Force will also require 
RIF authorities, including involuntary separations, as an option to 
balance the civilian workforce skills if reductions are not achieved 
through voluntary separation programs.

                  QUALITY TRAINED AND DEVELOPED FORCE

    Our Chief of Staff clearly articulated in his recent vision 
statement that ``Education and training are the foundation of our 
airpower advantage . . . and . . . we must safeguard and reinforce that 
foundation'' by ensuring we remain the most technically proficient, 
best-educated, and best-trained air force in the world. Developing the 
world's best airmen requires the best education and training. The 
developmental education pillar of our force development framework 
includes Professional Military Education (PME), Fellowships, Advanced 
Academic Degrees (AAD), Professional Continuing Education (PCE) and 
voluntary education. The training pillar includes initial skills 
training and retraining as well as skills and proficiency training such 
as Language, Region, and Culture training.
    Our enlisted PME and Officer developmental education programs 
provide an educational foundation through the delivery of carefully 
prescribed skill sets or institutional competencies. Our leadership 
doctrine defines these competencies and lays out a road map to develop 
our force to accomplish national security and national defense 
objectives. Reductions to developmental education would have severe 
long-term effects to the professional and innovative capabilities of 
our Air Force.
    The Air Force is striving to enhance the development, sustainment, 
and utilization of cross-culturally competent airmen across the Total 
Force to lead and enhance partnerships in today's dynamic global 
environment. The ability to work collaboratively with stakeholders and 
support the Department of Defense (DOD) Security Cooperation mission of 
building international partnerships is critical in meeting complex and 
emergent threats and will require greater foreign-language, regional, 
and cultural skills.
    Air Force Voluntary Education (Vol Ed) programs provide 
comprehensive opportunities for airmen to pursue programs of higher 
education in order to meet Air Force goals of a highly trained and 
educated workforce. Vol Ed program funding is largely comprised of 
Military Tuition Assistance (MilTA) which is provided to servicemembers 
to pursue accredited post-secondary programs. MilTA supports and 
affects approximately 105,000 military airmen in an active duty status 
(of those, approximately 78,000 are junior noncommissioned officers 
(NCO)). It contributes to force readiness by assisting our airmen in 
attaining a higher level of skill and management proficiency. This core 
group of young airmen will one day become our Senior NCOs responsible 
for leading and developing other young airmen as well as advising Air 
Force leaders. MilTA has historically cost more than budgeted, and we 
fund it in execution years to maintain the commitment to our airmen. In 
the current fiscal environment, we must establish updated enrollment 
and compensation controls in the MilTA program to sustain the 
programmed budget.

          RETENTION, RECRUITMENT, BONUSES, AND INCENTIVE PAYS

    The Air Force continues to successfully attract, assess and retain 
innovative airmen to maintain our status as the world's preeminent 
aerospace nation. The Service has consistently met its accession goals 
since 1999 and this positive trend continued through fiscal year 2012. 
Our recruiting strategy is founded on a powerful organization and 
network of professional recruiters in communities across the country 
supported by a compelling, multi-layered, local, regional and national 
marketing campaign. In the recovering economy, the Air Force Recruiting 
Service (AFRS) is predicting challenging recruiting conditions from 
fiscal year 2013 through fiscal year 2016. We are projecting enlisted 
accession requirements will reduce by 2,661 to 26,376 for fiscal year 
2013 and then stabilize at 27,085 in fiscal year 2014. The Air Force 
strategy to sustaining an All-Voluntary Force includes: Maintaining a 
Strong and Experienced Recruiter Force; Understanding the Recruiting 
Environment; leveraging the Power of Marketing; and leveraging 
Technology and Information Systems to Improve the Mission.
    The AFRS' success is partially attributed to its advertising and 
marketing campaign that targets America's best and brightest youth 
across a broad slice with respect to race, gender, geography and socio-
economic background. We are projecting a $63 million advertising budget 
for fiscal year 2014--$6 million less than this year's budget. Air 
Force advertising and marketing strategies continue to attract quality 
recruits as validated by our recent success in recruiting 99.5 percent 
of our enlisted accessions (EA) as high school graduates (HSG) while 
98.4 percent of our EA scored in the top three mental categories (CAT I 
to IIIA) of the Armed Services Vocational Aptitude Battery (ASVAB). Our 
fiscal year 2012 EA production quality outpaced the Department of 
Defense (DOD) standards of 90 percent HSG and 60 percent for CAT I to 
IIIA. The Initial Enlistment Bonus (IEB) program ensured AFRS recruited 
100 percent of all critical skills accessions. We used the IEB program 
to target nine career fields for 6-year enlistments with the majority 
of these being Battlefield Airmen such as Combat Control and 
Pararescue. Our programed budget for IEB is $14.5 million in fiscal 
year 2014. We expect the fiscal year 2014 IEB career fields will 
continue to focus primarily on Battlefield Airmen.
    The Air Force Reserve (AFR) will continue to focus on filling geo-
specific vacancies in critical skills needed to ensure wartime 
capability. In fiscal year 2012, the AFR accessed 9,429 personnel 
against a goal of 9,229 obtaining 102 percent of their fiscal year 2012 
recruiting goal. The AFR is projecting to finish at 100.3 percent of 
their 8,900 fiscal year 2013 recruiting goal and their fiscal year 2014 
goal is also expected to be approximately 8,900.
    The Air National Guard (ANG) achieved 100.7 percent of their 
officer and enlisted goal in 2012. They are on pace to meet their 
11,600 (10,500 enlisted/1,100 officer) goal for 2013. However, the ANG 
is experiencing a percentage of losses not seen since 1989, as well as 
multiple mission changes across the country as a result of the 2013 
NDAA.
    ANG Incentive Program is a national program designed to attract and 
retain quality personnel in critical enlisted and officer career 
fields, with additional focus on Health Professionals (HP) and 
Chaplains. Other targeted commissioned career fields include 
Engineering, Intelligence, Cyber and Battlefield Airmen. The enlisted 
accession and reenlistment bonuses focus on critical skills within 
Aircraft Maintenance, Intelligence, Civil Engineering, Medical, and 
Battlefield Airmen. This effort includes a Local Program designed to 
assist units in recruiting and retaining personnel in critical enlisted 
and officer career fields, by wing and geographically separated unit.
    The ANG's fiscal year 2013 Incentive Program Budget is $88.5 
million for Recruiting and Retention and includes HP Bonus, HP and 
Chaplain Loan Repayment, Officer Accession and Affiliation, Enlistment, 
and Reenlistment Bonuses. Funding covers initial payments for new 
contracts and anniversary must-pays for prior year contracts. The 
fiscal year 2014 Incentive Program budget of $65.2 million continues to 
target all critical skills and professional officer specialties.
    Overall, our Active component officer force continued to experience 
strong retention in 2012 with an average career length (ACL) of 14.8 
years of service, a value just slightly below the all-time high of 15.9 
in 2010--the highest since tracking began in 1993. Despite high 
retention trends, however, there are pockets of concern for our 
stressed career fields. Currently, 11 out of 96 officer career fields, 
6 pilot and combat systems officer career fields and 5 Special 
Operations Forces (SOF) and non-rated career fields, are stressed with 
high operational demand, low manning and insufficient retention. To 
stem attrition, we are excluding all stressed career fields when 
possible from targeted voluntary and involuntary Force Management 
programs in fiscal year 2013 and fiscal year 2014. Where necessary, we 
will add accessions and retrainees to stressed career fields to 
increase overall inventory and bring undermanned year-groups closer to 
required levels. Additionally, we offer Aviator Retention Bonuses and 
Critical Skills Retention Bonuses (CSRB) to specific skills and year 
groups in our stressed career fields to include Combat Rescue, Special 
Tactics, and Contracting officers.
    Enlisted force retention rates remained high for the third year in 
a row; however, retention is still problematic for certain skills and 
year groups. Currently, 13 out of 329 enlisted career fields, 
specifically Battlefield Airmen, Intelligence, and Career Enlisted 
Aviator career fields, are stressed with high operational demand, low 
manning and insufficient retention. The Selective Reenlistment Bonus 
(SRB) continues to be the most effective, responsive and measurable 
tool for retention, encouraging airmen to stay and/or retrain into 
career fields with high demand requirements. Additionally, CSRB remains 
a vital tool to retain Senior Noncommissioned Officers (SNCO) in 
certain high-demand specialties experiencing manning shortfalls, and 
high operational demand.
    The fiscal year 2013 budget for all Special and Incentive Pay is 
$926.5 million, with recruiting and retention pays accounting for 
$420.4 million. The remaining $506.1 million of the total budget pays 
for health profession incentive pay, flying duty pay, hazardous duty 
pay and other special pays, such as Special Duty Assignment Pay and 
Foreign Language Proficiency Bonus/Pay. The Air Force allocated $232 
million of the Special and Incentive Pay budget in fiscal year 2013 for 
SRBs for 55 Air Force specialties, up slightly from 53 specialties at 
the end of fiscal year 2012 but down considerably from 78 specialties 
at the beginning of fiscal year 2012.
    The fiscal year 2014 budget for all Special and Incentive Pay is 
$894.2 million, with recruiting and retention pays accounting for 
$412.5 million. The remaining $481.7 million of the total budget pays 
for health profession incentive pay, flying duty pay, hazardous duty 
pay and other special pays, such as Special Duty Assignment Pay and 
Foreign Language Proficiency Bonus/Pay. The Air Force allocated $232 
million of the Special and Incentive Pay budget in fiscal year 2014 for 
SRBs and will continue to focus on Battlefield Airmen; Intelligence, 
Surveillance and Reconnaissance; and Career Enlisted Aviator career 
fields. SRB investments have shown to improve retention from 1 to 8 
percent per SRB increment, depending on the reenlistment zone.

                          OPERATIONAL RESERVE

    The Air Force has successfully employed the Operational Reserve 
concept for more than 2 decades. During this timeframe, the three 
components (Active, Air Force Reserve, and Air National Guard) have 
become an increasingly integrated force fully capable of supporting 
combatant commander requirements as a single seamless team. Continued 
expansion of Total Force associations will further enhance the 
operational effectiveness of the forces provided to combatant 
commanders. Under this concept, the components routinely train together 
at home station, which allows individual members of all three 
components to develop effective working relationships and team 
cohesiveness prior to deploying. Additionally, they develop an 
understanding and appreciation of the strengths (and inherent 
limitations) of each component.
    Looking to the future, the Secretary and Chief of Staff of the Air 
Force have chartered the Total Force Task Force to take a holistic 
approach to provide strategic options on the appropriate Total Force 
capabilities mix to meet current and future Air Force requirements. 
Three Major Generals (one from each component) will be leading this 
effort The task force will consider the strategic shifts driven by 
post-Afghanistan reconstitution and the new Defense Strategic Guidance. 
The expectation is for the task force to recommend policy, legislation, 
personnel, organizational, and force structure changes that would 
maximize the overall effectiveness of the Air Force's total force team 
in a budget-constrained environment.
    Our Total Force Air Force will continue to be structured on a 
balanced foundation that relies on the strengths of each component, to 
provide and sustain the capabilities required in the years ahead. Total 
Force Task Force recommendations anchored on this principle will inform 
the Air Force Strategic Planning and Programming Process for fiscal 
year 2015 and beyond.
    The Secretary of Defense recently approved the Air Force policy and 
procedures for Reserve involuntary mobilization authority under title 
10 U.S.C. Sec. Sec. 12304a and 12304b. The Air Force is prepared to 
implement Sec. 12304a to involuntarily access the Air Force Reserve if 
needed to respond to a major disaster or emergency within the United 
States. We are working closely with the Air National Guard and Air 
Force Reserve to develop the plans and specific missions where it may 
be necessary to augment the Active component for preplanned missions 
using Sec. 12304b involuntary mobilization authority. We will apply 
this authority judiciously in order to ensure predictability for 
Reserve component members to minimize the impact to their families and 
employers. Appropriate use of this authority is being considered as we 
develop the Air Force input to the fiscal year 2015 President's budget.

                  SUPPORT TO AIRMEN AND THEIR FAMILIES

    The Air Force will continue to prioritize quality airmen and family 
support programs to sustain the resiliency of our force. Our strategy 
to meet the Service's evolving demographics and demands is to tailor or 
eliminate services where appropriate and capitalize upon community 
resources to gain efficiencies where possible.
    Our Airman and Family Readiness Centers (A&FRC) have made 
considerable progress implementing the Transition Assistance Program 
(TAP) requirements that will expand training and employment services 
for our Active and Reserve component members who transition from the 
military. The Air Force was compliant with the Veterans Opportunity to 
Work (VOW) To Hire Heroes Act of 2011 as mandated by law on 21 November 
2012 and is on schedule for compliance with the Veterans Employment 
Initiative (VEI) Task Force goals by 1 October 2013. In support of VEI, 
the Air Force was the first service to pilot the redesigned 5-day TAP 
workshop and the Higher Education optional track at Joint Base San 
Antonio (JBSA) and the first to pilot the Small Business 
Administration's Entrepreneurship track Outside the Continental United 
States (OCONUS) at Royal Air Force Mildenhall, United Kingdom. During 
fiscal year 2013, all Air Force installations will complete the rollout 
with the addition of three 2-day tracks of Entrepreneurship, Technical 
Training, and Education and a Capstone ensuring that members are ready 
to make a successful civilian transition.
    In fiscal year 2012, Air Force Child Development Programs supported 
more than 61,000 children ages 6 weeks to 12 years, with over 4,600 of 
these children having special needs care requirements. We have 
continued to focus on increasing our care capacity in our Child 
Development Centers, adding 5,794 childcare spaces from fiscal year 
2005 to fiscal year 2012. The Air Force also participated in piloting 
the first centralized web-based DOD request for childcare system, which 
will provide our families with easier access to DOD-wide childcare 
options.
    We are concerned about the effect Sequestration will have on our 
Child and Youth Programs in fiscal year 2013 due to potential 
Appropriated Fund (APF) civilian furloughs. The furlough of Child Care 
support staff could impact approximately 25 percent of our caregiving 
staff as well as our entire management and administrative team, who are 
charged with ensuring health and safety standards are maintained. To 
maintain these mandated standards, installations may be forced to 
reduce hours of operation or reduce class sizes, which may require 
single and dual working parents to adjust their work hours or find 
alternative care off base at a higher cost. Reduced staffing and 
construction project delays could also stall the opening of 
approximately 750 childcare spaces that are currently in different 
phases of construction. Due to limited off-base childcare options 
(particularly for infants and toddlers at many locations), the result 
may be growing on-base child care waiting lists at a time when 
community-based funding for such programs has simultaneously been cut.
    The Air Force is equally committed to supporting Child and Youth 
programs that are designed for the unique requirements of our ANG and 
AFR members. The Home Community Care (HCC) Program continues to provide 
ANG and AFR members access to quality childcare services that are 
similar to those available to military assigned to or living on a 
military installation and provides free quality childcare during 
primary drill weekends. In 2012, HCC provided care for 7,632 children 
within 35 ANG and AFR units with 59 State licensed providers.
    Recognizing our recent funding challenges and the evolving 
demographics and lifestyles of today's airmen and families, we are 
reviewing all Family and Morale, Welfare and Recreation (MWR) programs 
through customer satisfaction surveys and business analysis. Our goal 
is to determine how best to provide family and MWR programs and base-
level support services in today's budget-constrained environment. For 
instance, we are focusing our resources on those core programs (ex: 
Food, Fitness, Child and Youth Programs) which best support ready, 
resilient airman and may be forced to make hard decisions to not fully 
support other programs (ex: Libraries, Outdoor Recreation). To support 
this initiative, we launched our Services Transformation Project (STP) 
in July 2011 to conduct an Air Force-wide program business assessment 
of base-level service and support, MWR programs. Major Commands 
(MAJCOM) and installations were provided STP business assessment 
results with proposals to keep, divest or repurpose programs. These 
assessments contributed to Wing Commander decisions to eliminate 22 
programs at various installations. Additionally, a STP team visited 8 
test bases making recommendations to create Community Commons and 
Information Learning Centers among other recommendations that will 
combine MWR programs into a central location.
    Airmen and family quality of life is also significantly enhanced by 
the contributions of our non-pay programs. The Army Air Force Exchange 
Service (AAFES) provides merchandise at an average savings of 24 
percent compared to similar retail stores and gave back $223.9 million 
in dividend contributions to military communities in fiscal year 2012. 
Additionally, the Defense Commissary Agency (DeCA) operates as a 
nonprofit organization and can save a family of four an estimated 
$4,500 a year.

                COMPREHENSIVE AIRMAN AND FAMILY FITNESS

    The Focus of Comprehensive Airman and Fitness (CAF) is building 
resilience among our Total Force airmen and their families. While we 
have completed our mission in Iraq, airmen are still in Afghanistan 
where they have been for more than 10 years and in the Middle East for 
over 20 years. Continued high operations tempo at home and abroad 
coupled with downsizing the force and budget cuts stress the need to 
deliberately increase our focus on building strong, resilient airmen 
and families. Resilient airmen are better equipped to withstand, 
recover and/or grow in the face of stressors and changing demands. Many 
of our programs are designed to continue to build resilient airmen and 
families.
    The planned way-ahead for 2013 through 2014 includes the 
development of a Virtual Wing-Man smart phone application, continued 
production of Master Resilience Trainers (MRT) and the rigorous 
analysis of scientific data collected to validate the effectiveness of 
the MRT training on First Term Airmen Center (FTAC) students.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    The Air Force remains steadfast in our commitment to prevent 
incidents of sexual assault, provide victim care where assault has 
occurred and hold accountable those who commit such acts, while 
protecting the due process rights of the accused. Our current and 
ongoing initiatives to achieve a zero tolerance environment are 
targeted toward prevention (dissuade, deter, and detect) and response 
(victim care and responsibility).
    In fiscal year 2013, we stood up our first of several Integrated 
Product Team meetings, incorporating university experts and other 
subject matter experts, to assess our pre-command, senior enlisted and 
entry-level SAPR education and training curricula with the goal to make 
it more relevant, impactful and reality based. Increased emphasis on 
Investigations and Accountability included an Advanced Air Force Sexual 
Assault Investigations course and Special Victims' Counsel ``Pilot'' 
program to provide representation and advocacy throughout the 
investigation and prosecution processes by a specially trained Judge 
Advocate.
    The Air Force also distributed a Wing Commander's SAPR Guide, 
developed by subject matter experts and Wing Commanders and Command 
Chiefs. The guide includes statistics, facts and talking points to help 
installation leaders encourage healthy conversations with their airmen. 
It was distributed to installation commanders, MAJCOM commanders, six 
area of responsibility commanders, and the ANG. DOD SAPRO recognized 
this guide for how well it was done.
    In March 2013, HQ Air Force Office of Special Investigations 
(AFOSI) published new policy guidance to improve the investigation of 
sexual assault offenses. One change directs Command-wide use of AFOSI's 
new Sexual Assault Investigative Plan Worksheet and Sufficiency 
Assessment Tool in drafting written investigative plans. The tool will 
help focus collaboration between agents and military justice attorneys, 
as it integrates legal sufficiency (Articles 120, 125, and 80 elements 
of proof) with investigative sufficiency (i.e. investigative activities 
apt to reveal information probative to the elements). Additionally, HQ 
AFOSI has equipped its field units with cutting-edge alternate light 
sources to greatly enhance agents' ability to detect the presence of 
forensic evidence at sexual assault crime scenes. The field was also 
armed with new cyber tools that significantly improved agents' ability 
to identify and collect probative information from computers and cell 
phones.
    The Air Force is assessing manpower requirements needed to execute 
fiscal year 2012 and projected NDAA for Fiscal Year 2013 requirements. 
Our goal is to increase manpower in policy oversight, education and 
training and legal/investigation roles. We will comply with the 
requirements by establishing at least one full time Sexual Assault 
Prevention and Response Coordinator (SARC) and one full time Victim 
Advocate (VA) at each Air force host wing. Additionally, we are going a 
step further by placing additional SARCs or VAs at larger installations 
and those with higher risk populations (such as our training bases), 
while also providing a capacity for supporting expeditionary 
requirements. We have created standardized position descriptions for 
SARCs and VAs to facilitate hiring, and we are continuing efforts 
toward SARC and VA certification by 1 October 2013.
    The Air Force SAPR office utilized the Unit Climate Assessment 
(UCA), a known commander's management tool, to proactively assess 
climate for Air Force individual units. Embedded in the Air Force 
Climate Assessment are six questions that illuminate four dimensions of 
the SAPR climate factors. These Air Force climate factors and results 
detailed areas for further work in 2013 and beyond, namely more 
information geared towards junior enlisted, civilians and lessening the 
barriers to reporting. Additionally, the UCA revealed that our 
Bystander Intervention training and reporting options are both 
understood and found to be highly viable tools. In 2013, we will launch 
a follow-on survey to the initial 2010 Gallup survey which established 
a baseline measurement of actual prevalence and incidence of sexual 
assault in the Air Force. This repeat measurement will be compared to 
our baseline data to assess the progress of our SAPR program. As we 
move forward with our program, ongoing biannual measurement and 
tracking will allow the Air Force to continue monitoring changes and 
improvements.

                                 HAZING

    The Air Force has a zero tolerance policy for hazing, bullying, 
maltreatment, and discrimination as it is contrary to the standards of 
conduct that we expect of all airmen--entitling every airman to 
dignity, respect, and equal opportunity. Guided by our core values of 
Integrity, Service and Excellence, the Air Force utilizes a 
comprehensive approach to prevent and/or respond to such allegations or 
observations. We believe that using a comprehensive, continual training 
approach throughout an airman's career not only ensures that these 
concepts and preventative measures are delivered at the right time, but 
more importantly, become part of the Air Force culture and help to 
ensure good order and discipline. If an allegation of hazing is 
substantiated, it may be punishable by court-martial or nonjudicial 
punishment under several punitive Articles of the Uniform Code of 
Military Justice.

        INTEGRATION OF AIR FORCE COMPONENT PERSONNEL MANAGEMENT

    To better support our airmen and families, we continue to move 
forward with our ``3 to 1 Total Force Personnel Management'' 
initiative. This effort integrates personnel management policies, 
processes and procedures across the Active, Reserve, and Air National 
Guard components to create a more efficient and effective Air Force.
    In May 2012, we successfully completed a high level review of all 
laws, regulations and policies to determine where barriers to 
integration existed. This review yielded 69 recommendations, spanning 
over two dozen human resource activities. We learned that few legal 
barriers exist to the integration of Air Force Human Resource policies, 
but there are many opportunities for us to consolidate directives and 
instructions, while still allowing for component uniqueness where 
warranted. This will pave the way for significant process improvement, 
facilitate better collaboration and coordination across Air Force 
components, optimize warfighter support and improve service levels for 
our airmen.
    A few examples of change include the establishment of a Total Force 
Recruiting Council which is analyzing consolidated storefronts and 
conducting a Total Force review of schoolhouse curriculum; the 
implementation of enlisted performance reports for Traditional 
Guardsmen; process and training enhancements to remedy issues 
associated with transition between components; and the deployment of an 
electronic operating support system for our Total Force promotion and 
force development board processes. This will transition manual and 
cumbersome paper boards to a new technology that will garner 
significant efficiencies in the coming years.
    Finally, the most significant outcome from this effort to date is 
the institution of a Total Force Human Resource Management governance 
structure which stood up on 1 April 2013. For the first time in our Air 
Force's history, we will have a unified Total Force forum where we can 
discuss challenges and shape shared solutions towards a common Total 
Force human capital strategy.

                               DIVERSITY

    The Air Force recognizes a diverse force is a military necessity 
and we continue to focus efforts on advancing our strategic priorities 
of institutionalizing diversity, attracting, recruiting, developing and 
retaining a diverse and inclusive workforce of highly qualified total 
force individuals who reflect the rich tapestry of the Nation we serve.
    Over the past 2 years, we have made significant progress in our 
efforts to execute these priorities. First, in response to the 
Presidential Executive Order (13583) establishing a Coordinated 
Government-Wide Initiative to Promote Diversity and Inclusion in the 
Federal Workforce, we recently updated our Diversity Strategic Roadmap. 
The Roadmap is an action plan that directly supports Air Force 
diversity objectives and is designed to move us forward in key areas 
essential for success and posture us to compete for a finite pool of 
candidates in a changing nation. Additionally, in July 2012, the Air 
Force published Air Force Instruction 36-7001, Diversity, which 
provides policy and oversight for Air Force Diversity and guidance for 
its implementation within the Air Force.
    Outreach programs remain key to attracting and recruiting diverse 
talent. In partnership with the Office of Diversity Management and 
Equal Opportunity within the Office of the Secretary of Defense, our 
sister services and Air Force total force stakeholders (active duty, 
Guard, Reserve and civilian service), the Air Force plans, coordinates 
and provides oversight to national-level diversity outreach programs 
supporting our priorities, goals and objectives. In fiscal year 2012, 
our Global Diversity Division collaborated with the AFRS to conduct a 
targeted advertising campaign aimed at attracting high performing 
African American and Hispanic students who might qualify for U.S. Air 
Force Academy (USAFA) or Air Force Reserve Officer Training Corps 
programs. In fact, the recruiting service devoted 20 percent of its 
fiscal year 2012 marketing budget to initiatives targeting specific 
minority communities (African American and Hispanic) to locate high 
performing applicants and counter cultural biases against military 
service.

                         U.S. AIR FORCE ACADEMY

    The USAFA continues to thrive as a world-class university, creating 
strong leaders of character that are prepared for today's strategic 
environment that includes a broad range of threats and an unpredictable 
set of challenges.
    USAFA cadets have performed impressively over the past 12 months. 
The graduating class of 2013 has a Marshall Scholar and the U.S. News 
and World report ranked USAFA's undergraduate management program #1 in 
the Nation. The Academy's undergraduate engineering program is ranked 
#4 in the Nation, civil and computer engineering programs are ranked #5 
nationally, and USAFA has the #2 air and space engineering program for 
the 12th consecutive year.
    Respect for human dignity and integrity are at the core of the 
USAFA's leadership development. The Academy continues to enhance sexual 
assault prevention and response programs by identifying new ways to 
advance a climate of dignity and respect, and to more completely 
integrate sexual assault, harassment and violence prevention into 
Academy life and learning. Additionally, the Academy continues to 
conduct Religious Respect Training which is receiving national 
attention as a benchmark program.
    USAFA is committed to recruiting a diverse force and its numerous 
recruitment efforts and programs such as Summer Seminar, Diversity 
Visitation, and Admissions Forum have succeeded in many aspects and 
serve as the foundation for future efforts. The Summer Seminar Program 
targets high performing, diverse students who would be USAFA direct 
entry, USAFA Prep-School or Falcon Foundation candidates. The Diversity 
Visitation Program brings prospective minority cadets to the Academy 
for a 4-day program, which includes academics, interaction with senior 
leaders, tours of the Prep School and airfield and attendance at a 
sporting event. The USAFA Admissions Forum Initiative conducts up to 
ten admissions events per year in strategically selected locations 
across the country that have under-representation of target populations 
at the USAFA.

                            WOUNDED WARRIORS

    The Air Force is dedicated to continuously improving the support to 
our combat and seriously wounded, ill, and injured airmen by leveraging 
prior Air Force investments including the Recovery Care and Coordinator 
Program (RCCs). In fiscal year 2012 the Air Staff, Air Force Personnel 
Center and Office of Surgeon General jointly planned and reengineered 
the Air Force Recovery Coordination Process to integrate the medical 
and nonmedical care of all Air Force wounded, ill, and injured into one 
7-phased Continuum of Care process. This initiative eliminated 
redundancies and minimized confusion for our recovering airmen and 
their families. This effort produced a single centralized and 
coordinated line of command for operations and a decentralized 
execution process. In addition, a singular referral and identification 
process was implemented for determining eligibility for these 
specialized services and added to the combat ill and injured 
population, the management of care for all seriously ill and injured. 
This design approach relates to airmen's perspective by better meeting 
their anticipated needs in advance and leading to improved sustained 
care. The Recovery Team now provides concentrated care while 
simultaneously providing services to all current ill and injured and 
results in a 30 percent reduced active case load ratio to the current 
45/1 (40/1 is DOD standard). As a result, the AF now manages this 
population in an improved and inclusive process, which currently stands 
at 2,583 (498 ill; 1,299 psychological; 786 injured [including TBI]). 
Of this total population 1,048 are still on active duty and 1,535 have 
separated from the AF. In summary, the AF focuses its support of airmen 
and their families through medical and non-medical programs on behalf 
of DOD and in coordination with the VA as follows:

        <bullet> DOD Medical Support: Clinical Care & Case Management
        <bullet> Line Non-Medical Support: Directorate of Airman & 
        Family Care and Recovery Care Coordinators
        <bullet> VA Support: Poly Trauma Centers, Case Management & 
        Federal Recovery Coordinators

    Air Force sponsored, along with other Services, Adaptive Sports 
Camps to assist recovering airmen to heal not only physical, but 
socially, emotionally and spiritually. Warrior Game participation has 
grown from 27 to more than 100 new athletes in fiscal year 2012 and 50 
participants have been selected for the 2013 Air Force Wounded Warrior 
Games team. In addition to Warrior Game participation, the Air Force 
purchased adaptive sports equipment now located in its fitness centers 
and established a dedicated adaptive sports staff under the new Air 
Force Wounded Warrior directorate to host advanced adaptive sports and 
recreation camps and clinics. As simply put by AF Staff Sgt. Larry 
Franklin, a program participant, ``This program saved my life. Being 
part of a team again gives me a sense of pride and makes me feel like 
I'm a part of something.''

                    AIR FORCE YELLOW RIBBON PROGRAM

    The Air Force Yellow Ribbon Reintegration Program (YRRP) has 
promoted the well-being of Air National Guard and Air Reserve airmen 
and their families. Driven by high tempo deployment cycles, these 
events have taken on an increased importance given the increased 
accumulated stress on our ARC airmen and their families. The events, 
offered at key stages in the deployment cycle, have clearly addressed 
the need for the providing critical support information to family 
members and more importantly, given the multiple deployments, supported 
the build-up of resilience skills to better cope with the significant 
stress on families caused by absence of their airmen.
    The value-added propositions of these events, which further allow 
for the development of inter-family support teams, cannot be 
overstated. Many of these ARC units are not in close proximity to 
Active Air Force airmen and family care centers, so the YRRP events 
serve as form of resilience support and training.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    The purpose of the Integrated Disability Evaluation System (IDES) 
is to maintain a fit and vital force. Air Force uses the IDES to 
determine if airmen who are wounded, ill, or injured are still fit for 
continued military service and quickly returns those who are. If they 
are deemed unfit for continued service, the IDES process ensures 
servicemembers receive a Veteran's Affairs (VA) disability rating and 
are aware of their compensation and benefits before they transition 
from military service. We are aggressively working to meet OSD's goal 
to process airmen through the IDES in 295 days. Currently, the Air 
Force Active component is averaging 362 days processing time from 
referral for disability evaluation to the date of VA benefits decision 
or return to duty. Within the IDES, the Medical Evaluation Board (MEB) 
phase performance is averaging 63 days, which is well below the IDES 
goal of 100 days. However, the Physical Evaluation Board (PEB) phase is 
averaging 141 days, which falls short of the IDES 120-day goal.
    The Air Force is committed to improving IDES timeliness to better 
serve airmen as they rehabilitate, reintegrate or transition from 
military service. We are diligently working various measures to improve 
the IDES timeliness. We have realigned manpower and made hiring a 
priority within the Air Force Personnel Center to assist the PEB. The 
Air Force has partnered with OSD and the VA to enhance IDES information 
technology (IT) to create a seamless and integrated system to improve 
IDES timeliness. While DOD and VA develop an enterprise IT solution, 
the Air Force is exploring short-term IT solutions to expedite the 
transfer of IDES cases between the Military Treatment Facilities (MTFs) 
and the Informal and Formal PEBs. In addition, we have improved 
communications between the VA, the Air Force Personnel Center, and the 
Air Force Surgeon General to ensure consistency of IDES tracked data. 
Finally, the Air Force rolled out its IDES pre-screening initiative to 
ensure the right airmen are referred into the IDES. The IDES pre-screen 
process provides a centralized review at the Air Force Personnel 
Center's Medical Retention Standards Branch of potential IDES cases 
which may not meet retention standards. The intent of the pre-screening 
process is two-fold, to identify airmen who may be returned to duty 
(RTD), instead of entering the IDES, thus preserving resources and 
reducing hardship on the airman and the unit. Additionally, the process 
identifies airmen, who need a complete Medical Evaluation Board, and 
refers them to the IDES, preserving readiness and a fit force. The pre-
screening process does not alter any stage of the IDES, airmen rights 
remain intact and the Air Force ensures due-diligence. As of 10 April 
2013, the Informal PEB adjudicated 978 cases referred into the IDES by 
our Personnel Center's Medical Retention Standards shop as a result of 
pre-screening. Of those, only 27 were returned to duty by the Informal 
PEB, for a 2.7 percent RTD rate, far below the 15-20 percent RTD rate 
historically seen prior to pre-screening implementation. We expect 
these major improvement strategies to improve the Air Force IDES 
timeliness by fall 2013.
    On 13 June 2012, former Secretary of Defense, Leon Panetta, 
directed the Department to conduct a comprehensive review of mental 
health diagnoses for prior servicemembers who completed a disability 
evaluation process from 11 Sep 2001 to 30 Apr 2012. The Office of the 
Under Secretary of Defense for Personnel and Readiness is the delegated 
authority to establish the Special Review Panel as a collaborative 
undertaking of the DOD Physical Disability Board of Review (PDBR) and 
the Military Department Boards for Correction of Military Records. 
These reviews will include a re-evaluation of servicemember records 
whose mental health diagnoses were changed to their possible 
disadvantage during the disability evaluation process. The PDBR has 
coordinated with the Services and has defined the resources required 
for the timely completion of these important reviews.

                           SUICIDE PREVENTION

    Air Force leaders at all levels are committed to suicide prevention 
through our wingman culture. We do not view suicide prevention as 
belonging to either personnel or medical communities, but to all 
members of the Air Force community, including commanders, supervisors, 
and peers. Suicide prevention is a Total Force responsibility. This is 
the premise upon which our Community Action Information Board (CAIB) 
was built and the cornerstone of the Air Force suicide prevention 
program as we established it in 1996. We believe evidence shows it is 
the necessary framework for effective intervention across the 
enterprise. Prevention starts with leadership involvement from the top 
down and across all spectrums of the Air Force.
    In a wingman culture, airmen look out for fellow airmen. We teach 
them to identify risk factors and warning signs for suicide, and to 
take appropriate action once these indicators are identified. We call 
it: Ask, Care, Escort (ACE). We have taken Air Force-wide training to a 
new level with required Frontline Supervisor Training for the highest 
risk career fields. We are increasing our mental health provider 
staffing across the Air Force by more than 300 professionals by 2016. 
All of our mental health providers are trained to use the Air Force 
Guide to Managing Suicidal Behavior, a clinical guide for assessing, 
managing and treating suicidal ideation.
    Within the Air Force, we have not seen a link between suicide and 
deployments, Post-Traumatic Stress Disorder, or Traumatic Brain Injury. 
For our Total Force, the most frequently linked risk factors to suicide 
continue to be relationship problems, legal or administrative problems, 
work related issues, or a combination of these factors.
    We are keenly focused on reducing stigma through positive commander 
messages and by expanding opportunities to access mental health 
resources such as embedding mental health providers in our primary care 
clinics. Although the 2012 Air Force Climate Survey found stigma is 
still an issue for many airmen, we are encouraged that most reported 
they are willing to seek help, and 90 percent see leadership as 
genuinely interested in preventing suicide.
    We continue to research how we can better identify those at risk 
for suicide to achieve the earliest possible intervention. One such 
study explores how airmen's use of social media impacts their 
relationships, help-seeking, and emotional well-being. We are also 
conducting research that examines the role of life events and social 
stressors in the suicides of specific clusters of airmen.
    In addition, we continue to collaborate with the Defense Suicide 
Prevention Office, our sister Services, and the Department of Veterans 
Affairs to leverage the full extent of our internal resources, 
combining our experiences and best practices to improve our suicide 
prevention efforts.

                               CONCLUSION

    Our airmen and their families will always remain as the cornerstone 
to the success of the U.S. Air Force. The enduring contributions 
provided by Air Force airpower are a direct result of the innovative 
spirit that resides in all our airmen. Investments in our Air Force 
capabilities are inextricably linked to our Service's ability to 
recruit, train, develop, support and retain a world-class, All-
Volunteer Force. We are confident that our Air Force will continue to 
overcome any challenge or adversary if we, as a Service and a Nation, 
keep faith with our commitment to train and equip the highest quality 
airmen.

    Senator Gillibrand. Thank you all for your statements. We 
have also received a statement for the record from the National 
Guard Association of the United States. Without objection, it 
will be included in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Gillibrand. I am going to talk about a couple of 
issues in my 7 minutes. I want to go through sexual assault, 
hazing, suicide. I have enormous respect for the men and women 
who serve in the military, and that is why I am absolutely 
committed to ending violent crime, sexual assault, and rape 
among those in uniform.
    The new DOD health related behavior survey of the Active 
Duty military personnel was released this week, and I was 
disturbed by the findings that more than one in five women on 
Active Duty in the armed services reported experiencing 
unwarranted sexual contact by a fellow servicemember. The rate 
for men was 3.3 percent. Those rates are absolutely 
unacceptable, and the men and women who serve in our armed 
services are the military's most precious resource, as you 
said, Secretary Lamont. Clearly the system is failing to 
protect them from the worst kinds of violence.
    As you may know, I am working on legislation that will 
remove the initial disposition authority from commanding 
officers and put them in the hands of experienced military 
prosecutors. Over the past few months, we have been examining 
this change, and one of the concerns that has been voiced is 
that it will disrupt the good order and discipline of the unit.
    In your opinion, what precisely about this change would 
disrupt good order and discipline? What other recommendations 
do you have for dealing with this crisis and actually getting 
results? You may start, Secretary Lamont.
    Mr. Lamont. One thing that detracts from the dignity and 
respect of a soldier, and we have carefully considered it, we 
are very much aware of our most recent challenges in this 
regard.
    While I have not seen your proposed legislation, I am aware 
of bits and pieces of it. I will leave for General Bromberg the 
concerns that you made reference to with regard to good order 
and discipline.
    Senator Gillibrand. General Bromberg?
    General Bromberg. Yes, Senator. Certainly we are just as 
concerned as you are obviously, and it is just not good enough 
the progress we are making. We need to continue to make 
progress. Certainly we want to look at all options on how we 
can improve as we go forward.
    I think the team approach we put into effect, we are in the 
third year of our campaign plan. This year, we are focusing on 
achieving cultural change, and I think cultural change is key 
to our success as we move forward. We need to continue to push 
that at every level across the Services.
    But the teaming approach we have added over--almost 829 
full-time victim advocates and sexual assault response 
coordinators. They are all trained. They are all nationally 
certified. They have 80 hours of training. We have also added 
over 9,000 collateral duty part-time victim advocates and 
sexual assault coordinators. We have added 20 special 
prosecutors, 30 additional lab technicians, 10 additional 
headquarters, what is called special highly qualified experts, 
to help with this process to enable the commanders to more 
fully understand the program, and increased training of all our 
Criminal Investigations Command agents with another additional 
80 hours of special investigating procedures.
    We think this team approach that we have put together is an 
alternative to go forward, to include paralegals, victim 
liaisons from the local judge advocate office as well. So 
achieving cultural change, including the approach of training, 
as well as prosecution and putting this larger team together is 
an alternative we certainly are pushing forward on.
    Senator Gillibrand. How much time do you think those 
changes will take to start getting the numbers down, because 
obviously the difference between the 2008 report and the 2011 
report was in the wrong direction. Now, that might just be a 
difference in feeling comfortable reporting, so we do not know 
why the change increased the number. How long do you think you 
will see results, tangible results, see numbers coming down, 
see reporting going up?
    General Bromberg. I think it is always difficult to put a 
time on cultural change. But we have seen an increase in our 
own internal surveys that we are looking at right now and 
balancing those with other reports we are seeing to make sure 
we are looking at the right data.
    We have seen an increase in the propensity to report. Our 
last survey showed a 28 percent propensity report. Our most 
recent survey shows a 42 percent propensity report for females. 
Now, I am not saying that is----
    Senator Gillibrand. What is that report called?
    General Bromberg. It is an internal operational troop 
survey that we have done internal to the Army.
    Senator Gillibrand. You said ``propensity report?''
    General Bromberg. Propensity. The propensity of a female to 
report that she has been either harassed or assaulted. We have 
to go back and really dig in the numbers, so I caution on the 
numbers. We are not claiming that as a victory, but certainly 
it may be a leading indicator.
    We want to continue to do that. We want to continue to 
watch those leading indicators. A slight increase for males as 
well.
    Mr. Lamont. I do want to point out, though, that the actual 
assaults reported did drop this year. Of course, nowhere where 
we want it to be, but I would like to believe it is an 
indication that some of these programs, and particularly with 
regard to the investigators and the special prosecutors will be 
having an effect.
    Senator Gillibrand. How did the numbers drop? You mean 
between 2008 and 2011, or in your own internal numbers?
    General Bromberg. Our internal numbers. That is one of our 
challenges when we look at the surveys, Senator, we have to 
make sure we are all looking at the same data on the surveys. I 
have not seen the reports you are referring to in detail yet, 
so as we peel those numbers back, then we will be able to tell 
the differences, because the numbers could be totally different 
for the different surveys.
    Senator Gillibrand. I would like you to furnish all your 
internal tracking so that we have the benefit of that.
    Admiral Van Buskirk? Secretary Garcia? General Milstead?
    Mr. Garcia. If I could start, Senator.
    Senator Gillibrand. Go ahead.
    Mr. Garcia. The Navy leadership shares your belief these 
numbers are unacceptable, and we appreciate the approach you 
have taken with your proposed legislation and sharing it with 
us and letting us offer input.
    We concur that the court martial process as we know it has 
evolved since World War II. The introduction of specialized 
prosecutors, defense counsel, a robust appeals process, has 
changed. That is why we are working at the Secretary of 
Defense's direction to revisit and reform the convening 
authority process as it exists now.
    But know that we are not waiting on that process, and we 
are not living with these numbers. As we had a chance to visit 
the other day, you know that we have hired additional full-time 
sexual assault response coordinators and advocates and 
instituted a fleet-wide training programs. Every sailor and 
marine in the Navy has received training this year. Bystander 
intervention, training is taking place at every fleet 
concentration center.
    Special training for our Judge Advocate General and Naval 
Criminal Investigation Service agents ensure they are armed 
with the optimal prosecution and investigative tools available. 
You know about our expedited transfer policy. You know about 
the elevation of the sexual assault initial disposition 
authority. More than that, we are seeking to, as my Army 
colleagues referenced earlier, change the command culture where 
events like this could take place. We know, for example, there 
is an undeniable correlation all too often between incidents of 
assault and alcohol use, and that is why we are in the process 
of introducing across the Navy and across the Marine Corps, at 
every command, the use of alcohol detection devices, which is a 
new step that we have never taken before, to educate our 
personnel and our force about responsible use.
    I am aware of the study you cited earlier. I echo the 
concerns voiced earlier that the numbers are challenging, and 
we are digging into that. Within those numbers, for example, an 
increase in unrestricted reports versus restricted reports is a 
trend we want to see. An increase in personnel being willing to 
report events on the lower end of the unwanted sexual contact 
spectrum is positive if they are experiencing an atmosphere 
where they feel more comfortable coming forward.
    We have our teeth into this, and we are committed to this, 
Senator.
    Senator Gillibrand. Thank you. My time has expired, the Air 
Force can submit your answer for the record.
    [The information referred to follows:]

    Mr. Ginsberg. The challenge we face regarding sexual assault in the 
military is complex. Sexual assault damages unit cohesiveness and 
mission accomplishment at the unit level. Because of this impact, our 
commanders need to be at the forefront of the fight to reduce sexual 
assault in the military.
    One example of how good order and discipline could be directly 
impacted by removing initial disposition authority from commanders is 
with respect to the ability to enforce discipline through nonjudicial 
punishment under Article 15 of the Uniform Code of Military Justice. If 
an airman commits an offense that is appropriately disposed of through 
nonjudicial punishment under Article 15, the commander cannot compel 
the member to accept an Article 15. In the Article 15 process, if an 
airman accepts the forum, his commander assumes the role of trier of 
fact as well as sentencing authority for the offense alleged. However, 
an airman has the right to demand trial by court-martial instead. The 
ability of commanders to swiftly deal with those charges would be 
impacted if the commander did not have the authority to initiate court 
martial for an airman who turned down an Article 15 and essentially 
could render void one of the key tools for commanders to enforce good 
order and discipline through nonjudicial punishment by Article 15.
    When commanders consider the appropriate level of discipline before 
exercising their initial disposition authority, they are advised by a 
judge advocate. By teaming a commander and a judge advocate, we achieve 
the purposes of military law. The commander fulfills the obligation to 
preserve good order and discipline in the pursuit of combat capability; 
the Judge Advocate General fulfills the purpose of the independent 
provision of legal advice in the pursuit of justice.
    We continue to enhance our sexual assault prevention and response 
program to eliminate sexual assault from the Air Force, improving 
specific initiatives in the realms of prevention, investigation, 
accountability, and assessment in line with the Secretary of Defense's 
strategic guidance.

    Senator Gillibrand. But if we have a second round, that 
will be my first question. Thank you. Secretary Graham, I mean, 
Senator Graham.
    Senator Graham. Thank you.
    Senator Gillibrand. Mr. Secretary. [Laughter.]
    Sorry, Senator Graham.
    Senator Graham. Does it pay more and you get a plane? I 
will take it. [Laughter.]
    Senator Gillibrand. More than that.
    Senator Graham. The country has enough problems without 
making me secretary of anything. [Laughter.]
    TRICARE, from the Army, Navy, and Air Force's perspective 
at the Secretary level in 30 seconds or a minute, tell me about 
the sustainability of TRICARE.
    Mr. Lamont. Our health care costs are rising out of sight, 
as you can imagine. We would support the Secretary of Defense's 
efforts to increase minimally our fees where necessary.
    Senator Graham. They really have not been adjusted since 
1995, have they?
    Mr. Lamont. No. While we do have cost-of-living adjustments 
and our other benefits have gone up for our servicemembers, our 
TRICARE fees and costs to them have remained flat. I think we 
are really going to have to address that in the future.
    Senator Graham. Secretary Garcia.
    Mr. Garcia. Senator, the numbers speak for themselves. Our 
medical health system as a whole has gone from a $19 billion 
enterprise in 2006 to a $49 billion.
    Senator Graham. Nineteen to $49 billion?
    Mr. Garcia. That is right.
    Senator Graham. Wow.
    Mr. Garcia. Like you, we know how critical this benefit is 
to our personnel, but it has to be sustainable. We are willing 
and in support of the efforts to enact sensible and reasonable 
adjustments to do so.
    Senator Graham. Air Force.
    Mr. Ginsberg. Senator, obviously, sustaining an All-
Volunteer Force is the Department's most critical priority, and 
medical readiness, and the medical care we provide for our 
airmen, and all of our servicemembers, is obviously vital.
    That said, of course, the trend in health care costs is 
certainly rising, and in the flat to declining budgetary 
environment, that means that there is additional pressure on 
other areas of our budget, including force structure, 
modernization, and readiness. So, if we do not address those 
larger issues and make sure we strike that right balance. The 
continual formula for the Air Force is continually shrinking to 
become a smaller force, a less ready force. So again, we have 
to make sure we take care of our people, but then do it in a 
sustainable fashion.
    Senator Graham. So the glide path for the budget is pretty 
much not growing very fast, but health care costs are. So 
eventually that is not good news for the budget, and we have to 
make it more sustainable.
    From an Army perspective in about 1 minute, tell us what 
sequestration is doing on the personnel side, even though pay 
is exempt from sequestration. From a morale point of view and a 
readiness point of view, on the personnel side, including 
families and civilians, how is this playing out in the Army?
    General Bromberg. Yes, Senator, if I could, first of all, 
as I am sure you are aware, we have had to curtail training in 
about 80 percent of the force, focusing on Afghanistan forces, 
those next deployers, as well as those in Korea.
    Additionally, we have curtailed for the first time six 
combat training center rotations at our national training 
center. I do not recall a time we have ever done that before. 
We have cut our flight training hours by 37,000 hours. That 
takes about 500 aviators out of the force. That will take us a 
couple of years to recover that, and aviation is one of our 
most used assets in Afghanistan.
    Senator Graham. If you do not fly a lot, it is dangerous, 
right?
    General Bromberg. Yes, sir, very much so. So that is going 
to be significant for us. We have had to cancel some courses 
this year, leader development courses. We have had to defer 
maintenance, both the depots and also down to the units. We 
have had to release over 3,000 temporary employees, and 
additionally, we had to reduce the Reserve component and 
medical readiness. We have had to cut that budget as well.
    For the families as far as morale, those civilian cutbacks 
have then translated into reduced services on installations, so 
everything you can think about that services a family on a 
post, camp, or station is going to see less hours, less 
availability. That, of course, creates great angst in the 
force.
    Senator Graham. Okay. The Navy.
    Admiral Van Buskirk. Senator, I would like to focus on--you 
asked specifically about the morale, and I think from the great 
part of our jobs and being in the personnel business, you 
mentioned, is about the people. I get a chance to actually go 
visit all of our homeports and actually hold townhalls and all 
hands call our people.
    I would say that the morale is good, yet what is cropping 
up more and more recently is uncertainty in terms of as they 
listen to the debates that are being carried among the Services 
and here in Washington, DC, they are watching very closely how 
they can be impacted in terms of the budget.
    Senator Graham. Are families beginning to feel it?
    Admiral Van Buskirk. Yes. Well, they are questioning are 
services going to be available. So we are reassuring them that, 
yes, the services are going to be there. The counseling 
services, our family and readiness services are going to be 
there. Our critical components of our 21st century sailor and 
marine are going to still be there.
    However, while we are able to do the services, there is a 
mortgaging of the future because we may not be able to do 
repairs to the facilities that they are operating in and 
modernize at the same time. So we are foregoing some of our 
future perhaps enhancements at the bias towards providing the 
services on a day-to-day basis.
    So a little bit of the uncertainty I think is creeping in 
there with what is next. You mentioned health care, is health 
care still going to be there for them? So it is important for 
us to go out, talk to them, hear their concerns, and address 
them straightforwardly to let them know what is going on.
    Senator Graham. Thank you.
    Admiral Van Buskirk. But overall, I think the morale still 
remains good, but there is some uncertainty there.
    Senator Graham. The Marines?
    General Milstead. Thank you, Senator. The U.S. Marine 
Corps, 61 percent of our budget goes to the military personnel 
account. Of that 61 percent, only approximately about 4 percent 
is discretionary. So a large chunk of our money goes for 
people. I will echo the uncertainty.
    But we have been able to, with the authorities that we have 
had, the commandant has been able to shift monies around in 
2013. We have been able to do that. But 2014 and out----
    Senator Graham. If we do this over 10 years, will it be 
devastating?
    General Milstead. Yes. I would say that the Marine Corps is 
going to have to make some hard decisions. You mentioned that 
the personnel account is protected. It is protected this year, 
but the President may not choose--that is a policy decision. He 
could unprotect it.
    But regardless of whether it is protected or not next year, 
we cannot afford to have the other 39 percent or so go to our 
readiness, as the Admiral pointed out, in our O&M accounts. The 
Marine Corps will be forced to do some things, some draconian 
things, and they may have to do with industry.
    Senator Graham. And----
    General Jones. Sir, many of our civilian employees are also 
military spouses. As we cut, as furlough would hit the civilian 
spouses, it will hit the joint income of the family. But you 
have to remember, morale is also part of the mission. We have 
very proud airmen, and we are very proud of what they do every 
day, and as we take down flying hours by 203,000 flying hours 
across the Air Force, as sustainment modernization and 
restoration accounts are hit significantly under sequestration, 
all of that begins to eat away at the comfort level of their 
ability to do the mission.
    Our airmen and their families feel the uncertainty of what 
is going forward in the future because of sequestration as it 
impacts them personally as a family and professionally as a 
mission.
    Senator Graham. One final thought. It is one thing to be 
inconvenienced and not have the nicer stuff. People, I think, 
understand that they are sacrificing their lives in military. 
But one thing I think would destroy morale is to believe that 
your spouse is not well equipped and well trained.
    Voice. Senator, is your microphone on?
    Senator Graham. Yes, sorry. I said the one thing that will 
hurt family morale more than anything, they can live without 
conveniences. They are a tough lot. But if they believe that 
their loved ones are not well trained and well equipped, we are 
going to destroy the family.
    Thank you.
    Senator Gillibrand. Senator Blumenthal?
    Senator Blumenthal. Thank you, Madam Chairman. I would like 
to pursue a line of questioning that Senator Gillibrand began. 
I am pleased to be working with her on some of these sexual 
assault initiatives, and thank her for her leadership.
    To come back to the question that she raised, and I am not 
sure it was answered, General Bromberg, if prosecutorial 
decisions were removed from the commanding officer either for 
sexual assault or more broadly, would that pose an insuperable 
obstacle to the good order and discipline of the military?
    General Bromberg. Senator, it could. It could very well, 
and that is what we have to look at. We have to look at the 
authorities and responsibilities of the commander, not just in 
this area, but across the whole spectrum of what we ask 
commanders to do from the company level, at the captain level, 
all the way through the general office level, particularly in a 
deployed environment where you expect officers to maintain good 
order and discipline in combat operations as well as when 
people are in garrison. Of course, this problem spans both 
deployment situations as well as at the home station.
    I think we have to look at the fundamental reasons why we 
want the Uniform Code of Military Justice (UCMJ) and the 
authority with our commanders in the field. So I think there is 
a real potential. We have to discuss it, and we have to 
understand the full range of impacts of those kinds of----
    Senator Blumenthal. But you are willing to discuss it, 
because if there were certain kinds of crimes, and these are 
really predatory crimes, violence often, that kind of decision 
as to whether to commence a criminal prosecution in some 
instances might well be at least lodged in some independent 
authority.
    General Bromberg. I think right now today, Senator, with 
the special teams we have put together advising the commander, 
it gives the commander that capability in the first place. So I 
would like to start to have that discussion.
    Senator Blumenthal. Those special teams include a victim's 
advocate or a survivor's advocate?
    General Bromberg. They include the special prosecutors, the 
highly qualified experts, the additional training of the 
criminal investigation units----
    Senator Blumenthal. I know that the Air Force, and maybe I 
can ask you, General Jones, when I received a briefing from 
General Welsh, he described the victim's advocate program that 
the Air Force was implementing. I wonder if you could describe 
for us perhaps some of the most recent lessons learned, some of 
the experience, and your evaluation of it.
    General Jones. Sir, I would be happy to. We started with 60 
legal experts who we trained to be special victim's counsels to 
give the victims a voice in this process, because the process 
can be intimidating. The process can be daunting, and many 
victims will tell us that they are revictimized as they go 
through the system.
    When we appointed 60 attorneys to specifically focus as 
special victim's counsels, the number of cases they took 
quickly ramped up to over 250 cases. I say ``over 250'' because 
literally every day we go back to look at the numbers. They are 
continuing to increase. It is empowering the victims to feel 
that they can go through with the process.
    In speaking with national experts that everyone recognizes, 
individuals such as Anne Munch and David Lisak, are real 
experts in this area. They will tell us that one of the 
benchmarks that you should look at is how many people did not 
follow through with the allegations once they were sexually 
assaulted, that did not see things through to the end.
    You can argue that the number of people who report sexual 
assaults may go up if you have a good program and people feel 
comfortable reporting. There is evidence that if people do not 
feel like there is trust in the system, the numbers will go 
down. So the experts will tell us the number of people who will 
not follow through is something we should look at.
    The fact that we have instituted this special victims 
counsel within the Air Force, the fact that our chief of staff 
called in every operational level commander, every wing 
commander, to specifically look them in the eye and tell them 
that we are going to get after sexual assault in the Air Force. 
We had 790 sexual assaults in the Air Force last year. One is 
too many. We have to be able to go make sure that the 
individuals are protected, that the individuals, when they come 
forward with a crime, that we investigate the crime, we punish 
the perpetrators.
    Senator Blumenthal. We have at this point, and I apologize 
for interrupting you.
    General Jones. No, that is okay.
    Senator Blumenthal. We are all limited in terms of the 
amount of time we have. Do you have benchmarks or metrics 
that--and I know they may be very difficult to establish, show 
the success of this program, although it has been operating for 
a relatively short period of time.
    Mr. Ginsberg. Senator, this program just started in 
January, but it is something we are looking at very carefully. 
We get reports frequently from our Judge Advocate General, 
Lieutenant General Harding. We are going to do some interim 
reports and then a more final report as this goes on, but the 
initial results, as General Jones says, is that this is making 
the victims very comfortable with the legal and investigative 
process.
    They have already gone through what can be a life altering 
experience, and then they are going to go through this very 
fatiguing investigatory and prosecutorial process. Now to have 
somebody to help interpret this process, help be there with 
them, along with the full-time victim advocates that we are 
bringing on, and the sexual assault response coordinators. You 
have this whole sort of interdisciplinary team that is there to 
back up victims as they go through.
    Senator Blumenthal. Have the other Services expressed 
interest or inquired about this program?
    Mr. Ginsberg. Senator, we are certainly very open with the 
other Services about our program and how we are doing it, but I 
certainly do not want to characterize where they are.
    Senator Blumenthal. I want to express my appreciation for 
the good work that you are doing in this area, and suggest that 
perhaps the other Services might, as you generally do, learn 
from the experience of your colleagues in your brother and 
sister Services.
    If I may ask, General Milstead, I know that there has been 
a plus up of the Marine Corps cyber command, Marine security 
guards, and special operations. As the Marine Corps draws down, 
are you concerned that the increase in personnel in these 
various commands could detract from or hollow out the strength 
of the other units?
    General Milstead. Senator, as we have incrementally 
downsized the Marine Corps, we have done it through a structure 
review. We have gone at this through a deliberate process of 
analysis.
    We are currently on target for a 1,821 force, and that 
1,821 force sufficiently fills the needs to keep the Marine 
security guard. The extra 1,000 marines that has come out of 
late is additive to that. The Commandant has made it very clear 
that the cost of those personnel and the cost for their 
training, the O&M for those personnel and for those billets 
must be above and beyond what is in our budget piece.
    As far as the cyber community, that has an increased 
appetite, and we have been feeding it, and we will continue to 
do so in an analytical way. That has been a part of the 
process. So as we downsize, you will not see a corresponding 
decrease in those two forces. They are manned for a specific 
mission, and they will be kept at that.
    Senator Blumenthal. Thank you. My time has expired, but I 
want to thank every one of you for your extraordinary service 
to our Nation in a difficult time. I very much appreciate your 
being here today and your very excellent testimony. Thank you.
    Thank you, Madam Chairman.
    Senator Gillibrand. Thank you, Senator.
    Senator Ayotte.
    Senator Ayotte. Thank you, Madam Chairman.
    I would ask, first of all, Secretary Garcia and Admiral Van 
Buskirk, about the civilian furlough impact in the Navy. I am 
very proud of the work done at the Portsmouth Naval Shipyard, 
having visited there recently, and talked to them about the 
civilian furlough impact on the maintenance schedule for our 
fleet.
    Obviously, I think this is a situation that ends up being 
pennywise, pound foolish because we will get behind on the 
maintenance schedule, and will not be able to have our fleet 
ready obviously. Then it costs more in the end as we are 
looking forward to the maintenance costs here for our submarine 
fleet. I just wanted to say I think it is critical that the 
hiring freeze be lifted or waivers approved, particularly for 
critical areas, like maintenance of our submarine program.
    Recently it has been brought to my attention that the Navy 
has developed a plan that could allow the Navy as well as the 
Marine Corps, General Milstead, to use its funds within 
existing appropriations to avoid the civilian furloughs all 
together. Do you anticipate the Office of the Secretary of 
Defense will permit the Navy to move forward with this plan?
    Mr. Garcia. Senator, I appreciate the question, and I know 
you are aware that from the beginning of this process, the 
Navy's position has been that furlough is the last resort. We 
have developed daily plans to minimize--the number, as we 
speak, is 14 days--to bring that number as far down as 
possible. But there are tradeoffs, and this is a deliberative 
process across DOD. We are working with them every day, 
including as recently as a session with the comptroller and our 
Secretary of the Navy yesterday.
    In the meantime, we have no alternative but to--our jobs 
are to manage our workforce such that if the furloughs do go 
forward, the impact on readiness, on long-term maintenance, is 
as minimal as possible, spreading those out where we can, 
trying to drive that number as far down as possible. Scott?
    Admiral Van Buskirk. I would just like to add that I think 
you hit it on the mark. Our biggest concern lies in the 
maintenance areas because that is directly associated with our 
ability to maintain a fleet ready and ready to deploy.
    Senator Ayotte. Yes. You get behind on those issues.
    Admiral Van Buskirk. Yes, ma'am. Of course, we are very 
concerned about that. We are also concerned about it from the 
total force aspect. One of my contemporaries also mentioned 
here about the impact on morale. As this goes forward, it is 
one that we are concerned with because this hits just one 
specific area of our workforce. But still the burden of the 
work is going to be there and have to be picked up by the 
remaining civilians who are there, and uniformed service, and 
Active and Reserves. So we are watching it very carefully. 
Certainly as low as we can get in terms of the furlough days is 
the better for us to be able to manage.
    From a personnel perspective, I represent as well training 
and education uniquely as chief of naval personnel. So we are 
just as concerned there in terms of the furlough days because 
we have many civilians who work in the training environment 
that are the instructors that work in our school houses. 
Therefore, we are concerned about potential impacts to the 
throughput of our sailors who then have to go--will be manning 
the ships to fulfill--to backfill those who are leaving. So it 
concerns us in that area as well.
    Senator Ayotte. I appreciate that it certainly concerns all 
of you. My concern is that we know that certainly the Navy can 
avoid the civilian furloughs, has a way forward to do it. It is 
up to OSD right now.
    I understand what they are saying about looking total 
force, but we have a situation where we are going to pay for 
this in the end. I hope OSD actually goes forward with the plan 
that the Navy has put forward. I will leave it with that.
    I wanted to ask about the Army Integrated Disability 
Evaluation System (IDES). Secretary Lamont, in your prepared 
testimony, you said that fiscal year 2012 was the first full 
year in which the Army used the IDES Army wide, and that it has 
eliminated many of the sequential and duplicative processes 
found in the respective Legacy systems.
    Thank you for you doing that. I appreciate it. I applaud 
your efforts. But currently, what is the average time for a 
soldier to process through IDES?
    Mr. Lamont. We still exceed over 400 days in that.
    Senator Ayotte. Obviously, I think we can all agree that is 
totally unacceptable.
    Mr. Lamont. Yes, we do agree.
    Senator Ayotte. I know that in your prepared remarks, you 
said that soldiers starting IDES today will complete the 
process in less than 295 days. Is that true?
    Mr. Lamont. That is certainly our goal, and we expect to be 
there by the end of this fiscal year.
    Senator Ayotte. Let me ask you this. Please, do not tell me 
you think that 295 days is acceptable either.
    General Bromberg. Two hundred and ninety-five is the duty 
goal, Senator, but what is most important is the care they get. 
Whatever we do, whether it is a complex case to a simple case, 
some will get through in 180 days, but they get the appropriate 
care with the appropriate compensation with appropriate 
benefits in the amount of time that we desire. That is our 
primary goal first.
    Senator Ayotte. But you are not setting the ultimate goal 
at 295 days, are you?
    General Bromberg. That is the DOD goal right now, and that 
is probably pretty reasonable for what the process----
    Senator Ayotte. That is where we are going to keep the 
goal.
    General Bromberg. Ma'am, it may change in the future, but 
we need to meet that goal first.
    Senator Ayotte. No, I want you to meet it, but do not tell 
me that that is where we are going to stop because I just do 
not think that is acceptable.
    General Bromberg. We will not stop there, but we will never 
shortchange the medical care that these folks need to get.
    Senator Ayotte. I think we are certainly all in agreement 
on that.
    General Bromberg. It does take a while for complex cases.
    Senator Ayotte. I have to say, certainly thank God you are 
all in a better--having been in a hearing the other day with 
Secretary Shinseki before the VA, I mean, at least it is better 
than what is happening in many of those cases there. But we 
still have a significant coordination issue obviously with the 
VA that needs to be addressed. It is really important because 
we just hear from too many people that are waiting too long.
    Mr. Lamont. Well, we have been very fortunate, frankly, 
because Congress did give us the ability to increase the 
resources necessary for our health care workers and the people 
who are involved in this process. Through the years, we have 
now standardized our process. We understand where we are going, 
and our throughput is much, much better than it was before. In 
fact, we may have contributed, because of that unexpected 
success, to the VA's problem in that we have created a backlog 
for them that may not have been able to compensate for without 
those additional resources.
    Senator Ayotte. Well, at least you got a system online. 
They are finally getting their system online. I mean, it is 
taking too long for these things. I know you had a comment, 
Secretary Ginsberg.
    Mr. Ginsberg. Just to add to the discussion of the DOD 
standard. This is something, of course, of prime interest to 
our Secretary of Defense and Deputy Secretary. Periodically 
they will get the Service Secretaries, Assistant Secretaries, 
and those responsible for personnel, to look up and down the 
various stages of the IDES and say, is this reasonable? What 
can we do to improve it? Is this really a good metric that is 
in place. So a critical concern is to make sure that we are 
moving everybody through the process, and that the standards 
that are being set are reasonable.
    Senator Ayotte. I thank you all very much for being here 
today and for your service. This is a very important issue that 
I look forward to continuing to work with you on, so that we 
can obviously get our servicemembers evaluated as quickly as 
possible. I know that you are focused on making sure they get 
the care that they need in the interim. But we all share the 
same goal.
    I appreciate you leading in difficult times with 
sequestration, and I thank you for what you are doing.
    Senator Gillibrand. We have time for another round, so if 
you would like to stay, you can have another 7 minutes.
    I would like to ask a little bit more about cyber. I 
appreciated Senator Blumenthal's focus on that. The fiscal year 
2014 budget indicates a large investment in our military cyber 
capabilities. The Pentagon approved a major expansion of the 
U.S. Cyber Command, increased ranks from 900 to 4,900 
personnel, or create the cyber warriors. I understand you are 
going to fortify DOD's own networks, help guide executive 
offense attacks, protect critical infrastructure like power 
grids and power plants.
    Senator Vitter and I have a bill called the Cyber Warrior 
Act, which provides the National Guard to serve a robust role 
in providing cyber experts to the Department. I understand that 
General Alexander is seeking thousands more cyber personnel, 
and that the Services do not have the adequate experts among 
your active duty.
    What is each of your Services doing to recruit and retrain 
individuals with the skills needed for military cyber 
requirements? Do you need additional legislative authority to 
track these individuals to military Service? Is there a better 
way to make use of our National Guard and Reserve to make use 
of cyber skills resident in our society? Why do we not start 
with the Air Force?
    General Jones. Ma'am, we are looking at how we have been 
doing cyber for a while in the Air Force, but we are looking at 
how we take that next step, how we retain and recruit these 
very specialized individuals. Many of them today are military. 
We can use recruiting bonuses. We can use continuation bonuses. 
But under sequestration, all bonuses will be getting severe 
scrutiny as we look to reduce the budget.
    Right now we do not know of any special legislative 
authorities we would need at this point, although we are still 
evaluating that. But we just have to make sure we are not being 
caught up in the old way of thinking as we look down at what 
clearly is going to be a new form of warfare.
    Mr. Ginsberg. Ma'am, if I could just dovetail on General 
Jones' remarks and talk specifically about the role of the Air 
Reserve component, Guard and Reserve. As we go forward and 
figure out what are the requirements to staff up to this new 
cyber command, we are going to make sure that we are looking at 
the portion of that mission that the Guard and Reserve can 
contribute to very carefully. This is certainly relevant. The 
Guard and Reserve could bring some very key contributions.
    You need a continuity of expertise in this mission area. We 
do not move people in the Guard and Reserve at the same level, 
so you need somebody who understands the details, understands 
the change in technology. That could very well be a mission 
that the Guard and Reserve take on more. We have a process in 
the Air Force to really look at what the Air Force mission 
requirements are over the long term, and then think mission 
area by mission area, what is the best balance among the 
various components.
    Admiral Van Buskirk. Senator, I think nothing like that--as 
I look across this table, all of us who are sitting at this 
table, we are collectively working with OSD on this very issue, 
sharing our best practices, our lessons learned as we are 
trying to all, I think, work jointly towards attacking this 
issue, and collectively working towards what should be the 
incentives that we apply. What should be the makeup of the 
people that make up our cyber warriors, the seniority, the 
ratings, the ranks, the MOSs? I think you should be encouraged 
by how well I think the Services are working towards providing 
this critical capability for our national defense.
    Additionally, we are looking at all those things to see if 
there are legislative things that we do need, and that is what 
we all have been working on to make sure we do this together 
jointly so there is no fratricide between us as we go forward, 
or with the other agencies. Clearly, there are a lot of skill 
sets that are demanded from our people which would be in demand 
for other agencies to use. So to make sure we are working with 
the other agencies that are involved in the cyber area, that we 
attack it jointly and look towards how we build the workforce, 
how we sustain it.
    So I think, again, you should be encouraged by how well I 
think we are working towards this to solve those issues, look 
to see where there are seams.
    General Bromberg. Senator, yes. Very similar to my 
colleagues here, looking at everything in detail. But there is 
definitely a place for the Reserve component, particularly when 
we look at the particular skillsets we need.
    We are going to start by using our existing forces 
obviously and build from those capabilities. We have already 
started screening. It does not matter what you are doing today, 
but do you have the right skills and attributes that we would 
look for in cyber warfare?
    We also believe there might be the need for legislation if 
we want to look at something along direct commissioning, going 
out into the civilian market and trying to pull people in. But 
of course with that will come dollars, and I think we will have 
to talk in the future about what kind of incentives because I 
think to maintain this talent and not have it transferred to 
the civilian sector back and forth, we will have to talk about 
compensation at some point. A very unique skill set. From my 
time at the U.S. Strategic Command, a couple of years ago I saw 
the same thing happen as we started this off. So we would be 
very sensitive to that, and we will bring those proposals 
forward jointly, I believe.
    Senator Gillibrand. Thank you. That sounds wonderful. I 
really want to work with you on this and to develop the plan, 
and whatever support you need we want to make sure we get it 
for you because it is such an urgent issue.
    Since I have a minute and a half left, I want to return 
back to hazing and suicides. Obviously the suicide rate is 
horrible. Suicide is not a military specific tragedy, but I 
would like to know what you are doing specifically to prevent 
suicides.
    I have heard that for a lot of the servicemembers, there is 
still a stigma associated with seeking mental health services, 
and there is a fear that it could end a member's career. So 
what is being done specifically to encourage servicemembers to 
come forward? The increase in suicide among people who have 
never been deployed is especially troubling, so what are we 
doing for that particular group?
    Now, with regard to hazing specifically, two of the recent 
suicides were New Yorkers, Private Danny Chen and Private 
Hamson McPherson. They were both minorities serving in the 
military, and it has been suggested that the lack of diversity 
in the military played some role in the hazing that led to 
their suicides.
    It is my understanding that hazing is not an enumerated 
offense in the UCMJ, leaving convening authorities with limited 
options for charging the perpetrators. Do you believe with that 
specifically we should change the UCMJ to make hazing a 
criminal offense? Just more broadly, what is your status 
reporting on hazing? What policy changes do you propose? Do you 
agree that increasing diversity will reduce instances of hazing 
based on individuals being different? What are your Services 
doing to increase diversity? Whoever wants to take it first.
    General Bromberg. Just in time, ma'am, very quickly, we 
have already changed our regulations as far as hazing. We have 
also modified the UCMJ to include where that is chargeable, and 
that is with hazing. We will follow up with the details on 
that.
    Senator Gillibrand. Okay.
    General Bromberg. Because it is a much more longer answer.
    As far as the stigma on suicide--Ready and Resilience 
Campaign in the Army. Again, we will take this for a follow-up. 
We will give you a full detail. That is now we are approaching 
it, building resiliency in individuals and engaging leadership.
    Senator Gillibrand. Thank you. Any other----
    Mr. Garcia. If I could start with the suicide challenge. If 
time permits, Admiral Van Buskirk and General Milstead can take 
you through the specifics of the programs. You will hear things 
about the DSTRESS Line. You will hear about the effort to end 
the stigma of raising their hand. The fact that every marine or 
sailor who have spent 30 days or greater with boots on the 
ground will receive a mental health assessment without having 
to raise their hand. Everyone gets it.
    Senator Gillibrand. Great.
    Mr. Garcia. We will do it again 120 days later. You will 
hear about the mobile training teams that are out in theater 
affirmatively seeking out our individual augmentees and 
assessing their mental health. They can get into those details.
    But if I was to give an overarching departmental wide 
perspective on this challenge, it is this: perhaps the most 
vexing piece of this is that, as I suspect you are aware, 50 
percent of our suicides--our worst tragedy--are nondeployers. 
Of those, 80 percent have never gone outside the proverbial 
wire. When we drill down on these tragedies, and we drill down 
on every one, what we find are all too often, as you alluded to 
earlier, non-military components that came together to cause 
this individual to take the most tragic action.
    Personal finance, relationship issues, professional 
challenges, stress, and that is why we have enacted a series of 
programs from enhanced financial management for our junior 
enlisted personnel and their families to address each one of 
those. If time permits, I know the flag officer----
    Senator Gillibrand. You can submit a full answer for the 
record.
    [The information referred to follows:]

    Mr. Ginsberg and Lieutenant General Jones. We do not believe the 
Uniform Code of Military Justice (UCMJ) should be amended to include an 
enumerated offense for hazing. Under its current construct, our 
military justice system has multiple tools that can be used to respond 
to incidents of hazing.
    Violating the Department of Defense (DOD) anti-hazing regulations 
is an offense under Article 92 of the UCMJ and subjects an offender to 
the possibility of a dishonorable discharge and confinement for up to 2 
years. In addition, the offender could still be accountable for any 
underlying offenses committed during the hazing (most commonly assault 
under Article 128, UCMJ). There is no shortage of enumerated offenses 
under the current UCMJ with which to charge misconduct otherwise 
characterized as hazing.
    Although section 534(b)(3) of the National Defense Authorization 
Act for Fiscal Year 2013 requires each of the Service Secretaries to 
report the methods currently implemented to track and report incidents 
of hazing, and Section 534(b)(4)(E) requires an assessment of the 
feasibility of establishing a database to track incidents of hazing, no 
requirement currently exists for any of the Services to formally report 
hazing.
    Data on hazing in the Air Force, however, is indirectly collected 
through use of our Judge Advocate General (JAG) Corps' Automated 
Military Justice Analysis and Management System (AMJAMS) database. 
AMJAMS is an offender-centric database used by the Air Force legal 
community to track the administration of justice for airmen suspected 
of any UCMJ violation that could result in preferral of court-martial 
charges or nonjudicial punishment. Offenses are tracked in AMJAMS 
according to the specific UCMJ article or articles suspected to have 
been violated in a particular case. Since there is no specifically 
enumerated offense under the UCMJ for hazing, a query of hazing 
offenses in the Air Force is accomplished by searching the narrative 
fields of the database files for key words.
    In the past 5 years, the Air Force has had six reports of hazing, 
with five of those reports substantiated. We have no evidence that 
there is any link between diversity in the Air Force workplace and our 
five substantiated reports of hazing. While there are many benefits to 
increasing diversity in the workplace, it is not clear to us that it 
will have any impact on incidents of hazing.
    We are working hard to identify specific areas of interest in under 
recruited geographic labor markets to enable us to attract and recruit 
the highest quality, diverse individuals to serve in our Air Force. In 
FY12, our Global Diversity Division partnered with the Air Force 
Recruiting Service to conduct a targeted advertising campaign in direct 
mail, digital media and print aimed at attracting high performing 
African American and Hispanic students who might qualify for U.S. Air 
Force Academy (USAFA) or Air Force Reserve Officer Training Corps 
(AFROTC) programs. In fact, the recruiting service devoted 20 percent 
of its fiscal year 2012 marketing budget to initiatives targeting 
specific minority communities (African American and Hispanic) to find 
high performing applicants and counter cultural biases against military 
service.
    In addition to the recruiting service's efforts, the USAFA's 
numerous recruitment efforts and programs, such as its Summer Seminar 
Program, Diversity Visitation Program and Admissions Forum Initiative 
have been successful in many areas and serve as the foundation for the 
future. The Summer Seminar Program targets high performing, diverse 
students who would be USAFA direct entry, USAFA Prep-School or Falcon 
Foundation candidates. The Diversity Visitation Program brings 
prospective minority cadets to the Academy for a 4 day program which 
includes academics, interaction with senior leaders, tours of the Prep-
School and airfield and attendance at a sporting event. The USAFA 
Admissions Forum Initiative conducts 6-10 admissions events per year in 
strategically selected locations with under-representation of target 
populations and includes presentations to area high school students and 
their parents/guardians, training sessions with area Admissions Liaison 
Officers (ALO), informational presentations to local educators/
counselors, and informational/training sessions with local 
congressional staffers.
    In its fourth year as a renewed program for recruiting, AFROTC's 
Gold Bar Recruiting Program will utilize 20 newly commissioned second 
lieutenant Gold Bar Recruiters (GBR) during the 2012-2013 school year. 
GBR's continue to refine their enterprise to find and influence high 
school minority candidates who have exceeded minimum High School 
Scholarship Program (HSSP) selection averages. The diverse backgrounds 
of GBRs allow them to connect with and recruit highly valued diverse 
applicants, some having similar experiences. The young, diverse faces 
of AFROTC recruiting, GBRs attend local, regional and national 
recruiting events.
    In fiscal year 2013/2014, continued coordination between all Air 
Force stakeholders regarding the recruitment of future diverse military 
and civilian candidates will be crucial to our success. Organizations 
across the Air Force enterprise will continue to leverage integration 
of their accession efforts with the goal of gaining economies of scale 
and scope while maximizing the strategic effectiveness and impact of 
the Air Force message to key target audiences.
                                 ______
                                 
    Vice Admiral Van Buskirk. Chairman Gillibrand, your question 
included multiple parts. I will respond to each one, individually:
Question:
    What you are doing specifically to prevent suicides?
Answer:
    Navy's Suicide Prevention Program employs five Lines of Effort, 
guided by an official fleet-wide policy instruction. The first two 
lines of effort--Education & Awareness and Prevention & Intervention, 
prepare leaders and sailors with the tools to navigate life's 
challenges and recognize the factors and warning signs that lead to 
suicide. Operational stress control and suicide prevention awareness 
and skills training are institutionalized at all accession points and 
career milestones. Additionally, in 2011, the Chief of Naval Operations 
established mobile training teams to deliver detailed professionally-
facilitated fleet skills training, on-demand worldwide, for both deck-
plate and senior leaders.
    Because risk factors and warning signs may be more obvious to 
qualified professionals, we've developed collaborative partnerships 
with care providers; medical, chaplains, and other Navy-affiliated 
counselors, to leverage their unique expertise in recognizing risks in 
care and treatment settings to actualize our third line of effort--
Sailor Care & Transformational Growth. These experts are key in the 
reintegration process as well, returning ready sailors to their 
commands. We've also developed and instituted training for legal 
officers, designed to enable them to proficiently recognize at-risk 
sailors in legal trouble, and focused staff training for transient 
personnel units where sailors are temporarily billeted while they 
prepare for separation from naval service.
    Navy suicide prevention policy mandates that every command appoint 
a suicide prevention coordinator, who receives formal training and is 
responsible for local suicide prevention activities, annual command 
general military training, crisis response preparedness and reporting 
requirements. Suicide prevention coordinators contribute to building a 
supportive command climate and assisting leaders with maintaining an 
environment that promotes our fourth line of effort, Physical, Mental 
and Spiritual Fitness. Program-branded strategic communications 
products provide suicide prevention coordinators, leaders, and sailors 
with information on tools and education available to help them preserve 
their personal readiness, navigate stress and seek help before 
stressors compound. Additional ``postvention'' outreach is conducted 
for commands that have experienced a suicide to help them return to a 
mission-ready state.
    The fifth line of effort, Assessment, informs program managers and 
Navy leaders through suicide data collection and analysis, and fleet 
feedback using annual Behavioral Health Quick Polls and the Command 
Stress Assessment, which is part of the Defense Equal Opportunity 
Climate Survey required to be completed annually by every Navy unit.
Question:
    What is being done specifically to encourage servicemembers to come 
forward?
Answer:
    Encouraging help-seeking behavior is a critical component of our 
program's mission. Navy addresses policy barriers that lead to hiding 
stress injuries, suicidal behaviors and emotional stress, to ensure 
that commands understand leadership's commitment to upholding seeking 
help as a sign of strength. All of our training, informational 
products, leadership messages and multi-media resources encourage 
sailors to ``ACT: Ask, Care, Treat.'' The 2012 Behavioral Health Quick 
Poll revealed that over 87 percent of sailors were able to correctly 
identify the ACT acronym, and many believed that shipmates would be 
supportive if a sailor sought help from the Navy for suicidal thoughts 
or actions. Committed to minimizing the negative perceptions and 
misconceptions regarding seeking help, Navy introduced the message 
"It's Okay to Speak up When You're Down" in 2012. This message was 
presented to the fleet through a highly successful Public Service 
Announcement (PSA) contest that offered first-hand depiction of sailor 
perceptions. Several high quality PSAs are now being used for command-
level training and awareness. We have also developed resources to 
promote healthy discussion of stress and suicide, as well as those that 
address myths about the perceived negative effect of reporting 
psychological health issues on security clearance form SF86. 
Additionally, this year, Navy has initiated a high degree of 
collaboration with the Chaplain Corps to reinforce their 
confidentiality campaign and promote awareness of Navy chaplains' 100 
percent confidentiality policy. We continue to find new and creative 
ways to encourage those who have successfully sought treatment for 
emotional or psychological issues to come forward and be an example for 
shipmates, normalizing and rewarding help-seeking actions.
Question:
    So, what are we doing among people who have never been deployed?
Answer:
    The current Navy operating environment and operational tempo do not 
appear to directly increase the risk of suicide, likely due to high 
unit cohesion and camaraderie during deployment, in conjunction with an 
elevated sense of belonging and purpose. These are protective factors 
against suicide. Therefore, our Operational Stress Control and Suicide 
Prevention training and awareness efforts focus heavily on recognizing 
the same stressors faced by both civilians and sailors, deployers or 
non-deployers, e.g., relationship difficulties, financial troubles, 
career decline, substance abuse, and psychological health, in 
conjunction with service-related factors such as transition periods. 
From the time sailors enter the Navy--having never experienced a 
deployment--throughout the duration of their careers, operational 
stress control courses are the cornerstone of our fleet stress 
management training, providing an integrated structure of health 
promotion and resilience-building designed to improve stress coping 
skills and ultimately to prevent suicide. Initial program awareness 
training is delivered at Recruit Training Command, and is then mandated 
annually through General Military Training at every Navy command. 
Additionally, tailored senior leadership training is delivered at the 
Senior Enlisted Academy and Command Leadership School, to help leaders 
recognize the signs of distress in all sailors and all operating 
environments.
Question:
    Do you believe we should change the UCMJ to make hazing a criminal 
offense?
Answer:
    There is no need for a new article of the UCMJ to specifically 
create an enumerated offense of hazing. The conduct which constitutes 
hazing is already sufficiently punishable under existing articles. 
Although hazing is not a stand-alone offense under the UCMJ, the UCMJ 
does allow for its effective prosecution. It is punishable under 
Article 92, UCMJ, for Violation of a Lawful General Order. The maximum 
punishment for hazing as an orders violation is dishonorable discharge, 
2 years of confinement, total forfeiture of pay and allowances, and 
reduction to pay grade E-1.
    Under Navy instruction, hazing is defined as any conduct whereby a 
military member or members, regardless of service or rank, without 
proper authority causes another military member or members, regardless 
of service or rank, to suffer or be exposed to any activity which is 
cruel, abusive, humiliating, oppressive, demeaning, or harmful. No one 
can consent to hazing under the instruction.
    In addition to Article 92, servicemembers alleged to have committed 
hazing can also be charged with additional offenses under the following 
articles:

        -  Article 93, Cruelty and Maltreatment. This article may apply 
        when the accused is in a position of authority over another 
        person (such that the accused can issue orders to that person), 
        and the accused is cruel toward, or oppresses, or maltreats 
        that person. Maximum punishment: dishonorable discharge, 1 year 
        confinement, total forfeitures of pay and allowances, and 
        reduction to pay grade E-1.
        -  Article 128, Assault. Depending on the circumstances and 
        method of assault, the crime may be prosecuted as simple 
        assault; assault consummated by a battery, or aggravated 
        assault. Maximum punishment for the type of aggravated assault 
        that may be the result of hazing: dishonorable discharge, 3 or 
        5 years confinement (depending on the facts), total forfeitures 
        of pay and allowances, and reduction to paygrade E-1.

    Hazing-related offenses can be prosecuted at general, special, or 
summary courts-martial or servicemembers can receive non-judicial 
punishment or administrative separation for conduct that constitutes 
hazing.
    The Acting General Counsel of the Department of Defense recently 
tasked the Joint Service Committee on Military Justice (JSC) to 
evaluate the possibility of establishing a specific ``hazing'' offense 
within the UCMJ. The JSC concluded that the UCMJ currently provides 
sufficient authority to prosecute hazing offenses. The JSC did propose 
a change to the Manual for Courts-Martial: the inclusion of an Analysis 
section, which will provide specific guidance to trial prosecutors on 
charging hazing incidents as a violation of a lawful order, under 
Article 92. Another proposal being reviewed is a sentence enhancement 
for hazing. If adopted by the President, this enhancement would 
increase the authorized maximum punishment for an Article 92 violation, 
if that violation constituted hazing.
Question:
    What is your status on reporting on hazing?
Answer:
    The requirement to report an act of hazing is outlined in the 
Department of the Navy's hazing instruction and Navy's Special Incident 
Reporting Procedures. By Department of the Navy policy, any allegation 
of hazing must be reported to the commanding officer, who must report 
any substantiated incident to the Chief of Naval Operations.
Question:
    What policy changes do you propose?
Answer:
    We propose no changes to current hazing policy, which is clear and 
unambiguous.
Question:
    Do you agree that increasing diversity will reduce instances of 
hazing based on individuals being different?
Answer:
    There is currently no data that supports the premise that increased 
diversity will reduce instances of hazing. Every member of the 
Department of the Navy must be afforded the opportunity to be a 
productive and contributing member, free of hazing and its ill effects.
Question:
    What are your Services doing to increase diversity?
Answer:
    Navy is utilizing focused outreach and recruiting to maintain and 
expand diversity of accessions, and is utilizing internal programs to 
enhance retention and development of all sailors. The rescission of the 
combat exclusion rule opened equal professional opportunity for women 
and the implementation of proactive programs e.g., longer post-partum 
deployment waivers, changes to sea/shore rotations, the career 
intermission pilot program, are having a positive impact on retention 
of women. Navy has moved away from an episodic, to a sustained, model 
of outreach to underrepresented groups. A Vice Chief of Naval 
Operations-led panel oversees the allocation of Navy outreach funds and 
strategy. Navy Recruiting Command utilizes Navy City Outreach Officers 
to directly contact diverse groups in their respective areas of 
responsibility. Individual Navy communities are accountable to the 
Chief of Naval Operations during their annual community self-assessment 
briefs for diminishing barriers to retention and advancement of diverse 
groups.
                                 ______
                                 
    Lieutenant General Milstead. Senator Gillibrand requested the 
following responses based on the hearing transcript page 56 thru page 
59:

    1.  Obviously the suicide rate is horrible. Suicide is not a 
military specific tragedy, but I would like to know what you are doing 
specifically to prevent suicides? Preventing suicide requires vigilance 
and our concerted effort to harness the strength of engaged leaders.
Answer:
    Suicide is a very complex problem and it takes a multilevel (unit, 
family, peer, individual, community, society), multifaceted 
(individual/peer suicide prevention, family training, responsible 
reporting of suicide, stigma reduction of receiving behavioral 
healthcare treatment, case management) public health approach to 
prevent suicide. The mission of the Marine Corps as it relates to 
suicide prevention is to consistently and aggressively identify sources 
of risk and develop a comprehensive and strategic approach to address 
them.
    Identifying at risk: All marines are taught to recognize the 
warning signs of suicide, ask if a marine is thinking of suicide, 
express genuine care and concern for the marine, and immediately escort 
the marine to help. Marine Corps leaders are taught to know their 
marines on a personal and professional level and show genuine 
compassion and concern for all of the marines. Leaders are also taught 
that they serve as models to show marines that it takes a strong, 
committed marine to ask for and receive help.
    Comprehensive and Coordinated Services: To efficiently manage 
behavioral health risk, protective factors, and ultimately prevent 
suicide, the Marine Corps has combined all related programs under one 
behavioral health branch, and is developing integrated training 
programs to address common risks and protective factors across all 
domains of behavioral health. The training supports universal awareness 
and selected and indicated training for certain high risk Marine 
populations. It will consolidate all behavioral health information, 
including our Never Leave A Marine Behind training, into a single 
training session that focuses on common risk and protective factors 
across the full spectrum of behavioral health issues.
    Operational Stress Control and Readiness (OSCAR) serves suicide 
prevention by providing marines the avenue to recognize, acknowledge 
and seek help for stress reactions, which can lead to suicide. OSCAR 
supports commanders in building unit strength, resilience and 
readiness, therefore, keeping marines in the fight. The OSCAR team 
training creates teams of marines, medical, religious personnel, and 
mental health professionals within each battalion, or equivalent unit, 
who work together to create a network of support. This model empowers 
marines with leadership skills to break stigma and act as sensors for 
the commander by noticing small changes in behavior and taking action 
early.
    The Marine Corps is implementing a Case Management System (CMS) 
that reaches across multiple programs. The system assists in the 
identification of at-risk marines and improves appropriate service 
delivery as well as aftercare efforts. The CMS better equips the Marine 
Corps to closely monitor marines at-risk for suicide to ensure they 
receive appropriate care.
    The Marine Corps DSTRESS Line provides anonymous, 24/7 counseling 
services to any marine, attached sailor, or family member. The line is 
staffed by veteran marines and Fleet Marine Force corpsmen, Marine 
family members and civilian counselors specifically trained in Marine 
culture. The counseling gives callers `one of their own' to speak with 
about their issues.
    Additional ongoing and new prevention efforts are happening as 
well. This includes appointment and training Suicide Prevention Program 
Officers for each battalion and squadron to essentially serve as the 
``eyes and ears'' of the suicide prevention program for the commanding 
officer.

    2.  I have heard that for a lot of the members of the troops, there 
is still a stigma associated with seeking mental health services, and 
there is a fear that it could end a member's career. So what is being 
done specifically to encourage servicemembers to come forward?
Answer:
    It is important for marines to know that their leadership believes 
that they should seek help when faced with hard times and pain in their 
lives. Having engaged leaders that are alert to those at risk for 
suicide and take action to help them get help goes far to removing any 
notion of stigma. Additionally, it is essential to have leaders that 
show genuine care and concern for the marine, and who immediately 
escort the marine to help. It is also necessary for our leaders to 
serve as models to show marines that it takes a strong, committed 
person to ask for and receive help and by doing so lives up to the 
marine ethos. Through our various training programs, the Marine Corps 
is showing that our leaders are committed to standing behind our 
marines and their families when they need help spiritually, physically, 
psychologically and socially.
    One particular program that helps remove stigma is OSCAR. OSCAR 
serves suicide prevention by providing marines the avenue to recognize, 
acknowledge and see help for stress reactions, which can lead to 
suicide. OSCAR supports commanders in building unit strength, 
resilience and readiness, keeping marines in the fight. The OSCAR team 
training creates teams of marines, medical, religious personnel, and 
mental health professionals within each battalion, or equivalent unit, 
who work together to create a network of support. This model empowers 
marines with leadership skills to break stigma and act as sensors for 
the commander by noticing small changes in behavior and taking action 
early.

    3.  The increase in suicide among people who have never been 
deployed is especially troubling, so what are we doing for that 
particular group?
Answer:
    Regardless of the deployment history of a marine, the Marine Corps 
has programs that are available to decrease stress involving suicide 
risk factors, such as, relationship problems, legal or disciplinary 
problems, behavioral health diagnoses, financial problems and substance 
abuse. In addition, our Operational Stress Control and Readiness 
(OSCAR) program is currently being refreshed with a curriculum that is 
applicable to all duty assignments. Content is driven by questions 
rather than scenarios and key messages/topics are relevant regardless 
of deployment history. Pilots are underway for the updated OSCAR 
training with planned force-wide implementation in late summer 2013.

    4.  It is my understanding that hazing is not an enumerated offense 
in the UCMJ, leaving convening authorities with limited options for 
charging the perpetrators. Do you believe with that specifically we 
should change the UCMJ to make hazing a criminal offense?
Answer:
    The Marine Corps recommends that no specific hazing offense should 
be created under the UCMJ or the MCM because it is unnecessary. 
Enumerating a specific hazing offense under the UCMJ or the MCM would 
be duplicative of existing articles under which hazing can be 
appropriately charged. Creating a new hazing offense will not improve 
accountability or adjudication of hazing. Under its current construct, 
our military justice system has multiple tools that can be used to 
respond to incidents of hazing.
    Violating the DOD anti-hazing regulations, in and of itself, 
subjects the offender to the possibility of a dishonorable discharge 
and confinement for up to 2 years. That charge, however, does not speak 
to the underlying offense. The offender could still be accountable for 
any additional offenses committed during the acts which constitute 
hazing. There are no shortage of enumerated offenses with which to 
charge misconduct that qualifies as hazing.
    Hazing often has an assault component, and such misconduct will 
generally be charged separately. In many such cases, the assault is the 
gravamen of the offense. Since the prevention of hazing is tied to good 
order and discipline, Article 92 (violation of failure to obey a lawful 
general order or regulation) is an appropriate mechanism by which to 
enforce that standard. Moreover, statutory definitions are difficult to 
amend and update over time. When using Article 92 to prosecute hazing, 
DOD and the Service branches may update or amend the parameters of 
hazing much more effectively.
    To the extent that Article 92 is the appropriate mechanism with 
which to charge those who violate the hazing policy, the Marine Corps 
recommends including guidance on pursuing charges against 
servicemembers suspected of hazing under Article 92, in a discussion 
section to be added under that Article, in Part IV of the MCM. The 
discussion would read as follows:
    ``Department or Service regulations may promulgate policies on 
hazing and prescribe punitive provisions. Where such punitive 
regulations exist, incidents of hazing may therefore be charged as 
violations of Article 92(1), violation of failure to obey a lawful 
general order or regulation. In addition to Article 92, practitioners 
in all armed services may consider additional charges under other 
punitive articles based upon the underlying conduct of hazing 
incidents.''

    5.  With regard to hazing specifically, two of the recent suicides 
were New Yorkers, Private Danny Chen and Private Hamsom McPherson. And 
they were both minorities serving in the military, and it has been 
suggested that the lack of diversity in the military played some role 
in the hazing that led to their suicides. What is your status reporting 
on hazing?
Answer:
    Effective 20 May 2013, the Marine Corps' policy for reporting 
allegations of hazing was revised and republished within Marine Corps 
Order (MCO) 1700.28B. Under this order, all allegations of hazing will 
be reported to Headquarters, U.S. Marine Corps (HQMC). This reporting 
requirement is not subject to, or dependent upon, the results of 
investigation used for determining whether or not allegations are 
substantiated.
    As a result of this revised reporting policy, HQMC will be more 
aware of the prevalence of hazing throughout its ranks and more 
effective in tracking hazing cases as they proceed through adjudication 
processes.

    6.  With regards to hazing, what policy changes do you propose?
Answer:
    Effective 20 May 2013, the Marine Corps' hazing policy was revised 
and republished as MCO 1700.28B. The most significant changes reflected 
in the Marine Corps' new hazing policy include expanded reporting 
requirements, implementation of new tracking procedures, and 
refinements to the definition of hazing. With it promulgation all 
allegations of hazing will be reported to Headquarters, U.S. Marine 
Corps (HQMC). This reporting requirement is not subject to, or 
dependent upon, the results of investigation used for determining 
whether or not allegations are substantiated.
    In addition to the implementation of increased reporting 
requirements, MCO 1700.28B mandates the entry of all hazing allegations 
into the already existing Discrimination and Sexual Harassment (DASH) 
database. Once entered into the DASH database, all allegations will be 
tracked by HQMC from initial report to final disposition.
    Finally, the definition of hazing has been refined to specifically 
describe actions or activities that may be considered hazing. Marines 
of all ranks participated in the revision process, which has resulted 
in a more refined definition that will provide increased clarity to 
junior marines.
    In addition to providing a more comprehensive and presumably 
effective hazing policy, the Marine Corps has also taken the necessary 
actions to ensure that questions directly related to hazing are 
included on command climate surveys. The purpose of this initiative is 
to proactively identify and address underlying issues within the 
command environment that may contribute to incidents of hazing.

    7.  Do you agree that increasing diversity will reduce instances of 
hazing based on individuals being different?
Answer:
    Currently, we have not identified a linkage between hazing and 
race, ethnicity, or gender.

    8.  What are your Services doing to increase diversity?
Answer:
    Four main points illustrate the Marine Corps' diversity strategy:

    1.  Identify, attract and retain the best.
    2.  Create a climate that allows marines to perform at their peak.
    3.  Assess and understand the eligible population and their 
influencers.
    4.  Remove institutional barriers that hinder opportunities
Executive Engagement on Diversity
    The Commandant's Diversity Initiative includes four diversity task 
forces. These task forces have taken ownership of diversity challenges 
associated with ethnic minorities, leadership, women and service 
culture. Three-star executive sponsors are providing guidance and 
oversight of each task force. The task force concept represents a 
significant philosophical shift-from ignoring human variations to 
uncovering and understanding them in order to drive actions. Through 
research and discussion of key questions, marines assigned to the task 
forces will play a key role in charting the way ahead for diversity in 
the Marine Corps. In order to ensure all officers and senior staff 
noncommissioned officers have an opportunity to be heard regarding 
diversity in the officer corps, all have been invited to participate in 
an online survey. The survey is a supporting arm of the task force 
effort in that it addresses: Culture and Leading Change; Leadership, 
Accountability, and Mentoring; Race/Ethnicity; and Women in the Corps. 
Analysis of the focus groups' themes and other resources may be used to 
direct future diversity actions and initiatives.
Marine Corps Leadership Seminar (MCLS)
    The Marine Corps continues to present the Marine Corps Leadership 
Seminar to university students and community influencers at venues 
across the nation. In calendar year 2012, the Marine Corps conducted 6 
MCLSs and reached 242 students and 334 influencers. During the spring 
of calendar year 2013, the MCLS held 5 seminars and 1 reception which 
provided the opportunity for Marine officers to interact with a diverse 
audience of over 275 students and 40 influencers. The MCLS schedule 
included seminars at Virginia Commonwealth University, University of 
North Carolina at Chapel Hill, North Carolina State University, North 
Carolina Central University, and the Wake County Young Men's Leadership 
Academy, a magnet high school. The MCLS in conjunction with Marine 
Corps University is currently scheduled to visit the University of 
Washington's Daniel J. Evans School of Public Affairs in June 2013. In 
addition, leadership seminars are scheduled in Louisville, KY, in 
September and Atlanta, GA, in October. These seminars showcase Marine 
Corps leadership to diverse communities across the United States. The 
focus is on providing instruction and establishing dialogue with both 
student and faculty groups at colleges and universities. The intent is 
to offer participants an introductory understanding of the Marine 
Corps' unique brand of leadership. The MCLS accomplishes this by 
employing General Officers, active and retired, field-grade officers, 
company-grade officers and Staff Noncommissioned Officers to deliver 
personal leadership perspectives to each target audience.

    Senator Gillibrand. It is something I want to work with you 
on. I also want to offer whatever resources you need. Any 
collaboration you need from the Senate on these issues I will 
provide because it is such an urgent issue.
    Mr. Garcia. Great.
    Senator Gillibrand. Thanks.
    General Jones. Ma'am, one of the things we have done which 
is innovative is we have started embedding our mental health 
providers in the primary care facilities, not in the mental 
health clinic, but where you go for sick call, so that if you 
go in to see a doctor and the doctor is questioning you about 
how things are going, and he feels like there is a mental 
health issue here, he does not need to take you down the hall 
to mental. He walks you across the hall to a provider within 
that little office of six or seven providers so no one knows 
that you are going to see someone, where you can be evaluated 
to see if there is a mental health issue.
    We, like all the other Services, have found in the Air 
Force specifically there is no causal relationship between 
deployment, so we have to go after those things that do cause 
it. Relationships, financial problems, and legal problems are 
the top three things in the Air Force that cause it. The 
numbers will continue to be a challenge for us all, but we 
cannot take our eye off the ball.
    We share your concern and your passion for this issue 
because it is just a tragedy we cannot afford to let happen in 
our Services.
    Senator Gillibrand. Thank you.
    Senator Blumenthal?
    Senator Blumenthal. Thank you. I would like to pursue a 
topic that a number of you raised in your written testimony, 
which is the transition assistance program (TAP), preparation 
for life after the military, which will be an increasingly 
important and prevalent challenge given the draw downs and the 
reduced numbers of active duty that are going to occur.
    I assume that every one of the Services are at work on 
initiatives going forward, even beyond what you described in 
your testimony. So maybe I could ask each of the Services to 
expand on what you have given us in your testimony. We can 
just--in whatever order.
    Mr. Ginsberg. Senator, this was a major priority of the 
President last year, and he launched into a veterans 
opportunity work, veterans employment initiative, that 
basically really directed the Services to look at our 
transition assistance up and down. That goes well beyond just 
redoing the TAP, which held a 3-day seminar. It was 
fundamentally enhancing it, adding new career tracks.
    It also helps servicemembers be more career ready earlier 
on, to help start thinking about the transition and what they 
are going to do next even if they might be in the Service for 
20 years. But as they go along, to always just be ready so that 
if for some reason through force management actions they find 
themselves in a transition, they will be prepared and be able 
to move out.
    So we have applied manpower to this. We have applied 
resources. But it is an entirely redesigned program, again, 
presidentially directed that we will be rolling out in the 
months and years ahead.
    [The information referred to follows:]

    The Air Force is aggressively rolling out the redesigned Transition 
Assistance Program (TAP), and capturing monthly updates from 
installations Air Force-wide on the status of implementation. The Air 
Force was in compliance with the Veterans' Opportunity to Work Act by 
the 21 Nov 12 due date, with all active duty installations ready to 
provide the redesigned TAP.
    The Air Force TAP assists our transitioning airmen to be 
competitive in the private sector during this period of challenging 
economic conditions. The overall goal of TAP is to provide separating 
or retiring servicemembers and their families the information, skills, 
and resources, as well as personal and financial wellness and life 
skills needed for a successful transition to the civilian sector. Prior 
to the re-design of TAP, the Air Force provided pre-separation 
counseling, workshops, and Department of Veterans Affairs (VA) benefits 
briefings to separating airmen.
    With the redesign of TAP, there were major changes and improvements 
to the program. An example includes the increased partnership between 
the Department of Labor (DOL), the Department of Education (DOE), the 
Small Business Administration (SBA) with the Department of Defense and 
the VA to provide new courses to transitioning servicemembers. Also, 
Transition Goals, Plans and Successes (GPS), a 5-day workshop, is now 
mandatory for all separating servicemembers as part of the new program. 
Part of Transition GPS is a new 3-day curriculum on gaining employment 
administered by the DOL. Also part of Transition GPS, the VA benefits 
briefing has been revised and is mandatory for everyone. Other changes 
surround the policy on attendance. Airmen who do not already have 
confirmed employment or acceptance to school, must participate in one 
of the following workshops: Technical Track (Run by VA), 
Entrepreneurial Track (Run by SBA), and the Education Track (Run by the 
DOE). In addition, a capstone event is added to provide a time for the 
service to verify the airman has completed all components of TAP, has 
met the Career Readiness Standards, and has received the resources and 
information he/she needs to be successful upon separation. Ultimately, 
TAP will no longer begin at the time a servicemember decides to 
separate from the Air Force. With the redesign, TAP will start from the 
time an airman enters the Air Force and continue throughout the 
Military Life Cycle. Lastly, additional resources have been added to 
support the new requirements, to include manpower and funding.
    Feedback from airmen who are separating or retiring and have 
attended the new TAP program has been consistently positive, and have 
found the program useful. Our stern focus on providing our Air Force 
personnel who are separating and/or retiring with the information, 
skills, and resources needed for a successful transition to the 
civilian sector continues to grow. We are committed to exploring new 
means of sustaining innovative, timely and relevant support to our 
airmen that have defended this Nation.

    General Milstead. For the Marine Corps, our effort to 
rebuild our TAP precedes the Veterans' Opportunity to Work Act. 
The Commandant started that. That was one of the Commandant's 
planning guidance. It was to fix TAP. It was broken terribly. 
It had not received any attention in 15 years.
    We are actually stepping out now with the new program. It 
has a common module where everybody goes through. There could 
be somebody that is, say, an officer or enlisted. They get the 
same common presentations that they need on VA, those sorts of 
things. Then we bust them off to use the analogy of whatever 
your window is. If you are going to college, you go down the 
college path. If you are going to get into an entrepreneurship, 
you are going to open up your own business, you go down that 
path. If you are going to do a vocation or do something like 
that, be a truck driver, then you go down that path. If you are 
going to college, then you go down that path because you do not 
want to sit there--I do not need what you need, and you do not 
need what I need, and it is a waste of time. We constrict it to 
1 week because after a week, you lose them.
    Then, we are putting it online, and we are having the reach 
back capability for those that do not listen, sit there, they 
text the whole time because, you know what? They are going to 
Costa Rica and surf for 6 months. Then when they come back and 
then they decide, oh, my gosh, what was it they said, they can 
come back online. They can reach back in. So this has the 
Commandant--it is one of his top, top topics.
    Senator Blumenthal. Thank you.
    Mr. Garcia. The only thing I would add to that, Senator, is 
TAP, which we have known for the last decade and a half, is 
unrecognizable to this new regime. I will just caveat that the 
General's insights into the individual, specifically tailored 
tracks by saying there is a baseline that every transitioning 
member will get before they go into those individuals chutes. 
They will be signed off on having received their full VA 
benefit package review, their full Department of Labor series 
of benefits and programs available to them there. Each of them 
will be advised on how their specific military specialty, their 
MOS, their Navy Enlisted Classification (NEC), translates into 
civilian industry in the private sector.
    Senator Blumenthal. Thank you.
    Admiral Van Buskirk. One thing I would like to add is, and 
I think General Milstead pointed to this, is that by virtue of 
going after this jointly, we are also stimulating some great 
innovation on how to deliver these products. You mentioned 
reach back and application, apps, so that the information is 
not just available to the person for a short period of time. It 
is available for a long period of time and can be updated and 
made more current, and, I think, more of interest to our 
members who are transitioning so they will pay attention, and 
they will have the resource for a longer period of time.
    General Bromberg. Senator, as my colleagues have said, 
totally different program, mandatory, 5 days. Great program.
    As far as the Army, we have increased counselors to over 
400. This year we have almost 700 counselors worldwide to help 
soldiers. We have 25 forward locations to help the Reserve 
component as they demobilize or as they leave Service and 
Reserves. We also have 76 locations for the Active component. 
Virtual capabilities have now been added. Virtual job fairs are 
becoming very popular.
    In addition, the Army has wrapped this up in a Soldier for 
Life program where we are engaging industry in the communities. 
Many, many partnerships. I meet quarterly with 25 global 
companies to talk about removing barriers to veterans, and that 
has shown us a lot of product and a lot of great initiatives.
    Lastly, a great initiative with the American Pipefitters. 
We have started a pilot up at Fort Lewis, WA, where they have 
actually taken soldiers while on duty time have trained, and 
they will become journeymen with a job guarantee when they 
complete the course. So great initiatives going forward.
    Mr. Lamont. Just to follow up on that, it is the 
credentialing that we are really trying to help with with some 
new programs. If you are a truck driver, for instance, in the 
Army, you may be very well qualified to receive a commercial 
driver's license in the State of Connecticut. Without having to 
go through additional training or pass a test, or what's the 
equivalent? We are trying to make sure that in many of these 
occupations, we can have a direct transfer, whether you are an 
electrician--what are your qualifications you would have to 
have in the various States.
    We have any number of occupations similar to that, as you 
say, the pipefitter situation. In Illinois, for instance, the 
Heroes to Heart has a program with the teamsters, is very much 
focused on the over the road driver.
    But those credentialing programs are going to be very, very 
important in moving them very quickly into the private sector.
    Senator Blumenthal. I would like to thank each of you for 
your information on this point. I think I do not need to tell 
you because you know it better than I, that this area is really 
so critically important, not only to our present service men 
and women, but also to the veterans who are merging and have 
such contribution and skills to provide to our Nation. So thank 
you very much. I would like to follow up individually with you 
afterward.
    My time has expired. Thank you, Madam Chairman.
    Senator Gillibrand. Thank you to each of you for your 
extraordinary service, your very, extremely helpful testimony. 
We look forward to writing this year's authorization bill with 
your assistance. Thank you again for all you have done.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Lindsey Graham

                           CIVILIAN FURLOUGHS

    1. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, I am concerned about the potential impact of 
civilian furloughs on the Services' critically important family support 
programs. If furloughs take place, do you expect any cutbacks in your 
operating hours at commissaries, exchanges, and child development 
centers or curtailment of morale, welfare, and recreation, Department 
of Defense Education Agency (DODEA) programs, Transition Assistance 
Program or military spouse employment programs?
    Mr. Lamont. As a result of funding reductions/furlough guidance, 
each commissary will close 1 day per week. Operations at 7-day stores 
will reduce to 6-day operations; 6 days to 5; and 5 days to 4. Stores 
will be closed 1 additional day a week unless adequate local nationals 
are available to remain open in overseas locations. HQ/Areas Operations 
will be closed to coincide with store closures. There will be no impact 
on operating hours at the Exchange.
    As far as DODEA, furloughs will not affect the end of the 2012-2013 
school year. Though furloughs will be in place at the start of the 
2013-2014 school year, the number of days has not been confirmed. 
Regardless, DODEA will ensure that all students have a robust academic 
year. School staff will ensure students receive a full year of academic 
study even within a slightly shortened academic year due to the 
furloughs.
    Transition counseling services are contracted by a fully-funded 
contract through 30 Sep 13. There will not be a decrease/delay in 
providing transition services to soldiers and their families. However, 
the program is overseen at most installations by Transition Services 
Managers (TSMs), who are civilian employees. Garrisons will have a 
civilian employee or military personnel available to oversee contract 
operations during the time the TSM is furloughed. At smaller 
installations, transitioning soldiers will utilize virtual counseling 
services to meet Veterans Opportunity to Work Act requirements.
    Family and Morale, Welfare, and Recreation (FMWR) programs and 
services are currently frozen at fiscal year 2012 levels. 
Nonappropriated Fund (NAF) employees are currently exempt from 
furlough, which includes 2,637 full-time Child Development Center (CDC) 
and School Age Center (SAC) employees. These individuals will continue 
to maintain 5-day coverage of centers to accommodate the needs of 
soldiers and families.
    Although NAF employees are the primary service providers for most 
FMWR programs and services, appropriated fund (APF) employees are 
utilized within Army Community Service (ACS) Centers and, in some 
cases, Community Recreation programs. These employees are subject to 
furlough and some services will be impacted. Installation Senior 
Commanders and Garrison Commanders will determine the optimum method of 
furlough implementation with the goal of minimizing disruption to 
critical soldier and family programs. Some of these key programs 
include spouse employment, victim advocacy for sexual assault and 
domestic violence, Army emergency relief, support to exceptional family 
members, child abuse prevention and intervention support, support to 
wounded warriors and their families, and support to survivors. In most 
cases, our ACS Centers plan to close one day per week during the 
furlough period. In order to mitigate the effect of furlough, ACS 
Centers will develop strategies to ensure 24/7/365 coverage for key 
services such as victim advocacy and child abuse/domestic violence 
response. We encourage our centers to rely on electronic resources such 
as Army OneSource and Military OneSource to provide information and 
link up service providers to our soldiers and families.
    Mr. Garcia. The Defense Commissary Agency has advised that the 
furlough may result in the closure of each commissary one day a week.
    Nonappropriated Fund (NAF) employees are exempt from furloughs and 
there is no anticipated impact to Navy Exchange or Marine Corps 
Exchange operations.
    There is no anticipated impact to operating hours for child 
development centers as child care providers are exempt from the 
furlough.
    The Navy does not expect any significant disruptions to family 
programs. Navy Family Support Programs and Services will establish 
staggered staffing hours and utilize furlough-exempt personnel to 
minimize the service delivery impact. This will accommodate furlough 
days for GS staff and allow us to maintain uninterrupted support for 
family services such as, family readiness centers, Sexual Assault 
Prevention and Response (SAPR) programs, spouse employment services, 
clinical counseling services, and financial counseling services.
    Navy Morale, Welfare and Recreation activities, while implementing 
reduced hours of operation in all programs, including libraries, 
swimming pools and fitness centers, will minimize disruption by 
adjusting hours to peak usage periods.
    The Defense Education Activity (DODEA) has indicated that furloughs 
will be in place at the start of the next school year 2013-2014. DODEA 
is planning an approach that will not risk a full year of academic 
credit for our students.
    Furloughs will have no direct impact on the Department's ability to 
implement the new transition assistance program as directed by the 
Veterans Employment Initiative Task Force.
    Mr. Ginsberg. Civilian furloughs will have a negative impact on our 
ability to provide, and maintain, a variety of services to our airmen 
and their families. Specifically, commissaries will close 1 additional 
day per week and MWR programs are projected to experience reduced hours 
of operation and/or closed facilities. Additionally, budget reductions 
will have a negative impact on our ability to timely transform our 
activities to make our Services more efficient.
    With the exemption of 1,610 child care employees, we will continue 
to provide child care operations and minimize the impact to airmen and 
their families. Additionally, we do not anticipate Army and Air Force 
Exchange Service, TAP and Military Spouse Employment to be affected by 
furloughs.

    2. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, if civilian furloughs, in response to 
sequestration, impact the mission of the Military Entrance Processing 
Stations, then what options does your Service have to ensure your 
recruit accessions are not disrupted?
    Mr. Lamont. By shifting funding, the Army addressed the risk of 
accession mission failure in fiscal year 2013 and fiscal year 2014 due 
to sequestration. Civilian furloughs will not affect the ability of 
Army accessioning agencies to achieve fiscal year 2013 accession 
missions. If the U.S. Military Entrance Processing Command curtails 
operations in fiscal year 2013 due to civilian furloughs, some delays 
in contracting new soldiers for entry into the Army in fiscal year 2014 
may occur. For example, the Military Entrance Processing Stations will 
be shut down for one day per week. This will significantly increase 
applicant travel costs and adversely affect the streamlined process of 
new recruits. The Army plans to mitigate these delays by processing 
these soldiers after the beginning of the new fiscal year.
    Mr. Garcia. Marine Corps - All service recruiting will be impacted 
by civilian furloughs at Military Entrance Processing Stations (MEPS); 
because 80 percent of MEPS personnel are civilians. The possible 
civilian furlough reduces their available processing capacity. 
Implementation of a 4-day processing week would likely degrade our 
accession efforts.
    Navy - Navy ships its recruits from Monday through Thursday. We 
anticipate the furlough would shut down MEPS processing on Friday only. 
Therefore, Navy Recruiting accession mission may not be impacted as a 
result of planned MEPS furloughs in fiscal year 2013. However, with the 
planned 11 day MEPCOM furlough, Navy Recruiting would experience a New 
Contract mission shortfall of approximately 2,900 total new contracts 
for both Active component (AC) and Non-Prior Service Reserve component 
(RC). This shortfall represents approximately 15 percent of the 
remaining fiscal year 2013 New Contract mission of 19,675 (AC/RC). This 
shortfall would result in a 5 percent decrease in the Delayed Entry 
Program (DEP) posture for the beginning of fiscal year 2014. The 
reduction of the DEP posture from a target of 50 percent will increase 
our New Contract mission for fiscal year 2014. However, we anticipate 
meeting our accession mission in fiscal year 2014. If Military Entrance 
Processing Command (MEPCOM) furloughs continue into fiscal year 2014, 
MEPS capacity to process new contracts will be restricted and Navy's 
accession mission could be at moderate risk.
    Mr. Ginsberg. As approximately 80 percent of MEPCOM employees are 
civilian, if fully implemented, the 11-day furlough (as announced on 
May 14, 2013) will have a significant impact on MEPCOM's ability to 
process recruits and manage military accessions testing programs. 
Processing will be reduced from 5 days down to 4 days.
    There are no options to overcome recruit processing disruptions as 
a result of the MEPCOM furlough. Another mechanism doesn't exist to 
qualify youth for military service. MEPCOM is the sole entity for 
enlisted accessions. The Air Force will adjust to the reduced 
processing capacity by tightly managing the available processing slots. 
The Air Force will ensure slots are first utilized to send fiscal year 
2013 recruits to Basic Military Training (BMT), and then whatever slots 
remain will be prioritized to best meet fiscal year 2014 needs. These 
processing restrictions will force the Air Force to delay processing 
motivated applicants until slots become available at a later date.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    3. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, it is unconscionable that servicemembers 
must wait many months to receive a disability determination from the 
Department of Veterans Affairs (VA). While the Department of Defense 
(DOD) and the VA have made some progress in decreasing the amount of 
time it takes to get disability claims completed in the Integrated 
Disability Evaluation System (IDES), more work must be done. What is 
your Service doing to help the DOD and the VA doing to expedite claims 
through the system?
    General Bromberg. To assist the VA in managing this additional 
workload, the Army is providing personnel to perform administrative 
procedures to allow VA adjudicators to focus rating activities. Army is 
also making additional entries into the Veterans Tracking Application 
to allow VA to better manage cases in Benefits delivery phase of IDES. 
VA estimates this assistance will provide a 10-15 percent increase in 
the number of Ready for Decision cases over the 90-day period. We 
continue to explore and implement other solutions that provide the 
information that VA needs to finalize their rating decisions in a 
timelier manner.
    Admiral Van Buskirk. IDES performance data for April 2013, reflect 
that the average time to complete IDES processing for sailors is 258 
days, the fewest in DOD. This is measured against an IDES goal of 295 
days, which was established to ensure sailors receive all appropriate 
medical treatment, due process, and transition assistance while 
undergoing disability evaluation. Sailors continue to receive pay and 
benefits while going through the IDES, which helps narrow any ``benefit 
gap.''
    Navy is supporting the VA portion of the IDES process through 
efforts to provide the VA with a complete Service Treatment Record and 
by ensuring VA claim development and medical appointments are not 
missed. We are also participating in a joint-DOD/VA effort to improve 
timeliness in transferring information included in the DD Form 214, 
``Certificate of Release or Discharge from Active Duty'', which is 
needed to initiate benefits delivery.
    Recent changes to the Transition Assistance Program and the 
Veterans Employment Initiative create a direct connection with VA 
counselors. As a result, awareness of benefits available through the VA 
is increasing, which may lead to an increase in the number of claims 
being filed prior to separation or retirement. Processing of such 
claims should be quicker since establishing service connection and 
access to medical records are typically easier before the servicemember 
transitions. Additionally, we have agreed to include an audiogram as 
part of our Separation Health Assessment (SHA) to establish a baseline 
for potential future VA evaluations.
    General Milstead. The Marine Corps does not own the IDES process. 
However, on behalf of our marines we have successfully undertaken 
various advocacy measures to reduce processing times. The Marine Corps 
is working to improve processing times in coordination with the Bureau 
of Medicine and Surgery through teleconferences with IDES stakeholders. 
Additionally, we have been providing Marine Corps leadership with 
detailed IDES information, which has resulted in their ability to work 
closer with the Regional Medical Commanders on specific issues 
impacting IDES performance. The Marine Corps has provided the Physical 
Evaluation Board (PEB) processing center with five enlisted marines, in 
excess of their authorized allowance, to ensure their authorized 
manning is kept at 100 percent. Additionally, four senior 
noncommissioned officers, above the PEB's allowance are being provided 
to perform field-level counseling and case processing assistance. 
Since, the Marine Corps began tracking the performance of marines 
processing through the IDES (June 2011), the number of cases exceeding 
the 100-day goal for the Medical Evaluation Board phase has decreased 
by 91.8 percent (610 cases down to 50). The Marine Corps will continue 
to work to identify and execute methods to ensure claims process 
expeditiously in the best interest of the marine.
    General Jones. The Air Force is committed to improving the IDES 
timeliness to better serve airmen as they rehabilitate, reintegrate or 
transition from military service. We are diligently working various 
measures to improve the IDES timeliness. We have realigned manpower and 
made hiring a priority within the Air Force Personnel Center to assist 
the PEB.
    The Air Force has partnered with OSD and the VA to enhance IDES 
information technology (IT) to create a seamless and integrated system 
to improve IDES timeliness. While DOD and VA develop an enterprise IT 
solution, the Air Force is exploring short-term IT solutions to 
expedite the transfer of IDES cases between the Military Treatment 
Facilities (MTF) and the Informal and Formal PEBs. In addition, we have 
improved communications between the VA, the Air Force Personnel Center, 
and the Air Force Surgeon General to ensure consistency of IDES tracked 
data. Finally, the Air Force rolled out its IDES pre-screening 
initiative to ensure the right airmen are referred into the IDES. The 
IDES pre-screen process provides a centralized review at the Air Force 
Personnel Center's Medical Retention Standards Branch of potential IDES 
cases which may not meet retention standards. The intent of the pre-
screening process is two-fold. First, to identify airmen who may be 
returned to duty (RTD), instead of entering the IDES, thus preserving 
resources and reducing hardship on the airman and the unit. Second, the 
process identifies airmen, who need a complete Medical Evaluation 
Board, and refers them to the IDES, preserving readiness and a fit 
force. The pre-screening process does not alter any stage of the IDES, 
airmen's rights remain intact and the Air Force ensures due-diligence. 
As of 10 Apr 2013, the Informal PEB adjudicated 978 cases referred into 
the IDES by our Personnel Center's Medical Retention Standards shop as 
a result of pre-screening. Of those, only 27 were returned to duty by 
the Informal PEB, for a 2.76 percent RTD rate, far below the 15-20 
percent RTD rate historically seen prior to pre-screening 
implementation. We expect these major improvement strategies to improve 
the Air Force IDES timeliness by fall 2013.

    4. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, do you believe that the VA is doing all 
that it can do to decrease the amount of time for disability case 
reviews and claims adjudication?
    General Bromberg. Yes. I believe our partners in the VA are doing 
everything they can to decrease the amount of time for disability case 
reviews and claims adjudication.
    Admiral Van Buskirk. The delays in case review and adjudication are 
unacceptably long. At the same time, VA is coping with an enormous 
increase in claims being filed. We are very supportive of our VA 
partners in helping to decrease their disability case review and 
adjudication backlog. The Department of the Navy is moving ahead to 
support the VA's request to certify the Service Treatment Record 
completeness when forwarding for disability claim reviews. This will 
expedite the VA's ability for claim adjudication. Innovative solutions 
are always possible and we stand ready to assist the VA as they explore 
solutions for improvements.
    General Milstead. We are aware that the VA has objectives and key 
initiatives to reduce the case backlog. However, as a matter of 
protocol, the Marine Corps defers to VA for quantifiable data on their 
level of effort to decrease claims adjudication times. The Marine Corps 
Wounded Warrior Regiment, the military command charged with recovery 
care coordination for wounded, ill, and injured marines, regularly 
coordinates with VA on various disability-related matters. From an 
individual casework perspective, we find VA efforts to be complementary 
and oftentimes the actions of VA employees enhance our marines' 
recovery experiences, to include disability claims issues.
    General Jones. DOD and VA have implemented several improvement 
strategies to improve the IDES PEB timeliness.

    1.  VA has added 109 personnel to reach 264 full-time equivalents 
for claims adjudication, and consolidated Army claims at Seattle 
Disability Rating Activity Site to reduce processing times.
    2.  VA has proactively engaged DOD to expedite adoption of 
Disability Benefits Questionnaires (DBQs) within the IDES Program.
    3.  To better support DOD and members of the Reserve components 
(RC), VA implemented a process to perform IDES Compensation and Pension 
examinations closer to the residence of RC servicemembers.
    4.  VA's Chief of Staff conducts bi-monthly internal Video 
Teleconferences (VTC) with Central Office and Field Executive staff to 
review IDES performance metric and discuss process improvement 
measures. VA also has joint monthly VTCs with both Army and Navy/Marine 
Corps to discuss site performance and general collaboration 
opportunities.
    5.  VA's IDES leadership conducts weekly meetings with IDES 
leadership from Office of the Secretary of Defense (OSD), Warrior Care 
Policy, and the Military Services. These meetings have been occurring 
since July 2011.
    6.  VA Central Office personnel conduct periodic site visits to 
identify best practices and provide assistance.
    7.  VA and DOD routinely collaborate to improve and refine policies 
and procedures.

    Air Force continues to collaborate with VA to improve the overall 
disability evaluation process. Despite improvements, challenges still 
remain and all of the DOD is committed to working diligently with VA to 
continue streamlining and improving the overall disability process.

    5. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, does the VA need additional resources to 
hire more claims adjudicators?
    General Bromberg. The Army does not know if VA requires additional 
resources to hire more claims adjudicators.
    Admiral Van Buskirk. The VA continues to balance their workforce. 
We are confident the VA presented their defensible resource 
requirements in the President's budget.
    General Milstead. We defer to the VA for information on their 
manning and resource requirements.
    General Jones. The Air Force continues to collaborate with VA to 
improve the overall disability evaluation process. Despite 
improvements, challenges still remain, the DOD and the Air Force are 
committed to working diligently with VA to continue streamlining and 
improving the overall disability process.

                    PROTECTING PROSPECTIVE RECRUITS

    6. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, a recent tragic case in Maryland appears 
to have been a murder/suicide involving a prospective recruit and her 
recruiter. What guidance has your Service provided to ensure that 
prospective recruits and their parents or guardians are fully aware of 
the limits for relationships with recruiters?
    General Bromberg. Army Recruiter contact with newly contracted 
soldiers, prospects and applicants is highly restricted by Army policy. 
Recruiters who violate the regulations governing this contact are 
subject to disciplinary action, relief, or separation. Cards describing 
sexual harassment prohibitions and what the prohibited activities are 
for recruiters and applicants are given to all applicants upon first 
contact as well as to their parents. These cards are used by the US 
Army Recruiting Command in their recruitment of Regular Army and Army 
Reserve applicants. The Army National Guard has similar cards in 
development. In addition, all recruits in all the Army's components 
sign contracts which include descriptions of sexual harassment 
prohibitions and what the prohibited activities are for recruiters and 
members of the DEP.
    Admiral Van Buskirk. Navy Recruiting Command (NRC) provides 
applicants information on the first day of their enlistment into the 
DEP at MEPS. Additionally, recruiters and their supervisor also provide 
the same information to the future sailor and their parents or 
guardians during the 72-hour indoctrination. This policy is included in 
the Enlisted and Officer Recruiting Manuals. NRC also has a 
Fraternization Policy Acknowledgement that details the proper behaviors 
of future sailors and recruiters, which all future sailors must read 
and sign.
    At the time of DEP enlistment, NRC provides all future sailors a 
Standards, Transitions, Acknowledgements, Requirements, and Training 
(START) Guide. Recruiters and immediate supervisors are required to 
review the contents with each future sailor during the 72-hour 
indoctrination. The START Guide contains information regarding Sexual 
Harassment and Fraternization. Additionally, the START Guide lists 
``Recruiter Prohibited Practices,'' which includes a prohibition on any 
relationship other than a formal, professional, relationship. Every 
Navy recruiter business card contains the following personal pledge 
from Commander NRC: ``We at Navy Recruiting Command are committed to 
professional, honest, and respectful treatment of every prospect and 
applicant.'' Also included is the NRC headquarters number, which is 
answered by Admiral Gay's personal staff.
    Finally, NRC is completing an intensive, updated SAPR Delayed Entry 
Program (SAPR-D) video presentation, which will be shown to every 
future sailor. It provides training on the Navy's SAPR Program, 
fraternization and sexual harassment policies. The video clearly 
articulates and emphasizes the future sailor's rights and responses if 
they feel they have been violated or mistreated.
    General Milstead. The Marine Corps has enacted additional policy 
and products that augment long standing ethical standards and 
procedures between applicants and recruiters. We established the 
requirement that all officer candidates and members of the DEP read, 
sign, and certify a Statement of Understanding regarding sexual assault 
and sexual harassment. This document includes notification and 
reporting procedures, which are also included in our formal ``Welcome 
Aboard'' materials. Additionally, a required values-based training 
curriculum, which includes video vignettes and ethical decision 
discussions to include sexual misconduct, has been incorporated into 
the DEP for all accessions. All marines attending the Basic Recruiters 
School are provided formal instruction on an `Ethics Package' that 
addresses specifically, relationship restrictions between applicants 
and recruiters, fraternization, sexual harassment, sexual assault, and 
alcohol issues and usage. Additionally a training product has been 
introduced for leaders at the recruiting station level to emphasize and 
reinforce ethics standards with their marines. This standardized 
product provides leaders videos and briefing points that require the 
interactive participation by their marines on the topic of instruction. 
All of the aforementioned were done to maintain and uphold the existing 
Marine Corps ethical standards of conduct between applicant and 
recruiter.
    General Jones. Air Force Recruiting has instituted an aggressive 
and comprehensive program to inform and educate recruits and their 
parents on the subject of inappropriate behaviors, to include 
unprofessional relationships throughout the recruiting process. This 
program employs video, talking points, ``Applicant Rights/
Responsibilities Cards'', and signed statements. The program clearly 
defines what constitutes an unprofessional relationship vs. 
professional relationship between recruits and their recruiters, and 
advises the recruits of their right and obligation to report suspected 
or actual cases. The program also outlines sources of assistance and 
steps to be taken to address concerns.

    7. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, what information does your Service require 
to be provided to prospective recruits to ensure that they have 
immediate access to assistance and intervention, if necessary, if they 
believe a recruiter is intending to take improper advantage of them?
    General Bromberg. Army Recruiter contact with newly contracted 
soldiers, prospects and applicants is highly restricted. Cards 
describing sexual harassment prohibitions and what the prohibited 
activities are for recruiters and applicants are given to all 
applicants upon first contact as well as to their parents. These cards 
are used by the U.S. Army Recruiting Command in their recruitment of 
Regular Army and Army Reserve applicants. The Army National Guard has 
similar cards in development. Applicants and recruiters are offered a 
hotline phone number on the card to report any violation of a safe and 
proper environment. In addition, all recruits in all the Army's 
components sign contracts which include descriptions of sexual 
harassment prohibitions and what the prohibited activities are for 
recruiters and members of the DEP. The contract also provides the 
applicant a recruiting agency senior leader's telephone number for 
reporting sexual harassment or prohibited activity violations.
    Admiral Van Buskirk. Each Navy Recruiting Station has posters with 
Navy Recruiting District points of contact if applicants or future 
sailors have any issues during the recruiting process for which they 
desire assistance from someone other than their recruiter. Posters 
include the Department of Defense Safeline phone number and NRC 
Inspector General hotline number. Every applicant receives a business 
card from their recruiter that contains the recruiter's information on 
the front of the card and the following personal pledge from Commander, 
Navy Recruiting Command (CNRC) on the back: ``We at Navy Recruiting 
Command are committed to professional, honest, and respectful treatment 
of every prospect and applicant.'' Also included is CNRC phone number, 
which is answered by Admiral Gay's personal staff. We provide 
additional information at the time of Delayed Enlistment Program 
enrollment while at Military Entrance Processing Station, and again 
during the 72-hour indoctrination. Command Hotline and NRC Headquarters 
phone numbers are provided.
    General Milstead. The Marine Corps has introduced new policy and 
products that augment long standing ethical standards and procedures 
between applicants and recruiters. Our efforts include but are not 
limited to the expansion of ethics instruction at the Recruiters 
School, sustainment training for the recruiting force, and for all new 
accessions a mandatory recruiter-driven values-based training program 
and written `Statement of Understanding' that address sexual misconduct 
and reporting procedures. A Marine recruiter's immediate supervisor is 
identified during the initial process as an applicant's or parent's 
primary point of contact for any concerns or complaints, specifically 
including inappropriate conduct. Renewed command emphasis combined with 
improved education and information for applicants and parents increases 
the safety of our applicants and reinforces confidence in Corps-wide 
actions directed toward the prevention of sexual assaults.
    General Jones. Air Force Recruiting Service (AFRS) personnel are 
required to provide all applicants with an ``Air Force Applicant 
Rights/Responsibilities Card'' as early as practical in the application 
process before Military Entrance Processing Command (MEPCOM) 
processing. This card clearly defines professional relationships to 
potential applicants and provides guidance on how to report any 
violations. Recruiters are directed to discuss and train DEP recruits 
on expectations.
    In addition, each applicant views a video discussing professional 
relationships--what is professional and unprofessional, as well as 
expectations of recruits as Air Force members and what they can expect 
from their recruiter and the recruiting process. By defining what is 
and is not acceptable, the applicant knows what is expected and what is 
expected of the recruiter. This enhances the Rights/Responsibilities 
card--if the recruit notices unacceptable behavior, he/she can then act 
on it by contacting local Air Force leadership or the contacts listed 
on the card.
    Each recruit has the opportunity to discuss potential misconduct 
when they visit the Military Entrance Processing Station (MEPS) for the 
first time. Here, away from his/her recruiter, our MEPS liaison 
completes a survey with each recruit and asks if there were any 
instances of misconduct or action/words that made the recruit 
uncomfortable. If so, leadership addresses the concerns with the 
recruit and investigates allegations further to determine if additional 
action is necessary.
    Applicants will also receive periodic briefings from supervisors 
and squadron leadership during their time in the DEP. These briefings 
will further emphasize rights, roles, and responsibilities of all 
members as well as ways to report suspected or actual cases.
    The survey process completed with the MEPS liaison in the 
recruiting process is repeated both in BMT and Technical Training. 
Essentially the survey becomes a cradle to grave document within the 
accessions and training continuum.

                DEFENSE SEXUAL ASSAULT INCIDENT DATABASE

    8. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, DOD has told us they have achieved full-
deployment of the congressionally-mandated Defense Sexual Assault 
Incident Database (DSAID). Is your Service providing data to populate 
the database?
    General Bromberg. Yes. The Army pushes the DOD required sexual 
assault data to DSAID on a monthly basis using our Sexual Assault Data 
Management System (SADMS).
    Admiral Van Buskirk. Navy uses DSAID as a centralized, case-level, 
database for the collection and maintenance of information regarding 
sexual assaults. Navy Sexual Assault Response Coordinators (SARCs) use 
DSAID as a case management system, entering information within 48 hours 
of a report of sexual assault (96 hours in deployed locations 
presenting internet connectivity issues). DSAID includes available 
information about the nature of assaults, the victim, services offered 
to the victim, the offender, and disposition of reports associated with 
the assault. Naval Investigative Service uploads final case disposition 
weekly into DSAID.
    General Milstead. Yes. Full migration to the DSAID was completed in 
October 2012.
    General Jones. Yes, the Air Force is providing data to populate 
DSAID.

    9. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, what information, specifically, is this 
database providing your Services' leadership concerning sexual assault 
incidents?
    General Bromberg. The Army provides the required sexual assault 
data to DSAID from SADMS on a monthly basis. This information includes 
the type of report (Restricted or Unrestricted), type of assault (rape, 
forcible sodomy, aggravated sexual contact, etc), gender and rank of 
victim and alleged offenders, location (on/off post), investigation 
status, disposition status (court-martial, nonjudicial punishment, 
adverse administrative action, et cetera.) and victim services provided 
(counseling, healthcare, advocacy, legal, et cetera).
    Admiral Van Buskirk. The DSAID is a centralized, case-level, 
database for the collection and maintenance of information regarding 
sexual assaults, which Navy has been using since October 2012. DSAID 
includes information about the nature of assaults, the victim, services 
offered to the victim, the offender, and the disposition of reports 
associated with the assault. Over time, as DSAID becomes populated with 
more case data, it will increasingly provide the ability to identify 
and manage trends, analyze risk factors or problematic circumstances, 
and assist with actions and plans to mitigate risks.
    General Milstead. DSAID provides Marine Corps leadership accurate 
information on sexual assault cases and trends, which will inform 
assessments and decisions regarding future programs and training 
efforts. DSAID affords the Services enhanced ability to provide 
comprehensive and standardized victim case management, improved overall 
administrative functionality, and accountability in the tracking of 
victim services. DSAID also allows for the Military Criminal 
Investigative Organization data to be linked directly to a case, 
ensuring investigative data is accurate and allows cases to be 
transferred between military Services without re-creating case 
information, a functionality that was not provided for previously in 
each individual Service database.
    General Jones. The DSAID provides information on the following: 
Restricted and unrestricted reports, safety concerns identified, if the 
victim assessment was completed, status of investigation, location of 
the assault (on/off base), victim relationship to offender, and 
demographic information of the victim.

    10. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, before this committee, DOD witnesses described the 
recently revised DOD-wide policy on the Sexual Assault Program to 
standardize prevention, health care, victim safety, training and 
response efforts, and to clearly convey the role of servicemembers and 
employees in sexual assault prevention and recovery. This committee is 
concerned that medical care providers were not fully aware of their 
obligations concerning restricted reports, including the obligation to 
withhold disclosure to the chain of command. What actions have been 
taken to ensure standardization with response to protecting the 
sanctity of restricted reports?
    Mr. Lamont. The Army follows DOD policy and requires our healthcare 
providers to notify a SARC when a sexual assault victim seeks care at a 
MTF. The SARC (if not present with the victim) will then respond to the 
victim as quickly as possible.
    Health care providers are trained to safeguard the confidentiality 
of medical information and maintain it in accordance with current 
Health Insurance Portability and Accountability Act (HIPAA) guidelines 
regardless of whether the soldier elects restricted or unrestricted 
reporting. Improper disclosure of covered communications and improper 
release of medical information are prohibited and may result in 
disciplinary actions under the Uniform Code of Military Justice, loss 
of credentials, or other adverse personnel or administrative actions.
    Additionally, each Army MTF has a Sexual Assault Care Coordinator 
(SACC), Sexual Assault Clinical Provider (SACP), and a SARC who train 
other healthcare providers and healthcare personnel on their 
requirements regarding the preservation of restricted reports
    Mr. Garcia. Bureau of Medicine and Surgery Instruction 6310.11A 
(Sexual Assault Prevention and Response Medical-Forensic Program) has 
been recently revised and signed on May 2, 2013. This policy 
establishes the training requirements for all health care providers who 
will complete medical-forensic examinations.
    A subset of the multi-disciplinary policy revision working group 
has been convened to oversee and support implementation of policy 
guidance. The training is 14 hours in length and in a standardized 
format that supports health care providers in completing a Sexual 
Assault Forensic Examination (SAFE), reviews the SAFE kit and contents, 
chain of custody, preparing to be a factual witness and Navy specific 
policy guidance and reporting options. Restricted reporting is 
thoroughly covered in this training as well as the current medical 
response training required of all Navy Medical Department personnel. 
Documentation of completion is required and metrics have been 
established to support tracking of training implementation.
    Mr. Ginsberg. DOD and the Air Force have established policy 
concerning restricted reporting cases as detailed in Department of 
Defense Instruction (DODI) 6495.02 and Air Force Instruction (AFI) 36-
6001. Sexual assault policy pertaining to medical care is listed in AFI 
44-102. All sexual assault cases are referred to a SARC who insures the 
victim is briefed on their options for reporting. If the victim elects 
restricted reporting, then all medical assessments are completed but no 
reporting occurs to command authorities. Documentation of the medical 
assessment is flagged to prevent unauthorized release. In addition 
healthcare providers are required to take standardized first responder 
training.

    11. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what additional challenges do you see in attaining 
the required level of standardization?
    Mr. Lamont. I do not see any challenges in standardization that the 
Services and DOD, working together, have not already addressed. Two 
examples include the decisions by DOD to standardize SARCs and Victim 
Advocate (VA) credentialing requirements and train sexual assault 
investigators from all Services at the U.S. Army Military Police 
School.
    Mr. Garcia. Each Military Service has a unique culture and 
operating environment. Beyond that, sexual assault prevention, sexual 
assault victim support, and sexual assault criminal investigations and 
prosecutions are overlapping but separate areas of activity.
    First, we need to better distinguish between specific activities 
that should be performed in just about the same way everywhere, and 
those where tailored approaches may be more effective. Sexual assault 
victim support is a good example of the former--victims should expect 
the same services everywhere. Sexual assault prevention is a good 
example of the latter--the Services need flexibility to implement 
strategies that work for them.
    Second, we need to evolve beyond standardizing exactly how to do 
things, and instead explore performance-based standards for key aspects 
of our processes that are most important to those affected. That will 
be hard work, and it will require genuine collaboration. For example, 
we want to know what aspects of our victim support processes are most 
important to victims themselves, so we can focus on making them more 
personal and effective.
    Mr. Ginsberg. DSAIDS is the system of record for all reports of 
sexual assault. The Navy and Air Force both update each incident 
(restricted and unrestricted) reported into DSAIDS while the Army uses 
their Sexual Assault Data Management System (SADMS) which interfaces 
with DSAIDs. Each Service participates on the OSD SAPRO Change Control 
Board (CCB) to ensure standardization and system improvements.

    12. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what additional tools does your Service need in 
order to continue to reduce--with the goal of eliminating--sexual 
assault?
    Mr. Lamont. Continuing our partnership with Congress is necessary 
so we can work together toward our common goal of eliminating sexual 
assault. Recent legislation has facilitated that effort. However, it is 
our responsibility to establish the positive organizational climate and 
culture needed to appropriately prevent and respond to sexual assault.
    An area where Congress may be able to assist is to establish 
programs in communities and schools that counteract the negative social 
influencers that contribute to behavior that may lead to sexual 
assault.
    Mr. Garcia. We need more expert resources for investigations of 
alleged sexual assault crimes. NCIS has come a long way in the past 
several years. They have implemented impressive special training, and 
they have hired criminal investigators with civilian expertise, but the 
workload impact of new requirements to investigate all alleged sexual 
assaults, regardless of severity, is daunting.
    We also need to establish new, tailored, programs for sailors and 
marines who have been victims of sexual assault. We are in the early 
stages of developing such programs. Sexual assault victims have an 
especially high risk of re-victimization, and we must break that cycle 
by providing peer support and personal tools to help them succeed and 
fulfill their personal and professional goals without unduly labeling 
them or undermining their performance of primary duties.
    We are in the process of expanding across the entire Navy 
Department best practices from local pilot projects involving focused, 
synchronous, SAPR efforts. We must maintain visible and consistent 
senior leadership engagement working across organizational boundaries 
to change our culture and re-shape the attitudes and behaviors of our 
sailors and marines. It will require dogged commitment and perseverance 
over a prolonged effort. Key to our success will be our ability to 
partner across the Department of the Navy uniformed and civilian 
leadership to identify common goals and standards while implementing 
effective solutions that work in various settings and operating 
environments.
    Mr. Ginsberg. Air Force leaders have worked diligently towards the 
goal of eliminating sexual assault from our ranks. While there is no 
single tool to fix the sexual assault problem, we're attacking it from 
every angle. The Air Force is constantly evaluating our techniques and 
mediums to provide education and training content that will increase 
awareness of sexual assault and the importance of prevention, 
intervention, and victim care. Additionally, we are bolstering the 
investigative and prosecutorial process to show we're serious about 
taking action against offenders, which we believe will increase 
confidence in the process. This is evidenced by the introduction of the 
Special Victims' Counsel (SVC), effective January 28, 2013, which has 
had the greatest influence on victim empowerment and willingness to 
cooperate in the military justice system. Prior to the implementation 
of our SVC program, the rate of change from restricted to unrestricted 
reports was 17 percent. Now approximately 55 percent of our victims 
assigned to a SVC change from restricted to unrestricted reports.

    13. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, some have suggested that it would be 
appropriate to incorporate standardized assessments of commanders' 
performance in prevention, investigation, accountability, advocacy and 
assessment of sexual assault response and prevention lines of effort. 
What is your assessment of the feasibility of implementing commanders' 
performance in service-specific performance appraisals?
    General Bromberg. It is very appropriate to assess all officers and 
noncommissioned officers (NCO) on their enforcement of SAPR principles 
including their establishment or support of a positive command climate. 
The current Officer and NCO Evaluation Report allows for comment 
regarding support of Equal Opportunity and Sexual Harassment. Army 
Regulation 600-20, Army Command Policy also encourages comment for this 
topic. The future Officer Evaluation Report (OER) and Noncommissioned 
OER will continue to stress this topic and will be further reinforced 
by the Army Doctrine Reference Publication 6-22, Army Leadership under 
the Leader Competency of Trust.
    Admiral Van Buskirk. Incorporating standardized assessments of a 
commander's performance in prevention, investigation, accountability, 
advocacy, and assessment of sexual assault response and prevention 
lines-of-effort, could be accomplished using the current Navy fitness 
report by amending our governing instruction to require such an 
assessment, or by revising the current form. Additionally, current Navy 
fitness reports evaluate an officer's performance related to Command or 
Organizational Climate/Equal Opportunity.
    General Milstead. The Marine Corps Fitness Report system provides 
the official evaluation and record of an officer's performance and 
contains a section entirely dedicated to leadership. This section 
evaluates the commander's ability to set the example, communicate 
effectively, provide direction, and motivate, which includes his or her 
ability to develop, lead, and ensure the well-being of subordinates. 
Ensuring the well-being of subordinates necessitates that officers 
demonstrate a genuine concern for their safety--a characteristic rooted 
in the defining Marine Corps values of honor, courage, and commitment. 
The commander's efforts must enhance the concentration and focus of the 
subordinate on unit mission accomplishment, which includes setting an 
environment free of any criminal behaviors, such as sexual assault
    In line with the Secretary of Defense (SECDEF) memorandum dated 6 
May 2013, the Marine Corps is exploring methods to assess the 
performance of our commanders in establishing command climates that 
foster dignity and respect. To this end, the Commandant has directed 
the development of new command climate surveys to be administered 
within 30 days of a new commander taking command and at the commanding 
officer's 12-month mark. Designed to measure the ``health'' of a 
particular command, the survey will cover a spectrum of issues, 
including sexual assault, and will be integrated with the ongoing 
efforts to stop all behavior-related offenses, including sexual 
harassment, hazing, and alcohol misuse. This initiative fulfills a 
specific provision in the National Defense Authorization Act (NDAA) and 
the 6 May SECDEF memo, which also mandates that survey results be 
provided for review to the next level up in the chain of command.
    General Jones. The current Air Force Officer Performance Report 
(OPR) already evaluates a commander on all leadership performance 
factors which include the implementation of the SAPR program within 
their units.

    14. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, the annual report on sexual assault at the 
Service academies revealed that many people who enter the armed 
services have experienced and report sexual assault or unwanted sexual 
contact that occurred before they entered the Service Academies or the 
armed services. What could your Service be doing to improve support to 
men and women in the accession process, to identify whether individuals 
have experienced sexual assault?
    General Bromberg. The U.S. Military Academy does not screen 
applicants for a history of sexual assault, but does provide all new 
cadets information about the Army's Sexual Harassment/Assault Response 
and Prevention Program.
    When a New Cadet self-identifies during Cadet Basic Training, or 
subsequently over the course of their career as a Cadet, the cadet is 
referred to a SARC or Victim Advocate who provides essential support 
and care to the victim.
    This support includes, but is not limited to, providing information 
on available reporting options (restricted and unrestricted), available 
resources to assist the victim in the healing process (e.g., on- and 
off-post counseling, chaplaincy, DOD SafeHelpline), and due process and 
investigation procedures (legal assistance and/or law enforcement to 
include Criminal Investigation Division--even if serving in a liaison 
role between civilian law enforcement and the military for off-post 
incidents).
    The Victim Advocate provides continual support until the victim 
states that she/he no longer requires assistance or until departure 
from the academy, at which point she/he receives information about 
resources available after departure.
    Admiral Van Buskirk. Navy has a thorough application process, which 
includes detailed medical screening of applicants at Military Entrance 
and Processing Station (MEPS). Although not asked explicitly, are 
questioned by MEPS Chief Medical Officers using a Supplemental Health 
Screening Questionnaire to determine if they have experienced any 
significant abusive events in their life.
    To improve support for men and women during the accession process, 
NRC has developed training focused specifically to indoctrinate them on 
military SAPR policies, to help prevent sexual harassment and assault, 
and to provide them with procedures to act on an incident that might 
occur. In addition to attending this training, there are a wide variety 
of products and resources (e.g., videos, posters, and brochures) 
recruiters use for local training programs and to increase awareness 
with the future sailors in the DEP.
    The U.S. Naval Academy (USNA) also has a thorough application 
process, which includes medical screening of applicants. USNA ensures 
that each entering freshman is made aware of the services of the 
Academy's SAPR Office, including medical, counseling and advocacy, and 
legal assistance. All incoming plebes receive a SAPR indoctrination 
brief within 14 days of arrival. This session includes an in-depth 
overview of the USNA SAPR Program; a discussion on sexual assault, 
consent, types of reports, and services available; and stresses that 
these services are available regardless of when they experienced the 
sexual or interpersonal violence. Academy SAPR staff follow up with 
plebes, conduct refresher training, answer questions and again stress 
the availability of services.
    As a result of findings in the most recent Service Academy Gender 
Relations survey, the USNA has implemented additional process changes 
for the entering Class of 2017 that will arrive this June. 
Specifically, during the Indoctrination-Day check-in each plebe will be 
asked in a confidential setting if they have experienced sexual assault 
prior to entering the Academy. Regardless of response, each plebe will 
receive a data sheet identifying available services and points of 
contact, should they desire to use them. This information will provide 
the SAPR Office and chain-of-command with real-time data on our at-risk 
population, and provide individuals information they can use to access 
services discreetly.
    Navy is sensitive to the fact that asking explicit questions 
regarding sexual assault could lead to revictimization of an applicant, 
which is something that should be carefully avoided. DOD is currently 
conducting a review of the applicant accessions process as one aspect 
of the 2013 DOD SAPR Strategic Plan released by the Secretary of 
Defense on May 6, 2013.
    General Milstead. Sexual assault policies are explained to all 
members within 14 days of their entrance on active duty. The brief 
includes how to report a sexual assault and what supportive resources 
are available pertaining to care and justice. During the process, 
servicemembers are afforded the opportunity to speak to a Victim 
Advocate.
    Servicemembers who were assaulted prior to entry in the military 
are provided the same resources and care as those who were assaulted 
during their service in the military. All victims are given the option 
to file a restricted or unrestricted report and, after exercising this 
option, are assigned a Victim Advocate and SARC and afforded medical 
and counseling services. If the case is unrestricted, it is referred to 
the Naval Criminal Investigative Service and the victim's command is 
notified.
    General Jones. The U.S. Air Force Academy (USAFA) has programs in 
place to inform incoming cadets about available helping agencies and 
resources to assist them, along with information on how to access those 
services. USAFA makes every effort to provide an environment where 
these victims can thrive as they begin their military careers. In these 
instances, our goal is to ensure the victim's choices are honored and 
that they are comfortable coming forward to get help and report if they 
choose. USAFA will also cooperate to support the civil authority with 
jurisdiction should the cadet pursue filing charges. Several 
initiatives are in place to help victims of trauma connect with support 
mechanisms.
    Under the current program, basic cadets are briefed on sexual 
assault and associated helping agencies on day two after their arrival. 
This briefing addresses coping with assaults that may have occurred 
prior to coming to USAFA. The briefing also discusses the numerous 
resources available to include: SARC; chain of command; Military 
Guidance Officers--cadets trained to interface with other helping 
agencies; chaplains; counseling services; equal opportunity experts; 
medical providers.
    Later in basic training, in conjunction with sexual assault 
awareness training, anonymous polls are conducted to get an idea of the 
number of basic cadets previously assaulted and to remind them of the 
resources available to them. Individuals are not asked to identify 
themselves to protect their ability to file a restricted report, if 
desired. Some basic cadets are unaware that they experienced a sexual 
assault until they receive the training and understand the Air Force 
definitions.
    Similar to USAFA, Air Education and Training Command has an 
aggressive and comprehensive program for new recruits regarding proper 
relationships and to explain and educate them on their rights and how 
to report inappropriate conduct. In October 2012, AFRS rolled out its 
Dissuade, Deter, Detect, Hold Accountable (D3A) program to train 
recruiters and applicants alike on professional relationships. The D3A 
program is designed to baseline professional relationships from day one 
as they work through the recruiting process and follows them to BMT. 
Following initial professional relationship training, applicants are 
provided an ``Applicant Rights/Responsibilities Card'' and both the 
recruiter and applicant sign a ``Professional Relationship Contract''. 
Professional relationship training is then reinforced at each stage of 
the recruiting process. Additionally, the applicant is provided the 
opportunity to address relationship concerns/issues through a 
``Professionalism Questionnaire'' provided at initial Military Entrance 
Processing Station (MEPS) processing and on ``ship day'' when they 
depart for BMT.

                      COMMAND CLIMATE ASSESSMENTS

    15. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, what percent of your commands conduct 
command climate assessments?
    General Bromberg. According to the records maintained in the Equal 
Opportunity Reporting System the Army is 80 percent on the completion 
rate for this fiscal year. Our units rely on the Defense Equal 
Opportunity Management Institute Organization Climate Survey (DEOCS), a 
web-based survey instrument, and it was offline from Septempter 12 
through mid March 13 due to budget issues which account for a lower 
rate. Units relied on the Army Research Institute paper and pencil 
survey during the time DEOCS was offline and this is a time consuming 
process and caused delays in meeting the mandated timelines in our 
regulation.
    Admiral Van Buskirk. All commanders are required to conduct a 
Command Climate Assessment (CCA) within 90 days of taking command and 
yearly thereafter. In fiscal year 2012, 90 percent of Navy commands 
participated in the Defense Equal Opportunity Management Institute 
(DEOMI) Organizational Climate Survey (DEOCS), before the system went 
down on 19 September 2012. However, the DEOCS is just one portion of a 
CCA. Echelon II commands are charged with tracking their subordinate 
command's completion of the CCA. We entrust Commanders to hold their 
Commanding Officers accountable for 100 percent completion of the CCA.
    General Milstead. 100 percent. All commands conduct climate 
assessments in accordance with current DOD, Navy, and Marine Corps 
directives.
    General Jones. All Air Force units have the opportunity and are 
encouraged to conduct climate assessments by the Equal Opportunity (EO) 
Office. EO Offices, on behalf of the commander, administer Unit Climate 
Assessments (UCA) on organizations that have 50 or more personnel (both 
military and civilian combined). For those organizations with less than 
50 members, commanders are not afforded the UCA; however, they are able 
to utilize other forms of EO climate assessment such as Out and Abouts, 
Focus Groups, and Interviews. In addition, the Defense Equal 
Opportunity Climate Survey (DEOCS) is available through the Defense 
Equal Opportunity Management Institute (DEOMI) to gauge the climate of 
the organization. The difference between the UCA and the DEOCS is that 
contractors are permitted to be survey participants in the DEOCS.
    The UCA is required every 2 years or upon commander's request. With 
the passage of the NDAA for Fiscal Year 2013, the new requirements 
necessitate annual climate assessments and they must be completed 
within 120 days upon assumption of command. The Air Force is currently 
revising Air Force regulations to reflect the new requirements.

    16. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, what are your Services doing to improve 
the regularity of command climate assessments?
    General Bromberg. We updated Army Regulation 600-20 in September 
2012 to read ``Company level commander (or their equivalents) will 
conduct a unit command climate survey within 30 days of assuming 
command (120 days for ARNG and USAR), again at 6 months, and annually 
thereafter. Assessments must include a facilitated small group 
discussion of topics. Company level commanders (or equivalents) may 
supplement any survey efforts with individual and group interviews, the 
analysis of unit records, and statistical information (awards, 
promotions, reenlistments, incidents of misconduct resulting in UCMJ, 
and EO complaint reports).'' We report and track the compliance rates 
for command climate surveys.
    Admiral Van Buskirk. Every commanding officer is required to 
conduct a command climate assessment within 90 days of taking command 
and annually thereafter. The Navy will continue to track the completion 
of the Defense Equal Opportunity Management Institute (DEOMI) 
Organizational Climate Survey (DEOCS), by Echelon II command, on a 
quarterly basis.
    General Milstead. Current changes in the command climate survey 
requirements will result in commanders surveying their commands within 
30 days via the Defense Equal Opportunity Climate Survey and annually 
thereafter. Results of the completed surveys will be provided to the 
next higher level command.
    General Jones. The overall Air Force climate assessment is 
conducted annually. Current regulatory guidelines require units to 
conduct climate assessments in units once every 2 years and upon 
request by a commander. The NDAA for Fiscal Year 2013 has a requirement 
to conduct a climate assessment annually and within 120 days upon 
assumption of command by a new commander.
    The Air Force is considering several courses of action on how to 
increase the regularity of command climate assessments with existing 
resources, including increasing the use of focus group interviews and 
various other survey assessments.

    17. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, what is your Service doing to evaluate the 
results of the command climate assessments to ensure necessary follow-
up action?
    General Bromberg. Equal Opportunity Advisors assist the company 
commanders with accomplishing the command climate assessment by 
assisting with completion of a command climate survey, focus groups, 
evaluation of complaints requests for assistance (if any). Once the 
assessment is complete, EOAs assist the commander with developing a 
training plan to address any issues discovered during the assessment 
and provide guidance on the feedback required to the unit to complete 
the assessment cycle. Commanders and EOAs then brief equal opportunity 
training during Quarterly Training Briefings to their superior 
Commander. Additional command climate surveys will be reviewed by the 
superior Command on a research basis.
    Admiral Van Buskirk. Each Immediate Superior in Command (ISIC) 
ensures subordinate commanders assess their command climate within 90 
days of assuming command with annual follow-up assessments during their 
command tenure. Every commanding officer is required to provide an 
executive summary of survey results and any intended actions, within 60 
days of completing a command climate assessment. The ISIC also ensures 
necessary follow-up action on the results of command climate 
assessments. Additionally, we are constantly evaluating what we can do 
to increase the effectiveness of our leaders in command. A working 
group has been assigned to evaluate and make recommendations on 
expanding and reinforcing supervisory command relationships. By 
identifying potential or ongoing issues early, timely correction is 
likely to set conditions for a successful command environment.
    General Milstead. The Commandant of the Marine Corps has directed 
new command climate requirements to be administered within 30 days of a 
new commander taking command and annually thereafter, in order to 
continue fostering a positive climate within each Marine Corps unit. 
The survey covers a spectrum of personnel issues and will be closely 
integrated with ongoing efforts focused on reducing all behavior-
related offenses. The results of the surveys will be measured in order 
to obtain accurate knowledge on the health of each command. To assure 
accountability, the results of the surveys will be shared with each 
commander's next higher headquarters. The Commandant's intent is to 
provide commanding officers with the necessary tools to identify high-
risk behaviors and positively act on behalf of the health of their 
commands.
    General Jones. The Air Force Climate Survey is conducted biennially 
and the results are out-briefed to the Secretary of the Air Force and 
released to the units. Commanders with ten or more respondents are 
provided survey results along with a guide developed by behavioral 
scientists from the Air Force Personnel Center, Directorate of Manpower 
containing specific recommendations and lists of resources to improve 
their unit climate. Leaders that use previous survey results to make 
improvements with the organization have yielded higher levels of 
agreement in all areas.
    In addition to the Air Force Climate Survey, the Air Force has 
Equal Opportunity (EO) subject matter experts that conduct UCAs, 
analyze the results, and provide an out-brief to unit commanders. 
During the out-brief, EO professionals discuss recommendations and 
strategies for problem resolution and offer follow-up services to help 
resolve EO or managerial related problems. With the passage of the NDAA 
for Fiscal Year 2013, UCAs will be conducted annually, rather than 
biennially, and within 120 days upon assumption of command.

                   FEDERAL VOTING ASSISTANCE PROGRAM

    18. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what is your assessment of the performance of your 
Services' Federal Voting Assistance Program (FVAP)?
    Mr. Lamont. It is my assessment the Army has a very robust voting 
assistance program. We have a large network of Installation Voting 
Assistance (IVA) offices and Unit Voting Assistance Officers (UVAOs) 
who are providing voting assistance on a year round basis. In 2012, the 
Army voting assistance program had over 7,800 appointed and trained 
active duty UVAOs who provided information to eligible voters within 
their organizations. The Army also created Public Service Announcements 
that were seen overseas and state-side and participated in Absentee 
Voters Week and Armed Forces Voters Week to encourage eligible voters 
to register and vote. The Army voting assistance program has also 
successfully leveraged social media by using Facebook and Twitter, and 
established and maintain a vigorous communications strategy. We empower 
individual voters and continue to provide voting assistance and 
guidance to soldiers, civilians, and their dependents.
    Mr. Garcia. The U.S. Marine Corps has an effective Voting 
Assistance Program (VAP) and the Marine Corps is complying with the 
requirements put forward by title 10, U.S.C., section 1566 and the DOD 
FVAP. This assessment is based upon the results of 19 inspections 
conducted during calendar year 2012 and 7 inspections so far during 
calendar year 2013 at all levels of command. The Marine Corps VAP 
operates in accordance with established policies and procedures and is 
effective in assisting eligible voters. The Marine Corps is confident 
that servicemembers and their eligible family members were aware of all 
2012 voting events and were provided assistance and documentation for 
all absentee voting requirements. The current Marine Corps order 
covering VAP was republished on 1 April 2013, and incorporates 
previously issued interim guidance as was required by changes to the 
law from the MOVE Act that passed as part of NDAA for Fiscal Year 2010 
(P.L. 111-84) and updated DOD Instructions. The Marine Corps will 
continue to inspect, review, and provide guidance to update appropriate 
Marine Corps orders, policies, and procedures to ensure eligible voters 
have the opportunity to exercise their voting rights.
    Mr. Ginsberg. The Air Force FVAP is a successful program within the 
department at all levels of command. In 2012, the Air Force Major 
Command inspection teams reviewed 134 Voting Assistance Programs at 
squadron, group, wing and command levels with just 12 discrepancies 
reported. All discrepancies were classified as ``minor deficiencies'' 
by the SAF/IG. As a result, the Air Force is confident we have an 
effective FVAP in place and military members have the resources to 
exercise their right to vote.

    19. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what Service-specific initiatives have you 
implemented to improve compliance with FVAP and to maximize the 
opportunity for servicemembers to exercise their right to vote?
    Mr. Lamont. The Army welcomes the responsibility for providing 
voting assistance to our servicemembers, their family members, and our 
civilian employees. Before the 2012 elections, we made weekly phone 
and/or e-mail communications to IVA offices to ensure proper manning 
and updated any changes to office contact information. The Army 
continues to complete monthly phone and/or e-mail communications to the 
IVA offices. To maximize voter participation, over 7,800 active duty 
UVAOs provided voting assistance at the unit level. They presented 
registration and voting information during meetings, training sessions, 
and formations. The UVAOs provided assistance and encouraged 
servicemembers to access the FVAP website for fast and efficient voter 
registration and assistance. Some of the Army voting activities for 
2012 included participation in Armed Forces Voters Week and Absentee 
Voters Week with IVA offices setting up voting information tables in 
high traffic areas. To increase voter awareness and participation, the 
Army Voting Assistance Program uses Facebook, Twitter, public service 
announcements, print media, and mass e-mail distribution. The Army 
continues to use collaborative tools and information sharing with FVAP 
to push current and relevant voting information to our voting 
assistance personnel and eligible voters.
    Mr. Garcia. In addition to publishing a revision to the Marine 
Corps order on 1 April 2013, several steps were taken to increase 
voting awareness, improve compliance with FVAP and maximize voting 
opportunities for servicemembers. The Marine Corps released two video 
public service announcements for inclusion on all units annual training 
and Marine Corps movie theaters during the months leading up to the 
2012 Federal Election. There are 18 IVA Offices established on bases 
and stations across the Marine Corps in accordance with FVAP 
directives, and every unit with 25 persons or more are required to have 
a Voting Assistance Officer appointed in writing by the Commander of 
the unit to assist and train all personnel in voting processes and 
responsibilities. Family member outreach for voting age dependents is 
also coordinated at Headquarters Marine Corps, and the Family Readiness 
Officer network is utilized to convey voting and election information 
to the spouses and other voting age dependents.
    The 2012 election cycle saw a wide range of initiatives taken by 
the Navy to provide a better-than-ever level of support to voters. 
Efforts included the full implementation of the MOVE Act and 
establishment of an IVA Office at every Navy Installation, the 
engagement of senior leadership, strengthening of command level voting 
assistance programs, innovative marketing and awareness efforts, and 
training. The Navy took a holistic approach to ensure that voters were 
aware of elections and their rights and afforded every opportunity to 
register and vote absentee.
    Mr. Ginsberg. The U.S. Air Force (USAF) Voting Assistance Program 
initiated several initiatives to improve compliance with FVAP and title 
42, U.S.C.

     1.  The USAF made a change to Air Force Policy Directive (AFPD) 
36-31 which effects the requirement for an IVA office in the Military 
and Overseas Voter Empowerment (MOVE) Act, establishing the office as a 
voter registration agency within the installation headquarters 
organization reporting directly to the installation commander
     2.  USAF moved ahead quickly with changes to the AF Voting Action 
Plan in December 2009, implementing various requirements of the MOVE 
Act prior to OSD and FVAP releasing any guidance (i.e., service 
requirements for moving members and deployers immediately implemented).
     3.  USAF implemented the ``Core Unit Voting Assistance Officer 
(UVAO)'' position which is authorized by the installation commander's 
appointment letter for the IVA office. IVA Offices are given the 
authority to appoint up to four Core UVAOs to assist in the manning and 
workload of the IVA Office, which remains an unfunded mandate to date. 
Special training is required for IVA Office and Core UVAO positions.
     4.  USAF produced an ``IVA Office Handbook'' supplement to the 
``FVAP IVA Office Handbook'' on 30 Aug 2010. To date, seven versions 
have been published. In May 2013, the Handbook contents are being 
incorporated into the AF Voting Action Plan so that IVA Offices and 
other IVA Office workers have a single document for the execution of 
the AF Voting Assistance Program.
     5.  USAF established an effective communication dissemination 
system from Service Voting Action Officer (SVAO) to IVA Office to UVAO 
to all Squadron members and their voting age family members. Any voting 
news items generated by FVAP were immediately passed on to voters 
through this streamlined network.
     6.  USAF IVA Offices are required to be clearly marked and 
advertised on base, giving voters a visible office; and UVAOs were not 
forgotten. 85 percent of voting assistance during the past quarter was 
done at the unit level by UVAOs.
     7.  USAF SVAO scripted a Public Service Announcement which the 
USAF Chief of Staff released in January 2012, encouraging military 
members, DOD civilians and their families to vote.
     8.  USAF SVAO implemented a new Staff Assistance Visit 
(inspection) requirement for IVA Offices to perform on all assigned 
UVAOs between Feb and March of every even-numbered year.
     9.  IVA Offices are instructed to partner with military and 
civilian personnel offices to have the IVA Office included on in/out-
processing checklists for Permanent Change of Station (PCS) and 
deployment processing as well as for address changes.
    10.  USAF maintains an online website that allows IVA Offices and 
UVAOs to access all current documents and guidance; search for and 
submit ``best practice'' documents; and communicate via the forum.
    11.  USAF IVA Offices are encouraged to work with local election 
officials (LEOs) during biannual Armed Forces Voters Week and Absentee 
Voters Week events to invite the LEOs on base to assist in the booth 
for local voters.
    12.  USAF IVA Offices are provided an intuitive, stand-alone, 
forms-based ``IVA Office's Database'' for easy management of UVAO 
manning and training requirements as well as documenting UVAO ``due-
outs'' (tasks), voters week plans and after action reports. Reports are 
generated at the push of a single button.
    13.  The USAF Voting Action Plan provides IVA Offices and UVAOs 
multiple tools to use in the execution of their voting assistance 
duties. These include instructions for ordering forms, posters, and 
banners online at no cost to their units; template voting assistance 
information forms; and a biannual chronological sequence of events.
    14.  Various other measures were taken following the passing of the 
MOVE Act: (a) IVA Office voicemail and email is answered within 48 
hours (24 hours if within 60 days of a Federal election); and (b) USAF 
SVAO hosted a webinar to train IVA Offices on establishing and running 
IVA Offices (three webinars done to ensure time zones around the world 
were supported).

                       OPERATION TEMPO OVERSIGHT

    20. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, what is your assessment of your Services' 
Operation Tempo (OPTEMPO) reporting and how well are we meeting our 
OPTEMPO requirements to reduce stress on our servicemembers and their 
families?
    General Bromberg. Overall the Army is meeting its operational 
tempo, with the exception of the Army Reserve. The Active component 
goal is a ratio of 1:2 (time deployed vs. time home). The Active 
component is exceeding this goal with a ratio of 1:2.46. The Army 
National Guard is achieving the goal of 1:4 (time deployed vs. time 
home). The Army Reserve is continuing to improve and currently at a 
ratio of 1:3.5.
    Admiral Van Buskirk. Current Navy individual personnel tempo 
(ITEMPO) reporting is effective and we remain focused on reporting 
compliance and accuracy. In April 2013, Navy achieved 94.8 percent 
reporting compliance which included 98.9 percent of all Navy personnel 
represented in compliant activities. Additionally, we are in the 
process of improving our capability to analyze ITEMPO data for use in 
assessing ITEMPO days away from homeport and its relationship to stress 
on the force.
    General Milstead. For individual marines, we actually report and 
track Personnel Tempo/Deployment Tempo, for how much time marines are 
deployed or away from home. Our reporting is consistent with OSD's 
guidance on same. Our reporting indicates that generally both Active 
component and Reserve component marines are deploying for shorter 
durations and/or less frequently, which we expect will reduce the 
stress on our marines and their families.
    General Jones. The Air Force is successfully meeting our 
operational requirements. We have approximately 186,000 Active Duty 
airmen supporting combatant commander operations. However, some airmen 
have a higher Operational Tempo (OPTEMPO) than others. We assess 
OPTEMPO within our career field stress assessment. Approximately 10 
percent of our Active-Duty Force resides in stressed career fields, of 
which, OPTEMPO is a contributing factor. The Air Force prioritizes 
force management policy and programs, including bonuses, to maintain 
sufficient numbers of personnel in critical career fields to reduce 
stress and meet operational requirements. Additionally, we provide 
airmen a predictive deployment schedule, via the Air Expeditionary 
Force construct, so they can plan and prepare their families for their 
deployments.

                     LANGUAGE AND CULTURE TRAINING

    21. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, military members with language and culture training 
are essential to a U.S. global force. The NDAA for Fiscal Year 2013 
authorized the Secretary of Defense to transform the National Language 
Service Corps (NLSC) from a pilot program to a permanent program, and 
also to enhance the ability of our Federal agencies to hire people with 
strategic foreign language skills and as National Security Education 
Program awardees. What are your Services' goals with respect to the 
capabilities represented by the NLSC?
    Mr. Lamont. The Army continues to support and leverage the 
capabilities provided by the NLSC under the NDAA. Currently, the Army 
works with NLSC's recruiters to hire language proficient soldiers 
departing the Army to work at NLSC. We display NLSC advertisements on 
various portals targeting language qualified soldiers and civilians. 
Additionally, the NLSC provides an overview of their organizational 
opportunities to our 09L soldiers (native speakers of foreign languages 
who serve as interpreters) planning to depart military service. The 
Army is very active in supporting this program's growth. In addition, 
the Army leverages NLSC capabilities to fill short-term foreign 
language requirements that cannot be met within. Some of these 
categories include: role players, interpretation, translation and 
analysis, training (instruction), and administrative language support 
services.
    In order to respond to increasing demands for foreign language 
skills, the NLSC plans to increase membership from the current 4,200 to 
at least 5,500 personnel along with the number of languages/dialects 
represented is expected to increase from 283 to at least 350 by fiscal 
year 2015. The Army continues to work with the Secretary of Defense to 
more actively expand the NLSC membership, reaching out to groups in 
which the government has already invested along with leveraging the 
capabilities of this organization
    Mr. Garcia. Marine Corps - The Marine Corps recognizes the valuable 
service provided by the NLSC. In fact, Marine units have employed NLSC 
services on several occasions for operational and exercise support and 
foreign language instruction. As a matter of practice, however, the 
Marine Corps will seek assistance from the NLSC only after all internal 
Marine Corps options to satisfy language requirements could not be met 
through organic Service capabilities. For this reason, the Marine Corps 
has not set any specific parameters or goals for the employment of NLSC 
services. Rather, the Marine Corps requests NLSC assistance on an ad 
hoc basis similar to other language resources including the National 
Virtual Translation Center. The Marine Corps has implemented several 
programs to increase foreign language capacity and capability within 
its uniformed and civilian workforce, to include the Regional, Culture 
and Language Familiarization program for career marines; expanding the 
Foreign Area Officer program; and the creation of a Foreign Area 
Specialist program for senior enlisted marines.
    Navy - Navy recognizes the broad range of language and culture 
capabilities provided by the NLSC, and finds particular value in their 
ability to satisfy short notice requirements. Navy has utilized NLSC 
resources for both standard fleet operations and humanitarian missions. 
NLSC personnel have served as interpreters/translators for 
multinational maritime exercises when service personnel either were not 
available or non-existent for the task.
    In the future, Navy plans to formalize its process for filling ad 
hoc requests for language, regional expertise, and culture (LREC) 
support. To that end, and similar to Navy's employment of the National 
Virtual Translation Center, the NLSC will be included as an option when 
organic assets are unavailable or nonexistent. Therefore, the intent is 
not to establish explicit, quantifiable goals for usage. Navy will 
continue to train its own assets based on identified, validated, and 
documented requirements. For ad hoc LREC support requests, Navy will 
try to use sailors first and will consider other government options 
afterwards. Navy is pursuing several initiatives to enhance LREC 
capability within its force, but it is neither reasonable nor fiscally 
sound to invest in LREC training and sustainment to meet all 
contingency needs. Navy plans to coordinate as necessary with the 
Defense Language and National Security Education Office on any 
policies, procedures, or business practices to improve or better 
utilize the NLSC.
    Mr. Ginsberg. The purpose of the NLSC is to have a pool of 
language-capable individuals available to support sudden and short-term 
requirements. The NLSC construct is not currently used to support the 
type of exercises and operations conducted by the Air Force. Rather, 
the Air Force meets its language needs by deliberately developing 
individuals to meet its requirements. The Air Force intends to 
encourage separating and retiring airmen who have existing language 
skills to join the NLSC.

                       MARKETING AND ADVERTISING

    22. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, one effect of sequestration was that DOD 
quickly moved to end service advertising, marketing, and outreach 
programs that have been used to aid in recruiting. What is your 
assessment of the value of funding these programs, and the projected 
impact to recruiting if these programs are not funded?
    General Bromberg. It is essential that the Army conduct a vigorous 
and sustained marketing and advertising program in order to recruit a 
quality force capable of handling 21st century mission challenges.
    Admiral Van Buskirk. Navy currently has an annual accession mission 
of over 45,000 officer and enlisted sailors with potential recruits 
dispersed throughout the country. Recruiting quality individuals is the 
first step in ensuring that we have intelligent, capable, high quality 
people in the future force. Paid advertising, marketing and outreach 
are critical components in our efforts to attain the proper recruiting 
mix. Working together to inform the American public of opportunities 
available in the Navy, they collectively communicate efficient and 
effective messages that favorably impact recruiting mission and 
contribute to end strength attainment in support of national security 
objectives. Further reduction in marketing, advertising, and outreach 
efforts and resourcing, would clearly present challenges to future 
accession goal attainment.
    Specific impacts to recruiting are measured through leads and 
contracts with direct linkage to advertising efforts. In fiscal year 
2008, 44.7 percent of Navy accessions (20,218 contracts) originated 
from advertising efforts. The national unemployment rate at that time 
was 5.2 percent. As the unemployment rate declines, recruiters will 
need more assistance from advertising-generated leads to meet accession 
goals. With current levels of unemployment, 22.64 percent of contracts 
(9,810) come from advertising. These are direct effects and do not 
account for the indirect effects that advertising has on influencing 
and reinforcing the joining behavior of our market.
    Outreach programs, including Navy Weeks and Blue Angel appearances, 
allow the American public to directly interact with Navy 
representatives and afford them opportunities to observe examples of 
the technology and equipment sailors use in the daily performance of 
their duties around the world. These interactions prompt them to 
consider military service.
    The value in funding paid advertising and participating in outreach 
events is derived from end strength requirements. Joint Advertising and 
Marketing Research Studies (JAMRS) indicate that 53 percent of armed 
forces accessions come from youth who, when asked if they would 
consider joining the military, had previously indicated ``definitely 
not'' or ``probably not''. Additionally, approximately 74 percent of 
high quality applicants indicated they initiated first contact with a 
recruiter. Advertising, marketing, and outreach events serve to drive 
these initial interactions by creating awareness and a positive image 
of the Navy and its career opportunities.
    General Milstead. In fiscal year 2012, 99.9 percent of Marine 
recruits were high school graduates and 74.8 percent scored in the 
upper half of the written military entrance exam. The quality of our 
applicants is higher than ever before. A critical requirement to 
continued success is our recruit advertising program. Our advertising 
program is used both strategically and tactically to deliver branded 
communications to support marines on recruiting duty, generate leads 
and create positive awareness that engages our prospect and influencer 
audiences. In total, recruiting a quality and representative force 
costs less than 1 percent of the Marine Corps' overall budget. 
Recruiter success is inextricably linked to operational and advertising 
support. Advertising creates awareness and drives consideration to 
serve in the military--it produces `leads'. Advertising leads enable 
recruiters to efficiently focus their prospecting activities. 
Advertising dollars currently generate approximately 25 percent of all 
new contracts (enlisted) through numerous avenues, such as television 
commercials, enhanced area canvassing activities and social media 
outlets. A further loss of funding to advertising will ultimately lead 
to increased stress and reduced quality of life for Marine Corps 
recruiters most of whom currently work in excess of 60 hours per week. 
If advertising spending is cut back too much when recruiting is strong, 
potential long-term gain in awareness and propensity may be lost. The 
dramatic advertising cutbacks between 1986 and 1993 coincided with a 
considerable erosion of public awareness regarding military service.
    General Jones. The Air Force advertising, marketing, and outreach 
programs are a critical component to our mission--to attract the best 
and brightest youth of America. Reduced funding for these programs will 
jeopardize the Air Force's ability to meet career field and DOD quality 
requirements. Even though the Air Force has greatly benefited from 
historic highs in the quality of accessions in recent years, initial 
indicators are signaling a potential shrinking market for high quality 
recruits per JAMRS ``State of the Recruiting Market,'' briefing April 
2013. That same study indicates that 47 percent of new recruits were 
undecided about a career path and were influenced within a year of 
joining the Service. The Air Force must continue to strategically 
advertise, market, and maintain outreach programs to target the highest 
quality recruits and to convert applicants that are less propensed to 
serve.

                  INTEGRATED ELECTRONIC HEALTH RECORD

    23. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, DOD and VA have been working on an integrated 
electronic health record (EHR) for a number of years with very little 
progress being made towards a truly seamless transition of health 
information between the two Departments. In January 2013, VA decided to 
use VistA, its legacy system, as its core health record despite the 
findings of a recent study commissioned by the VA that identified many 
VistA deficiencies. We've been told that DOD has been evaluating 
existing solutions to determine the appropriate core health record to 
use. Has DOD coordinated its proposed EHR program with your Service?
    Mr. Lamont. Yes, the Army has coordinated with the Navy and Air 
Force in the review of the request for information submissions. This 
information was released to the public on February 8, 2013. Results and 
recommendations were briefed to DOD leadership and the three Service 
Deputy Surgeon Generals. Army functionals were active contributors in 
defining EHR Core capabilities.
    Mr. Garcia. Yes, DOD has coordinated with the Navy while analyzing 
and determining requirements for a proposed EHR program. We have 
participated in the review of the request for information submissions 
which were publicly released on 8 February 2013.
    Mr. Ginsberg. Yes, the Air Force (AF) Surgeon General Chief Medical 
Information Officer has been involved in the Analysis of Alternatives 
(AoA) between VistA and other commercial electronic health records. 
Additionally, the AF Deputy Surgeon General has been a regular 
participant in DOD and Veterans' Affairs meetings regarding validation 
of requirements and evaluation of solutions. The Deputy Surgeon General 
has kept me and the Surgeon General updated.

    24. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, how much will it cost for your Service to field a 
new EHR?
    Mr. Lamont. Specific dollar figures would be better obtained by DOD 
Cost Assessment and Program Evaluation as the numbers are acquisition 
sensitive.
    Mr. Garcia. The Services do not provide funding to this effort as 
all funding is centrally managed through the DOD/VA Interagency Program 
Office (IPO), the organization responsible for oversight and 
coordination of DOD/VA information-sharing initiatives. The Navy 
remains focused on tri-service planning for the joint deployment of an 
integrated EHR which achieves maximum economies of scale and 
standardization of the business process of healthcare among the three 
Services.
    Mr. Ginsberg. DOD's electronic health record cost estimates must be 
redetermined after the Secretary of Defense evaluates the results of 
the AoA. Prior cost estimates were based on a previous DOD and VA 
strategy that was determined by both Departments to be infeasible.

    25. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what impact do you anticipate for your Services' 
medical readiness?
    Mr. Lamont. The integrated EHR provides a platform for a lifetime 
electronic health record from the time of accessions through a soldiers 
service and is a key enabler for seamless transition to the Department 
of Veterans' Affairs.
    Deploying the integrated EHR will provide improved access to 
medical records data and improve readiness capabilities, such as 
improved immunization tracking. The integrated EHR will improve medical 
records extraction to support the IDES process. The integrated EHR must 
have full compatibility with readiness data systems for all Services to 
enable crucial bi-directional data exchange. Current systems require 
duplicate efforts that introduce errors and gaps.
    Mr. Garcia. A new integrated EHR should enhance the ability to 
assess medical readiness for our sailors and marines. While information 
can currently be viewed via the Bi-directional Health Information 
Exchange, a single integrated EHR will afford expanded access to the 
source of that health information; permitting quicker assessment and 
care coordination among healthcare providers.
    Mr. Ginsberg. With a new electronic health record, data and 
documentation pertaining to individual medical readiness will be better 
integrated into clinical processes, enhancing our ability to provide 
timely health measures to sustain the readiness of the servicemembers 
under our care.

    26. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, do you believe the EHR must be deployable?
    Mr. Lamont. Yes, it is essential that the integrated EHR be 
deployable to support soldiers deployed to theaters of operation or 
contingency operations. A deployable integrated EHR will allow data 
input and visibility throughout the continuum of care from point of 
injury to DOD medical treatment facilities to VA treatment facilities. 
Documenting care in the deployed environment will enhance the accuracy 
of a soldier's medical history, which could affect future disability 
assessments and benefits determination.
    Documenting pre-hospitalization care and assessment provides 
valuable retrospective data to conduct research to improve patient care 
to address preventable causes of battlefield death. Finally, a 
deployable integrated EHR also enables deployed providers to access the 
medical history of the injured soldiers, thereby improving the quality 
of care.
    Mr. Garcia. It is absolutely essential that the IEHR be deployable 
to support marines in the field and sailors at sea since a vast 
majority of marines and sailors spend significant portions of their 
careers deployed away from home station. A key feature of the 
integrated EHR is the ability to continue to document medical care in 
times of low or no network connectivity, and then synchronize data once 
a connection is restored so it is available for future use. To that 
end, the integrated EHR will provide one system permitting both the 
inputting of data and the visibility of that data throughout the 
continuum of care--from the initial point of injury through the 
Military Treatment Facility and on to the VA treatment facility.
    Documenting healthcare in the deployed environment will enhance the 
accuracy of the medical history for our sailors and marines, which is 
key to ensuring they receive the right healthcare at the right time. 
Well documented healthcare is also critical for use in determining 
future disability assessments and benefits determination.
    Mr. Ginsberg. In the Initial Capability Document approved by the 
Joint Requirements Oversight Council, the electronic health record 
should be deployable in theater and support the mobility requirements 
for en route care. The solution would eliminate the need for three 
separate theater electronic health record solutions and enhance 
continuity of care, even in ``low-communication/no-communication'' 
environments.

    27. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what input has each Service had on the EHR program?
    Mr. Lamont. Army Medicine as well as the Navy Bureau of Medicine 
and Air Force Surgeon General have been involved in the integrated EHR 
program from the beginning. Army's contributions to the integrated EHR 
program include: requirements generation and support with Clinical 
Informatics, Capability Management, and Enterprise Architecture assets. 
The Army Surgeon General is a non-voting member of the Interagency 
Program Office Advisory Board, which is responsible for integrated EHR 
governance.
    Mr. Garcia. Navy Medicine is actively engaged and currently 
collaborating with our Army and Air Force counterparts, as well the 
Veterans Health Administration. The Navy has provided subject matter 
experts to work on the Capability Integrated Project Teams, Clinical 
Informatics Teams and Enterprise Architecture Teams as well as staffing 
to assist with the requirements generation process. The Navy Surgeon 
General is also a non-voting member of the DOD Integrated Program 
Office Advisory Board which is responsible for integrated EHR 
governance.
    Mr. Ginsberg. The Air Force (AF) Surgeon General Chief Medical 
Information Officer has been involved in the AoA between VistA and 
other commercial electronic health records. Additionally, the AF Deputy 
Surgeon General has been a regular participant in DOD and Veterans' 
Affairs meetings regarding validation of requirements and evaluation of 
solutions. The Air Force Medical Service and AF Communications 
communities have provided more than 100 clinical subject matter experts 
for the functional and technical requirements process.

                     BENEFITS FOR SAME-SEX PARTNERS

    28. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, recently, former Secretary of Defense Panetta 
announced that DOD will expand benefits to unmarried same-sex domestic 
partners who declare a committed relationship, but will not extend 
those same benefits to unmarried heterosexual domestic partners. Do you 
agree with former Secretary Panetta, that when it comes to benefits 
paid for by hard-working American taxpayers, that DOD should favor 
same-sex domestic partners over heterosexual partners?
    Mr. Lamont. We support former Secretary Panetta's decision. 
Heterosexual couples, if they so choose, have the opportunity in every 
State to get married; currently, same-sex couples do not have this 
opportunity. The steps announced today are an effort to close the 
equity gap for benefits, consistent with current law. Once implemented, 
same sex domestic partners will be required to sign DD Form 683, 
(Declaration of Partnership) attesting to the committed relationship. 
Similarly, a DD Form 684, (Dissolution of Partnership) will be required 
if the relationship ends. Soldiers must notify their personnel official 
within 30 days of the dissolution and will be required to wait 6 months 
before entering attesting to another relationship.
    Mr. Garcia. As an assistant secretary of a military department, I 
am committed to supporting the requirements and priorities as 
determined by the Secretary of Defense. Many benefits for families in 
same-sex relationships remain restricted by law. Heterosexual couples, 
in contrast, have the option to marry and enjoy the full range of 
benefits. I am committed to working with OSD to ensure fairness and 
equal treatment and to taking care of all of our servicemembers and 
their families to the extent allowable under law.
    Mr. Ginsberg. Heterosexual couples, if they so choose, have the 
opportunity in every State to get married, and their marriage is 
recognized in Federal law. Currently, same-sex couples do not have this 
opportunity (per Defense of Marriage Act), we can only recognize 
marriage between a man and a woman. The extension of benefits to same-
sex domestic partners of military members closes the gap in equity for 
benefits consistent with current law.

    29. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, was your Service consulted to determine the cost 
impact of extending these benefits to same sex partners?
    Mr. Lamont. The respective Services were not consulted directly. 
However, the Joint Benefits Review Working Group, which includes 
service representatives, considered cost impact as part of the overall 
analysis and determined that the cost was negligible.
    Mr. Garcia. Yes. The Department of the Navy was included among the 
representatives in the DOD working group established by the Secretary 
of Defense which, among other things, determined the cost impact of 
extending these benefits to same-sex partners.
    Mr. Ginsberg. Benefit subject-matter experts were consulted during 
the OSD-led Joint Benefits Review working group and the Air Force 
provided input via this working group and various other Senior Leader 
briefings and discussions leading up to the announcement of benefits 
extension. From a fiscal perspective, the benefits that are being 
extended are of negligible cost. Some are cost neutral and self-
sustaining such as MWR Programs, and Commissary and Exchange 
privileges.

                            TOTAL FORCE MIX

    30. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, General Dempsey said, in his testimony 
last week, that DOD needs flexibility to keep the force in balance and, 
that everything must be ``on the table'' including the mix among 
Active, Reserve, and National Guard units. In view of the heavy wartime 
demand on the forces including the Reserve and Guard, what do you 
envision as a viable option to change that force mix for your Service?
    General Bromberg. The Army remains committed to the Army Total 
Force Policy. The Active Army, the Army National Guard, and the Army 
Reserve each serve vital roles in our National Military Strategy, and 
it is imperative that we use each component's strengths to best 
advantage to accomplish all of the Army's missions. We will carefully 
review force structure and mix changes as we gain more clarity on a 
future budget.
    Admiral Van Buskirk. Navy conducts a comprehensive review every 
programming cycle after reviewing all applicable strategies (e.g., 
Defense Strategic Guidance and Cooperative Strategy for the 21st 
Century Sea Power). Our program, as submitted, provides Navy with the 
optimal Active and Reserve component mix, by which Navy can surge, 
regenerate and flex capabilities needed for current operations and 
future contingencies. This optimal mix is predicated on the assumption 
that the Overseas Contingency Operations (OCO) Individual Augmentation 
demand for Navy personnel will continue to decline and that the Reserve 
component will continue to have the capacity to source those 
requirements. This strategy enables the active component to man our 
force structure units (i.e., ships, submarines, aviation squadrons, and 
other operational units) and provide forward presence required by the 
ongoing rebalance to the Asia-Pacific region.
    Navy has leveraged some of the authorities enacted in the NDAA for 
Fiscal Year 2011, to more fully utilize the Reserve component to 
increase readiness and operational capacity. Specifically, title 10 
U.S.C., sections 12304a and 12304b, allow involuntary access to Reserve 
component personnel in response to a major disaster or emergency 
(12304a) or to meet preplanned missions in support of combatant 
commanders (12304b). Trained and qualified reservists provide increased 
capability and capacity to meet strategic Navy requirements and enable 
us to transition to a force that can seamlessly integrate into an 
active unit or replace an entire active unit to perform routine 
operational missions. Additionally, we have successfully implemented 
continuum of service policies by which Reserve enlisted sailors have 
options for voluntary recall to serve on active duty for up to 3 years 
or to return to the Active component and resign their Reserve 
contracts. As we continue progressing from a strategic reserve to an 
operational reserve, opportunities for further adjustments in the 
Active/Reserve Force mix may become increasingly evident.
    General Milstead. While the Marine Corps is reducing the end 
strength of the Active component from 202,000 to approximately 182,100 
for the post Operation Enduring Freedom environment, we do not plan to 
draw down its Reserve end strength. We believe the proportion of 39,600 
reservists and 182,100 Active Duty marines is the right level for the 
foreseeable future.
    General Jones. Total Force Task Force was formed to examine the 
operational impacts and cost factors associated with various approaches 
to total force integration. By identifying and implementing the optimum 
force mix of an Active, Reserve, and Guard component, we should be able 
to maximize operational effectiveness, better optimize total force 
efficiencies; and provide better stability over time to our Guard 
units, States, and Reserve organizations.

                         MILITARY COMPENSATION

    31. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, our Nations' historical experience of pursuing cost 
savings by cutting military compensation has demonstrated that periods 
of designed reduction in overall compensation levels resulted in 
retention problems. And those retention problems, especially in the 
context of generally improving civilian employment opportunities, meant 
Congress was required to come back and authorize catch up increases to 
help us keep the highly trained talents and skills that we need. What 
is your assessment of the impact of the President's proposed slowdown 
in military compensation on retention and recruiting in your Service?
    Mr. Lamont. The Army believes that a slowdown in the increase in 
military compensation can be accomplished without sacrificing recruit 
quality or member retention. Conditions appear favorable for slowing 
the increase in military pay. Recruiting quantity is being met and 
recruit quality is high; retention goals are typically being exceeded. 
Any unanticipated changes in circumstances, such as a significant 
improvement in civilian employment opportunities, could negatively 
affect Army retention and recruiting. However, at present and in the 
anticipated future environment, the Army does not believe that a 
slowdown in the increase in military compensation will adversely affect 
its ability to recruit and retain an adequate number of high-quality 
personnel.
    Mr. Garcia. Military compensation is highly competitive today, and 
the President's proposed slowdown in base pay is not likely to cause 
recruiting or retention problems in the near term provided recruiting 
bonuses and retention pays are preserved. The most recent Quadrennial 
Review of Military Compensation reported enlisted members were paid at 
the 90th percentile and officers were paid at the 83rd percentile 
relative to private sector counterparts with comparable education and 
experience. Just 13 years ago, both officer and enlisted personnel were 
below the 70th percentile benchmark, and DOD made deliberate 
investments in military pay to meet that threshold. In the current 
fiscal environment, there is room to slow down base pay growth, thereby 
helping to mitigate further cuts to force structure, readiness and 
modernization.
    Mr. Ginsberg. At this time, the Air Force does not foresee 
significant challenges to our recruiting and retention efforts as a 
result of the proposed slowdown in military compensation. Our Force 
Management program is a tailored multi-year strategy focused on sizing 
and shaping the total force with the right balance of skills to meet 
current and emerging joint mission demands. The Air Force's strategy 
over the past few years has been aggressive, allowing us to meet 
congressionally mandated end strength requirements and maintain a high 
quality force by leveraging voluntary programs first, offering 
incentive programs where needed, and implementing involuntary actions 
when required. Due to the expected improvements in the economy and the 
importance our airmen place on overall compensation, our recruiting and 
retention will be increasingly challenged, particularly as the Air 
Force addresses the need for its highly technically-skilled force. 
These compensation challenges may require increased recruiting and 
retention incentives for our future force.

                        FAMILY SUPPORT PROGRAMS

    32. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, General Dempsey testified last week that 
unsustainable costs and smaller budgets require DOD to examine every 
warrior and family support program to make sure we are getting the best 
return on our investment. How do you assess the investments our Nation 
has already made in family support programs, and suicide prevention in 
particular, in moving the needle with demonstrable positive return on 
investment?
    Mr. Lamont. In late 2011, the Army adopted a portfolio approach to 
managing warrior and family support programs. This portfolio approach 
promotes a shift in the governance focus from individual program 
proponents to the entire group of related programs such as Suicide 
Prevention. In 2012, the Army piloted its first enterprise evaluation 
to assess how programs within the Health Promotion and Risk Reduction 
Portfolio contribute to specific strategic outcomes (Help-Seeking, Risk 
Reduction, Transition, and Resilience and Coping). The findings of this 
and future evaluations will focus on how programs could increase their 
ability to achieve the Army's strategic outcomes and improve our return 
on investment.
    Mr. Garcia. The Navy and Marine Corps continually evaluate the 
effectiveness of their programs to ensure the needs of our sailors, 
marines, and their families are being met. Assessment and research 
efforts help identify program deficiencies, program best practices and 
satisfaction. This insight enables the Department of the Navy to adjust 
internal programming and accurately direct external support to best 
serve sailors, marines, and their families.
    The Navy actively participates in the Defense Suicide Prevention 
Office's (DSPO) program evaluation initiative. DSPO is conducting an 
analysis of the Services and the OSD Suicide Prevention programs in 
order to align and integrate programs, resources, policy, and strategy. 
The analytical method being utilized has the following three 
components:

    (1)  Strategic Coverage: The Navy is supporting efforts to align 
and analyze suicide prevention programs to assess whether there are 
gaps in addressing the overall OSD suicide prevention strategic 
objectives.
    (2)  Resource Allocation & Analysis: OSD and the Services are 
conducting a review of Suicide Prevention Programs to determine full 
costing of requirements/level of effort, funding amounts, and potential 
shortfalls. This review includes examining program duplication and AoA 
in an effort to reduce costs without significant negative impact.
    (3)  Program/Portfolio Effectiveness: The DSPO recently completed 
an effort to establish a common framework and understanding of measures 
of effectiveness (MOEs), and ground rules, for Suicide Prevention 
Programs. The Services and OSD are examining measures of effectiveness 
and performance measures. This analysis will be used to realign 
existing program resources and ensure that highly ranked suicide 
prevention programs are implemented across all of the military 
Services,

    Mr. Ginsberg. We have multiple forums that enable us to monitor the 
delivery of family support programs. Within our Airman and Family 
Readiness Centers, we have a very robust computer management system 
that provides us with real time data for our supported populations-
service codes are used to record the type of support sought (e.g., 
financial management) and the system allows the provider to make 
notations of the visits. Additionally, the Air Force conducts biennial 
community assessments, through the Air Force Surgeon General, that 
provide valuable data on our ability to meet individual needs, and also 
collects information regarding behaviors that may place an individual 
at risk. Further, the Air Force Community Action Information Board 
(CAIB), convened at the installations, major commands, and Headquarters 
Air Force, identifies community issues to emphasize the importance of 
taking care of airmen and their families. Since 1996, the CAIB process 
has focused extensively on monitoring, managing, and implementing 
suicide prevention best practices for use by commanders. Additionally, 
the CAIB provides detailed actions and discussions on sexual assault 
prevention, child and family maltreatment issues, and resilience. A 
significant outcome from the CAIB process has been the development and 
implementation of the Comprehensive Airman Fitness concept that 
concentrates exclusively on developing our airmen and families to 
become more resilient and better prepared to meet the unique challenges 
of military service.

                       TUITION ASSISTANCE PROGRAM

    33. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, I am pleased to learn that DOD has now 
reinstated the Tuition Assistance program, previously cancelled by the 
Army, Marine Corps, and Air Force in response to the administration's 
failure to plan for sequestration. How does Tuition Assistance enable 
your Active-Duty Forces to meet the professional development 
requirements described by General Dempsey to establish the Profession 
of Arms as the foundation for the Joint Force?
    General Bromberg. Tuition Assistance supports soldiers in 
completion of classes leading to Associate's, Bachelor's and Master's 
degrees as well as certificate programs. This off-duty voluntary 
education program develops critical and adaptive thinking skills 
soldiers and leaders need to make informed decisions. These skill sets 
allow the Army to learn faster and adapt more quickly than its 
adversaries and inable, necessary skills to meet the challenges of 
today's operational environment.
    Admiral Van Buskirk. Education is a critical strategic investment 
that enhances the overall effectiveness of our force. All assignments 
benefit from well-developed skills in critical thinking, problem 
solving in complex environments, and effective communications. Navy's 
unwavering support of the Tuition Assistance program, along with our 
numerous other educational programs and opportunities, support 
development of these skills and attributes across the force. Education 
becomes an asymmetric advantage in our ability to develop leaders who 
are able to innovate, adapt, and succeed in the planning and delivering 
of maritime joint warfighting and support capabilities.
    General Milstead. The Marine Corps' tuition assistance program is 
focused on providing exposure to higher education for our marines. We 
expose marines to the critical thinking, analysis and problem-solving 
skills that one learns through higher education. While we know that 
most of our marines will leave the Corps after their first enlistment, 
we value involving them in higher education for two reasons. First, if 
they stay marine and continue to pursue higher education, they will 
develop the cognitive skills required of thinking institutions, as 
described by General Dempsey. Second, if those marines leave the Corps 
and re-enter civilian life, they return prepared to pursue higher 
education, develop similar skills, and contribute to the advancement of 
society. Either way, our Nation improves its thinking and problem 
solving capacity.
    General Jones. Military Tuition Assistance provides the financial 
means for our airmen to pursue higher education. In turn, higher 
education provides the educational background crucial in developing the 
critical thinking skills needed for practitioners of the profession of 
arms. This means our airmen are more able to work in the dynamic 
climate of today's conflicts. Additionally, higher education allows 
airmen to develop the critical ability to make connections between 
seemingly unrelated events or information and develop holistic 
solutions quickly and accurately. Military tuition assistance will 
continue to be integral to the recruiting, retention and readiness of 
our airmen. However, competing funding requirements will necessitate 
changes in fiscal year 2014 and beyond to ensure the financial health 
of the program.

                           SUICIDE PREVENTION

    34. Senator Graham. General Bromberg, Admiral Van Buskirk, General 
Milstead, and General Jones, our force is exceptionally well-trained on 
suicide awareness and prevention, and yet we still experience the 
tragedy of suicide at an unacceptably high rate. What is your 
assessment on whether the current level of training and leadership 
engagement is sufficient or whether it has inadvertently created a 
climate in which some vulnerable individuals may have contemplated 
suicide because we talk about it so much?
    General Bromberg. We continually assess our training for 
effectiveness. The Ready and Resilience Campaign requires an assessment 
of programs that support the campaign. The Army has not completed an 
assessment on the correlation of suicide prevention training and the 
incidences of suicides overall. Suicides are complex issues with a 
multitude of variables influencing each. The Army focus on identifying 
the early signs of suicidal behaviors and intervention skills remains 
the best option in attempting to reduce the number of suicides. There 
is no known direct correlation that the increase in suicide prevention 
training has created a higher propensity of soldiers to consider 
suicide as a viable option to their problems.
    Admiral Van Buskirk. The U.S. Surgeon General's 2012 National 
Strategy for Suicide Prevention recommends emphasis on resiliency in 
training, messaging and communications, as well as clinical practice 
guidelines. Navy's operational stress control training teaches skills 
that build resilience, navigate stress and identify resources that 
reduce risk of crises. By helping sailors develop life skills and 
promote comprehensive wellness--physical health, nutrition, fitness, 
proper rest, sound financial decisions, strong relationships and 
spirituality--suicide risk factors are reduced without explicitly 
discussing the subject. Navy's training is designed to foster 
meaningful discussion of stress and proactive ways to mitigate it and 
instill awareness of stress injury warning signs for those having 
trouble navigating through challenges.
    Our strategic and tactical communications products provide best 
practices on how to discuss stress injuries that avoid risk of suicide. 
Adapted from the national suicide prevention resource center's 
recommendations, these Navy branded products are not only useful to 
guide training, but encourage leaders to engage in meaningful dialogue 
with their sailors, reinforcing the message that ``It's okay to speak 
up when you're down.'' Finally, unit leadership engagement is critical 
to enable sailors to move beyond decades of negative psychological 
health perceptions and barriers, and to seek the help needed to remain 
resilient and operationally ready. Navy is confident that both the 
training strategy and leadership commitment to engage all aspects of 
suicide prevention will provide sailors and their families with the 
necessary tools to choose life.
    General Milstead. The Marine Corps continually evaluates the 
effectiveness of its suicide prevention training and makes periodic 
updates to incorporate the latest evidence-based practices. Our 
evaluation includes partnering with Federal agencies, academia and 
private industry in cooperation with Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury to study the 
effectiveness of our suicide prevention training.
    To ensure that we do not inadvertently create a climate that talks 
about suicide too much, the Marine Corps adheres to the latest 
recommendations for reporting of suicide, which include offering hope 
and avoiding talks about suicide. We do not discuss suicide method, 
dramatic images, or act to glamorize a death. Discussing suicide 
carefully can correct myths and encourage those who are vulnerable or 
at risk to seek help.
    General Jones. The current level of training on suicide prevention 
for leaders in the Air Force is appropriate. Suicide is one of the most 
challenging issues Air Force leaders at all levels face. The Air Force 
Suicide Prevention Program (AFSPP) is an effective evidenced-based, 
leader-led, community program that relies on 11 overlapping elements. 
The core of these 11 Elements is leadership involvement.
    In 2011, as part of the Air Force response to the findings of the 
2010 Volpe report on suicide in the military and the RAND report, ``The 
War Within,'' enhancements were made to the 11 Elements of the AFSPP. 
One of the most critical enhancements was the development of a 
strategic communication plan to promote responsible reporting of deaths 
by suicide, encouraging help-seeking behaviors among all airmen, and 
removing barriers to seeking care. This was done to ensure that in our 
efforts to prevent suicide, the Air Force was not inadvertently 
promoting suicide. To that end, the Air Force Public Affairs Guidance 
(PAG) on Suicide Prevention was developed based on the World Health 
Organization's (WHO) ``Preventing Suicide: A Resource for Media 
Professionals.'' The Air Force PAG provides guidelines on crafting 
suicide prevention messaging, responsible reporting information on 
death by suicides, delivering strength-based messages, championing 
responsible help-seeking behaviors in airmen, and modeling healthy 
behaviors and choices throughout our wingman culture. This approach is 
mirrored in annual training for all airmen and frontline supervisor 
training for at-risk career fields. Another enhancement was the 
development and issuance of comprehensive post-suicide and post-
suicide-attempt guidelines. These guidelines assist leaders in the 
critical time after a suicide attempt or the loss of an airman to 
suicide to appropriately support the bereaved and prevent additional 
suicides. Research shows that the time immediately following a death by 
suicide is a period of increased risk for friends, family, and co-
workers of the deceased.
                                 ______
                                 
             Questions Submitted by Senator Kelly A. Ayotte

                INTEGRATED DISABILITY EVALUATION SYSTEM

    35. Senator Ayotte. Secretary Lamont and General Bromberg, what 
must be done to further reduce the time it takes for soldiers to 
progress through IDES?
    Mr. Lamont and General Bromberg. The Army remains committed to 
making this process more accessible to our soldiers and their families. 
Over the last year, the Army has devoted an extraordinary amount of 
time, attention, resources, and leadership to improve the Integrated 
Disability and Evaluation System. These include doubling the total 
number of personnel supporting IDES nationwide, establishing and 
enforcing Army-wide processing standards, placing a General Officer in 
charge of IDES overall, and establishing three Medical Evaluation Board 
remote operating locations to reduce the backlog of Reserve component 
soldiers. The results of those efforts are evident in our Medical 
Evaluation Board and PEB processing time metrics and will reflect in 
the average time for the entire process once the current backlog of 
cases have finished the process. However, this is still a very 
complicated process touching unit, personnel, medical, Veterans' 
Health, Veterans' Benefits, and finance systems. Short of complete 
overhaul of the system, we believe redesigning the existing process 
within the constraints of current statutes will only result in 
unnecessary turmoil and confusion and will likely result in another 
inefficient process.

    36. Senator Ayotte. Secretary Lamont and General Bromberg, what are 
the leading causes of delay?
    Mr. Lamont and General Bromberg. The Army is meeting OSD's 
processing goals in all subprocesses of the IDES with the exception of 
the VA Preliminary Rating Stage and VA Benefits Stage. Recent process 
improvements in the Army's Medical and PEB processes have increased the 
average monthly input of cases to the Disability Evaluation System 
Rating Activity Site, creating a backlog. Until this backlog is 
eliminated, the Army will have difficulty meeting OSD's 295-day goal.

                         INVOLUNTARY SEPARATION

    37. Senator Ayotte. Secretary Lamont and General Bromberg, in your 
prepared remarks, you state that the Army will ``need congressional 
support as it resorts to inevitable involuntary measures in the coming 
fiscal year.'' Why is it inevitable that the Army will need to utilize 
involuntary separations?
    Mr. Lamont and General Bromberg. The Army must retain the very best 
soldiers to continue to succeed in performing our critical missions on 
behalf of the Nation. Our modeling has shown that current volunteer 
separation rates will not achieve the required end strength goals. 
Experience from the 1990s drawdown showed us that incentivizing 
voluntary separations prevented the Army from keeping many of its 
promising members. In addition, funding to support financial incentives 
for voluntary separations would be pulled from critical programs 
already significantly impacted by sequestration adjustments. For 
today's force shaping efforts, the Army is committed to deciding who we 
will retain and who must transition by putting in place a robust 
program of transition assistance for servicemembers and families. This 
will ensure all who must separate will have the tools needed to care 
for family needs and transition their hard won skills into our Reserve 
components or to civilian careers.

    38. Senator Ayotte. Secretary Lamont and General Bromberg, what 
level of involuntary separations do you anticipate in the next fiscal 
year?
    Mr. Lamont and General Bromberg. Approximately 1,000 officers will 
need to be separated through promotion nonselection and Selective Early 
Retirement Board actions in fiscal year 2014.

    39. Senator Ayotte. Secretary Lamont and General Bromberg, in terms 
of grade, years of service, number of deployments, and military 
occupational specialty, what type of soldiers will be involuntarily 
separated in the coming fiscal year?
    Mr. Lamont and General Bromberg. The Army expects to separate 
enlisted soldiers in the ranks of private through sergeant major, and 
officers at the grades of captain through colonel. The majority of the 
members separating will have deployed and will span a range of 
specialties. We anticipate that many of these soldiers will be eligible 
to apply for Temporary Early Retirement Authority or regular 
retirement.

    40. Senator Ayotte. Secretary Lamont, General Odierno testified 
that if sequestration continues, the Army may have to reduce at least 
100,000 additional personnel. During last year's subcommittee hearing, 
you said that the Army may have to involuntarily separate as many as 
24,000 enlisted soldiers and up to 5,000 officers. Has your estimation 
changed or are those the numbers we are still looking at in terms of 
involuntary separation?
    Mr. Lamont. For the Army to achieve an end strength of 490,000, we 
expect to have to require the involuntary separations of approximately 
6,500 officers and just under 6,000 enlisted over the period between 
today and fiscal year 2017. If sequestration remains in place, those 
numbers would have to be increased based on any additional end strength 
reductions required.

    41. Senator Ayotte. Secretary Lamont, consistent with current law, 
what is the approximate number of anticipated involuntary separations 
if sequestration continues until 2021?
    Mr. Lamont. The Army has not completed its analysis of 
sequestration impacts on the force. It would be imprudent to provide 
any numbers at this time.

    42. Senator Ayotte. Secretary Lamont, will the majority of 
involuntarily separated soldiers be retirement eligible?
    Mr. Lamont. Yes. Since Temporary Early Retirement Authority is 
available, we anticipate that the majority of our separating soldiers 
will qualify for a retirement pension and benefits.

                        REDUCED RECRUITING POOL

    43. Senator Ayotte. Secretary Lamont, Secretary Garcia, Secretary 
Ginsberg, General Bromberg, Admiral Van Buskirk, General Milstead, and 
General Jones, in Secretary Lamont's and General Bromberg's prepared 
remarks, they stated that ``recruiting is expected to be more difficult 
in fiscal year 2014.'' You mention that ``one in four 17-& 24-year-olds 
are eligible to serve in the Army without a waiver''. You also state 
that ``One in five youths age 12-19 are currently overweight, compared 
to 1 in 20 in the 1960s, and this trend is projected to grow to one in 
four by 2015.'' From a broad, national security perspective, what 
concerns, if any, do you have regarding a declining pool of eligible 
recruits?
    Mr. Lamont and General Bromberg. A declining pool of eligible 
recruits is a national security concern because it impacts the ability 
to field a quality, and diverse, All- Volunteer Force. This directly 
impacts readiness. While beneficial to the country, the steadily 
improving economic environment compounds the problem of the declining 
pool and adds to today's recruiting challenge. The Army has the mission 
to recruit over 100,000 eligible and qualified young men and women 
across all three of its components each year. The Army competes for 
these qualified youth with the other Services as well as colleges, 
universities, and industry. Of those who are eligible, only a small 
portion (8 percent) is interested in joining the Army. In order to 
convince this limited pool of the value of Army service over the other 
options available to them, Army marketing must be sufficiently 
resourced.
    Mr. Garcia and Admiral Van Buskirk. Navy is concerned about the 
trends, but has no concern from a broad, national security perspective, 
as the remaining Qualified Military Available (QMA) pool is projected 
to remain relatively stable. QMA is the official DOD metric for 
eligibility. Based on a fall 2012 assessment by OSD JAMRS, the high 
quality, eligible, and propensed, target market is estimated at 
approximately 529,500, which will meet the DOD accessions requirement. 
Navy will meet accessions requirements in the foreseeable future 
without relaxing accessions standards.
    Mr. Ginsberg and General Jones. The Air Force role in national 
security requires us to carry out activities conducted by the brightest 
and most capable airmen and our ability to seek out and recruit these 
individuals is critical to our success. A declining recruiting pool 
reduces the Air Force's ability to find the diverse mix of applicants 
to sustain our highly technical career fields. Based on current 
worldwide trends and threats, the Air Force projects increased 
requirements in career fields such as Cyber. These technical 
specialties depend on our ability to provide sufficient numbers of 
qualified recruits to sustain these career fields over the course of a 
20- to 30-year career.
    General Milstead. The pool of highly qualified eligible recruits 
has been declining for several years now and shows no sign of improving 
in the near future. The Marine Corps has been proactive in addressing 
this concern. The backbone of the Marine Corps' recruiting effort is 
the High School and Community College program in which we focus our 
recruiters' efforts on the most qualified youth; although qualified 
prospect numbers are diminishing they are presently adequate. Access to 
high schools and college campuses is critical to our recruiters being 
able to meet face-to-face with quality applicants. With about 75 
percent of the market being unqualified for military service, recruiter 
access to these educational institutions is imperative. Adequately 
funding our recruiting efforts, specifically advertising and personnel 
structure, will enable the Marine Corps to avoid mission failure in the 
coming years.

    44. Senator Ayotte. Secretary Lamont, Secretary Garcia, Secretary 
Ginsberg, General Bromberg, Admiral Van Buskirk, General Milstead, and 
General Jones, is the declining recruit pool a long-term trend we 
should be concerned about?
    Mr. Lamont and General Bromberg. Yes, the declining long-term trend 
of young Americans who are eligible to serve in the Army is a concern. 
The United States is facing a national security challenge--not only a 
military recruiting problem. Recruiting is expected to be more 
challenging in fiscal year 2014; the Army and the Nation still face 
challenges such as rising obesity rates and decreasing high school 
graduation rates as we recruit the All-Volunteer Force. Today, fewer 
than one in four 17- to 24-year-olds are eligible to serve in the Army. 
More than 20 percent of high school students fail to graduate and one 
in five youths, 12-19 years old, are currently overweight. This trend 
is projected to grow to one in four by 2015. Recruiting soldiers to 
meet the challenges of the 21st century will prove increasingly 
difficult due to these changing U.S. demographics. Trends such as 
increased requirements for technological proficiency, increasing 
obesity and a reduced interest in military service not only limit the 
recruiting population, but potentially prevent some of the best and 
brightest from serving in our ranks and benefitting from an Army Strong 
foundation. The Army requires quality prospects that can adapt and 
operate in complex environments; the declining recruit pool is 
concerning as it may impact future capabilities.
    Mr. Garcia and Admiral Van Buskirk. Navy is concerned about the 
trend in obesity, increase in substance abuse, and the general lack of 
military awareness; however, analysis of the data indicates that the 
recruit pool is relatively stable through 2020. The size of the age 17-
24 youth population is projected to increase between 2020 and 2030. 
Analysis of OSD JAMRS data suggests that, even with QMA factors applied 
to gross census numbers, the recruit pool remains large when compared 
with the projected number of DOD annual accessions of approximately 
150,000; therefore, it is not expected to impact accession goals.
    Mr. Ginsberg and General Jones. Yes, a declining recruiting pool 
threatens the Air Force's ability to meet future national security 
requirements and marketing data, provided by the JAMRS, indicates that 
this trend is growing.
    General Milstead. Yes, for the sake of our national character as 
well as national security. Based on ethnicity or race, between 21 to 42 
percent of young Americans did not graduate from high school in 2012. 
Another 10 percent cannot join the military because of their criminal 
records. When weight problems are combined with educational deficits, 
criminal records, and other disqualifiers, such as asthma or drug 
abuse, 75 percent of Americans 17 to 24 years old are unable to join 
the military.

    45. Senator Ayotte. Secretary Lamont, Secretary Garcia, Secretary 
Ginsberg, General Bromberg, Admiral Van Buskirk, General Milstead, and 
General Jones, will your Service be forced to lower standards in order 
to recruit a sufficient number of people?
    Mr. Lamont and General Bromberg. The Army has no plans to lower 
recruit quality standards to achieve its goals.
    Mr. Garcia and Admiral Van Buskirk. Navy does not need to lower its 
accession standards. NRC's analysis of the data indicates that the 
recruit pool is relatively stable through 2020. The age 17-24 youth 
population is projected to increase between 2020 and 2030. Even with 
QMA factors, the official DOD eligibility metric, applied to gross 
Census numbers, the recruit pool remains large when compared with the 
DOD projected annual accessions of approximately 150,000. Based on a 
fall 2012 assessment of OSD JAMRS data, the high quality, eligible, and 
propensed, target market is estimated at approximately 529,500, which 
will meet the DOD accessions requirement.
    Mr. Ginsberg and General Jones. It is too early to determine if the 
Air Force will need to lower standards in the future to meet accession 
goals. We have enjoyed a robust recruiting environment in recent years 
mostly due to the relatively high unemployment rate and a struggling 
economy. This recruiting environment has produced inflated quality 
indicators such as a higher than normal number of applicants qualifying 
in the highest mental aptitude test categories. We will continue to 
monitor our recruiting trends as the economy improves and other factors 
continue to shrink our recruiting pool and make adjustments if we feel 
it is necessary to meet production goals.
    General Milstead. The Marine Corps has not, and does not plan to 
reduce our quality standards or enlistment criteria. Quality standards 
were maintained when the Marine Corps expanded in size during the 
recent decade. Studies and research confirm that quality applicants are 
an investment that ultimately saves money due to lower attrition--
specifically, more individuals will complete their enlistment--which 
helps stabilize our recruiting accession mission. Most importantly it 
provides the highest caliber of force capable of adapting and 
succeeding on 21st century battlefields. Lowering standards to chase 
short-term gains in meeting accession missions leads ultimately to 
higher costs, a less capable force, and negative implications for 
national security.

    46. Senator Ayotte. Secretary Lamont, Secretary Garcia, Secretary 
Ginsberg, General Bromberg, Admiral Van Buskirk, General Milstead, and 
General Jones, how can programs like the National Guard Youth Challenge 
Program increase the number of eligible recruits?
    Mr. Lamont and General Bromberg. While the mission of the Army 
Reserve National Guard (ARNG) Youth Challenge Program is to intervene 
and assist 16-18 year old high school dropouts, the impact on expanding 
the ARNG recruiting market is minimal. Many of the National Guard Youth 
Challenge participants have law violations and would thus require 
misconduct waivers. Very few program participants join (14 percent) and 
many may not qualify if they do receive a GED or high school diploma.
    Mr. Garcia and Admiral Van Buskirk. The National Guard Youth 
Challenge Program (NGYCP) is recognized as a Tier II education program 
by OSD. Per fiscal year 2013 DOD quality standards, 90 percent of total 
force non-prior service accessions must be Tier I High School Diploma 
Graduates (HSDG). Navy's higher quality standards require 95 percent to 
be Tier I HSDGs. Navy does access some NGYCP participants, but is 
limited by the academic quality standard. Absent modification to Tier I 
and Tier II HSDG standards, or increased academic performance on the 
part of NGYCP applicants, and applicants of similar programs, the NGYCP 
cannot increase the number of eligible recruits.
    Mr. Ginsberg and General Jones. The Air Force agrees that national 
and local level programs such as the NGYCP can be effective in 
generating potential recruits by providing a means to qualify otherwise 
disqualified youth. The NGYCP is a community-based program that leads, 
trains, and mentors at-risk youth so they may become productive 
citizens. Many of these at-risk youth have other disqualifying factors 
prohibiting them from serving in the Air Force.
    The Air Force has found it more cost effective to use our resources 
to generate awareness and interest for our programs by targeting youth 
still in school. The Air Force currently participates in various 
national-level sponsorships that focus on STEM and targets mechanically 
inclined youth, as well as the many local-level programs with 
involvement of our 27 squadrons and approximately 1,100 recruiters. The 
intent of our efforts is to educate youth and influencers on the high 
tech opportunities in the Air Force, and formulate a favorable 
impression of the Air Force as a viable and noble career option for 
youth.
    General Milstead. The Marine Corps does not utilize programs like 
the NGYCP for expanding eligible recruits. Our source for our quality 
applicant resides in the traditional high school market. Applicants 
from the high school market consistently have lower attrition, score 
higher in qualifying test scores for classification to military 
specialties, and have fewer moral issues compared to applicants with 
alternative education credentials.

                        WOMEN IN SERVICE REVIEW

    47. Senator Ayotte. General Milstead, from a Marine Corps 
perspective, can you provide an update on the Women in Service Review?
    General Milstead. We are on track to have the new policy fully 
implemented by the deadline of 1 January 2016. We are continuing to 
follow a two pillar approach as we implement our plan in a deliberate, 
measured, and responsible manner. The first pillar is the opening of 
closed MOSs; we are nearly complete with the full review and validation 
of all physical standards for MOS qualification. Throughout this summer 
and fall, we will be testing 800 male and female Marine volunteers on 
MOS physical tasks and looking for correlations to our Physical Fitness 
Test (PFT) and Combat Fitness Test event performance. Following this 
research, we plan to have a physical screening mechanism in place to 
aid in MOS classification by the end of this year.
    Our research at the Infantry Officer Course is ongoing. Over the 
last six months, four female lieutenants have volunteered for the 
course but none have completed it. An additional four lieutenants have 
volunteered for the course this July.
    The second pillar of our plan is the opening of closed units. This 
process was initiated in 2012 with the approved ``Exception to 
Policy.'' Currently, 48 female Marine officers and staff 
noncommissioned officers have been assigned to 19 previously closed 
battalions (Artillery, Amphibious Assault Vehicle, Tanks, Combat 
Assault, Combat Engineer, and Low Altitude Air Defense); continual 
assessment of this program will shape expansion to full integration by 
2016.

                                SUICIDES

    48. Senator Ayotte. Secretary Lamont, Secretary Garcia, Secretary 
Ginsberg, General Bromberg, Admiral Van Buskirk, General Milstead, and 
General Jones, in Secretary Lamont's prepared statement, he discussed 
the serious problem of suicide in the Army. He states that, ``The Army 
had 324 potential suicides during 2012--the highest annual total on 
record.'' New Hampshire's Deployment Cycle Support Care Coordination 
Program has received national recognition and has achieved tangible 
results on this front--not only in preventing suicide but also in 
assisting servicemembers and their families in the areas of mental 
health care, employment, and homelessness. In 2012, program care 
coordinators intervened successfully in 29 suicide risk situations. Are 
each of you aware of New Hampshire's Deployment Cycle Support Care 
Coordination Program?
    Mr. Lamont and General Bromberg. Yes, we are aware of the New 
Hampshire Deployment Cycle Support Care Coordination Program. The Army 
National Guard partners with the legislatively mandated Yellow Ribbon 
Reintegration Program, which helps National Guard and Reserve component 
servicemembers and their families nation-wide, connect with their local 
support community before, during, and after deployments. All National 
Guard and Reserve components hold events and activities to provide 
servicemembers and their families training, information on child and 
youth programs, available benefits, resources, and services. The 
National Guard mandates servicemembers to attend Yellow Ribbon events, 
and family members are strongly encouraged to attend.
    Mr. Garcia and Admiral Van Buskirk. Yes; the Department of the Navy 
is aware of New Hampshire's Deployment Cycle Support Care Coordination 
Program and the successes it has reported since its inception. Many of 
the core elements of this program are duplicated in the Navy 
initiatives and programs that support sailors, marines, and their 
families throughout the deployment cycle and transition to civilian 
life. The Navy applauds the National Guard for providing comprehensive 
protective initiatives that assist guardsmen with navigating stress. We 
continually review best practices of all Services and components to 
identify those that can be tailored to fit the needs of sailors, 
marines, and their families.
    Mr. Ginsberg and General Jones. We were not aware of New 
Hampshire's Deployment Cycle Support Care Coordination program. We 
appreciate being made aware of the program and our subject matter 
experts are reviewing it for potential application to the Air Force 
Suicide Prevention Program.
    General Milstead. The Marine Corps is aware of the New Hampshire 
Deployment Cycle Support Care Coordination Program. We are pleased that 
the program provides support to the National Guard members prior to, 
during, and post deployment.
    The Marine Corps' Community Counseling and Prevention Services 
provides similar programs such as Operational Stress Control and 
Readiness, Deployment Cycle Training, and Third Location Decompression 
events, which are intended to prevent, identify, and manage combat and 
operational stress-related issues and increase access to mental health 
care by breaking stigma, raising awareness, and providing education and 
resources to support marines. Combat and Operational Stress Control 
principles are embedded in training that reaches the total force 
supporting marines in theater, in garrison, and at home.
    Additionally, the Yellow Ribbon Reintegration Program (YRRP) has 
been incorporated into the Marine Corps overall Unit, Personal and 
Family Readiness Program. YRRP, which was developed for National Guard 
and Reserve servicemembers and their families, is one of the many tools 
available to our units to ensure our marines and family members are 
well equipped to deal with the many challenges facing them.

    49. Senator Ayotte. Secretary Lamont, Secretary Garcia, Secretary 
Ginsberg, General Bromberg, Admiral Van Buskirk, General Milstead, and 
General Jones, are each of your Services looking to the National Guard 
for best practices that can inform your Services' efforts going 
forward?
    Mr. Lamont and General Bromberg. Yes. Potential best practices 
provided by the National Guard are shared across the Total Force. 
Senior Army Leaders and Commanders also share potential best practices, 
lessons learned, and identify trends and themes implemented across the 
Army during monthly Vice Chief of Staff of the Army-led Suicide Senior 
Review Group meetings in an effort to help mitigate suicides and reduce 
risky behaviors. These lessons-learned and potential best practices are 
also posted on the Army G-1, Army Suicide Prevention website at: 
www.preventsuicide.army.mil.
    Mr. Garcia and Admiral Van Buskirk. Yes, the Department of the Navy 
collaborates with all the Services suicide prevention offices (SPO), 
including the National Guard, to identify the best practices and 
successes of individual programs. Collaboration is realized through 
group engagements with SPO representatives and the DOD Suicide 
Prevention and Risk Reduction Committee monthly meetings. Best 
practices are carefully considered for inclusion into Navy and Service 
initiatives to improve support to servicemembers and their families.
    Mr. Ginsberg and General Jones. The Air Force works collaboratively 
with the Guard and Reserve through the CAIB and the Integrated Delivery 
System (IDS) at each level of the Air Force (Headquarters Air Force, 
Major Command, and installation). CAIBs are cross-functional forums 
created to identify and resolve or elevate to the next appropriate 
level those community issues that impact readiness or affect the 
quality of life of Air Force members and their families. The IDS 
functions as the action arm of the CAIB and develops a comprehensive, 
coordinated plan for integrating and implementing community outreach, 
prevention, and resiliency programs, such as suicide prevention.
    Also, all components of the Air Force (Active Duty, Guard, and 
Reserve) are actively engaged with the Defense Suicide Prevention 
Office in helping shape suicide prevention efforts across DOD through 
the Suicide Prevention and Risk Reduction Committee, the General 
Officer Steering Committee on Suicide Prevention, and other working 
groups and committees. The Air Force also continues to collaborate with 
our sister Services to leverage the full extent of our internal 
resources, combining our experiences and best practices to improve our 
suicide prevention efforts across the force.
    General Milstead. The Marine Corps shares all of our resources, 
plans and findings with our sister Services, including the National 
Guard, through the Suicide Prevention and Risk Reduction Committee 
chaired by Defense Suicide Prevention Office. Additionally, we look to 
our sister Services and the National Guard for best practices to inform 
our prevention efforts. We regularly compare our initiatives to the 
best practices registry sponsored by the Department of Health and Human 
Services through the federally funded Suicide Prevention Resource 
Center.

    [Whereupon, at 11:13 a.m., the subcommittee adjourned.]

                                 <all>&

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
